              Fiscal Year 2002




DEPARTMENT   OF THE   NAVY
     Annual Financial Report
Department of the Navy
Annual Financial Report Fiscal Year 2002


      TABLE   OF   CONTENTS


      MESSAGE    FROM THE    SECRETARY    OF THE   NAVY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
      MESSAGE    FROM THE    ASSISTANT SECRETARY       OF THE   NAVY
      (FINANCIAL MANAGEMENT & COMPTROLLER) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
      MANAGEMENT’S DISCUSSION           AND   ANALYSIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7




      DEPARTMENT OF THE NAVY GENERAL FUND
      PRINCIPAL STATEMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35
      NOTES   TO THE   PRINCIPAL STATEMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47
      SUPPORTING CONSOLIDATING/COMBINING STATEMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . 101
      REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION . . . . . . . . . . . . . . . . . . . . . . . . . . 117
      REQUIRED SUPPLEMENTARY INFORMATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 127
      OTHER ACCOMPANYING INFORMATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 137




      NAVY WORKING CAPITAL FUND
      PRINCIPAL STATEMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 141
      NOTES   TO THE   PRINCIPAL STATEMENTS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 151
      SUPPORTING CONSOLIDATING/COMBINING STATEMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . 183
      REQUIRED SUPPLEMENTARY INFORMATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 211
      OTHER ACCOMPANYING INFORMATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 217


      AUDIT OPINIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 219




                                                                                                                               1
Message from the Secretary of the Navy

                                     THE SECRETARY       OF THE   NAVY
                                     WASHINGTON, D.C. 20350-1000



                                              January 2003


           Today’s Navy-Marine Corps Team remains the predominant maritime force in the world
      today. During this past year, our Sailors and Marines have advanced the long War on
      Terror. As we move forward, the Department of the Navy will continue to focus on fighting
      and winning the Nation’s wars while we transform for the future.

           The Fiscal Year (FY) 2002 DON Financial Statement also represents the continuation of
      the Department’s business transformation. These efforts, described in Naval Vision 21 as
      “Sea Enterprise,” will lead our Department to become an enterprise that is both effective and
      more efficient.

           We will pursue this transformation by improving our business practices and driving
      resources from the bureaucracy to our operating forces. The department’s top business
      priority will be to identify and increase resources available to grow and sustain the core
      combat capabilities that focus on our Naval Forces’ warfighting readiness and combat
      credibility.

           This FY 2002 Annual Report provides a means for Congress and the public to review
      and measure the effectiveness of the Department of the Navy’s financial responsibility. As
      we fight and win the first war of the 21st century, this report shows the Department’s
      commitment to our fiscal accountability. We want the citizens of this great Nation to be
      proud of the stewardship of their Navy.




                                                                  Gordon R. England




                                                                                                      3
Message from the Assistant Secretary of the Navy
(Financial Management & Comptroller)
                              THE ASSISTANT SECRETARY          OF THE    NAVY
                             (FINANCIAL MANAGEMENT AND COMPTROLLER)
                                        1000 NAVY PENTAGON
                                   WASHINGTON, D.C. 20350-1000


                                                January 2003



            I am pleased to submit the Department of the Navy’s (DON) Fiscal Year (FY) 2002
      Annual Financial Report. This report reflects the DON’s stewardship and financial
      accountability of resources that has become even more important as the Department moves
      into the 21st centur y.

           Presently, there are a myriad of systems and processes that initiate, record, summarize,
      control, and report financial transactions and events. The Department of Defense (DoD) and
      the DON are committed to becoming more efficient, working on ways to improve “how we
      do business” corporately rather than concentrating only on specific programs and systems.

           At the forefront of this effort is the DoD Financial Management Enterprise Architecture
      (FMEA) Initiative. The FMEA will not only provide a framework for conducting financial
      operations throughout the DoD, but will also address the standardization of data elements
      and transactions that are key to linking functional business processes and systems with
      financial management processes and systems.

            During FY 2002 the Department continued ongoing efforts to support the FMEA fully.
      Initiatives such as Enterprise Resource Planning, converting the accounting systems to the
      United States Standard General Ledger, and implementing the Navy Marine Corps Intranet
      will place the DON in an advantageous position to transition to the architecture developed
      by the FMEA team.

           All of these initiatives, as part of a DoD-wide solution, embody a transformation
      process that will ensure the DON is both effective and efficient as the Department is
      engaged in a Global War on Terrorism while maintaining the highest level of fiscal
      accountability.




                                                          Dionel M. Aviles




                                                                                                      5
 DEPARTMENT OF THE NAVY
MANAGEMENT’S DISCUSSION
           AND ANALYSIS




                          7
Management’s Discussion and Analysis
 DEPARTMENT OF THE NAV Y
 MANAGEMENT’S DISCUSSION AND
 ANALYSIS

 I n t ro d u c t i o n
       The Department of the Navy (DON) operates
 the most potent naval forces in the world today,
 and constantly strives to reinforce its supremacy.
 The Navy and Marine Corps provide highly skilled,
 operationally agile, combat-ready forces that
 enhance stability, deter conflict, and triumph over
 all threats in all environments.

       The 21st century promises to be a challenging    The Department of the Navy
 time for the DON. The international environment is           The U.S. Navy was founded on 13 October 1775
 constantly evolving, and it is imperative as the       and the U.S. Marine Corps on 10 November 1775.
 department strives to sustain its current and future   On 30 April 1798 DON was formally established.
 readiness that it continue to attract, train, and      The broad organizational structure of the DON today
 retain highly skilled and motivated people. Success    is shown in the figure below (for more detail see
 in this goal demands that Sailors and Marines be       http://www.chinfo.navy.mil/navpalib/organization/
 given a high-quality work environment and that         org-over.html).
 their families be afforded a decent standard of
 living. Operationally, the DON must realize a force          For the purposes of financial reporting, the DON
 that is fully transformed to meet the challenges       is organized into two reporting entities: the Navy
 ahead, that is aligned to all threats, and that is     Working Capital Fund (NWCF) and the General Fund
 capable of triumphing in all situations. The           (GF). Each fund supports the department's overall
 department's preparations must be comprehensive        mission, but where the GF receives direct
 and innovative to extract the maximum advantage        appropriations from Congress, the NWCF relies
 from its resources and to achieve the highest          principally on reimbursements from the GF and from
 possible rate of return on its investments. The        other sources.
 DON's organization, systems, and processes must
 be structured to deliver a combat-capable naval              General Fund operations are supported by
 force ready to stand in harm's way anytime and         multiple appropriations: Operations and Maintenance
 anywhere.                                              (O&M); Military Personnel; Procurement; Research,
                                                        Development, Test, and Evaluation; and Military
                                                        Construction and Family Housing. The NWCF
                                                        operates under the revolving fund concept, wherein
                                                        the fund's activities are reimbursed by their customers
                                                        for the full cost of goods and services provided. This
                                                        contractual customer-provider relationship serves the
                                                        interests of both the GF and the NWCF: it provides
                                                        the NWCF with the means to continue operations
                                                        and also provides a way of effectively controlling
                                                        costs; for the GF, it provides an effective and
                                                        flexible means of financing, budgeting, and
                                                        accounting for costs.


                                                                                                                  9
     THE DON MISSION                                       "The Marine Corps shall be
     The Department of Defense has                         organized, trained, and equipped
     developed a strategic framework                       to provide fleet marine forces of
     for the defense of the nation. This                   combined arms, together with
     framework is built around four                        supporting air components, for
     defense policy goals:                                 service with the fleet in the seizure
                                                           or defense of advanced naval
     • Assure allies and friends                           bases and for the conduct of such
                                                           land operations as may be essential
     • Dissuade future military competition                to the prosecution of a naval
     • Deter threats and coercion against
                                                           campaign.”
       U.S. interests                                                        (Section 5063, Title 10, U.S. Code)

     • Defeat any adversary if deterrence                       The Constitution of the United States empowers
                                                           Congress to "provide and maintain a Navy.” In
       fails
                                                           accordance with Title 10 of the U.S. Code,
                                                           Congress requires the Navy to be organized,
           The DON's purpose throughout history has        trained, and equipped to support both the singular
     been to serve the economic and political well being   and complementary missions of the Navy and
     of the United States and to help secure the           Marine Corps in the manner that, through achieving
     American way of life. The world's oceans can be       maritime superiority, most effectively serves U.S.
     barriers for defense, avenues for commerce, or a      national security strategy.
     base from which to project military power. The
     DON ensures America's ability to use the oceans, in         The Secretary of the Navy has identified four
     peace and in war, and is prepared to deny their use   interrelated strategic areas that are critical to the
     to our adversaries.                                   mission of the DON: combat capability, people,
                                                           advanced technology, and business practices.
     "The Navy shall be organized,
                                                           Combat capability
     trained, and equipped primarily for                         The U.S. National Military Strategy requires
     prompt and sustained combat                           that the nation's armed forces be prepared to and
     incident to operations at sea. It is                  be capable of shaping the international
                                                           environment and of responding to any and all
     responsible for the preparation of                    crises. The DON's battle force ships, aviation units,
     naval forces necessary for the                        and Marine forces provide the foundation tools for
     effective prosecution of war except                   the fulfillment of this strategy. World-wide, the
                                                           operational activities of the Navy and Marine Corps
     as otherwise assigned and, in                         include drug interdiction work, joint maneuvers,
     accordance with integrated joint                      multinational training exercises, humanitarian
     mobilization plans, for the                           assistance, and, when called upon, contingency
                                                           operations such as those currently being undertaken
     expansion of the peacetime                            in the Arabian Gulf, the Balkans, and in
     components of the Navy to meet the                    Afghanistan as part of Operation Enduring
     needs of war.”                                        Freedom. On any given day, nearly 47,000 DON
                                                           Sailors and Marines, on nearly 95 ships, are
                     (Section 5062, Title 10, U.S. Code)   deployed around the world.




10
Management’s Discussion and Analysis
  People                                                          Supplementing active personnel in FY 2002
         A fully trained and highly motivated force is      were approximately 87,958 Navy Reservists and
  the most important element in the DON's readiness         39,905 Marine Reservists. DON reservists are
  equation; consequently, personnel development and         highly trained units capable of augmenting and
  retention are among the department's most                 reinforcing the active forces. Effective integration of
  pressing challenges. To ensure the long-term              the reserve elements with the active component is
  effectiveness of its forces, the DON is committed to      critical to the continuing ability of the DON to fulfill
  a strategy that focuses on recruiting the right           its mission.
  people, retaining the right people, and reducing
  attrition.                                                      The DON also integrates civilian personnel at
                                                            all levels of the organization. Civilian end strength
        Military manpower overall is declining, due in      in FY 2002 was approximately 195,328.
  large part to the force restructuring that is being       Predominantly assigned ashore, especially in repair,
  undertaken to meet the changing demands of                design, and acquisition, the department's civilian
  warfighting. During FY 2002, however, the                 personnel provide the expertise and assure the
  increased requirement that the war on terror has          continuity of support that are essential to our
  introduced for skill-specific staffing in areas such as   operating forces.
  antiterrorism and force protection resulted in a rise
  in Navy personnel levels. The DON comprises more          Advanced technology
  than half a million men and women, as shown                     The effective application of advanced
  below.                                                    technology is at the core of America's military
                                                            dominance. The DON operates the most
                                                            technologically advanced naval force in the world,
                                                            but to preserve this advantage it is essential that the
                                                            department sustain its robust science and
                                                            technology programs. The DON's development
                                                            efforts currently are focused on connectivity, on
                                                            providing a common tactical picture, refining
                                                            sensor-to-shoot capabilities, and on sustaining
                                                            command and control warfare. This technology is
                                                            essential to the DON's commitment to realizing the
                                                            capability to deliver high-volume, precision strikes
                                                            in all weather and in all terrain, and to the
                                                            development of interoperational systems that enable
                                                            seamless joint operations.

                                                            Business practices
                                                                  The DON has been a leader in the innovative
                                                            adoption and adaptation of modern business
                                                            practices, and continues to pioneer in this area with
  "Caring for the safety and the                            a vision for the fullest possible integration of
  professional and personal well-                           advanced technology with proven best practices. By
  being of our people is inherent in                        increasing the efficiency with which it conducts its
                                                            business, the department will both increase its
  Navy values-it is indispensable to                        buying power and free up resources that then can
  mission accomplishment. We must                           be redirected into combat capability.
  retain our quality people.”
                              — The Navy Policy Book                                                                   11
     S u m m a ry of FY 2002 Operations                           In the war against terrorism, naval forces were
           In FY 2002 as in years past, the DON             the first to respond, first to fight, and first to secure
     operated extensively in representation of U.S.         U.S. interests. Demonstrating the decisiveness,
     interests. Forward-deployed forces continued to        responsiveness, agility, and sustainability that are
     reassure our allies and to deter our potential         key to naval services, it was carrier-based Navy
     enemies. In East Timor, the department also assisted   and Marine aircraft that undertook most of the early
     the humanitarian efforts of the United Nations         combat sorties of Operation Enduring Freedom,
     Transition Assistance.                                 and it was Tomahawk cruise missiles from DON
                                                            ships and submarines that attacked communications
                                                            and air defense sites. In the days that followed, the
     "Since Operation Enduring Freedom                      DON worked seamlessly with the other services to
     began, our men and women in                            sustain carrier strikes on sites that were further
     uniform have performed                                 inland than had ever before been attacked from the
                                                            sea. Submarines in the region provided tactical and
     magnificently in the struggle against                  persistent intelligence, surveillance, and
     world terrorism. Your valour, on the                   reconnaissance, and maritime patrol aircraft
     battlefield and off, at sea and in the                 provided reconnaissance and surveillance
                                                            capabilities in support of Special Operations Forces
     air, and at military installations                     and Marine units on the ground.
     across the world, inspire all those
     who cherish freedom.”                                        On the ground, it was Marines that provided
                                                            the first conventional ground force presence in
                               — Secretary of the Navy      Afghanistan, establishing a secure foothold in a
                         The Honorable Gordon England       hostile environment and assuring access for follow-
                                                            on forces. Navy Seabees improved runways,
                                                            enhanced conditions at forward operating bases far
           In the Mediterranean, Navy ships operated        inland, and established detainee camps.
     with friends and allies in more than 85 exercises.
     Marines of the Sixth Fleet Marine Expeditionary
     Units (MEUs) fulfilled a dual role by providing a
     presence ashore in Kosovo and by serving as the
     Joint Task Force Commander's ready reserve. In
                                                            CHARTING A NEW COURSE
     South America, Marines participated in riverine and
     small unit training.                                   "The major institutions of American
                                                            national security were designed in
           In Southwest Asia, U.S. naval forces
     maintained a continuous carrier presence
                                                            a different era to meet different
     throughout the year, conducting combat operations      requirements. All of them must be
     in support of Operation Southern Watch over Iraq.      transformed.”
     For the tenth consecutive year, surface combatants
     performed maritime interdiction operations in               — The National Security Strategy of the United
     support of UN economic sanctions against Iraq.                                          States of America
     Marines from the 15th and 22nd MEUs trained and
     exercised with friends and allies throughout
     Southwest Asia.




12
Management’s Discussion and Analysis
       On September 7, 2002,
 Secretary of the Navy Gordon
        England announced the
            naming of a planned
     amphibious transport dock
     ship, LPD-21, New York to
   honor the state, the city, and
   the victims of September 11.



        Terrorism and other emerging threats demand         Naval Transformation Roadmap
  that the Navy and Marine Corps transform                        The DON's transformation roadmap describes
  themselves for the challenges of the 21st century.        the concepts, capabilities, and processes that are
  The DON vision of transformation fundamentally            central to achieving transformation. It explains how
  requires the balancing of capabilities. This is true      naval forces will contribute to the joint warfighting
  whether the subject of transformation is ships,           capability of the future and what changes are being
  airplanes, weapons systems, or financial                  implemented to promote a culture of innovation.
  management technologies.                                  Innovation in particular will be required to support
                                                            the six critical operational goals of the U.S. military
        The National Security Strategy of the United        as defined in the 2001 Quadrennial Defense
  States reflects the union of American values and          Review (QDR).
  national interests. The aim of this strategy is to help
  make the world not just safer, but better. The goals             The 21st century will see unprecedented
  of the strategy are clear: political and economic         advances in the precision and operational reach of
  freedom, peaceful relations with other states, and        military operations, in connectivity, and in
  respect for human dignity. To achieve these goals,        information dissemination. These advances will
  the United States will:                                   produce and enable the exploitation of a dispersed
                                                            battlespace within which sovereign and sustainable
  • champion aspirations for human dignity and              naval, air, ground, and space elements will form a
    foster respect for human life world-wide                unified force capable of simultaneously projecting
  • strengthen alliances to defeat global terrorism         offensive power and maintaining defensive
    and work to prevent attacks against America             capability. They also will enable the DON to be
    and its friends                                         fully integrated into the larger joint force, where
  • work with others to defuse regional conflicts           through the application of state-of-the-art sensors,
  • prevent anyone from threatening America, its            networks, decision aids, weapons, and supporting
    allies, and its friends with weapons of mass            systems it will operate a single, comprehensive
    destruction                                             maritime network.
  • ignite a new era of global economic growth
    through free markets and free trade
  • expand the circle of development by opening
    societies and building the infrastructure of
    democracy
  • develop agendas for cooperative action with
    other main centers of global power
                                                                                                                      13
  • transform America's national security institutions
    to meet the challenges and opportunities of the
    21st century
     Operational Goals of the 2001 QDR                      • Continually transforming and improving.
                                                              Transform concepts, organizations, doctrine,
     • Protect critical bases of operations and defeat        technology, networks, sensors, platforms,
       chemical, biological, radiological, and nuclear        weapon systems, training, education, and the
       explosive weapons and their delivery                   approach to people.

     • Assure integrity of information systems in the
       face of attack and conduct effective information
                                                             The DON vision depends on
       operations                                            four fundamental qualities:
                                                             • Decisiveness
     • Project and sustain U.S. forces in distant anti-
       access or area denial environments and defeat         • Sustainability
       anti-access and area-denial threats
                                                             • Responsiveness
     • Deny enemies sanctuary by providing persistent        • Agility
       surveillance, tracking, and rapid engagement
       with high-volume precision strikes, through a
       combination of complementary air and ground          The DON will focus on seven areas:
       capabilities, against critical mobile and fixed
       targets at various ranges and in all weather         • People. The capabilities of the DON depend
       and over any terrain                                   first and foremost on its people. The DON's
                                                              people are its most important resource.
     • Enhance the capability and survivability of          • Homeland Security. The DON will address
       space systems and supporting infrastructure            threats to America's security and engage
                                                              potential adversaries.
     • Leverage information technology and innovative       • Projecting Power and Influence:
       concepts to develop an interoperable, joint            Winning at Sea and Beyond. The DON's
       C4ISR (command, control, communication,                capabilities enable its forces to move directly
       computer, intelligence, surveillance, and              from ship to operational objectives far inland.
       reconnaissance) architecture and capability that     • Future Naval Capabilities:
       includes the ability to produce a tailorable joint     Transformational by Design. Innovative
       operational picture                                    business processes and technologies support and
                                                              enable the realization of the DON's strategic
                                                              vision, revolutionary operational concepts, and
     Naval Power 21                                           agile, adaptive organization.
           The overarching mission of the DON is to         • Sea Enterprise: Capturing Business
     defend the United States, through actions                Efficiencies. The DON will optimize resources
     undertaken overseas and at home. Given this              at every level of the chain of command to
     mission, Naval Power 21 defines the future direction     become an enterprise that is both effective and
     for the U.S. Navy and Marine Corps: control the          efficient.
     seas, assure seaborne access to anywhere in the        • The Future: An Expanded Naval Force.
     world, project power beyond the sea, and influence       The DON's objective is the balanced joint force
     events and advance American interests using the full     mix that will provide the best warfighting
     spectrum of military operations. There are three         capability for the United States.
     core components to Naval Power 21:                     • Organizing the Force: A Naval
                                                              Operational Concept. By developing and
     • Assuring access. Assure seaborne access                continually revising the Naval Operational
       world-wide for military operations, diplomatic         Concept, the DON will identify the capability
       interaction, and humanitarian relief efforts.          packages vital to meeting the nation's needs for
     • Fighting and winning. Project power to                 a constantly transforming force.
       influence events at sea and ashore, both at home
       and overseas.


14
Management’s Discussion and Analysis
       The strategies of the Navy and Marine Corps          integrate these with existing systems to
 are individually defined in Seapower 21 and                amplify the effects of sea-based striking and
 Marine Corps Strategy 21. These documents                  further increase the Navy's ability to achieve
 describe the future of the DON as part of a joint          offensive operational success.
 force and describe capstone concepts that will focus
 efforts and resources within the DON on the same        ❍ Sea Shield. Sea Shield is a concept for
 goal.                                                     the enhancement of the Navy's ability to
                                                           defend the United States, the joint force, and
 Seapower 21                                               America's coalition partners. The concept
         Seapower 21 provides the strategic framework      requires that the Navy use its control of the
 that will guide the Navy into the 21st century. It        seas and its forward-deployed defensive
 emphasizes the needs for integrated                       capabilities and network intelligence to
 experimentation and innovation, continual                 defeat an enemy's area-denial strategy, thus
 personnel development, and the adoption of private        enabling and sustaining the joint force in its
 sector best practices to increase the efficiency with     projection of power. Sea Shield will extend
 which the Navy conducts its business. It will enable      homeland defense to the fullest extent
 the Navy's full integration with the other services       possible: perhaps the most dramatic
 into a platform from which future joint warfighting       advancement it prescribes is the ability of
 campaigns will be waged across sea, air, land,            naval forces to project precise, defensive
 space, and cyberspace. Seapower 21 takes as a             firepower, including ballistic and cruise
 priority assuring the future readiness of the Navy,       missiles, deep inland. The defensive
 and in particular the readiness and capability to         umbrella thus envisioned will both assure
 fulfill the Commander-in-Chief's direction to "take       friends and allies and protect the joint force.
 the fight to the enemy" in the war on terrorism.          Sea Shield, when fully realized, is projected

      Seapower 21 comprises three core
 operational concepts: Sea Strike, Sea Shield, and
 Sea Basing.

    ❍ Sea Strike. Sea Strike is a concept for the
      projection of dominant and decisive
      offensive power in the support of joint
      objectives. The concept highlights the four
      key areas of strategic agility, operational
      maneuverability, precise weapons
      employment, and the indefinite sustainment
      of naval forces. It also provides a strategy
      for the development of the multidimensional
      capabilities for power projection that the
      Navy will need in order to operate with new
      combinations of forces and from new
      platforms, such as the Expeditionary Strike
      Force.

        The DON will maintain the capability to
        project offensive power by traditional
        means, including missiles, guns, and special
        operations troops. As new systems such as
        unmanned aircraft and miniaturized                                                                   15
        munitions are perfected and as information
        technology advances, Sea Strike will
            through deterrence to have a stabilizing          interoperable, combined Marine air-ground task
            effect in the event of future crises but also     forces able to shape the international environment,
            will be a powerful tool on future battlefields.   to respond quickly across the complex spectrum of
            Sea Shield transformational capabilities          crises and conflicts, and to assure access or
            currently being pursued include Theater Air       prosecute forcible entry where and when required.
            and Missile Defense (TAMD), Littoral Sea          The underlying concepts of the strategy include:
            Control, and Homeland Defense.
                                                              • the development of Marines able to win
        ❍ Sea Basing. The concept of Sea Basing                 America's battles who exemplify American
          addresses the need to assure that the                 ideals in peacetime as well
          sovereign naval platforms of the joint force        • optimization of the operating forces and the
          have operational independence. The concept            support and sustainment base, and pursuit and
          envisions the use of advanced high-speed              optimization of the Marine Corps' unique
          vessels, long-range naval fire support                capabilities
          systems, and connectivity to provide                • sustainment of the enduring Navy—Marine
          sustainable global projection and protection          Corps relationship
          of American power from the high seas at the         • reinforcement of the Marine Corps' strategic
          operational level of war. It will leverage            partnership with the Army, Air Force, and U.S.
          emerging technologies and operational                 Special Operations Command
          concepts to provide unprecedented support           • contribution to the development of joint, allied,
          for the joint force, with the objective of            coalition, and interagency capabilities
          enabling the best possible staging for joint        • capitalization on innovation, experimentation,
          command and control over vast maneuver                and technology
          areas. Changes that will take place ashore,
          where increased agility and mobility will                 To advance these concepts, the Marine Corps
          result in fluid operation throughout the battle     has introduced the capstone concept of
          space and superior situational awareness,           Expeditionary Maneuver Warfare, which brings
          are equally important. In the event of              together the Marine Corps' core competencies,
          conflict, Sea Basing will enable tailored,          maneuver warfare philosophy, expeditionary
          agile forces to rapidly execute unpredictable       heritage, and sea basing with the integrating,
          campaign plans. On completion of their              operational, and functional concepts by which the
          mission these forces will be swiftly extracted      Marine Corps will organize, deploy, and employ
          to their sea base, where they will be               forces today and in the future.
          resupplied and reconstituted for further
          operations.                                         The President's Management
                                                              Agenda
           At the core of Seapower 21 is FORCEnet, the              The President's Management Agenda (PMA) is
     program through which the DON is pursuing the            a strategy for improving the management and
     reality of network-centric warfare. The goal of          performance of the federal government. Reflecting
     FORCEnet is the creation, through the development        the Administration's commitment to achieving
     of sensors that enable the full integration of           immediate, concrete, and measurable improvements
     command and control platforms, of a distributive         in federal management, the PMA provides five
     combat system that reaches all DON personnel.            government-wide initiatives to serve as a starting
                                                              point for reform.
     Marine Corps Strategy 21
            Marine Corps Strategy 21 describes the vision,          The next section focuses on the tenets outlined
     goals, and aims of the Corps as it seeks to enhance      in the PMA, and addresses what the DON is doing
     its strategic agility, operational reach, and tactical   to answer the President's call for reform.
     flexibility in support of joint, allied, and coalition
     operations. These capabilities are essential to the
     ability of the Marine Corps to provide scalable,



16
Management’s Discussion and Analysis
  The Five PMA Initiatives                              Financial Management Enterprise
                                                        Architecture
  • Improved financial performance                             Early in 2001, the Secretary of Defense
  • Budget and performance                              commissioned an independent study of DoD
                                                        financial management under the auspices of the
    integration                                         Institute for Defense Analysis. “Transforming the
  • Strategic management of human                       Department of Defense Financial Management: A
                                                        Strategy for Change,” was published in April 2001.
    capital                                             The study found that no single source was
  • Competitive sourcing                                addressing the key issues end to end, neither at a
                                                        strategic nor at a programmatic level. In short, DoD
  • Expanded electronic government                      lacked an overarching approach to financial
                                                        management. In response to the study, the
  I m p roved financial perf o r m a n c e              Secretary of Defense established the Defense
        It is critical that DON managers be furnished   Financial Management Modernization Program
  with accurate, comprehensive, and useful financial    Office (DFMMPO), and tasked it with developing a
  management information. It is only with this          blueprint for a DoD-wide financial management
  information that they are able to make the            architecture. FMEA, the Financial Management
  investment decisions and develop the operational      Enterprise Architecture, will be consistent with the
  strategies that most effectively use scarce budget    DoD Chief Information Officers’ Information
  resources. In accordance with the Department of       Technology Architecture.
  Defense (DoD) initiative of developing the DoD-
  wide Financial Management Enterprise                  The Vision
  Architecture, the DON therefore has adopted a
  comprehensive strategy of migratory systems           DoD will be managed in an efficient,
  enhancement and business process standardization.     businesslike manner in which
  Modernization of the DON financial systems and
  initiatives such as Enterprise Resource Planning      accurate, reliable, and timely
  pilots, U.S. Government Standard General Ledger       financial information, affirmed by
  implementation, and the Navy/Marine Corps
  Intranet are making progress and will significantly   clean audit opinions, is available on
  improve both the quality of information and the       a routine basis to support informed
  efficiency of DON business processes.
                                                        decision-making at all levels
                                                        throughout the department.


                                                        2002 marks the centennial year of
                                           the destroyer, one of the DON's
                                           great ship classes. Destroyers have
                                           transformed from single-mission
                                           platforms tasked with destroying
 torpedo boats to multimission-capable combatants tasked with an ever
 expanding range of operations. DON destroyers played an active role in
                                                                                                               17
 every major armed conflict of the past century. The heritage of destroyers
 responding to the call of duty continues today as our destroyers support
 Operation Enduring Freedom.
           The DON fully supports the DFMMPO's efforts,        Enterprise Resource Planning
     and with other stakeholders is participating in all             Enterprise Resource Planning (ERP) is a
     aspects of development of the enterprise                  business management system that through
     architecture. In October 2002 the DFMMPO                  integrating the different business processes of an
     released a draft "strawman" architecture that covers      enterprise, consolidating business systems, and
     the following overarching business process areas          consolidating data entry seeks to increase the
     from a systems, technical, and operational view:          efficiency of the enterprise. A DON Commercial
                                                               Business Practices working group identified ERP as
        • accounting                                           appropriate for the DON for its ability to:
        • logistics
        • property, plant, and equipment                       • provide decision-quality information to all levels
        • collection and accounts receivable                     of management
                                                               • improve efficiency and effectiveness through the
        • operations
                                                                 reengineering of business processes and the
        • financial management reporting                         delivery to managers of integrated information
        • procurement, payable, acquisition, and               • manage costs, thus enabling the reallocation of
          disbursing                                             resources to recapitalization and modernization
        • human resource management                            • enable compliance with statutory requirements
        • programming, budget, and funds control                 such as the Government Performance and
                                                                 Results Act (GPRA) and the Chief Financial
          The purpose of the strawman architecture is            Officers (CFO) Act
     to outline the principles behind the development of
     the architecture, to identify any necessary changes            The implementation of ERP solutions is helping
     in high-level business practice, and to address           move the DON toward CFO Act compliance by
     known deficiencies within each of the business            enabling the department to (1) meet federal
     process areas.                                            financial management regulations, accounting
                                                               standards, and requirements; (2) implement the U.S.
           The Department of Defense also is taking steps      Government Standard General Ledger (USSGL);
     to formulate a transition plan, with the                  and (3) provide 100 percent drill-down capability
     understanding that overhauling the department's           to source transaction events.
     business operations and financial management is a
     major challenge that extends far beyond the initial             The DON has initiated four pilot programs to
     step of developing an enterprise architecture.            determine the effectiveness of ERP solutions across a
     Successful implementation of the architecture will        broad range of business practices. Two of these
     require a robust plan that addresses and guides           pilots, CABRILLO and NEMAIS, were operational in
     change not only in technology but also in business        FY 2002, with notable success.
     operations, information standards, management
     practices, and cultural norms. Because of the variety           The CABRILLO pilot project, which is designed
     and complexity of the DoD business operations             to improve business operations, processes, and
     environment, the transition plan will provide guiding     support systems, was the first to be inaugurated.
     design principles rather than narrow definitions of        In July 2001, employees at the Space and Naval
     how systems and processes should operate - in             Warfare Systems Center in San Diego began using
     essence, it will serve as a high-level, comprehensive     the new system for tracking property, ordering
     master plan that permits local customization as each      supplies, establishing contracts, and preparing
     department moves from the "as is" to the "to be"          project reports and financial statements. The
     environment. As the transition effort progresses from     CABRILLO ERP solution replaces numerous legacy
     design to implementation, the DON anticipates that        systems and simplifies management by integrating
     its involvement in the effort and its coordination with   multiple mandated information systems and
     DoD will grow.                                            databases. It also has the benefit of providing
                                                               users with a single entry point to all financial
                                                               applications, information, and services.


18
Management’s Discussion and Analysis
        NEMAIS, or Navy Enterprise Maintenance           Financial standardization and
  Information System, is a pilot project designed to     reinvention
  standardize ship maintenance functions ashore.               The DON also is pursuing several other
  NEMAIS affords ships visibility of shoreside data      initiatives aimed at improving financial
  and enables connectivity to contractor systems for     performance. These include the following:
  new construction, thereby permitting the use of
  common processes for the entire ship maintenance       • Accounting standardization. The DON
  community. The project comprises four pilot phases:      Uniform General Ledger, based on the U.S.
  Ship Intermediate Maintenance Activities, Naval          Government Standard General Ledger, consists
  Shipyards, Supervisors of Shipbuilding (SUPSHIPS),       of the uniform Chart of Accounts (COA) and
  and Afloat Platforms. The Ship Intermediate              Standard Transaction Library (STL). Together the
  Maintenance Activities pilot went live in Norfolk in     COA and STL list the resources available and
  June 2002, and as of September was operating in          applied to meet the mission goals and program
  52 ships. The Naval Shipyard pilot is scheduled to       objectives of the DON. The COA is the common
  go live in October 2003, with the SUPSHIPS and           source of information that will enable the
  Afloat Platforms slated to go live in early 2004.        coordination of efforts to develop a standard
                                                           enterprise-wide information architecture. Where
        Two further Navy pilot programs were               the COA provides the standard framework for
  preparing to go live during FY 2002. Project             expressing business events in financial terms, the
  Sigma, the Navy's Program Management Pilot, was          STL defines the content and application of
  scheduled for launch on October 1, 2002 at               accounts within the COA. Within the existing, or
  NAVAIR Headquarters. A follow-up implementation          migratory, systems, the DON STL will provide the
  is scheduled for January 2003 at the Naval Air           tool needed to clarify the transaction posting
  Warfare Center Aircraft and Weapons Division.            logic, ensuring that common business events are
  Project Sigma is an enterprise solution that will        translated accurately into financial transactions
  replace many legacy systems and that will provide        for all DON activities and commands.
  NAVAIR and the Navy with a single point of data
  entry and real-time, accurate financial information.   • Report streamlining. In partnership with the
                                                           Defense Finance and Accounting Service (DFAS),
       The fourth pilot program is the System              the DON is examining a number of reporting
  Maintenance Aviation Reengineering Team                  problems and developing strategies to resolve
  (SMART) pilot, a joint venture between NAVSUP            them. The approach being taken is to change the
  and NAVAIR. Scheduled to go live on December 1,          emphasis from report design to the identification
  2002, the SMART pilot is designed to streamline          and definition of key management information.
  aviation maintenance and supply.                         The Marine Corps, for example, is implementing
                                                           a process to identify unnecessary, duplicative, or
        The DON and Under Secretary of Defense             excessive reporting requirements. Reports to be
  (Comptroller) (USD(C)) leadership will evaluate          eliminated will be identified through the Business
  each pilot on completion before moving forward           Industry Council (BIC), a group of private sector
  with full-scale implementation. In particular, the       professionals that is coordinating with DoD to
  DON is working closely with the USD(C) DFMMPO            leverage private sector best practices.
  team to ensure that the ERP strategy fully supports
  the FMEA direction and transition plans. The DON       • Accounts Payable Implementation
  also has established a Navy Enterprise                   Strategy. The DON has initiated the
  Convergence Team (NECT) to standardize                   development of an Accounts Payable
  configuration and processes across the pilot             Implementation Strategy to improve the
  programs, and ultimately to develop an ERP               recording and reporting of accounts payable.
  solution that eventually can be rolled out to other      The strategy addresses the overall DON
  DON activities.                                          approach to recording accounts payable,              19
                                                           including accounts payable from commercial
       and intragovernmental sources. Development of         DON will update its performance scorecard for
       the implementation strategy is in its final stages    each of the areas outlined in the President's
       and includes several recommendations for              Management Agenda.
       improvements. These address, for example, the
       timely recording of accounts payable
       transactions, the proper classification of accounts
                                                             S T R ATEGIC MANAGEMENT OF HUMAN
       payable between the government and the public,
       the identification of intragovernmental trading       CAPITAL
       partners and related transactions, and the                  The DON has experienced rapid downsizing
       support of end-of-period adjusting entries for        of almost 45 percent since 1989. Much of this
       undistributed disbursements and                       downsizing was accomplished through across-the-
       intragovernmental eliminations.                       board reductions and hiring freezes, rather than
                                                             through targeted reductions. As a result, the DON
                                                             faces an employment challenge that is common to
                                                             the federal government: the need to reshape the
     BUDGET AND PERFORMANCE                                  workforce to ensure that the right people, with the
     INTEGRATION                                             right skills, are in the right jobs, and that the
          The full and effective integration of budget and   department thus is optimally equipped to meet the
     performance data will require the use of                challenges of the future.
     performance metrics in managing and justifying
     program resources.                                           Given the speed of technological change, it is
                                                             essential that the DON recruit the best people
           Performance-based budgeting seeks to shift the    possible. The department is building on the
     focus of attention from detailed items of expense to    successes of Navy and Marine Corps commands in
     the allocation of resources based on program goals      identifying and expanding the use of best
     and measured results. As budgets decline and            recruitment practices to attract high-quality
     budgetary decision-making becomes more difficult,       individuals at entry and mid-career levels;
     performance-based budgeting will become                 specifically, better than anticipated manning in FY
     increasingly important, by providing a tool that        2002 helped reduce at-sea billet gaps and allowed
     enables the problem of duplicative programs to be       the DON to begin to fill new positions that have
     addressed, by supporting creation of a framework        been created in areas such as antiterrorism and
     that integrates and compares decisions that affect      force protection. The DON is also examining and
     related programs, and by offering an alternative to     using innovative workforce-shaping strategies to
     across-the-board reductions.                            ensure that its civilian workforce is able to meet its
                                                             responsibilities as an integral part of the total force.

                                                                   In addition, “the DON has undertaken a
     "In the long term, there are few                        number of initiatives to make its processes more
     items more urgent than ensuring                         sailor centered.” These include a Sailor Advocacy
     that the federal government is well                     Program that has expanded outreach to Sailors by
                                                             their personnel managers. Improved compensation
     run and results-oriented.”                              and better skill development programs also are
                            — President George W. Bush       being instituted as a means of shaping careers and
                                                             thus of helping the department meet its current and
           Improving programs by focusing on results is      future staffing requirements.
     an integral component of the DON's budget and
     performance integration initiative. The Office of            Professional development and training
     Management and Budget (OMB) accordingly has             programs are central to good personnel
     instituted Program Performance Assessments for the      management. The Navy has launched Task Force
     budget process that provide a rating system that is     EXCEL (Excellence through Commitment to
     consistent, objective, credible, and transparent. As    Education and Learning) to create a "Revolution in
     OMB solidifies its management requirements the          Training,” leveraging distance learning technologies


20
Management’s Discussion and Analysis
  and an improved information exchange network to          "The reinvention of government
  support a career-long training continuum. The
  Navy College Program and the Marine Corps
                                                           begins by focusing on core mission
  Lifelong Learning Program both support the career-       competencies and service
  long professional development of DON personnel;          requirements. Thus, the reinvention
  examples of programs that rely heavily on
  advanced distance learning systems include the
                                                           process must consider a wide
  Marine Corps' Satellite Education Network                range of options, including:
  (MCSEN) and the MarineNet Distance Learning
  Program.                                                 • the consolidation, restructuring,
                                                             or reengineering of activities;
        Professional growth of the DON's financial
  management workforce is supported by the
  Civilian Financial Management Career Program
                                                           • the adoption of better business
  Improvement (CFMCPI). The CFMCPI endorses a                management practices; and
  variety of training methodologies, including
  mentoring and organizational rotation assignments.       • the termination of obsolete
  The DON additionally aids its financial managers           services or programs.”
  in their pursuit of the Certified Government
                                                                                     — OMB Circular A-76
  Financial Manger (CGFM) and Certified Defense
  Financial Manager (CDFM) designations. The                Revised Supplemental Handbook, 27 March 1996
  CGFM and CDFM programs address a wide range
  of knowledge and skills, and are invaluable in
  helping the department's financial managers stay
  abreast of emerging practices and technologies.          E X PANDED ELECTRONIC GOVERNMENT
                                                                 The DON has implemented the eBusiness (eB)
                                                           initiative to shift its business transactions to follow
  COMPETITIVE SOURCING                                     commercial standards and practices. The initiative
        The DON's FY 2004 budget submission fully          centers on the interchange and processing of
  reflects the PMA initiative to use commercial            information via electronic techniques, but prior to
  business practices to improve operational                the uptake of those techniques DON business
  effectiveness and efficiency and to realize savings      process first must be reengineered and streamlined.
  for modernization and recapitalization. The              The eB Operations Office is the DON's innovation
  department's Strategic Sourcing program has              center for eB concepts. Its charter specifies two
  identified more than 100,000 civilian and military       main objectives:
  positions that will be reviewed for potential
  conversion to outsourcing.                               • serve as a catalyst for the creation, realization,
                                                             and integration of eB concepts via Pilot Projects,
        The cost comparisons completed to date have          and provide consulting and research services
  found that 80 percent of the positions reviewed            department-wide
  have remained in-house. Approximately 56,000             • centralize control of existing card-based
  positions remain under review. Current projections,        electronic transaction systems
  however, indicate that the outsourcing of those
  functions that thus far have been found appropriate
  for commercial sourcing are on target to realize
  budgeted annual net savings of $1.6 billion,
  beginning in FY 2005. These savings attest to the
  DON's commitment to institutionalize the Strategic
  Sourcing process to realize cost reductions and to                                                                 21
  reshape its infrastructure to suit the requirements of
  the 21st century.
     The Marine Corps’ “Managing for                          CONTROLS AND LEGAL
     Results” initiative will link resources                  COMPLIANCE
                                                                   To ensure that the DON's mission and
     consumed by DoD installation                             objectives are met, internal accounting and
     activities to performance outcomes,                      administrative controls are evaluated in accordance
                                                              with Office of Management and Budget (OMB) and
     customer demands, and work outputs                       DoD guidance.
     by using Activity-Based Costing and
                                                                   The objective of this evaluation is to provide
     Management tools. The Marine                             reasonable assurance that
     Corps will then identify and share
                                                              • obligations and costs are in compliance with
     best practices across the services.”                       applicable laws;
                                                              • funds, property, and other assets ar e
          The 22 pilot projects funded in FY 2002 have          safeguarded against waste, loss, unauthorized
     had far-reaching benefits. These include the               use, or misappropriation; and
     provision of on-demand access to combat system           • revenues and expenditures applicable to agency
     performance and readiness information; the                 operations are properly recorded and accounted
     automation of aviation depot maintenance condition         for to permit the preparation of reliable
     data; the paperless distribution of Planned                accounting, financial, and statistical reports and
     Maintenance System materials; and the creation of          to maintain accountability over the assets.
     the USMC Warfighter Portal, an Internet-based front
     end to the Marine Corps Combat Service Support                 The evaluation of management controls
     systems.                                                 extends to every responsibility and activity
                                                              undertaken by the DON and is applicable to
     S U M M A RY                                             financial, administrative, and operational controls.
          The DON is committed to simplifying the             Evaluation of DON systems was performed in
     acquisition process, streamlining the bureaucratic       accordance with the guidelines identified above.
     decision-making process, and promoting innovation        The results indicate that the system of internal
     through the use of electronic government, or             accounting and administrative control of the DON
     e-government, initiatives. To achieve these objectives   in effect during the fiscal year that ended 30
     and the goals set forth in the QDR, the National         September 2002, taken as a whole, complies with
     Security Strategy, the Annual Defense Report, and        the requirement to provide reasonable assurance
     the President's Management Agenda,                       that the above-mentioned objectives were achieved.
     transformation is necessary in operations as well as     (For additional details, refer to the FY 2002 DON
     in business practices. All DON leaders, uniformed        Statement of Assurance.)
     and civilian, are now thinking in terms of maximum
     productivity, minimum overhead, and measurable
     output. Every dollar the taxpayers entrust for the
     nation's defense needs must be spent wisely.

          The Department of the Navy operates the most
     potent naval forces in the world. Despite facing the
     challenges of recruiting and retaining the best
     people, maintaining adequate force structure,
     recapitalizing aging infrastructure, and fighting both
     symmetrical and asymmetrical threats, the DON is
     clear of purpose, focused on the future, and
     confident in its capabilities. By successfully meeting
     the challenges outlined here, it will remain ready to
     assure America's allies and friends, to deter its
     potential adversaries, and to defeat its enemies.

22
Department of the Navy
  DEPARTMENT OF THE NAVY GENERAL                                In addition to the PART, the 2001 Quadrennial
  FUND PERFORMANCE MEASUREMENT                             Defense Review (QDR) established a risk framework
  AND FINANCIAL ANALY S I S                                that will ensure the nation's military is properly
                                                           prepared to carry out the strategy. Within the
                                                           framework there are four tenets of risk
        The Department of the Navy (DON) operates
                                                           management:
  in multiple countries, at sea and ashore, in every
  time zone and every climactic region; the spotlight
  never leaves our emblem. With a charter to defend          •   force management;
  the nation and its interests at home and abroad, it is     •   operational risk;
  essential that every DON employee take an active           •   future challenges; and
  role in using resources wisely, ensuring success in        •   institutional risk.
  each endeavor. Improving programs by focusing on
  results is an integral component of the DON's                 Once these risk tenets have been fully
  transformation initiatives.                              assessed, the actions taken to mitigate potential
                                                           vulnerabilities will further enhance DON's ability to
  Budget and Perf o r m a n c e                            balance defense strategy, force structure, and
  Integration                                              resources.
        The President stated that his Administration is
  “dedicated to ensuring that the resources entrusted
  to the federal government are well managed and             Additional performance
  wisely used.” Improving programs by focusing on            information may be obtained
  results is an integral component of the DON's
  budget and performance integration initiative. As          from DON's FY 2004 and FY
  part of this government-wide initiative, the Office of     2005 Budget Submissions and
  Management and Budget (OMB) has instituted
  Program Performance Assessments for the budget             from the Department of Defense’s
  process, which identify programs that will be              Annual Performance Report
  measured in “getting to green.”

        A critical goal for future budget submissions is
  to improve the program rating process by making          PERFORMANCE MEASUREMENT
  ratings more consistent, objective, credible, and
  transparent. The report developed for use in the              The DON is continuing to use the performance
  rating of programs is called the Program                 metrics established in the FY 2001 QDR; it is
  Assessment Rating Tool (PART). The PART is a series      recognized that some metrics may change once
  of questions designed to provide a consistent            guidance has been finalized. For purposes of this
  approach to rating programs across the federal           annual financial report, one performance measure
  government. The PART is a diagnostic tool that           per goal was selected to demonstrate the type of
  relies on objective data to inform evidence-based        information that will be incorporated into the
  judgments and evaluate programs across a wide            revised standards for performance measurement.
  range of issues related to performance.                  Information derived from the FY 2004 DON Budget
                                                           Submission to the Secretary of Defense
  The initial draft PARTS from OMB
  include:
    •   Air combat
    •   Basic research
    •   Combined COM infrastructure                                                                                23
    •   Housing
    •   Shipbuilding
     Goal 1: Force management                                      For deployed forces, the DON met its goal of
           This goal measures the DON's ability to            54.0 underway days per quarter in FY 2002. The
     recruit, retain, train, and equip sufficient numbers     DON also met its goal of 28.0 underway days per
     of quality personnel and sustain the readiness of        quarter for non-deployed forces.
     the force while accomplishing operational tasks.
     Trained and adequately compensated manpower              Goal 3: Future challenges
     is the most important resource in our readiness               This goal measures the DON's ability to invest
     equation. America's naval forces are combat-             in new capabilities and develop new operational
     ready largely due to the dedication and motivation       concepts needed to dissuade or defeat mid to long-
     of our sailors, marines, and civilians. The              term military challenges.
     development and retention of quality people are
     vital to the DON's continued success and are             Ship Pro g r a m s
     among the Department's biggest challenges.                     The DON continues to address the requirement
     Meeting these challenges is essential to long-term       for the acquisition, modernization, and
     effectiveness, and the DON continues to focus on         recapitalization of the world's preeminent fleet.
     three fronts: recruiting the right people, retaining     Continuing to integrate emerging technologies, the
     the right people, and reducing attrition.                DON will ensure that tomorrow's fleet remains on
                                                              the cutting edge. This is manifested by development
     PERFORMANCE MEASURE                                      efforts for the CVN(X), DD(X), and Littoral Combat
                                                              Ship (LCS).
     Force Levels
          The DON met all force level goals in FY 2002        • CVN(X). The DON continues to support the
     as detailed below.                                         requirement for future carriers, specifically with
                                                                the development of the CVN(X). The CVN(X)
                                                                will be the future centerpiece of the battlegroup,
                                                                incorporating new electrical generation,
                                                                distribution, and radar systems.
                                                              • DD(X). The DD(X) is the centerpiece of the
                                                                transformational 21st century family of surface
                                                                combatants. DD(X) will be a multi-mission
                                                                surface combatant, providing offensive,
                                                                distributed, and precision firepower at long
                                                                ranges in support of forces ashore.
                                                              • LCS. The Littoral Combat Ship is envisioned to
                                                                be a fast, agile, stealthy, relatively small and
     Goal 2: Operational risk                                   affordable surface combatant capable of
          This goal measures the DON's ability to               operating in support of small boat prosecution,
     achieve military objectives in a near-term conflict or     mine counter measures, shallow water anti-
     other contingency.                                         submarine warfare, intelligence, surveillance,
                                                                and reconnaissance.
                                                              • Submarine programs. The DON has continued
     PERFORMANCE MEASURE                                        to modernize its existing submarine fleet with the
                                                                latest technology ensuring the viability of these
     Operational Tempo (OPTEMPO)                                critical ships, while, at the same time, continuing
           Deployed ship operations are budgeted to             to replace aging fast attack submarines with the
     maintain highly ready forces, perform the full             new Virginia class submarine.
     spectrum of military activities, and to meet forward
     deployed operational requirements and overseas
     presence commitments in support of the National
     Military Strategy.




24
Department of the Navy
  Goal 4: Institutional risk                            FY 2002/FY 2001 Asset Comparison
       This goal measures the DON's ability to
  develop management practices and controls that
  use resources efficiently to promote the effective
  operation of the Defense establishment.

       The DON continues to become more efficient,
  examining opportunities to improve the "way we do
  business.” Making the process more efficient leads
  to more effective results and to solutions that are
  affordable. Towards this end, the DON is
  establishing metrics to monitor critical functional
  areas that are vital to our success.

       Initiatives currently underway that are
  revolutionizing the way we do business include:

      •   Navy Marine Corps Intranet;
      •   Enterprise Resource Planning;
      •   Electronic Business;                                Asset composition remained relatively constant
      •   Strategic Sourcing; and                       between the FY 2002 and the FY 2001 Restated
      •   Risk Management.                              financial statements. Operating Material & Supplies
                                                        (OM&S) was significantly higher in the FY 2001
                                                        Consolidated financial statements due to the
  FINANCIAL ANALY S I S                                 inclusion of tactical missiles and torpedoes. Fund
                                                        Balance with Treasury, which represents funds
  FY 2002 Asset Composition                             available to the DON that are on deposit with the
                                                        U.S. Treasury, remained the largest component of
                                                        assets.

                                                              As the Federal Accounting Standards Advisory
                                                        Board (FASAB) exposure draft "Eliminating the
                                                        Category National Defense Property, Plant and
                                                        Equipment" is approved and implemented by the
                                                        DON, shifts in asset composition are anticipated.
                                                        As a whole, the DON expects to recognize
                                                        significant increases in Asset values as Military
                                                        Equipment, previously reported as Required
                                                        Supplementary Stewardship Information, is
                                                        capitalized.




                                                                                                               25
                                                             The Fund Balance with Treasury represents the
                                                        aggregate amount of funds for which DON is
                                                        authorized to make expenditures.
           OM&S consists of spares and repair parts,             General PP&E is made up of land, buildings,
     ammunition, and munitions. The 9.07% decrease         structures, utilities, software, equipment, assets
     between FY 2002 and FY 2001 Restated numbers          under capital lease, and construction-in-progress.
     is primarily attributable to:                         The 4.60% increase is the result of DON's ongoing
                                                           efforts to ensure total asset visibility.
     • A Department of Defense Inspector General
       (DoDIG) recommended audit adjustment to
       remove mobile facilities, aviation support
       equipment, and calibration standard material
       that was misclassified as OM&S in FY 2001;
       and
     • Implementation of the Office of the
       Undersecretary of Defense (Comptroller)
       (OUSD(C)) policy as stated in “Accounting for
       Excess, Unserviceable and Obsolete (EOU)
       Inventory and Operating Materials and                    The Other category noted above consists of
       Supplies.” DON's implementation resulted in         Accounts Receivable, Investments, Advances,
       items traditionally reported as EOU being           Prepayments, and Other Assets. The decrease of
       reclassified to the categories "held for use" and   5.21% is primarily attributable to fewer outstanding
       "held for repair".                                  contract financing payments.

          The 45.95% decrease between FY 2002 and
     FY 2001 Consolidated numbers is also impacted by
     a DoDIG recommendation to remove tactical
     missiles and torpedoes that were previously
     reported as ammunition and munitions in the FY
     2001 Consolidated statements.

           Going forward, the implementation of
     FASAB's exposure draft "Eliminating the Category
     National Defense Property, Plant and Equipment"
     will continue to impact OM&S values.




26
Department of the Navy




                                                                DON's Environmental Liabilities include the
                                                           Defense Environmental Restoration Program (DERP)
                                                           and environmental disposal for weapon systems.
                                                           During FY 2002, DON completed accreditation of
                                                           the Cost to Complete model for DERP reporting.




                                                                 Military Retirement Benefits and other
                                                           Employment-Related Actuarial Liabilities are
        FY 2002 liabilities increased by $531,007          associated with the Federal Employees
  thousand when compared to the 2001 Restated              Compensation Act (FECA). Data is derived from
  totals. This principle factor in the increase is Other   actuarial estimates provided by the Department of
  Liabilities. Overall, FY 2002 liabilities increased by   Labor. The liability is determined using a method
  $2,014,372 thousand when compared to the 2001            that utilizes historical benefit payment patterns to
  Consolidated totals.                                     predict future payments.




                                                                 Other Liabilities consists of Debt and Other
        DON's active pursuit of timely vendor              Liabilities. FY 2001 Consolidated and Restated
  payments is the primary driver in the decrease of        totals differ by $1,483,365 thousand. The
  Accounts Payable. It is important to note that           difference is attributed to the A-12 aircraft program
  DON's Accounts Payable balance is directly               Accounts Receivable balance. In FY 2002, the
  affected by the elimination process based upon           DON recorded an adjustment to reflect the fact that
  trading partner submissions. Current funding levels      any collections would be surrendered to Treasury.
  and the status of budget execution also affect                                                                   27
  Accounts Payable.
     O R G A N I Z ATION OF THE NAV Y                             This report also contains supporting
     WORKING CAPITAL FUND                                   Consolidating/Combining Statements representing
                                                            the financial position and results of operations for
           The Navy Working Capital Fund (NWCF) is          the NWCF reporting segments. The reporting
     comprised of five primary business areas, each of      segments include the Navy Component Level,
     which has a unique contribution to make in support     Ordnance, and the Information Services statements.
     of the DON mission. The five business areas are as     The financial information for these reporting
     follows:                                               segments reflects administrative rather than
                                                            functional performance:

                                                            • The Navy Component Level reporting segment is
                                                              a nonoperational administrative segment for the
                                                              purpose of capturing and reporting department-
                                                              level transactions and adjustments.

                                                            •   The Ordnance business area transferred to the
                                                                General Fund in FY 2000. The balances for this
                                                                group reflected in the FY 2002 Annual Financial
                                                                Statements represent residual accounting
                                                                transactions. Residual accounting is necessary
                                                                to ensure that the requirements initiated by the
                                                                NWCF are ultimately funded by the NWCF.

                                                            •   The Information Services business area was
                                                                dissolved at the end of FY 2001. The
                                                                operations of both the Fleet Material Support
                                                                Office (now called the Naval Systems
           Each business area is further supported by one       Information Systems Activity) and the Space and
     or more primary Activity Groups, which have                Naval Warfare Systems Command, Information
     distinct but complementary missions. Details of the        Technology Center that comprised this business
     mission, structure, and performance of the Activity        area were effectively merged beginning FY
     Groups and their associated activities are provided        2002 to the Supply Management-Navy business
     in subsequent sections of this report.                     area and SPAWAR’s General Fund. All residual
                                                                NWCF transactions were transferred to SSC
           The Activity Groups of the NWCF do not               Charleston, respectively. The related financial
     receive an annual appropriation, but receive their         activity in the Consolidating/Combining
     cost authority from customer orders. NWCF                  Statements reflects residual accounting events.
     activities accept these orders, perform work and/or
     deliver goods to their customers, and bill the         •   The statements and related notes are presented
     customers. The costs are initially incurred against        on a comparative basis with information
     the NWCF and the payments from customers                   previously reported for the fiscal year ending
     reimburse the respective NWCF activity. Pricing of         September 30, 2001. In accordance with
     the goods and services is based primarily on               SSFAS No. 21, the FY 2001 presentation has
     stabilized rates. This cycle is continuous, and the        been restated to show the correction of a
     NWCF is thus considered a revolving fund.                  material error discovered in FY 2002, and is
                                                                identified in the Financial Statement presentation
                                                                in the column titled “Restated 2001”. More
                                                                information about this prior period adjustment
                                                                may be found in Note 20.




28
Department of the Navy
  THE CUSTOMERS OF THE NWCF                                     PERFORMANCE MEASURES

        The Required Supplementary Information                  The Net Cost of Operations
  section of this report details the revenue earned by                The NWCF activities operate under the
  the NWCF from transactions with customers                     principle of controlling costs or expenses that are
  throughout the federal government. Analysis of                then offset by revenue, as opposed to a metric
  these transactions indicates that the Department of           based on obligating funds before they expire.
  the Navy General Fund provided the NWCF with                  Analysis of Earned Revenue, Program Cost, and the
  the largest dollar amount of work in FY 2002,                 Net Cost of Operations can thus provide an
  accounting for $17.7 billion of the total $20.9               indication of how well the NWCF is performing as
  billion earned. The chart below depicts the                   it seeks to break even over the long-term.
  customers of the NWCF:
                                                                      For nonsupply activities, the revenue earned in
                                                                the NWCF is based primarily on stabilized rates
                                                                that are calculated to cover the estimated costs of
                                                                products and services provided by the NWCF.
                                                                These rates also take into account any prior-year
                                                                gains or losses. Within the Supply Management
                                                                Activity Group, revenue is earned based on a cost
                                                                recovery factor assigned to inventory units.

                                                                      Under the Working Capital Fund concept, all
                                                                cost elements are visible, including direct costs,
                                                                indirect costs (overhead), and general and
                                                                administrative costs. These cost elements are tied to
                                                                a measurable, identifiable output.

                                                                Cash Management
                                                                     For the NWCF, cash management is
                                                                maintained at the DON level. The requirement for
                                                                the NWCF is to maintain seven to 10 days of
                                                                operating cash and six months of capital outlays.
                                                                For FY 2002, the seven-day cash requirement was
                                                                $782.6 million, and the 10-day cash requirement
                                                                was $1,043.1 million.




       The NWCF will continue to be a major
  support element for the operating forces of the
  Navy and Marine Corps with total cost of goods
  and services to be sold by the NWCF projected to
                                 1
  exceed $22 billion in FY 2003 and $23 billion in
          2
  FY 2004 .                                                                                                                29
  1   FY 2003 Highlights of the Department of the Navy Budget Submission to the Secretary of the Defense, February 2002.
  2   FY 2004 Highlights of the Department of the Navy Budget Submission to the Secretary of the Defense, August 2002.
          The NWCF Treasury cash balance as of
     September 30, 2002 was $1,709.7 million,
     compared to the President’s budget projection of
     $1,051.3 million. The Treasury cash balance
     exceeded budget projections primarily because of
     the additional workload and accompanying sales
     and revenue associated with Operation Enduring
     Freedom.


     MISSION, OPERATING RESULTS, AND
     PERFORMANCE BY BUSINESS AREA

     Depot Maintenance
           The mission of Depot Maintenance, in general,
     is to provide responsive worldwide maintenance,
     engineering, and logistics support to operational
     forces and to maintain the essential industrial
     capability to support mobilization. Because of the
     nature and diversity of the equipment within the
     DON, three activity groups specializing in ships,
     aviation, and the Marine Corps, respectively, carry
     out the mission. The type of support provided by
     the depot maintenance activities can include design,   Tr a n s p o rt a t i o n
     construction, overhaul, and repair on anything from         One NWCF Activity – the Military Sealift
     ship parts and aircraft engines to ground              Command (MSC) - comprises the transportation
     equipment.                                             business area.

                                                                 The mission of the MSC is to provide ocean
                                                            transportation of equipment, fuel, supplies and
                                                            ammunition to sustain U.S. forces worldwide during
                                                            peacetime and in war.

                                                                 The MSC has dual reporting responsibilities to
                                                            the DON and to the United States Transportation
                                                            Command (USTRANSCOM). As a working capital
                                                            fund, MSC supports three separate and distinct ship
                                                            programs:

                                                            • The Naval Fleet Auxiliary Force (NFAF) provides
                                                              support using civilian mariner manned
                                                              noncombatant ships for material support;
                                                            • Special Mission Ships (SMS) provides unique
        During a war, more than 95                            seagoing platforms; and,
        percent of all the equipment and                    • Afloat Pre-positioning Ships – Navy (APF-N)
                                                              provides deployment of advance material for
        supplies needed to sustain the U.S.                   strategic lifts.
        military are carried by sea.
                         — MSC Mission and Vision


30
Department of the Navy




  MSC ships are unique as compared to other US
  Navy ships in that:
  • they are non-combatant;
  • they include both government-owned and
    chartered vessels; and
  • they are crewed primarily by civilian mariners
    from the US Civil Service and from private
    operating companies.                                   Base Support
                                                                The Base Support business area provides the
                                                           support to maintain the land-based installations for
                                                           our globally deployed Navy and Marine Corps
                                                           through two primary activities: Naval Facilities
                                                           Engineering Service Center (NFESC) and Public
                                                           Works Centers (PWC).

                                                                The NFESC provides engineering, design,
                                                           construction, technology implementation, and
                                                           management support worldwide to shore, ocean,
                                                           and waterfront activities and to amphibious and
                                                           expeditionary operations. Responsibilities range
  P e rformance Indicators                                 from providing shore establishment physical security
        As one of the primary logistical support           to environmental waste management to energy
  mechanisms during war, it is critical that the MSC       conservation systems.
  meet its availability goals to support a Naval force
  that is armed and ready to react. MSC has a
  history of maintaining a more than 96% readiness
  in all vessel categories in the past three years. This
  measurement is based in “goal days”, which is the
  number of days for a ship to be available
  multiplied by the number of ships in the program.
  The availability measures the days the ships are
  actually available to perform the mission to which
  they are assigned against the planned number of
  available days.


                                                                                                                  31
          The mission of the PWCs is to provide the        Research & Development
     public works support and services to meet the
     diverse needs of their clients. The Navy PWCs
     provide utilities services, facilities maintenance,    Robust experimentation involving
     family housing services, transportation support,
     engineering services, and shore facilities planning    operational concepts, systems,
     support to afloat and ashore operating forces and      platforms, organizations, and
     other activities. In addition to providing base
     support to the Navy and Marine Corps, the PWC’s        tactics is essential to
     also provide support to other federal and              transforming and leveraging our
     nonfederal entities including the Coast Guard and
     the National Aeronautics and Space Administration.     current forces while speeding the
                                                            integration of new capabilities
                                                            and new technologies. We are
                                                            not waiting for the future. We
                                                            are transforming how we fight
                                                            today.

                                                                    — Report of the Secretary of the Navy
                                                                      Annual Defense Report given to the
                                                                            Congress for FY 2002 by the
                                                                                     Secretary of Defense


                                                                The Research & Development Activity Group
                                                           explores the application of twenty-first century
                                                           technology for the United States Naval forces
                                                           dedicated to projecting U.S. power and influence
                                                           from the sea, to shaping events ashore, and to
                                                           maintaining the freedom of the seas. The NWCF
                                                           Research & Development Activity Group is
                                                           supported by the Naval Warfare Centers and the
                                                           Naval Research Laborator y.

                                                                 The Naval Warfare Centers operate the Navy’s
                                                           full spectrum of research, development, test and
     P e rformance Indicators                              evaluation, engineering and fleet support to the
          As new programs are added to the NFESC           surface, undersea, and air combat forces, as well
     workload and the automation of manual processes       as the DON’s command, control and
     continues, the number of indirect workyears           communication network. Following is a brief
     required to support direct workyears has continued    description of each of the warfare centers
     to decline reflecting an overall increase in          leadership areas that effectively optimizes overall
     productivity.                                         coverage and support.

          Productivity Ratio:
             FY 2002 74.1%
             FY 2001 71.7%
             FY 2000 67.5%



32
Department of the Navy
    Naval Surface Warfare Center
    (NSWC) – The NSWC specializes in ship hull,
    mechanical, and electrical systems, surface ship
    combat systems, coastal warfare systems, and
    other offensive and defensive systems associated
    with surface warfare.
    Naval Undersea Warfare Center
    (NUWC) – The NUWC specializes in
    submarines, autonomous underwater systems,
    and offensive and defensive weapons systems
    associated with undersea warfare.                     Supply Management
                                                                The Supply Management business area is
    Naval Air Warfare Center (NAWC) –                     distinctly different from the other NWCF business
    The NAWC specializes in engines, avionics, and        areas previously discussed. Instead of recovering
    aircraft support systems, ship/shore/air              costs through stabilized rates, the Supply
    operations, weapons systems associated with air       Management business area recovers its cost through
    warfare, missiles, and missile subsystems, aircraft   a “cost recovery rate”. The cost recovery rate
    weapons integration, and airborne electronics         encompasses different elements of operating costs
    warfare systems. The center also operates the         that are then added to the acquisition cost of an
    department’s air, land, and sea test ranges.          item to establish a standard selling price. The two
                                                          activities that comprise the Supply Management
    Space and Naval Warfare Systems                       business area are Supply Management-Navy and
    Centers (SSCs) – The SSCs specialize in               Supply Management-Marine Corps.
    command, control, and communication systems
    and ocean surveillance, and the integration of
    those systems that overarch multiple platforms.

        The Naval Research Laboratory (NRL)
  is the DON’s principal R&D activity. It operates as
  a full-spectrum corporate laborator y, conducting a
  broadly based multidisciplinary program of
  scientific research and advanced technological
  development. Research and development is
  principally directed toward maritime applications
  of new and improved materials, techniques,
  equipment, systems and ocean, atmospheric, and
  space sciences and related technologies.




                                                                                                                33
                                                                The Naval Supply Information Systems Activity,
                                                           formally the Navy Fleet Material Support Office
                                                           within the Information Services business area, was
                                                           transferred beginning in FY 2002 to the Supply
          The Navy and Marine Corps Supply
                                                           Management – Navy activity. The FY 2001 Earned
     Management activities provide a means of
                                                           Revenue, Program Cost and Net Cost of Operations
     managing, controlling, financing and accounting for
                                                           have been adjusted to reflect this organizational
     the acquisition and sale of secondary spares,
                                                           change for comparative purposes.
     consumable and repair parts necessary to support
     weapon systems and associated equipment to a
     wide variety of DON activities and other
     government agencies.




34
Department of the Navy

                               GENERAL FUND
                         PRINCIPAL STATEMENTS




                                                35
     L I M I TATIONS OF THE FINANCIAL STAT E M E N T S

     The financial statements have been prepared to report the financial position and results of operations for the
     entity, pursuant to the requirements of the Title 31, United States Code, Section 3515(b).

     While the statements have been prepared from the books and records of the entity, in accordance with the
     formats prescribed by the Office of Management and Budget, the statements are in addition to the financial
     reports used to monitor and control budgetary resources which are prepared from the same books and
     records.

     To the extent possible, the financial statements have been prepared in accordance with federal accounting
     standards. At times, the Department is unable to implement all elements of the standards due to financial
     management systems limitations. The Department continues to implement system improvements to address
     these limitations. There are other instances when the Department’s application of the accounting standards is
     different from the auditor’s application of the standards. In those situations, the Department has reviewed
     the intent of the standard and applied it in a manner that management believes fulfills that intent.

     The statements should be read with the realization that they are for a component of the U.S. Government, a
     sovereign entity. One implication of this is that the liabilities cannot be liquidated without legislation that
     provides resources to do so.

     L I M I TATIONS CONCERNING REQUIRED SUPPLEMENTA RY STEWA R D S H I P
     I N F O R M ATION

     The Federal Accounting Standards Advisory Board (FASAB) revised the Statement of Federal Financial
     Accounting Standards (SFFAS) No. 6 to require the capitalization of military equipment (formerly National
     Defense Property, Plant and Equipment (ND PP&E)) for fiscal years 2003 and beyond and encouraged early
     implementation. Based on this, the Department terminated the reporting of quantities and condition of
     military equipment and will begin the process of capitalizing these assets on its Balance Sheet in FY 2002.




36
General Fund Principal Statements

  Principal Statements
  The FY 2002 Department of the Navy, General Fund Principal Financial Statements and related notes are
  presented in the format prescribed by the Department of Defense Financial Management Regulation
  7000.14, Volume 6B. The statements and related notes summarize financial information for individual funds
  and accounts within the General Fund for the fiscal year ending September 30, 2002.

  The following statements are included in the Department of the Navy, General Fund Principal Statements:

  •   Consolidated Balance Sheet
  •   Consolidated Statement of Net Cost
  •   Consolidated Statement of Changes in Net Position
  •   Combined Statement Budgetary Resources
  •   Combined Statement of Financing

  The Principal Statements and related notes have been prepared to report financial position pursuant to the
  requirements of the Chief Financial Officers Act of 1990, as amended by the Government Management
  Reform Act of 1994.

  The accompanying notes should be considered an integral part of the Principal Statements.




                                                                                                               37
     Department of Defense
     Department of the Navy
     C O N S O L I D ATED BALANCE SHEET
     As of September 30, 2002 and 2001
     ($ in thousands)

                                                                      2002        Restated 2001       2001
     ASSETS (Note 2)
       Intragovernmental:
           Fund Balance with Treasury (Note 3)                  $ 68,249,955      $ 66,338,979    $ 66,338,979
           Investments (Note 4)                                        9,625             9,517           9,517
           Accounts Receivable (Note 5)                              742,467         1,042,814       1,042,814
           Other Assets (Note 6)                                      67,081            47,170          47,170
           Total Intragovernmental Assets                         69,069,128        67,438,480      67,438,480

       Cash and Other Monetary Assets (Note 7)                        130,664           160,589         160,589
       Accounts Receivable (Note 5)                                 2,799,887         1,682,230       1,682,230
       Loans Receivable (Note 8)                                            0                 0               0
       Inventory and Related Property (Note 9)                     33,003,595        36,295,749      61,061,553
       General Property, Plant and Equipment (Note 10)             26,109,437        24,961,487      24,961,487
       Other Assets (Note 6)                                        4,780,462         6,056,832       6,056,832
     TOTAL ASSETS                                               $ 135,893,173     $ 136,595,367   $ 161,361,171

     LIABILITIES (Note 11)
        Intragovernmental:
            Accounts Payable (Note 12)                          $      748,279    $   1,002,282   $   1,002,282
            Debt (Note 13)                                                 127               61              61
            Environmental Liabilities (Note 14)                              0                0               0
            Other Liabilities (Note 15 & Note 16)                    3,489,503        2,549,550       1,066,185
            Total Intragovernmental Liabilities                      4,237,909        3,551,893       2,068,528

       Accounts Payable (Note 12)                                    1,510,329        2,075,026       2,075,026
       Military Retirement Benefits and Other Employment-
           Related Actuarial Liabilities (Note 17)                 1,546,375         1,595,890       1,595,890
       Environmental Liabilities (Note 14)                        15,469,073        15,584,458      15,584,458
       Loan Guarantee Liability (Note 8)                                   0                 0               0
       Other Liabilities (Note 15 and Note 16)                     4,185,487         3,610,899       3,610,899
     TOTAL LIABILITIES                                          $ 26,949,173      $ 26,418,166    $ 24,934,801

     NET POSITION
       Unexpended Appropriations (Note 18)                         64,774,328        63,535,842      61,982,518
       Cumulative Results of Operations                            44,169,672        46,641,359      74,443,852
     TOTAL NET POSITION                                         $ 108,944,000     $ 110,177,201   $ 136,426,370

     TOTAL LIABILITIES AND NET POSITION                         $ 135,893,173     $ 136,595,367   $ 161,361,171




     The accompanying notes are an integral part of these financial statements.

38
General Fund Principal Statements
 Department of Defense
 Department of the Navy
 C O N S O L I D ATED STATEMENT OF NET COST
 For the years ended September 30, 2002 and 2001
 ($ in thousands)
                                                                        2002             Restated 2001         2001
 Program Costs
    Intragovernmental Gross Costs                                  $ 29,911,090          $ 26,953,769      $ 26,953,769
    (Less: Intragovernmental Earned Revenue)                         (1,209,933)           (2,460,197)       (2,460,197)
    Intragovernmental Net Costs                                      28,701,157            24,493,572        24,493,572

    Gross Costs With the Public                                       75,636,019             72,044,614      72,044,614
    (Less: Earned Revenue From the Public)                            (1,721,649)            (1,229,404)     (1,229,404)
    Net Costs With the Public                                         73,914,370             70,815,210      70,815,210

    Total Net Cost                                     102,615,527                         95,308,782        95,308,782
 Costs Not Assigned to Programs                                  0                                  0                 0
 (Less: Earned Revenue Not Attributable to Programs)             0                                  0                 0
 Net Costs of Operations                             $ 102,615,527                       $ 95,308,782      $ 95,308,782




                                                                                                                           39



  The accompanying notes are an integral part of these financial statements. See notes 1 and 19.
     Department of Defense
     Department of the Navy
     C O N S O L I D ATED STATEMENT OF CHANGES IN NET POSITION
     For the years ended September 30, 2002 and 2001
     ($ in thousands)

                                                                           2002                 2002           Restated 2001
                                                                     Cumulative Results      Unexpended      Cumulative Results
                                                                       of Operations        Appropriations     of Operations
         Beginning Balances                                         $ 46,641,359          $ 63,535,842       $ 43,816,182
           Prior period adjustments (+/-)                                      0                     0          4,039,166
         Beginning Balances, as adjusted                            $ 46,641,359          $ 63,535,842       $ 47,855,348

         Budgetary Financing Sources:
           Appropriations Received                                                0           99,524,458                 0
           Appropriations transferred in/out (+/-)                                0            2,727,308                 0
           Other adjustments (recisions, etc) (+/-)                               0           (1,363,575)                0
           Appropriations used                                           99,612,675         (99,649,705)        93,245,566
           Nonexchange revenue                                                    0                    0                 0
           Donations and forfeitures of cash and cash equivalents                 0                    0                 0
           Transfers in/out without reimbursement (+/-)                           0                    0                 0
           Other budgetary financing sources (+/-)                                0                    0                 0

         Other Financing Sources:
            Donations and forfeitures of property                                 0                    0                 0
            Transfers in/out without reimbursement (+/-)                      5,871                    0           358,769
            Imputed financing from costs absorbed by others                 525,294                    0           490,458
            Other (+/-)                                                           0                    0                 0
         Total Financing Sources                                        100,143,840            1,238,486        94,094,793

         Net Cost of Operations (+/-)                                   102,615,527                      0      95,308,782

         Ending Balances                                            $    44,169,672       $ 64,774,328       $ 46,641,359




     The accompanying notes are an integral part of these financial statements. See notes 1 and 20.

40
General Fund Principal Statements
  Department of Defense
  Department of the Navy
  C O N S O L I D ATED STATEMENT OF CHANGES IN NET POSITION
  For the years ended September 30, 2002 and 2001
  ($ in thousands)

                                                                     Restated 2001            2001                 2001
                                                                      Unexpended        Cumulative Results      Unexpended
                                                                     Appropriations       of Operations        Appropriations
      Beginning Balances                                          $ 64,902,672          $ 43,816,182         $ 64,902,672
        Prior period adjustments (+/-)                               1,553,324            31,841,659                    0
      Beginning Balances, as adjusted                               66,455,996            75,657,841           64,902,672

      Budgetary Financing Sources:
        Appropriations Received                                       (2,920,154)                    0         (2,920,154)
        Appropriations transferred in/out (+/-)                                0                     0                   0
        Other adjustments (recisions, etc) (+/-)                               0                     0                   0
        Appropriations used                                                    0            93,245,566                   0
        Nonexchange revenue                                                    0                     0                   0
        Donations and forfeitures of cash and cash equivalents                 0                     0                   0
        Transfers in/out without reimbursement (+/-)                           0                     0                   0
        Other budgetary financing sources (+/-)                                0                     0                   0

      Other Financing Sources:
         Donations and forfeitures of property                                 0                     0                    0
         Transfers in/out without reimbursement (+/-)                          0               358,769                    0
         Imputed financing from costs absorbed by others                       0               490,458                   0
         Other (+/-)                                                           0                     0                    0
      Total Financing Sources                                         (2,920,154)           94,094,793          (2,920,154)

      Net Cost of Operations (+/-)                                                0         95,308,782                      0

      Ending Balances                                             $ 63,535,842          $ 74,443,852         $ 61,982,518




                                                                                                                                41



  The accompanying notes are an integral part of these financial statements. See notes 1 and 20.
     Department of Defense
     Department of the Navy
     COMBINED STATEMENT OF BUDGETA RY RESOURCES
     For the years ended September 30, 2002 and 2001
     ($ in thousands)
                                                                             2002            Restated 2001              2001
                                                                          Budgetary            Budgetary             Budgetary
     BUDGETARY RESOURCES                                              Financing Accounts   Financing Accounts    Financing Accounts
       Budget Authority:
          Appropriations Received                                   $ 99,561,202           $   94,848,409       $ 94,848,409
          Borrowing Authority                                                  0                        0                  0
          Contract Authority                                                   0                        0                  0
          Net transfers (+/-)                                          2,676,247                  387,346            387,346
          Other                                                                0                        0                  0
       Unobligated Balance:
          Beginning of period                                           13,835,827             13,624,084          13,624,084
          Net transfers, actual (+/-)                                       51,061                365,723             365,723
          Anticipated Transfers Balances                                         0                      0                   0
       Spending Authority from Offsetting Collections:
          Earned
            Collected                                                    6,489,963              4,878,546            4,878,546
            Receivable from Federal sources                              (263,453)                915,971              915,971
          Change in unfilled customer orders
            Advances received                                                1,286                  4,165               4,165
            Without advance from Federal sources                           186,518              (201,723)            (201,723)
          Anticipated for the rest of year, without advances                     0                      0                   0
          Transfers from trust funds                                             0                      0                   0
          Subtotal                                                       6,414,314             5,596,959            5,596,959
       Recoveries of prior year obligations                              2,286,834              3,277,598           3,277,598
       Temporarily not available pursuant to Public Law                          0                      0                   0
       Permanently not available                                       (1,399,956)            (1,773,918)          (1,773,918)
       Total Budgetary Resources                                    $ 123,425,529          $ 116,326,201        $ 116,326,201




     The accompanying notes are an integral part of these financial statements. See notes 1 and 21.

42
General Fund Principal Statements
  Department of Defense
  Department of the Navy
  COMBINED STATEMENT OF BUDGETA RY RESOURCES
  For the years ended September 30, 2002 and 2001
  ($ in thousands)
                                                                            2002            Restated 2001              2001
                                                                         Budgetary            Budgetary             Budgetary
      STATUS OF BUDGETARY RESOURCES                                  Financing Accounts   Financing Accounts    Financing Accounts
        Obligations Incurred:
            Direct                                                  $ 99,307,751          $ 95,682,240         $ 95,682,240
            Reimbursable                                              12,208,795             6,807,699            6,807,699
            Subtotal                                                 111,516,546           102,489,939          102,489,939
        Unobligated balance:
            Apportioned                                                 10,590,567          12,391,407           12,391,407
            Exempt from apportionment                                            0                   0                    0
            Other available                                                      0                   0                    0
        Unobligated Balances Not Available                               1,318,416           1,444,855            1,444,855
        Total, Status of Budgetary Resources                           123,425,529         116,326,201          116,326,201

      RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
        Obligated Balance, Net-beginning of period                  $ 52,333,850          $ 48,385,598         $ 48,385,598
        Obligated Balance transferred, net (+/-)                               0                     0                    0
        Obligated Balance, net-end of period:
             Accounts Receivable                                        (2,109,374)         (2,372,828)          (2,372,828)
             Unfilled customer order from Federal sources               (2,027,193)         (1,840,675)          (1,840,675)
             Undelivered Orders                                         55,633,755          50,942,279           50,942,279
             Accounts Payable                                             4,603,000           5,604,765            5,604,765
        Outlays:
            Disbursements                                            105,540,310            94,550,149           94,550,149
            Collections                                               (6,491,249)           (4,882,711)          (4,882,711)
            Subtotal                                                  99,049,061            89,667,438           89,667,438
        Less: Offsetting receipts                                       (213,345)                     0                    0
        Net Outlays                                                 $ 98,835,716          $ 89,667,438         $ 89,667,438




                                                                                                                                     43



  The accompanying notes are an integral part of these financial statements. See notes 1 and 21.
     Department of Defense
     Department of the Navy
     COMBINED STATEMENT OF FINANCING
     For the years ended September 30, 2002 and 2001
     ($ in thousands)

                                                                            2002                Restated 2001             2001
     Resources Used to Finance Activities:
     Budgetary Resources Obligated
        Obligations Incurred                                           $ 111,516,546        $ 102,489,939           $ 102,489,939
        Less: Spending Authority from offsetting collections and
          recoveries (-)                                                  (8,701,148)             (8,874,558)           (8,874,558)
        Obligations net of offsetting collections and recoveries         102,815,398              93,615,381            93,615,381
        Less: Offsetting receipts (-)                                       (213,345)                (22,039)              (22,039)
        Net obligations                                                  102,602,053              93,593,342            93,593,342
     Other Resources
        Donations and forfeitures of property                                      0                   0                       0
        Transfers in/out without reimbursement (+/-)                               0             353,201                 353,201
        Imputed financing from costs absorbed by others                      525,294             490,458                 490,458
        Other (+/-)                                                                0                   0                       0
        Net other resources used to finance activities                       525,294             843,659                 843,659
        Total resources used to finance activities                     $ 103,127,347        $ 94,437,001            $ 94,437,001

     Resources Used to Finance Items not Part of the
     Net Cost of Operations:
        Change in budgetary resources obligated for goods,
        services and benefits ordered but not yet provided
            Undelivered orders (-)                                     $ (10,676,267)       $       (142,028)       $    (142,028)
            Unfilled Customer Orders                                          187,805               (197,557)            (197,557)
        Resources that fund expenses recognized in prior periods            (620,162)                 (65,407)             (65,407)
        Budgetary offsetting collections and receipts that do not
        affect Net Cost of Operations                                              0                       0                    0
        Resources that finance the acquisition of assets                   7,487,846                (656,355)            (656,355)
        Other resources or adjustments to net obligated resources
        that do not affect Net Cost of Operations                                    0                          0                0
            Less: Trust or Special Fund receipts related to exchange
            in the entity's budget (-)                                              0                           0                0
            Other (+/-)                                                             0                           0                0
        Total resources used to finance items not part
        of the Net Cost of Operations                                     (3,620,778)             (1,061,347)           (1,061,347)
        Total resources used to finance the Net Cost of
        Operations                                                     $ 99,506,569         $ 93,375,654            $   93,375,654




      The accompanying notes are an integral part of these financial statements. See notes 1 and 22.

44
General Fund Principal Statements
  Department of Defense
  Department of the Navy
  COMBINED STATEMENT OF FINANCING
  For the years ended September 30, 2002 and 2001
  ($ in thousands)


  Components of the Net Cost of Operations that will
  not Require or Generate Resources in the Current                         2002              Restated 2001        2001
  Period:
  Components Requiring or Generating Resources in Future Periods:
     Increase in annual leave liability                             $      263,070       $             0     $           0
     Increase in environmental and disposal liability                      595,543                     0                 0
     Upward/Downward reestimates of credit subsidy expense                       0                     0                 0
     Increase in exchange revenue receivable from the public (-)                 0                     0                 0
     Other (+/-)                                                           117,595             1,186,410         1,186,410
     Total components of Net Cost of Operations that will require
     or generate resources in future periods                               976,208             1,186,410         1,186,410

  Components not Requiring or Generating Resources:
     Depreciation and amortization                                          916,360                714,583        714,583
     Revaluation of assets and liabilities (+/-)                        (1,684,366)                      0              0
     Other (+/-)                                                          2,900,756                 32,135         32,135
     Total components of Net Cost of Operations that will not
     require or generate resources                                  $    2,132,750       $         746,718   $    746,718
     Total components of Net Cost of Operations that
     will not require or generate resources in the
     current period                                                 $   3,108,958        $  1,933,128        $  1,933,128
     Net Cost of Operations                                         $ 102,615,527        $ 95,308,782        $ 95,308,782




                                                                                                                             45



  The accompanying notes are an integral part of these financial statements. See notes 1 and 22.
Department of the Navy

                               GENERAL FUND
      NOTES     TO THE   PRINCIPAL STATEMENTS




                                                47
     NOTE 1. SIGNIFICANT ACCOUNTING POLICIES

     A. Basis of Presentation.
     These financial statements have been prepared to report the financial position and results of operations of the
     Department of Navy (DON), as required by the “Chief Financial Officers (CFO) Act of 1990”, expanded by
     the “Government Management Reform Act (GMRA) of 1994”, and other appropriate legislation. The
     financial statements have been prepared from the books and records of DON in accordance with the
     “Department of Defense Financial Management Regulation” (DoD FMR), the Office of Management and
     Budget (OMB) Bulletin No. 01-09, “Form and Content of Agency Financial Statements,” and to the extent
     possible, Federal Generally Accepted Accounting Principles (GAAP). The accompanying financial statements
     account for all resources for which DON is responsible except that information relative to classified assets,
     programs, and operations has been excluded from the statement or otherwise aggregated and reported in
     such a manner that it is no longer classified. DON’s financial statements are in addition to the financial
     reports also prepared by DON pursuant to OMB directives that are used to monitor and control DON’s use
     of budgetary resources.

     DON is unable to fully implement all elements of Federal GAAP and the OMB Bulletin No. 01-09 due to
     limitations of its financial management processes and systems, including nonfinancial feeder systems and
     processes. Reported values and information for DON’s major asset and liability categories are derived
     largely from nonfinancial feeder systems, such as inventory systems and logistic systems. These systems were
     designed to support reporting requirements focusing on maintaining accountability over assets and reporting
     the status of federal appropriations rather than preparing financial statements in accordance with Federal
     GAAP. As a result, DON cannot currently implement every aspect of Federal GAAP and OMB Bulletin No.
     01-09. DON continues to implement process and system improvements addressing the limitation of its
     financial and nonfinancial feeder systems. A more detailed explanation of these financial statement elements
     is provided in the applicable footnote.

     B. Mission of the Reporting Entity.
     DON was created on 30 April 1798 by an act of Congress (I Stat. 533; 5 U.S.C. 411-12). The overall
     mission of DoD, as stated in the FY 2002 Annual Defense Report is to assure allies and friends, dissuade
     future military competition, deter threats and coercion against U.S. interests, and defeating adversaries if
     deterrence fails. Fiscal Year (FY) 2002 represents the seventh year that DON has prepared audited financial
     statements as required by the CFO Act and the GMRA.

     C. Appropriations and Funds.
     DON’s appropriations and funds are divided into the general, working capital (revolving funds), trust,
     special, and deposit funds. These appropriations and funds are used to fund and report how the resources
     have been used in the course of executing DON’s missions.

     •    General funds are used for financial transactions arising under Congressional appropriations, including
          personnel, operation and maintenance, research and development, procurement, and construction
          accounts.

     •    Revolving funds receive their initial working capital through an appropriation or a transfer of resources
          from existing appropriations or funds and use those capital resources to finance the initial cost of
          products and services. Financial resources to replenish the initial working capital and to permit
          continuing operations are generated by the acceptance of customer orders. The National Defense Sealift
          Fund is DON’s only revolving fund.

     •    Trust funds represent the receipt and expenditure of funds held in trust by the government for use in
          carrying out specific purposes or programs in accordance with the terms of the donor, trust agreement,
          or statute.


48
General Fund Notes to the Principal Statements

  •    Special funds account for receipts of the government that are earmarked for a specific purpose.

  •    Deposit funds generally are used to (1) hold assets for which DON is acting as an agent or a custodian
       or whose distribution awaits legal determination, or (2) account for unidentified remittances.

  The asset accounts used to prepare the statements are categorized as either entity or nonentity. Entity
  accounts consist of resources that the agency has the authority to use, or where management is legally
  obligated to use funds to meet entity obligations. Nonentity accounts are assets that are held by an entity
  but are not available for use in the operations of the entity.

  Entity Accounts:

  General Funds
  17X0380                Coastal Defense Augmentation, Navy
  17 0703                Family Housing, Navy and Marine Corps
  17X0810                Environmental Restoration, Navy
  17 1105                Military Personnel, Marine Corps
  17 1106                Operation and Maintenance, Marine Corps
  17 1107                Operation and Maintenance, Marine Corps Reserve
  17 1108                Reserve Personnel, Marine Corps
  17 1109                Procurement, Marine Corps
  17 1205                Military Construction, Navy
  17 1235                Military Construction, Naval Reserve
  17X1236                Payments to Kaho Olawe Island Conveyance, Remediation, and Environmental
                           Restoration Fund, Navy
  17   1319              Research, Development, Test, and Evaluation, Navy
  17   1405              Reserve Personnel, Navy
  17   1453              Military Personnel, Navy
  17   1506              Aircraft Procurement, Navy
  17   1507              Weapons Procurement, Navy
  17   1508              Procurement of Ammunition, Navy and Marine Corps
  17   1611              Shipbuilding and Conversion, Navy
  17   1804              Operation and Maintenance, Navy
  17   1806              Operation and Maintenance, Navy Reserve
  17   1810              Other Procurement, Navy

  Revolving funds
  17 4557                National Defense Sealift Fund, Navy

  Trust funds
  17X8423                Midshipmen Store, United States Naval Academy
  17X8716                Department of the Navy General Gift Fund
  17X8723                Ship Stores Profits, Navy
  17X8733                United States Naval Academy General Gift Fund

  Special funds
  17X5095                Wildlife Conservation, etc., Military Reservations, Navy
  17X5185                Kaho Olawe Island Conveyance, Remediation, and Environmental Restoration
                           Fund, Navy
                                                                                                                49
  17X5429                Rossmoor Liquidating Trust Settlement Account
     Non Entity Accounts:
     Special funds (Receipt Accounts)
     17 3041           Recoveries Under the Foreign Military Sales Program
     17 3210           General Fund Proprietary Receipts, Defense Military, Not Otherwise Classified

     Deposit funds
     17X6001               Proceeds of Sales of Lost, Abandoned, or Unclaimed Personal Property, Navy
     17X6002               Personal Funds of Deceased, Mentally Incompetent or Missing Personnel, Navy
     17X6025               Pay of the Navy, Deposit Fund
     17X6026               Pay of the Marine Corps
     17X6050               Employee Payroll Allotment Account (U.S. Bonds)
     17X6075               Withheld Allotment of Compensation for Payment of Employee Organization Dues,
                             Navy
     17X6083               Withheld Allotment of Compensation for Charitable Contributions, Navy
     17X6134               Amounts Withheld for Civilian Pay Allotments, Navy
     17X6275               Withheld State and Local Income Taxes
     17X6434               Servicemen’s Group Life Insurance Fund, Suspense, Navy
     17X6705               Civilian Employees Allotment Account, Navy
     17X6706               Commercial Communication Service, Navy
     17 6763               Gains and Deficiencies on Exchange Transactions, Navy (fiscal year)
     17X6850               Housing Rentals, Navy
     17X6875               Suspense, Navy
     17X6999               Accounts Payable, Check Issue Underdrafts, Navy


     D. Basis of Accounting.
     DON generally records transactions on a budgetary basis and not an accrual accounting basis as is
     required by Federal GAAP. For FY 2002, DON’s financial management systems are unable to meet all of
     the requirements for full accrual accounting. Many of DON’s financial and nonfinancial feeder systems and
     processes were designed and implemented prior to the issuance of Federal GAAP and, therefore, were not
     designed to collect and record financial information on the full accrual accounting basis as required by
     Federal GAAP. DON has undertaken efforts to determine the actions required to bring its financial and
     nonfinancial feeder systems and processes into compliance with all elements of Federal GAAP. One such
     action is the current revision of its accounting systems to record transactions based on the United States
     Government Standard General Ledger (USSGL). Until such time as all of DON’s financial and nonfinancial
     feeder systems and processes are updated to collect and report financial information as required by Federal
     GAAP, DON’s financial data will be based on budgetary transactions (obligations, disbursements, and
     collections), and transactions from nonfinancial feeder systems, adjusted for known accruals of major items
     such as payroll expenses, accounts payable, and environmental liabilities. However, when possible, the
     financial statements are presented on the accrual basis of accounting as required. One example of
     information presented on the budgetary basis is the data on the Statement on Net Cost. Much of this
     information is based on obligations and disbursements and may not always represent accrued costs.

     In addition, DON identifies programs based upon the major appropriation groups provided by Congress.
     DON is in the process of reviewing available data and attempting to develop a cost reporting methodology
     that balances the need for cost information required by the Statement of Federal Financial Accounting
     Standard (SFFAS) No. 4, “Managerial Cost Accounting Concepts and Standards for the Federal
     Government,” with the need to keep the financial statements from being overly voluminous.




50
General Fund Notes to the Principal Statements

  E. Revenues and Other Financing Sources.
  Financing sources for general funds are provided primarily through congressional appropriations that are
  received on both an annual and a multiyear basis. When authorized, these appropriations are
  supplemented by revenues generated by sales of goods or services through a reimbursable order process.
  DON recognizes revenue as a result of costs incurred or services performed on behalf of other federal
  agencies and the public. Revenue is recognized when earned under the reimbursable order process.

  F. Recognition of Expenses.
  For financial reporting purposes, DON policy requires the recognition of operating expenses in the period
  incurred. However, because DON’s financial and nonfinancial feeder systems were not designed to collect
  and record financial information on the full accrual accounting basis, accrual adjustments are made for
  major items such as payroll expenses, accounts payable, and environmental liabilities. Expenditures for
  capital and other long-term assets are not recognized as expenses in DON’s operations until depreciated in
  the case of Property, Plant and Equipment (PP&E) or consumed in the case of Operating Materials and
  Supplies (OM&S). Net increases or decreases in unexpended appropriations are recognized as a change in
  the net position. Certain expenses, such as annual and military leave earned but not taken, are financed in
  the period in which payment is made.

  Operating expenses were adjusted as a result of elimination of balances between DoD components. See
  Note 19.I, Intragovernmental Expenses and Revenue for disclosure of adjustment amounts.

  G. Accounting for Intragovernmental Activities.
  DON, as an agency of the federal government, interacts with and is dependent upon the financial activities
  of the federal government as a whole. Therefore, these financial statements do not reflect the results of all
  financial decisions applicable to DON as though the agency was a stand-alone entity.

  DON’s proportionate share of public debt and related expenses of the federal government are not included.
  Debt issued by the federal government and the related costs are not apportioned to federal agencies. DON’s
  financial statements, therefore, do not report any portion of the public debt or interest thereon, nor do the
  statements report the source of public financing whether from issuance of debt or tax revenues.

  Financing for the construction of DoD facilities is obtained through budget appropriations. To the extent this
  financing ultimately may have been obtained through the issuance of public debt, interest costs have not
  been capitalized since the Department of the Treasury does not allocate such interest costs to the benefiting
  agencies.

  DON’s civilian employees participate in the Civil Service Retirement System (CSRS) and the Federal
  Employees Retirement System (FERS), while military personnel are covered by the Military Retirement System
  (MRS). Additionally, employees and personnel covered by FERS and MRS also have varying coverage
  under Social Security. DON funds a portion of the civilian and military pensions. Reporting civilian pension
  under CSRS and FERS retirement systems is the responsibility of the Office of Personnel Management (OPM).
  DON recognizes an imputed expense for the portion of civilian employee pensions and other retirement
  benefits funded by the OPM in the Statement of Net Cost; and recognizes corresponding imputed revenue
  from the civilian employee pensions and other retirement benefits in the Statement of Changes in Net
  Position.

  DoD reports the assets, funded actuarial liability, and unfunded actuarial liability for the military personnel
  in the Military Retirement Fund (MRF) financial statements. DoD recognizes the actuarial liability for the
  military retirement health benefits in the Other Defense Organization General Fund column of the DoD
                                                                                                                    51
  Agency-wide consolidating/combining statements.
     To prepare reliable financial statements, transactions occurring between components or activities within DON
     must be eliminated. However, DON, as well as the rest of the federal government, cannot accurately identify
     all intragovernmental transactions by customer. The Defense Finance and Accounting Services (DFAS) is
     responsible for eliminating transactions between components or activities of DON. For FY 1999 and beyond
     seller entities within DoD provided summary seller-side balances for revenue, accounts receivable, and
     unearned revenue to the buyer-side internal DoD accounting offices. In most cases, the buyer-side records
     have been adjusted to recognize unrecorded costs and accounts payable. Intra-DoD intragovernmental
     balances were then eliminated.

     The Department of the Treasury, Financial Management Services (FMS) is responsible for eliminating
     transactions between DoD and other federal agencies. In September 2000, the FMS issued the “Federal
     Intragovernmental Transactions Accounting Policies and Procedures Guide.” DoD was not able to fully
     implement the policies and procedures in this guide related to reconciling intragovernmental assets, liabilities,
     revenues, and expenses for non-fiduciary transactions. DON, however, was able to implement the policies
     and procedures contained in the “Intragovernmental Fiduciary Transactions Accounting Guide” as updated
     by the “Federal Intragovernmental Transactions Accounting Policies and Procedures Guide,” for reconciling
     intragovernmental transactions pertaining to investments in federal securities, borrowings from the United
     States (U.S.) Treasury and the Federal Financing Bank, Federal Employees’ Compensation Act transactions
     with the Department of Labor (DOL), and benefit program transactions with the OPM.

     H. Transactions with Foreign Governments and International Organizations.
     Each year, the DoD Components sell defense articles and services to foreign governments and international
     organizations, primarily under the provisions of the “Arms Export Control Act of 1976.” Under the
     provisions of this Act, DoD has authority to sell defense articles and services to foreign countries and
     international organizations, generally at no profit or loss to the U.S. Government. Customers may be
     required to make payments in advance.

     I. Funds with the U.S. Treasury.
     DON’S financial resources are maintained in U.S. Treasury accounts. The majority of cash collections,
     disbursements, and adjustments are processed worldwide at the DFAS, Military Services, and the U. S. Army
     Corps of Engineers (USACE) disbursing stations, as well as the Department of State financial service centers.
     Each disbursing station prepares monthly reports, which provide information to the U.S. Treasury on check
     issues, electronic fund transfers, interagency transfers and deposits.

     In addition, the DFAS sites and the USACE Finance Center submit reports to the Department of the Treasury,
     by appropriation, on interagency transfers, collections received, and disbursements issued. The Department
     of the Treasury then records this information to the applicable Fund Balance with Treasury (FBWT) account
     maintained in the Treasury’s system. Differences between DON’s recorded balance in the FBWT accounts
     and Treasury’s FBWT accounts sometimes result and are subsequently reconciled. Material disclosures are
     provided at Note 3. Differences between accounting offices’ detail-level records and Treasury’s FBWT
     accounts are disclosed in Note 21.B, specifically, differences caused by in-transit disbursements and
     unmatched disbursements (which are not recorded in the accounting offices’ detail-level records).

     J. Foreign Currency.
     DON conducts a significant portion of its operations overseas. The Congress established a special account to
     handle the gains and losses from foreign currency transactions for five general fund appropriations
     (operation and maintenance, military personnel, military construction, family housing operations and
     maintenance, and family housing construction.) The gains and losses are computed as the variance between
     the exchange rate current at the date of payment and a budget rate established at the beginning of each
     fiscal year. Foreign currency fluctuations related to other appropriations require adjustment to the original
     obligation amount at the time of payment. These currency fluctuations are not separately identified.



52
General Fund Notes to the Principal Statements

  K. Accounts Receivable.
  As presented in the Balance Sheet statement, accounts receivable includes accounts, claims, and refunds
  receivable from other federal entities or from the public. Allowances for uncollectible accounts due from the
  public are based upon analysis of collection experience by fund type. DoD does not recognize an
  allowance for estimated uncollectible amounts from other federal agencies. Claims against other federal
  agencies are to be resolved between the agencies. Material disclosures are provided at Note 5.

  L. Loans Receivable.
  Not applicable.

  M. Inventories and Related Property.
  DON manages and reports Operating Materials & Supplies (OM&S) , which consists of spare and repair
  parts, and ammunition and munitions that are not held for sale. OM&S are reported in numerous systems
  using different valuation methodologies. Some systems utilize the standard price methodology while others
  use actual cost. DoD uses various methods because its logistics systems were designed for material
  management rather than accounting. The systems provide accountability and visibility over OM&S,
  however, they do not maintain the historical cost data necessary to comply with the SFFAS No. 3,
  “Accounting for Inventory and Related Property.” Neither can they directly produce financial transactions
  using the USSGL, as required by the Federal Financial Management Improvement Act of 1996 (P.L. 104-
  208).

  DoD uses the consumption method of accounting for OM&S, for the most part, expensing material when it is
  issued to the end user. Where current systems cannot fully support the consumption method, DoD uses the
  purchase method - that is, expensed when purchased. For FY 2002, DoD reported significant amounts
  using the purchase method either because the systems could not support the consumption method or because
  management deems that the item is in the hands of the end user.


  SFFAS No. 3 “Accounting For Inventory And Related Property” distinguishes between “OM&S held for use”
  and “OM&S held in reserve for future use.” There is no management or valuation difference between the
  two USSGL accounts. Further, the DoD manages only military or government-specific material under normal
  conditions. Items commonly used in and available from the commercial sector are not managed in the DoD
  material management activities. Operational cycles are irregular, and the military risks associated with
  stock-out positions have no commercial parallel. DON holds material based on military need and support
  for contingencies. Therefore, DON does not attempt to account separately for items held for “current” or
  “future” use.

  DoD implemented new policy in FY 2002 to account for condemned material (only) as “Excess, Obsolete,
  and Unserviceable.” The net value of condemned material is zero, because the costs of disposal are greater
  than the potential scrap value. Potentially redistributable material, presented in previous years as “Excess,
  Obsolete, and Unserviceable,” is included in “Held for Use” or “Held for Repair” categories according to its
  condition.

  In addition, past audit results identified uncertainties about the completeness and existence of quantities used
  to produce the reported values. Material disclosures related to inventory and related property are provided
  at Note 9.



                                                                                                                     53
     N. Investments in U.S. Treasury Securities.
     Investments in U.S. Treasury securities are reported at cost, net of unamortized premiums or discounts.
     Premium or discounts are amortized into interest income over the term of the investment using the effective
     interest rate method or other methods if similar results are obtained. DON’s intent is to hold investments to
     maturity; unless they are needed to finance claims or otherwise sustain operations. Consequently, a provision
     is not made for unrealized gains or losses on these securities. Material disclosures are provided at Note 4.

     O. General Property, Plant and Equipment.
     General PP&E, exclusive of Military Equipment, is capitalized at historical acquisition cost plus capitalized
     improvements when an asset has a useful life of two or more years, and when the acquisition cost equals or
     exceeds the DoD capitalization threshold of $100,000. Also, improvement costs over the DoD capitalization
     threshold of $100,000 for General PP&E, exclusive of Military Equipment, are required to be capitalized.
     All General PP&E, other than land and Military Equipment, is depreciated on a straight-line basis. Land is
     not depreciated. The cost of Military Equipment acquisition programs is depreciated on a composite or group
     basis over the estimated useful life of the items in the group. Group depreciation is where an average rate of
     depreciation is applied to a number of homogeneous assets, as characterized by similar characteristics and
     service lives. Composite depreciation is where an average or composite rate of depreciation is applied to a
     number of heterogeneous assets having dissimilar characteristics and service lives.

     In June 2002 the Federal Accounting Standards Advisory Board issued a standard entitled “Eliminating the
     Category National Defense Property, Plant, and Equipment (ND PP&E)”. In addition to eliminating the
     category ND PP&E, this standard rescinded SFFAS No. 11, “Amendment to Property, Plant, and Equipment –
     Definitional Changes”; amended SFFAS No. 8, “Supplementary Stewardship Reporting”; and amended
     SFFAS No. 6, “Accounting for Property, Plant, and Equipment”. This standard is effective for years ending
     after September 30, 2002. The standard is currently sitting before Congress for a 45-day period in
     accordance with provisions of the CFO Act of 1990.

     Prior standards provided for the expensing of ND PP&E when costs were incurred and the reporting of such
     costs as supplementary stewardship information. In addition, prior standards provided for reporting of ND
     PP&E condition and defer red maintenance information. DoD has not reported the cost of ND PP&E in
     accordance with prior standards due to an absence of detailed cost information for property acquired over
     many decades.

     The standard on eliminating the category of ND PP&E provides for the capitalization of property previously
     defined as ND PP&E and the reporting of such property as General PP&E. In recognition of the absence of
     detailed historical cost information, this standard provides that “If obtaining initial historical cost is not
     practical, estimated historical cost may be used. Other information such as but not limited to budget,
     appropriation, or engineering documents and other reports reflecting amounts expended may be used as the
     basis for estimating historical cost.” The standard acknowledges that imprecision may result from the use of
     estimates or other information.

     DON is implementing this standard through a “phased” approach. Capitalization of property previously
     defined as ND PP&E will take several years because of the extensive research needed to develop cost
     estimates for the extensive property inventory. Therefore, DON cannot fully implement the standard on its
     effective date.

     The first “phase” consists of reporting values for one pilot program, the DDG 51 Arleigh Burke Class
     destroyer, in the fiscal year 2002 is disclosed in Note 10 to the financial statements. Each year as DON
     completes the valuation of additional programs, it will disclose the values of these programs in the notes. The
     estimated cost of this program is based on budget, appropriation, or engineering documents and other
     reports reflecting amounts expended.



54
General Fund Notes to the Principal Statements

  When it is in the best interest of the government, DON provides to contractors government property
  necessary to complete contract work. Such property is either owned or leased by DON, or purchased
  directly by the contractor for the government based on contract terms. When the value of contractor
  procured General PP&E exceeds the DoD capitalization threshold, such PP&E is required to be included in
  the value of General PP&E reported on DON’s Balance Sheet. DoD completed a study that indicates that the
  value of General PP&E above the DoD capitalization threshold and not older than the DoD Standard
  Recovery Periods for depreciation, and that is presently in the possession of contractors, is not material to
  DoD’s financial statements. Regardless, DoD is developing new policies and a contractor reporting process
  that will provide appropriate General PP&E information for future financial statement reporting purposes.
  Accordingly, DON currently reports only government property in the possession of contractors that is
  maintained in DON’S property systems.

  To bring DON into fuller compliance with federal accounting standards, DoD has issued new property
  accountability and reporting regulations that require the DoD Components to maintain, in DoD Component
  property systems, information on all property furnished to contractors. This action and other DoD proposed
  actions are structured to capture and report the information necessary for compliance with federal
  accounting standards. Material disclosures are provided at Note 10.

  DON is participating in the Office of the Secretary of Defense (OSD) working group that is currently
  examining issues related to Internal Use Software. As of the date these statements were prepared, OSD had
  not determined the final reporting requirements for Internal Use Software. To ensure that the costs
  associated with Internal Use Software are correctly recognized and reported, DON will use its personal
  property system to capture this information once OSD adopts permanent reporting requirements.

  P. Advances and Prepayments.
  Payments in advance of the receipt of goods and services are recorded as advances or prepayments and
  reported as an asset on the Balance Sheet. Advances and prepayments are recognized as expenditures and
  expenses when the related goods and services are received.

  Q. Leases.
  Generally, lease payments are for the rental of equipment and operating facilities and are classified as either
  capital or operating leases. When a lease is essentially equivalent to an installment purchase of property (a
  capital lease) and the value equals or exceeds the current DoD capitalization threshold, the applicable asset
  and liability are recorded. The amount recorded is the lesser of the present value of the rental and other
  lease payments during the lease term, excluding that portion of the payments representing executory costs
  paid to the lessor, or the assets fair value. Leases that do not transfer substantially all of the benefits or risks
  of ownership are classified as operating leases and recorded as expenses as payments are made over the
  lease term.




                                                                                                                         55
     R. Other Assets.
     DON conducts business with commercial contractors under two primary types of contracts: fixed price and
     cost reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can
     cause, DON provides financing payments. One type of financing payment that DON makes, for real
     property, is based upon a percentage of completion. In accordance with the SFFAS No. 1, “Accounting for
     Selected Assets and Liabilities,” such payments are treated as construction in process and are reported on the
     General PP&E line and in Note 10, General PP&E, Net. In addition, based on the provision of the Federal
     Acquisition Regulation (FAR), DON makes financing payments under fixed price contracts that are not based
     on a percentage of completion. DON reports these payments as advances or prepayments in the “Other
     Assets” line item. DON treats these payments as advances or prepayment because DON becomes liable only
     after the contractor delivers the goods in conformance with the contract terms. If the contractor does not
     deliver a satisfactory product, DON is not obligated to reimburse the contractor for its costs and the
     contractor is liable to repay DON for the full amount of the advance. DoD has completed a review of all
     applicable federal accounting standards; applicable public laws on contract financing; FAR Parts 32, 49,
     and 52; and the OMB guidance in 5 Code of Federal Regulations Part 1315, “Prompt Payment.” DON has
     concluded that SFFAS No. 1 does not fully or adequately address the subject of progress payment accounting
     and is considering what further action is appropriate.

     S. Contingencies and Other Liabilities.
     The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” defines a contingency as an
     existing condition, situation, or set of circumstances that involves an uncertainty as to possible gain or loss to
     DON. The uncertainty will be resolved when one or more future events occur or fail to occur. A contingency
     is recognized as a liability when a past event or exchange transaction has occurred, a future loss is probable
     and the amount of loss can be reasonably estimated. Financial statement reporting is limited to disclosure
     when conditions for liability recognition do not exist but there is at least a reasonable possibility that a loss or
     additional loss will be incurred. Examples of loss contingencies include the collectibility of receivables,
     pending or threatened litigation, possible claims and assessments. DON’s loss contingencies arising as a
     result of pending or threatened litigation or claims and assessments occur due to events such as aircraft, ship
     and vehicle accidents, medical malpractice, property or environmental damages, and contract disputes.

     Other liabilities arise as a result of anticipated disposal costs for DON’s assets. This type of liability has two
     components: nonenvironmental and environmental. Recognition of an anticipated environmental disposal
     liability commences when the asset is placed into service, consistent with SFFAS No. 6, “Accounting for
     Property, Plant, and Equipment.” Based upon DON’s policies and consistent with SFFAS No.5 “Accounting
     for Liabilities of Federal Government,” a nonenvironmental disposal liability is recognized for an asset when
     management makes a decision to dispose of the asset. DoD has agreed to the recognition of
     nonenvironmental disposal liability for nuclear powered assets when the asset is placed in service. Such
     amounts are developed in conjunction with and not easily identifiable separately from environmental disposal
     costs. Material disclosures are provided at Notes 14 and 15.

     T. Accrued Leave.
     Civilian annual leave and military leave that has been accrued and not used as of the balance sheet date are
     reported as liabilities. The liability reported at the end of the fiscal year reflects the current pay rates.




56
General Fund Notes to the Principal Statements

  U. Net Position.
  Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended
  appropriations represent amounts of authority which are unobligated and have not been rescinded or
  withdrawn, and amounts obligated but for which legal liabilities for payments have not been incurred.

  Cumulative results of operations represent the balances that result from subtracting expenses and losses from
  financing sources including appropriations, revenue, and gains since the inception of the activity. Beginning
  with FY 1998, this included the cumulative amount of donations and transfers of assets in and out without
  reimbursement.

  V. Treaties for Use of Foreign Bases.
  The DoD Components have the use of land, buildings, and other facilities, which are located overseas and
  have been obtained through various international treaties and agreements negotiated by the Department of
  State. The DoD capital assets overseas are purchased with appropriated funds; however, title to land and
  improvements are retained by the host country. Generally, treaty terms allow the DoD Components
  continued use of these properties until the treaties expire. These fixed assets are subject to loss in the event
  treaties are not renewed or other agreements are not reached which allow for the continued use by DoD.
  Therefore, in the event treaties or other agreements are terminated whereby use of the foreign bases is no
  longer allowed, losses will be recorded for the value of any non-retrievable capital assets after negotiations
  between the U.S. and the host country have been concluded to determine the amount to be paid the U.S. for
  such capital investments.

  W. Comparative Data.
  In FY 2002, DON modified the financial statement presentation for the Statements of Net Cost, Changes in
  Net Position, and Financing. As a result, DON’s statements during this reporting period may not always
  lend themselves to comparative analysis. In some instances, amounts on the statements were reported on
  one financial line in FY 2001 and split into multiple financial lines for FY 2002, in accordance with OMB’s
  guidance.

  X. Unexpended Obligations.
  DON records obligations for goods and services that have been ordered but not yet received. No liability
  for payment has been established in the financial statements because goods or services have yet to be
  delivered.

  Y. Data Collection Approach.
  DON financial statements include information from both financial systems and non-financial feeder systems.
  The Defense Finance Accounting Service Cleveland Center (DFAS-CL) collects the financial system
  information and incorporates it into the financial statements. DON collects financial information from non-
  financial feeder systems through a data call process and submits it to DFAS-CL for incorporation into the
  financial statements. For FY 2002, DON utilized a web-based data collection instrument (DCI) that captures
  all required financial information from non-financial feeder systems for both the General Fund (GF)
  statements and Required Supplementary Stewardship Information (RSSI). This is the fourth year DON has
  used the DCI to collect non-financial feeder information. The DCI identifies the information requirements to
  the source provider, provides an audit trail, and integrates into the DFAS-CL financial statement preparation
  process.




                                                                                                                     57
     NOTE 2. NONENTITY AND ENTITY ASSETS
     As of September 30,
     (Amounts in thousands)                                              2002                             2001
                                                      Nonentity          Entity          Total
     1. Intra-governmental Assets:
        A.Fund Balance with Treasury              $     250,075     $ 67,999,880    $ 68,249,955      $ 66,338,979
        B. Investments                                        0            9,625           9,625             9,517
        C. Accounts Receivable                                0          742,467         742,467         1,042,814
        D.Other Assets                                        0           67,081          67,081            47,170
        E. Total Intra-governmental Assets        $     250,075     $ 68,819,053    $ 69,069,128      $ 67,438,480

     2. Non-Federal Assets:
       A. Cash and Other Monetary Assets          $     130,664     $          0    $    130,664      $    160,589
       B. Accounts Receivable                         2,460,546          339,341       2,799,887         1,682,230
       C. Loans Receivable                                    0                0               0                 0
       D.Inventory & Related Property                         0       33,003,595      33,003,595        61,061,553
       E. General Property, Plant and Equipment               0       26,109,437      26,109,437        24,961,487
       F. Other Assets                                        0        4,780,462       4,780,462         6,056,832
       G. Total Non-Federal Assets                $   2,591,210     $ 64,232,835    $ 66,824,045      $ 93,922,691

     3. Total Assets:                             $   2,841,285     $ 133,051,888   $ 135,893,173     $ 161,361,171


     4. Other Information Related to Nonentity and Entity Assets.

     Assets are categorized as:
     Entity assets consist of resources that DON has the authority to use, or where management is legally
     obligated to use funds to meet entity obligations. Nonentity assets are assets held by an entity, but are not
     available for use in the operations of the entity.

     Other DON Disclosures
     Nonentity Assets.
     As of 9/30/02, DON holds $2,841,285 thousand nonentity assets. These assets are not available for use
     by DON in its day-to-day operations but DON maintains stewardship accountability and responsibility to
     report. There are three categories of significant nonentity assets held by DON: (1) the Nonentity
     Intragovernmental Fund Balance with Treasury, (2) Cash and Other Monetary Assets, and (3) the Nonentity
     Nonfederal Accounts Receivable.

     Non-Entity Nonfederal Accounts Receivable (public).
     Non-Entity Accounts Receivable with the public contains $1,333,494 thousand (gross) in advance payments
     made to contractors and $1,018,952 thousand in associated accrued interest for the A-12 aircraft program,
     which was subsequently cancelled and remains in litigation. These balances are being reported in Non-
     Entity Accounts Receivable since the original appropriation year has been cancelled, and any funds collected
     as a result of this litigation would not be available for DON’s use in normal operations. See Note 5 for
     additional information.

     For Additional Line Item discussion, see:
     Note 3, Fund Balance with Treasury
     Note 4, Investments
     Note 5, Accounts Receivable
     Note 6, Other Assets



58
General Fund Notes to the Principal Statements

  NOTE 3. FUND BALANCE WITH TREASURY
  As of September 30,
  (Amounts in thousands)
                                                                                2002                2001
  1. Fund Balances:
     A.   Appropriated Funds                                                $ 66,480,155       $ 65,459,616
     B.   Revolving Funds                                                      1,491,480            665,726
     C.   Trust Funds                                                             15,995             14,033
     D.   Other Fund Types                                                       262,325            199,604
     E.   Total Fund Balances                                               $ 68,249,955       $ 66,338,979

  2. Fund Balances Per Treasury Versus Agency:
     A. Fund Balance per Treasury                                           $ 68,249,955       $ 66,338,979
     B. Fund Balance per DON                                                  68,249,955         66,338,979
     C. Reconciling Amount                                                  $          0       $          0

  3. Explanation of Reconciliation Amount:
     Not applicable.

  4. Other Information Related to Fund Balance with Treasury:

  Additional Disclosures Concerning Fund Balance With Treasury (FBWT).
  The following provides additional disclosures of amounts included in the FBWT reporting process. These are
  internal reconciliation mechanisms verifying the disbursing process. These differences may ultimately affect
  FBWT, but until they can be verified as valid transactions or amounts they are not considered differences
  between DON and Treasury FBWT. Many of these items represent timing differences, supporting identifying
  data is not or is no longer available or Treasury will not support the identification of certain aged items.

  The increase in revolving fund balance from FY 2001 to FY 2002 is a result of an increase in the National
  Defense Sealift Fund, Navy (APPN 4557). Public Law (P.L.) 107-117 and 107-107 provided for a current
  year Fund transfer of $360,800 thousand and P.L. 106-259 and 106-79 for a total of $764,000 thousand
  prior year transfer in the revolving fund, National Defense Sealift Fund, Navy.

  The non-entity Fund Balance with the Treasury (FBWT) balance contributed to the increase in Other Fund
  Types. For example, within the Non-entity FBWT, the state and local taxes withheld account, $24,200
  thousand, civilian employees allotments account, $20,000 thousand, and the military thrift savings plan,
  $23,900 thousand contributed to the increase in FY 2002.

  Intragovernmental Payment and Collection (IPAC).
  The Intra-governmental Payment and Collection (IPAC) differences are reconcilable differences that represent
  amounts recorded by Treasury but not reported by the organization. As of the end of FY 2001, there was
  $1,135 thousand difference in IPAC greater than 180-days old. DoD has worked with the DFAS sites, the
  Department of the Treasury, and a Treasury Department contractor in the development of automated tools,
  metrics and monthly reporting requirements that aided in reconciling the Treasury’s Statement of Differences.
  These actions aided DON in clearing all of the old balances and established better internal controls over the
  IPAC process. As of the end of FY 2002 there were no IPAC differences greater than 60-days old.



                                                                                                                  59
     The following table exhibits the aged IPAC differences:

          IPAC Differences – Aging
          (Amounts in thousands)
                                                                            Net Amount        Absolute Amount

            90 Days or Less                                            $        9,871         $     92,198
            91-180 Days                                                             0                    0
            181 Days and Over                                                       0                    0
            Total                                                      $        9,871         $     92,198


     Check Issue Discrepancy.
     DON is in the process of collecting information for all check issue discrepancy data that are unsupportable
     because: (1) records have been lost during deactivation of disbursing offices; (2) the Department of the
     Treasury may not assist in research efforts for transactions over 1-year old; or (3) corrections were processed
     for transactions that the Department of the Treasury had removed from the check comparison report.
     Transactions that have no supporting documentation due to one of the preceding situations, shall be provided
     to the Department of the Treasury with a request to remove them from the Treasury Check Comparison
     Report. The vast majority of the remaining check issue discrepancies are a result of timing differences
     between DON and the Department of the Treasury for processing checks. The following table exhibits the
     aged check issue differences:

          Check Issue Differences – Aging
          (Amounts in thousands)
                                                                            Net Amount        Absolute Amount
            0-30 Days                                                   $     354,172         $    356,847
            31-90 Days                                                          17,947              39,772
            91-180 Days                                                        (2,958)               3,250
            181-365 Days                                                             0                   4
            Greater than 1 year                                                (5,172)               5,303
            Total                                                       $     363,989         $    405,176

     Deposit Differences.
     The Deposit differences are reconcilable differences that represent deposit amounts reported by the
     Department of the Treasury or the organization. As of September 30, FY 2002 and FY 2001, there was $4
     thousand and $(201) thousand, respectively, of deposit differences greater than 180-days old.

     The following table exhibits aged deposit differences as reported on the Treasury Statement of Differences:

        Statement of Differences – Aging
        (Amounts in thousands)
                                                                            Net Amount        Absolute Amount
            0-30 Days                                                  $       21,145         $     24,783
            31-60 Days                                                          1,464                3,926
            61-90 Days                                                          (355)                  533
            91-120 Days                                                            11                   13
            121-180 Days                                                          100                  102
            181-365 Days                                                            4                  239
            365 Days and Over                                                       0                  442
            Total                                                      $       22,369         $     30,038




60
General Fund Notes to the Principal Statements

  Other DON Disclosures
  To deal with reconciliation of check issue discrepancy and deposit differences that are aged 90 days or
  greater some of the following actions are being taken: (1) Follow-up action with disbursing officers on
  the status of their resolving transactions listed on their statement of differences; (2) Weekly teleconferences
  with the field sites and site visits; and (3) improving training.

  See Note Disclosure 1.I. – Significant Accounting Policies for additional discussion on financial reporting
  requirements and DoD policies governing Funds with the U.S. Treasury.


  NOTE 4. INVESTMENTS
  As of September 30,
  (Amounts in thousands)                                                         2002                                               2001
                                                                              Amortized
                                                           Amortization       (Premium/     Investments,     Market Value   Investments,
                                                 Cost        Method            Discount)        Net           Disclosure        Net
  1. Intragovernmental Securities:
     A. Marketable                           $         0                  $            0    $           0   $           0   $              0
     B. Non-Marketable, Par Value                      0                               0                0               0                  0
     C. Non-Marketable, Market-Based               9,671       N/A                 (206)            9,465           9,465              9,317
     D.Subtotal                              $     9,671                  $        (206)    $       9,465   $       9,465   $          9,317
     E. Accrued Interest                     $       160                  $                 $         160   $         160   $            200
     F. Total Intragovernmental Securities   $     9,831                  $        (206)    $       9,625   $       9,625   $          9,517

  2. Other Investments:


  3. Other Information Related to Investments

  Other DON Disclosures
  During FY 2001, per HR 4205, section 912, DON consolidated the Naval Academy Museum Fund together
  with the Naval Academy General Gift Fund and the Naval Records and History Fund together with the Navy
  General Gift Fund. The two remaining Trust Funds are the Naval Academy General Gift Fund and the Navy
  General Gift Fund, which have a total net investment of $9,625 thousand. These investments are Non-
  Marketable Market-Based securities reported at cost, net of amortized premiums and discounts. The details
  for each Trust Fund are as follows:

        (Amounts in thousands)
                                                                                                Amortized [Premium]/
                                                                                 Cost                  Discount                      Net
        Navy General Gift Fund                                            $         2,313           $        (30)               $          2,283
        Naval Academy General Gift Fund                                             7,358                   (176)                          7,182
        Total                                                             $         9,671           $       (206)               $          9,465




  See Note Disclosure 1.N. – Investments in U.S. Treasury for additional DoD policies governing
  Investments in U.S. Treasury Securities.
                                                                                                                                                   61
     NOTE 5. ACCOUNTS RECEIVABLE
     As of September 30,
     (Amounts in thousands)                                                    2002                               2001
                                                                            Allowance
                                                           Gross Amount   For Estimated       Accounts          Accounts
                                                               Due        Uncollectibles   Receivable, Net   Receivable, Net


     1. Intra-governmental Receivables:                $       742,467              N/A     $     742,467     $   1,042,814

     2. Non-Federal Receivables (From the Public):     $     2,940,843    $   (140,956)     $   2,799,887     $   1,682,230

     3. Total Accounts Receivable:                     $     3,683,310    $   (140,956)     $   3,542,354     $   2,725,044

     4. Allowance Method
     DON does not have a standard rate for the allowance for estimated uncollectible receivables. For all
     program groups except Military Personnel appropriations, DON estimate for uncollectible accounts is 2.93%.
     Accounts receivable uncollectible allowance balances in the Military Personnel appropriations are estimated
     to be 14.49%. Each estimate is based on write-offs of accounts receivable over the last three-year period.

     Fluctuations and/or Abnormalities

     The decrease in the Accounts Receivable Intragovernmental is a result of a systems change request that has
     improved collecting the intragovernmental elimination data.

     Accounts Receivable increased 29.9% or $817,310 thousand from FY 2001 to FY 2002. The associated
     accrued interest for the A-12 aircraft program in the amount of $1,018,952 thousand represents the
     increase in Non-federal receivable. Other factors affecting the balance changes in accounts receivable
     include the allocation of undistributed collections, elimination adjustments and abnormal account balances
     caused by the elimination process.

     5. Other Information Related to Accounts Receivables:

     Intragovernmental Accounts Receivable Adjustments

     Allocation of Undistributed Collections
     Undistributed disbursements and collections are allocated between federal and nonfederal categories based
     on the percentage of federal and nonfederal accounts payable and accounts receivable as submitted in the
     field level general ledgers. This allocation was suggested as appropriate in a DFAS Arlington memorandum
     dated 4 October 2000, which required disclosure to the audit community of the applicable methodology
     used to allocate undistributed.

     Elimination Adjustments
     DON’s accounting systems do not capture trading partner data at the transaction level in a manner that
     facilitates trading partner aggregations. Therefore, DON was unable to reconcile intragovernmental
     accounts receivable balances with its trading partners. DoD intends to develop long-term systems
     improvements that will include sufficient up-front edits and controls to eliminate the need for after-the-fact
     reconciliations. The volume of intragovernmental transactions is so large that after-the-fact reconciliation can
     not be accomplished with the existing or foreseeable resources.

     Intrafund transactions are eliminated based upon trading partner information obtained from the
     Bureau of Naval Personnel System (BUPERS), Standard Accounting and Reporting System – Field



62
General Fund Notes to the Principal Statements

  Level (STARS-FL), and the Standard Accounting and Reporting System – Headquarters Module (STARS-HQ).
  The elimination data obtained from these systems included seller appropriation, grantor (buyer
  appropriation, grantor subhead, grantor code, reimbursable source code, accounts receivable, revenue and
  unearned revenue.

  Nonentity Nonfederal Accounts Receivables
  During FY 2002 Nonentity Nonfederal Accounts Receivable included refunds receivable accounted for by
  Mechanization of Contract Administration Services (MOCAS) and Defense Debt Management System
  (DDMS) and refunds due from contract carriers reported by the Judge Advocate General (JAG). The
  following table lists the MOCAS, DDMS, and JAG receivable balances:

        (Amounts in thousands)
                                                                                                FY 2002
                                                                                               Nonentity
                                                                                          Non-Federal Accounts
                                                                                           Receivable (Gross)
      A-12 Program Advance (DDMS) and Interest                                              $   2,352,446
      CDS/DDMS Navy and Defense Logistics Agency (DLA)                                             43,830
      Contract (MOCAS) system debts                                                                 9,460
      Penalties, Fines and Admin. Fees and Interest                                                 5,666
      JAG                                                                                           3,954
      Civilian Pay receivables                                                                      2,659

  Included in DDMS (separately identified above) are unliquidated progress payments of $1,333,494
  thousand, and accrued interest receivable of $1,018,952 thousand for the A-12 aircraft program that was
  subsequently cancelled and remains in litigation. The entire amount is reported in accordance with a 1994
  General Accounting Office audit recommendation.

  Other DON Disclosures

  Abnormal Account Balances.
  Abnormal Accounts Payable and Accounts Receivable balances may occur for two main reasons – 1) the
  application of undistributed disbursement/collections and 2) as a result of the intragovernmental transaction
  elimination process. DFAS Arlington has provided guidance in a memorandum dated 1 March 2001 to
  record accruals, for financial statement presentation purposes, to correct abnormal balances.

  Undistributed disbursements/collections are recorded in Accounts Payable and Accounts Receivable,
  respectively. For a variety of reasons, the application of undistributed transactions may result in abnormal
  balances.

  In accordance with the DoD FMR, Volume 6B, Chapter 13, adjustments are recorded, at the appropriation
  level, to bring DON’s intragovernmental accounts into agreement with its trading partners’ intragovernmental
  accounts. These elimination process adjustments may also result in abnormal Accounts Payable and
  Accounts Receivable.

  See Note Disclosure 1.K. – Significant Accounting Policies for additional discussion on financial
  reporting requirements and DoD policies governing Accounts Receivable.


                                                                                                                  63
     NOTE 6. OTHER ASSETS
     As of September 30,
     (Amounts in thousands)
                                                                                  2002                          2001
     1. Intra-governmental Other Assets:
        A. Advances and Prepayments                                          $     67,081                  $     47,170
        B. Other Assets                                                                 0                             0
        C. Total Intra-governmental Other Assets                             $     67,081                  $     47,170

     2. Non-Federal Other Assets:
        A. Outstanding Contract Financing Payments                           $   4,609,272                 $   5,873,494
        B. Other Assets (With the Public)                                          171,190                       183,338
        C. Total Non-Federal Other Assets                                    $   4,780,462                 $   6,056,832

     3. Total Other Assets:                                                  $   4,847,543                 $   6,104,002

     4. Other Information Related to Other Assets:

     Fluctuation and/or Abnormalities

     Advances and Prepayments increased $19,911 thousand from FY 2001. Amounts are recorded based upon
     elimination data as provided by DON trading partners. Outstanding Contract Financing Payments
     decreased $1,264,222 thousand from FY 2001. The decrease in Other Assets Nonfederal implies fewer
     contracts with contract financing payments and contracts maturing. These payments are determined by
     current level of funding, current status of projects under which these payments occur.

     Accounting Standards

     Outstanding Contract Financing Payments.
     DON has reported outstanding financing payments for fixed price contracts as an advance and prepayment,
     because under the terms of the fixed price contracts, DON becomes liable only after the contractor delivers
     the goods in conformance with the contract terms. If the contractor does not deliver a satisfactory product,
     DON is not obligated to reimburse the contractor for its costs and the contractor is liable to repay DON for
     the full amount of the outstanding contract financing payments. DoD has completed its review of all
     applicable federal accounting standards; applicable public laws on contract financing; FAR Parts 32,48, and
     52; and the OMB guidance in 5 CFR Part 1315, “Prompt Payment.” DON has concluded that the SFFAS
     No. 1, “Accounting for Selected Assets and Liabilities” does not fully or adequately addresses the subject of
     progress payment accounting and is considering what further action is appropriate. The following table
     displays the Outstanding Contract Financing Payments attributed by program:

           (Amounts in millions)
                                                                                                 FY 2002
          Aircraft Procurement                                                               $       2,765
          Shipbuilding and Conversion                                                                  567
          Weapons Procurement                                                                          518
          Other Procurement                                                                            625
          Other (O&M, RDT&E)                                                                           134
          Total                                                                              $       4,609




64
General Fund Notes to the Principal Statements

  Advances and Prepayment
  The buyer-side advances to others balances were adjusted to agree with seller-side advances from others on
  the books or other DoD reporting entities. Additionally, the buyer-side prepayment balances were adjusted
  to agree with seller-side defer red credits on the books of other DoD reporting entities.

  See Note Disclosure 1.R. – Significant Accounting Policies for additional discussion on financial reporting
  requirements and DoD policies governing Other Assets.


  NOTE 7. CASH AND OTHER MONETA RY ASSETS
  As of September 30,
  Amounts in thousands)                                                                2002           2001

  1.    Cash                                                                       $    130,162   $     160,291
  2.    Foreign Currency (non-purchased)                                                    502             298
  3.    Other Monetary Assets                                                                 0               0
  4.   Total Cash, Foreign Currency, & Other Monetary Assets                       $    130,664   $     160,589

  5. Other Information Related to Cash and Other Monetary Assets

  Fluctuations and/or Abnormalities

  The $30,129 thousand cash balance decrease from FY 2001 to FY 2002 is due to the events on September
  11, 2001. The Disbursing Officers (D.O.’s) at Atlantic Fleet, Pacific Fleet and Marine Corps had more cash
  on hand than necessary for their normal operational requirements. With the unknown impact of a national
  disaster close to FY2001 fiscal year end, the D.O.’s had more cash on hand to prevent disruption of their
  operations. Since then cash levels have returned to normal operating levels.

  Definitions

  Cash – The total of cash resources under the control of DON, which includes coin, paper currency, purchased
  foreign currency, negotiable instruments, and amounts on deposit in banks and other financial institutions.
  Cash available for agency use should include petty cash funds and cash held in revolving funds which will
  not be transferred into the U.S. Government General Fund.

  Foreign Currency – consists of the total U.S. dollar equivalent of non-purchased foreign currencies
  held in foreign currency fund accounts. Non-purchased foreign currency is limited to the Treasury
  Index 97X7000 fund account (formerly called FT accounts).

  Other Monetary Assets - includes gold, special drawing rights, and U.S. Reserves in the
  International Monetary Fund. This category is principally for use by the Department of the Treasury.

  Restriction on Cash
  All cash and other monetary assets reported are classified as nonentity, which means that the assets are not
  available for DON’s use in normal operations.

  Other DON Disclosures
  Cash and Foreign Currency reported consists primarily of cash held by Disbursing Officers to carry out their
  paying, collecting, and foreign currency accommodation exchange mission. The primary source of the              65
  amounts reported is the Standard Form 1219, Statement of Accountability reported by DoD
  Disbursing Officers.
     DON translates foreign currency to U.S.dollars utilizing the Department of the Treasury Prevailing Rate of
     Exchange. This rate is the most favorable rate that would legally be available to the U.S. Government’s
     acquisition of foreign currency for its official disbursement and accommodation of exchange transactions.

     See Note Disclosure 1.J. – Significant Accounting Policies for additional discussion on financial reporting
     requirements and DoD policies governing Foreign Currency.


     NOTE 8.A. DIRECT LOANS AND/OR LOAN GUARANTEE PROGRAMS

     The DoD operates the following Direct Loan and/or Loan Guarantee Program:
     Military Housing Privatization Initiative

     Other Information Related to Direct Loan and/or Loan Guarantee Programs.

     The Military Housing Privatization Initiative (MHPI) fosters a mutually beneficial relationship between the
     DoD and the private sector. For the DoD, the MHPI results in the construction of more housing built to
     market standards, at a lower cost than through the military construction process. Commercial construction
     (Private Sector) is faster and less costly than military construction and significantly stretches and leverages the
     DoD’s limited housing funds. The MHPI also provides protection against specific risks, such as base closure
     or member deployment, for the private sector partner.

     An analysis of loans receivables, loan guarantees, the liability for loan guarantees, and the nature and
     amounts of the subsidy and administrative costs associated with the direct loans and loan guarantees is
     provided in the following sections of this note.

     DoD operates a loan guarantee program authorized by the National Defense Authorization Act for FY 1996,
     Public Law 104-106 Stat. 186 Section 2801, includes a series of powerful authorities that allow DoD to work
     with the private sector to renovate military housing. DoD’s goals are to:

           • obtain private capital to leverage government dollars,
           • make efficient use of limited resources, and
           • use a variety of private sector approaches to build and renovate military housing faster and at a
             lower cost to American taxpayers.

     The Act also provides DoD with a variety of authorities to obtain private sector financing and expertise to
     improve military housing. DoD uses these authorities individually, or in combination. They include:

           •   guarantees, both loan and rental
           •   conveyance/leasing of existing property and facilities
           •   differential lease payments
           •   investments, both limited partnerships and stock/bond ownership
           •   direct loans

     In addition, the “Federal Credit Reform Act of 1990” governs all amended direct loan obligations and loan
     guarantee commitments made after FY 1991 resulting in direct loans or loan guarantees.

           • Direct loans - are reported net of allowance for subsidy at present value, and
           • Loan Guarantee Liabilities - are reported at present value.




66
General Fund Notes to the Principal Statements

  NOTE 9. INVENTORY AND RELATED PROPERT Y, NET
  As of September 30,
  (Amounts in thousands)                                                                                          2002            2001

  1.   Inventory, Net (Note 9.A.)                                                                             $          0   $          0
  2.   Operating Materials & Supplies, Net (Note 9.B.)                                                          33,003,595     61,061,553
  3.   Stockpile Materials, Net (Note 9.C.)                                                                              0              0
  4.   Total                                                                                                  $ 33,003,595   $ 61,061,553



  NOTE 9.A. INVENTORY, NET
  Not applicable.


  NOTE 9.B. OPERATING MATERIALS AND SUPPLIES, NET
  As of September 30,
  (Amounts in thousands)                                                             2002                          2001
                                                           OM&S Gross            Revaluation       OM&S,          OM&S,          Valuation
                                                             Value                Allowance         Net             Net           Method
  1. OM&S Categories:
       A. Held for Use                                   $ 27,307,223        $           0       27,307,223   $ 58,175,833        LAC,SP AC
       B.Held for Repair                                    8,478,545          (3,260,744)        5,217,801      1,210,403        LAC, SP, AC
       C. Excess, Obsolete, and Unservicable                1,101,108            (622,537)          478,571      1,675,317        LAC, SP, AC
       D. Total                                          $ 36,886,876        $ (3,883,281)     $ 33,003,595   $ 61,061,553




  Legend for Valuation Methods:
  Adjusted LAC         =   Latest Acquisition Cost adjusted for holding gains and losses
  NRV                  =   Net Realizable Value
  SP                   =   Standard Price
  O                    =   Other
  AC                   =   Actual Cost
  MAC                  =   Moving Average Cost




                                                                                                                                                67
     2. Restrictions on Operating Materials & Supplies:
     None

     General Composition of Operating Materials and Supplies (OM&S)

     OM&S includes spare and repair parts, ammunition, tactical missiles aircraft configuration pods, and
     centrally managed aircraft engines.

           The general composition of OM&S is as follows:
           (Amounts in thousands)                                                                       FY 2002
             Ammunition and Munitions                                                               $    9,659,749
             Appropriation Purchase Account (APA) Principal End                                         10,317,471
             Items
             Sponsor Owned Material                                                                    9,814,710
             APA Secondary Inventory                                                                   1,654,127
             Residual Assets                                                                           1,288,052
             Other                                                                                       269,486
             Total                                                                                  $ 33,003,595

     Balances
     In addition to the account balances shown in Table 9.B., the SFFAS No.3, “Accounting for Inventory
     and Related Property” requires disclosure of the amount of OM&S held for “future use.” This information is
     not captured by current OM&S systems which were designed for material management rather than
     accounting. However, DON major commands were able to identify approximately $2,462,762 thousand of
     the OM&S held for use that will not be used within the next fiscal year.

     Decision Criteria For Identifying The Category To Which Operating Materials And Supplies Are Assigned

     In order to standardize reporting of the categories Held for Use, Held for Repair, and Excess, Obsolete,
     Unserviceable, DON implemented the Under Secretary of Defense (Comptroller) (USD(C)) condition code
     crosswalk as defined in the memorandum “Accounting for Excess, Unserviceable, and Obsolete Inventory
     and Operating Materials and Supplies” dated 12 August 2002. OM&S was reported as follows:

              OM&S Category                                                    Condition Codes
              Held for Use                                                     A, B, C, D
              Held for Repair                                                  E, F, G, J, K, L, M, N, R
              Excess,Obsolete, Unserviceable                                   P, H, S

     On 15 September 2002, USD(C) amended the condition code crosswalk to include code “V” in the Excess,
     Obsolete, Unserviceable categor y. Because DON’s reporting guidance had already been issued, this was
     not implemented for FY 2002. It will be implemented for FY 2003 reporting.

     Changes In The Criteria For Identifying The Category To Which Operating Materials And Supplies Are Assigned

     The category “Held for Use” includes all issuable material. The category “Held for Repair” includes all
     economically reparable material. Before FY 2002, DON showed “Potentially redistributable” material,
     regardless of condition, as “Excess, Obsolete, and Unserviceable.”




68
General Fund Notes to the Principal Statements

  Other Information Related to Operating Material and Supplies, Net

  Fluctuations and/or Abnormalities
  Operating Materials & Supplies Held for Use, Net decreased from $58,175,833 thousand in FY 2001 to
  $27,307,223 thousand in FY 2002, a total decrease of $30,868,610 thousand. This decrease is primarily
  attributable to two audit adjustments. The first one is to remove $24,765,804 thousand of tactical missiles
  and torpedoes that were previously reported as ammunition and munitions in FY 2001. The second one is to
  remove $6,904,493 thousand of Mobile Facilities, Aviation Support Equipment, and Calibration Standards.
  These items were erroneously included in the OM&S values reported as of 9/30/01.

  Operating Materials & Supplies Held for Repair, Net increased from $1,210,403 thousand in FY 2001 to
  $5,217,801 thousand in FY 2002, a total increase of $4,007,398 thousand. The increase is mainly the
  result of DON’s implementation of USD(C)’s policy regarding condition codes. Numerous condition codes
  reported as Excess, Obsolete, and Unserviceable in FY 2001 are being reported as “Held for Repair” in FY
  2002. For FY 2001, the USSGL did not include an account for OM&S held for repair and the Office of
  Management and Budget (OMB) Bulletin 01-09, “Form and Content of Agency Financial Statements” did not
  provide for specific footnote disclosure of the OM&S held for repair. Recognizing that DoD holds OM&S in
  need of repair, the USSGL Board approved for use, beginning in FY 2002, USSGL account 1514, OM&S
  Held for Repair.

  Excess, Obsolete, and Unserviceable, Net decreased from $1,675,317 thousand in FY 2001 to $478,571
  thousand in FY 2002. As a result of USD(C)’s memorandum “Accounting for Excess, Unserviceable, and
  Obsolete Inventory and Operating Materials and Supplies” dated 12 August 2002, because the costs of
  disposal are greater than the potential scrap value, all OM&S reported in this category has been revalued to
  zero. The residual balance of $478,571 reported as Excess, Obsolete, and Unserviceable Net represents a
  prior period adjustment that was recorded to adjust the general ledger balance to comply with current
  reporting requirements. DoD implemented new policy in FY 2002 to account for condemned material (only)
  as “Excess, Obsolete, and Unserviceable.” Potentially redistributable material, presented in previous years as
  “Excess, Obsolete, and Unserviceable,” is included in “Held for Use” or “Held for Repair” categories
  according to its condition.

  Operating Materials & Supplies Prior Period Adjustment
  During FY 2001, early implementation of the exposure draft Statement of Federal Financial Accounting
  Standards (SFFAS) to eliminate the category National Defense Property, Plant, and Equipment (NDPP&E),
  military equipment, was encouraged. Consequently, DON reclassified conventional missiles and torpedoes
  from military equipment to operating materials and supplies and recognized a value of $24,765,804
  thousand on the Inventory and Related Property line of DON FY 2001 Financial Statements. Per the
  Department of Defense Inspector General (DoDIG) directive, DoD should not have implemented an exposure
  draft SFFAS early and therefore requested that the value for the conventional missiles and torpedoes be
  removed from FY 2001 and also not recognized in FY 2002. Therefore, a prior period adjustment removed
  $24,765,804 thousand from FY 2001 Inventory and Related Property (Operating Materials and Supplies)
  and an adjusted amount of $23,671,570 thousand for FY 2002. This restatement of FY 2001 values aligns
  DON’s financial statement with the FY 2001 U.S. Government-wide financial statements.

  Government Furnished Material (GFM) and Contractor Acquired Material (CAM)
  Generally, the value of DON’s GFM and CAM in the hands of contractors is not included in the OM&S
  values reported above. DoD is presently reviewing its process for reporting these amounts in an effort to
  determine the appropriate accounting treatment and the best method to annually collect and report required
  information without duplicating information already in other existing logistics systems.
                                                                                                                   69
     Other DON Disclosures
     The OM&S, including munitions not held for sale, are generally valued at standard purchase price. DoD
     uses the consumption method of accounting for OM&S, for the most part, expensing material when it is
     issued to the end user. Where current systems cannot fully support the consumption method, DoD uses the
     purchase method - that is, expensed when purchased. For FY 2002, DON reported significant amounts
     using the purchase method either because the systems could not support the consumption method or because
     management deems that the item is in the hands of the end user.

     The OM&S data reported on the financial statements are derived from logistics systems designed for material
     management purposes. These systems do not maintain the historical cost data necessary to comply with the
     valuation requirements of the SFFAS No. 3, “Accounting for Inventory and Related Property.” In addition,
     while these logistics systems provide management information on the accountability and visibility over OM&S
     items, they do not directly support the categorization of OM&S as held for use, held in reserve for future use,
     held for repair, or excess, obsolete, and unserviceable. The DoD manages only military or government
     specific material under normal circumstances. Material held for use includes material held due to operational
     economies. Similarly, material held for use includes material held due to a managerial determination that it
     should be retained to support departmental contingencies.

     Items commonly used in and available from the commercial sector are not managed in the DoD material
     management activities. Further, unlike the commercial sector, DON’s operational cycles, based on national
     need, are irregular. In addition, the military risks associated with stock-out positions (e.g., weapon systems
     that are not mission capable due to lack of supplies, are totally different from a commercial activity’s risk of
     losing sales. Therefore, DON does not attempt to account separately for items held for “current” or “future”
     use.

     The DoD, in consultation with its auditors, is: (1) developing specific criteria for determining when OM&S
     amounts are not significant for the purpose of using the consumption method, (2) developing functional
     requirements for feeder systems to support the consumption method, (3) identifying feeder systems that are
     used to manage OM&S items, and (4) developing plans to revise those systems to support the consumption
     method.

     Effective July, 2001, the DoD adopted the moving average cost method of valuing inventory at all DoD
     components. Because DON’s OM&S are derived from logistics systems designed for material management
     purposes, the moving average cost methodology has not been implemented for FY 2002.

     Ammunition and Munitions.
     The Conventional Ammunition Integrated Management System (CAIMS) database does not meet all the
     requirements of the SFFAS No. 3, particularly regarding valuation at historical cost. DON has begun the
     analysis and cost benefit identification of making CAIMS compliant with Federal accounting standards.

     Principal End Items.
     Principal End Items includes OM&S items such as shipboard hull, mechanical and electronic equipment, and
     uninstalled aircraft engines. Principal End Items are items of such importance that central inventory control is
     required. They normally possess one of the following characteristics: (a) essential for combat or training; (b)
     high dollar value; (c) difficult to procure or produce; or (d) critical basic materials or components.

     Sponsor Owned Material (SOM).
     Per General Accounting Office (GAO) subject letter GAO-01-37R “Financial Management: Improvements
     Needed in the Navy’s Reporting of General Fund Inventory” dated 27 October 2000 DON has been
     identifying and validating SOM to gain total asset visibility.




70
General Fund Notes to the Principal Statements

  Residual Assets.
  This material is considered excess to the owner, but may not be excess to the Navy. Standard price is used
  to value all stock-numbered items. Part-numbered items are valued by best available information. Residual
  assets increased from $834,276 thousand in FY 2001 to $1,288,052 thousand in FY 2002 as a result of
  the implementation of Re-engineered Residual Asset Management (RRAM) at Orange Park, FL and
  Cheatham Annex , VA.

  Other Operating Material & Supplies.
  Other OM&S totaled $269,486 thousand in FY 2002. This consists primarily of $208,071 thousand in Fleet
  Hospitals and War Reserves, and $53,639 thousand material in the possession of the US Coast Guard.

  Fleet Hospitals and War Reserves.
  The Fleet Hospital Program is reporting a balance of $208,071 thousand for FY 2002. This reflects a
  $6,957 thousand increase from FY 2001. Per Naval Audit Service Audit No. N2001-0016, the subject
  Command has completed their review of the Fleet Hospital inventory valuation. This information was
  computed based on the best estimates available of the value of Fleet Hospitals inventory. This system will be
  used until the automated information system (AIS) becomes fully operational.

  See Note Disclosure 1.M. – Significant Accounting Policies for additional discussion on financial
  reporting requirements and DoD policies governing Inventory and Related Property.


  NOTE 9.C. STOCKPILE MATERIALS, NET
  Not applicable.




                                                                                                                  71
     NOTE 10. GENERAL PROPERT Y, PLANT, AND EQUIPMENT (PP&E) (NET)
     As of September 30, 2002
     (Amounts in thousands)
                                                                                  2002                                              2001
                                                 Depreciation/                                  (Accumulated
                                                 Amortization     Service         Acquisition   Depreciation/        Net Book   Prior FY Net
                                                   Method          Life             Value       Amortization)         Value     Book Value
     1. Major Asset Classes:
       A.Land                                       N/A              N/A      $    645,924                 N/A   $    645,924   $    655,751
       B. Buildings, Structures, and Facilities     S/L            20 - 40      32,862,380      $ (12,612,305)     20,250,075     19,483,307
       C. Leasehold Improvements                    S/L          Lease Term              0                   0              0              0
       D.Software                                   S/L           2, 5 Or10          1,059               (423)            636          1,067
       E. Equipment                                 S/L            5 Or 10       2,837,863         (1,993,072)        844,791        916,938
       F. Military Equipment                   Composite/Group      Varied               0                   0              0              0
       G.Assets Under Capital Lease 1               S/L          Lease Term          1,116               (206)            910          7,153
       H.Construction-in-Progress                   N/A              N/A         4,367,101                 N/A      4,367,101      3,896,679
       I. Other                                                                          0                   0              0            592
       J. Total General PP&E                                                  $ 40,715,443      $ (14,606,006)   $ 26,109,437   $ 24,961,487


     1 Note 15.B for additional information on Capital Leases
     Legend for Depreciation/Amortization Methods:
     S/L = Straight Line   N/A = Not Applicable

     2. Other Information Related to General PP&E, Net

     Real Property
     The Internet Naval Facility Asset Database Store (iNFADS) is used to derive real property values for financial
     reporting purposes. Land decreased from $655,751 thousand in FY 2001 to $645,924 thousand in FY 2002
     and is mainly due to the Base Realignment and Closure (BRAC) sales. The increase in Buildings, Structures,
     and Facilities is a result of database cleanup and timing of moving completed projects into the property
     database.

     Leasehold Improvements
     No leasehold improvements are reported for FY 2002, because DON’s real property system does not track
     leasehold improvements as a separate component of a building’s total value.

     Preponderant Use
     Per the DoD FMR, Volume 4, Chapter 6, legal ownership is not always the determinant factor when
     establishing which DoD Component recognizes a particular General PP&E asset for accounting and reporting
     purposes. If the following four criteria are met, the preponderant user should report the property regardless
     of legal ownership or funding:

       • The asset embodies a probable future benefit;
       • The DoD Component that reports the asset obtains the benefit and controls access to the benefit
         inherent in the asset;
       • The transaction or event giving the Component the right to, and control over, the benefit has already
         occurred; and
       • The predominantly used assets, taken as a whole, are material to the Component’s financial statements.




72
General Fund Notes to the Principal Statements

  During the course of FY 2002, DON has continued to identify properties whose preponderant users are
  other DoD Components. Those entities utilizing material amounts of DON owned property are as follows
  (dollar values include both acquisition value and improvements meeting the capitalization threshold):

                   (Amounts in thousands)
                                                                                          FY 2002
                   Defense Commissary Agency (DeCA)                                   $       47,013
                   DoD Schools                                                                39,481
                   Defense Logistics Agency (DLA)                                             20,126

  While DON has begun identifying the major parties involved, we continue to report the asset values of
  preponderant use assets in FY 2002. This is due to difficulties encountered when comparing our property
  records with those of the other entities. We will continue to work with the other DoD Components to come to
  agreement on the recording of preponderant use asset values for FY 2003.

  Software
  DON is participating in the OSD working group that is currently examining issues related to Internal Use
  Software. As of the date these statements were prepared, OSD had not determined the final reporting
  requirements for Internal Use Software. To ensure that the costs associated with Internal Use Software are
  correctly recognized and reported, DON will use the Defense Property Accountability System (DPAS) to
  capture this information once OSD adopts permanent reporting requirements.

  Construction-in-Progress (CIP)
  CIP balances were obtained from the Facilities Information System (FIS). CIP increased from $3,896,679
  thousand in FY 2001 to $4,367,101 thousand in FY 2002, a net increase of $470,422 thousand. This
  increase is due to additional military construction and the fact that the beneficial occupancy date BOD is 30
  days after the building project is completed.

  Other
  During the deployment of the DPAS and data base conversion, some of the personal property assets were
  coded as “Other”. Approximately $592 thousand was reported under “Other” in FY 2001. In FY 2002,
  DON reviewed those items coded as “Other” and made the appropriate adjustments them in the correct
  asset classification.

  Property in the Possession of Contractors.
  The value of DON’s General PP&E real property in the possession of contractors is included in the values
  reported above for the Major Asset Classes of Land and Buildings, Structures, and Facilities. The value of
  General PP&E personal property (Major Asset Classes of Software and Equipment) does not include all of
  the General PP&E above the DoD capitalization threshold in the possession of contractors. The net book
  amount of such property is immaterial in relation to the total General PP&E net book value. Per the DoD
  FMR Volume 6B Chapter 10, DON is not supplementing General PP&E information with values from the
  Defense Contract Management Agency’s CPMS (DD Form 1662) database. In accordance with an
  approved strategy with OMB, the GAO and the Inspector General, DoD, the DoD is developing new policies
  and a contractor reporting process to capture General PP&E information for future reporting purposes for
  compliance with Federal GAAP.




                                                                                                                  73
     Military Equipment (Unaudited Supplementary Information)
     In June 2002 the Federal Accounting Standards Advisory Board issued a standard entitled “Eliminating the
     Category National Defense Property, Plant, and Equipment (ND PP&E)”. In addition to eliminating the
     category ND PP&E, this standard rescinds Statement of Federal Financial Accounting Standards (SFFAS) No.
     11, “Amendment to Property, Plant, and Equipment – Definitional Changes”; amends SFFAS No. 8,
     “Supplementary Stewardship Reporting”; and amends SFFAS No. 6, “Accounting for Property, Plant, and
     Equipment”. This standard is effective for years ending after September 30, 2002. The standard is currently
     sitting before Congress for a 45-day period in accordance with provisions of the CFO Act of 1990.

     Prior standards provide for the expensing of ND PP&E when costs are incurred and the reporting of such
     costs as supplementary stewardship information. DoD has not reported the cost of ND PP&E in accordance
     with these standards due to an absence of detailed cost information for property acquired over many
     decades.

     The standard on eliminating the category of ND PP&E provides for the capitalization of property previously
     defined as ND PP&E and the reporting of such property as General PP&E. In recognition of the absence of
     detailed historical cost information, this standard provides that, “If obtaining initial historical cost is not
     practical, estimated historical cost may be used. Other information such as but not limited to budget,
     appropriation, or engineering documents and other reports reflecting amounts expended may be used as the
     basis for estimating historical cost.” The standard acknowledges that imprecision may result from the use of
     estimates or other information.

     Capitalization of property previously defined as ND PP&E will require extensive research to develop cost
     estimates for the property inventory. DoD initiated the valuation process this fiscal year by conducting
     detailed reviews of three selected “pilot” programs including the DDG-51 Arleigh Burke Class of Destroyers.
     The objective of this effort was the development of a valuation methodology and associated business rules,
     which DoD could use to value the pilot programs and the balance of its military equipment. The following
     information summarizes the results of the review of the DDG-51 program.

     Valuation basis - The valuation is based on information derived from reports reflecting amounts expended on
     this program.

     Included costs - The estimated total program costs include funds expended for procurement, research,
     development, test and evaluation, trainers and simulators, government furnished equipment, and other items
     included in the cost of the acquisition programs. The estimated portion of total program cost attributable to
     equipment under construction is reported as “work-in-process.”

     Useful life and depreciation – The estimated useful life used for the Arleigh Burke Class of Destroyers is 35 years.
     Depreciation is calculated on a group basis whereby the depreciation rate is applied to the estimated
     cumulative cost of the equipment “placed in service.”

     Excluded costs - The cost of military construction (MILCON) has been excluded and is reported as real
     property. The costs of modifications to the DDG 51 are not accounted for in the valuation. The cost of DDG-
     51 modifications will be captured and reported separately in later phases of the implementation of this
     standard.

     Estimated program cost, accumulated depreciation, and net book value for the Arleigh Burke Class of
     Destroyers are presented in the following table.




74
General Fund Notes to the Principal Statements

  (Amounts in Thousands)
                                                                 Program           Amortized
  DDG 51 Arleigh Burke Class of Destroyer                          Cost           Depreciation     Net Book Value
    - Placed in service                                        $ 32,991,100   $ (4,595,189)            $ 28,395,911
    - Work in process                                             6,452,776               -               6,452,776


  See Note Disclosure 1.N. – Significant Accounting Policies for additional discussion on financial reporting
  requirements and DoD policies governing General PP&E.


  NOTE 10.A. ASSETS UNDER CAPITAL LEASE
  As of September 30,
  (Amounts in thousands)
                                                                                     2002                  2001
  1. Entity as Lessee, Assets Under Capital Lease:
     A.   Land and Buildings                                                  $             0      $              0
     B.   Equipment                                                                     1,116               16,928
     C.   Other                                                                             0                     0
     D.   Accumulated Amortization                                                      (206)               (9,775)
     E.   Total Capital Leases                                                $           910      $          7,153

  2. Description of Lease Arrangements:

  3. Other Information Related to Assets Under Capital Lease

  Fluctuation and/or Abnormalities

  Total Capital Leases decreased by $6,243 thousand from $7,153 thousand in FY 2001 to $910 thousand in
  FY 2002. The decrease primarily consists of:
        ($3,417 thousand) Adjustment to correct erroneous coding in DPAS related to database cleanup and
        conversion of additional sites to DPAS.
        ($2,825 thousand) Expiration of lease agreements.

  Leased assets consist primarily of personal property reported via the DPAS system. Disclosures pertaining to
  future payments due are provided at Note 15.

  See Note Disclosure 1.Q. – Significant Accounting Policies for additional discussion on financial reporting
  requirements and DoD policies governing Leases.




                                                                                                                      75
     NOTE 11. LIABILITIES NOT COVERED AND COVERED BY BUDGETA RY RESOURCES
     As of September 30,
     (Amounts in thousands)                                                  2002                                 2001
                                                      Covered by        Not Covered by
                                                      Budgetary           Budgetary
                                                      Resources           Resources                 Total         Total
     1. Intra-governmental Liabilities:
        A. Accounts Payable                       $       745,883       $         2,396     $       748,279   $   1,002,282
        B. Debt                                                 0                   127                 127              61
        C. Environmental Liabilities                            0                     0                   0               0
        D. Other                                          465,069             3,024,434           3,489,503       1,066,185
        E. Total Intra-governmental Liabilities   $     1,210,952       $     3,026,957     $     4,237,909   $   2,068,528

     2. Non-Federal Liabilities:
        A. Accounts Payable                       $     1,510,329       $               0   $     1,510,329   $   2,075,026
        B. Military Retirement Benefits and
           Other Employment-Related Actuarial
           Liabilities                                          0          1,546,375           1,546,375         1,595,890
        C. Environmental Liabilities                            0         15,469,073          15,469,073        15,584,458
        D.Loan Guarantee Liability                              0                  0                   0                 0
        E. Other Liabilities                            1,106,890          3,078,597           4,185,487         3,610,899
        F. Total Non-Federal Liabilities          $     2,617,219       $ 20,094,045        $ 22,711,264      $ 22,866,273

     3. Total Liabilities:                        $     3,828,171       $ 23,121,002        $ 26,949,173      $ 24,934,801

     4. Other Information:

     Liabilities Not Covered and Covered by Budgetary Resources
     Liabilities Not Covered by Budgetary Resources are those liabilities which are not considered covered by
     realized budgetary resources as of the balance sheet date.

     Liabilities Covered by Budgetary Resources are those that are incurred by the reporting entity which are
     covered by realized budget resources as of the balance sheet date. Budgetary resources encompass not only
     new budget authority, but also other resources available to cover liabilities for specified purposes in a given
     year. Available budgetary resources include: (1) new budget authority, (2) spending authority from
     offsetting collections (credited to an appropriation or fund account), 3) recoveries of unexpired budget
     authority through downward adjustments of prior year obligations, 4) unobligated balances of budgetary
     resources at the beginning of the year or net transfers of prior year balances during the year, and 5)
     permanent indefinite appropriations or borrowing authority, which have been enacted and signed into law
     as of the balance sheet date, provided that the resources may be apportioned by the OMB without further
     action by the Congress or without a contingency first having to be met.

     Other Information Related to Liabilities Not Covered by Budgetary Resources
     Intragovernmental Liabilities - Other includes the following:
     (Amounts in thousands)
                                                                     Current                    Non-Current           Total
     Unfunded FECA Liability                                        $         246,882       $       316,264       $     563,146
     A -12 Program Liabilty to Treasury                                     2,352,446                     0           2,352,446
     Judgment Fund                                                            105,842                     0             105,842
     Total                                                          $       2,705,170       $       316,264       $   3,021,434




76
General Fund Notes to the Principal Statements

  Workers’ Compensation.
  DON total liability amounts of the Workers’ Compensation (FECA) and Judgment Fund for both General
  Fund and Working Capital Fund are reported in DON’s General Fund financial statements. This
  methodology is necessary due to the current accounting systems not identifying these liabilities as General
  Fund or Navy Working Capital Fund.

  The current FECA liability of $246,882 thousand represents the balance due for remittance in FY 2003. The
  remaining balance of $316,264 thousand will be billed beyond FY 2003. These balances are provided by
  DFAS-Arlington and confirmed with the Department of Labor.

  A-12 Program.
  Unliquidated progress payments and associated accrued interest receivable for the A-12 contractor debt is
  reported as an unfunded liability to Treasury. Collections on this debt will be due and payable to Treasury
  as the Appropriations are in a cancelled status. See Note 5 for further disclosure.

  Judgment Fund.
  During FY 2002 DON has made substantial progress in identifying and resolving Judgment Fund liabilities.
  It is in compliance with USD(C) action to resolve any outstanding debt due to the Department of Treasury for
  repayment of the Judgment Fund. DON is in the process of working with the appropriate Management
  Commands either to provide documentation that these amounts have been remitted to the Treasury, or to
  provide necessary funding to liquidate these liabilities. DON is working with Treasury to secure further
  detailed information concerning the amounts owed. In FY 2002 DON reported $105,842 thousand as an
  outstanding Judgment Fund liability. Among this, $104,056 thousand is attributed to Navy and $1,786
  thousand belongs to Marine Corps.

  Nonfederal Liabilities - Other includes the following:
  (Amounts in thousands)                                                Current      Non-Current       Total
  Annual Leave                                                      $    2,031,961   $         0   $   2,031,961
  Contract Incentives                                                        5,701        72,464          78,165
  Nonfederal, Nonenvironmental Disposal Liabilities                          1,707       564,446         566,153
  Nonfederal, Disposal Liabilities for Excess/Obsolete Structures           41,685       290,890         332,575
  Accounts Payable — Cancelled Appropriations                               68,833             0          68,833
  Capital Lease Liability                                                      910             0             910
  Total                                                             $    2,150,797   $   927,800   $   3,078,597


  For Additional Line Item discussion, see:
  Note 8, Direct Loans and/or Loan Guarantee Programs
  Note 12, Accounts Payable
  Note 13, Debt
  Note 14, Environmental Restoration Liabilities, and Environmental Disposal Liabilities
  Note 15, Other Liabilities
  Note 16, Commitments and Contingencies
  Note 17, Military Retirement Benefits and Other Employment Related Actuarial Liabilities




                                                                                                                   77
     NOTE 12. ACCOUNTS PAYABLE
     As of September 30, 2002                                        2002                                2001
     (Amounts in thousands)                                        Interest,
                                                  Accounts         Penalties
                                                  Payable      Administrative Fees       Total           Total

     1. Intra-governmental Payables:          $      748,279    $         N/A        $    748,279    $   1,002,282

     2. Nonfederal Payable (to the Public):   $    1,510,329    $            0       $   1,510,329   $   2,075,026

     3. Total                                 $    2,258,608    $            0       $   2,258,608   $   3,077,308


     4. Other Information Related to Accounts Payable

     Intragovernmental Accounts Payable consists of amounts owed to other federal agencies for goods or
     services ordered and received but not yet paid. Interest, penalties and administrative fees are not applicable
     to intragovernmental payables. Non-Federal Payables (to the Public) are payments to nonfederal
     government entities.

     Fluctuation and/or Abnormalities
     Accounts Payable decreased overall 26.6% from FY 2001. DON is actively pursuing the timely payment of
     vendors. Additionally, Intragovernmental and Nonfederal accounts payable are directly affected by the
     elimination process based upon trading partner submissions. See the disclosures below addressing
     Undistributed, Intragovernmental Eliminations and Abnormal Account Balances. Those items along with
     current levels of funding and the status of budget execution affect current accounts payable balances.

     Undistributed Disbursements
     Undistributed disbursements are the difference between disbursements/collections recorded at the detailed
     level to a specific obligation, payable, or receivable in the activity field records versus those reported by the
     U.S. Treasury via the reconciled DD 1329 and DD1400. This should agree with the undistributed reported
     on accounting reports (SF 133/ (M) 1002/ (M) 1307). In-transit payments are payments that have been
     made for other agencies or entities that have not been recorded in their accounting records.

     Intragovernmental Eliminations
     For the majority of intra-agency sales DON’s accounting systems do not capture trading partner data at the
     transaction level in a manner that facilitates trading partner aggregations. Therefore, DON was unable to
     reconcile intragovernmental accounts payable to the related intragovernmental accounts receivable that
     generated the payable.

     The DoD summary level seller accounts receivables were compared to DON’s accounts payable. An
     adjustment was posted to DON’S accounts payable based on the comparison with the accounts receivable of
     the DoD Components providing goods and services to DON.

     DoD intends to develop long-term systems improvements that will include sufficient up-front edits and controls
     to eliminate the need for after-the-fact reconciliations. The volume of intragovernmental transactions is so
     large that after-the-fact reconciliation can not be accomplished with the existing or foreseeable resources.




78
General Fund Notes to the Principal Statements

  Other DON Disclosures

  Abnormal Account Balances.
  Abnormal Accounts Payable and Accounts Receivable balances may occur for two main reasons – 1) the
  application of undistributed disbursement/collections and 2) as a result of the intragovernmental transaction
  elimination process. DFAS Arlington has provided guidance in a memorandum dated March 1, 2001 to
  record accruals, for financial statement presentation purposes, to correct abnormal balances.

  Undistributed disbursements/collections are recorded in Accounts Payable and Accounts Receivable,
  respectively. For a variety of reasons, the application of undistributed transactions may result in abnormal
  balances.

  In accordance with the DoD FMR, Volume 6B, Chapter 13, adjustments are recorded, at the appropriation
  level, to bring DON’s intragovernmental accounts into agreement with its trading partners’ intragovernmental
  accounts. These elimination process adjustments may also result in abnormal accounts payable and
  accounts receivable.

  DON has initiated the development of an Accounts Payable Implementation Strategy to improve the
  recording and reporting of accounts payable. The strategy addresses the overall DON approach to
  recording accounts payable, including accounts payable from commercial and intragovernmental sources.
  Development of the implementation strategy is in its final stages and includes several recommendations for
  improvements. These address, for example, the timely recording of accounts payable transactions, the
  proper classification of accounts payable between the government and the public, the identification of
  intragovernmental trading partners and related transactions, and the support of end-of-period adjusting
  entries for undistributed disbursements and intragovernmental eliminations.

  See Note Disclosure 1.G. – Significant Accounting Policies for additional discussion on financial reporting
  requirements and DoD policies governing accounting for Intragovernmental Activities.




                                                                                                                  79
     NOTE 13. DEBT
     As of September 30,
     (Amounts in thousands)                                              2002                                2001
                                                   Beginning              Net             Ending            Ending
                                                    Balance           Borrowings          Balance           Balance
     1. Agency Debt:
        A. Debt to the Treasury                $           0      $            0      $           0     $              0
        B.Debt to the Federal Financing Bank               0                   0                  0                    0
        C. Debt to Other Federal Agencies                 61                  66                127                   61
        D. Total Agency Debt                   $          61      $           66      $         127     $             61

     2. Total Debt:                            $          61      $           66      $         127     $             61

     3. Classification of Debt:
        A.Intra-governmental Debt                                                     $         127     $           61
        B.Non-Federal Debt                                                                      N/A                N/A
        C. Total Debt                                                                 $         127     $           61

     4. Other Information Related to Debt

     Debt to Other Federal Agencies is related to interest payable from DON to the Education Benefit Trust Fund
     which is part of DoD Military Trust Fund. Amounts due and payable are based upon the DoD Education Trust
     as the trading partner (seller side) submission.

     See Note Disclosure 1.G. – Significant Accounting Policies for additional discussion on financial reporting
     requirements and DoD policies governing Accounting for Intragovernmental Activities, Public Debt.




80
General Fund Notes to the Principal Statements

  NOTE 14. ENVIRONMENTAL RESTORATION (CLEANUP) LIABILITIES AND
  E N V I R O N M E N TAL DISPOSAL LIABILITIES
  As of September 30,
  (Amounts in thousands)

  1. Environmental Liabilities:                                                             2002                            2001
  A. Intragovernmental: Not Applicable.                                   Current         Noncurrent
  B. Non-federal:                                                         Liability        Liability        Total           Total
       1. Accrued Environmental Restoration (DERP funded) Costs:
          a. Active Installations—Environmental Restoration (ER)      $    259,389    $    3,261,449   $   3,520,838    $   3,661,174
          b. Active Installations—ER for Closed Ranges                       7,000           342,975         349,975           88,239
          c. Formerly Used Defense Sites (FUDS) – ER                             0                 0               0                0
           d. FUDS—ER for Transferred Ranges                                     0                 0               0                0

      2. Other Accrued Environmental Costs (Non-DERP funds)
         a. Active Installations—Environmental Corrective Action                  0               0                 0               0
         b. Active Installations—Environmental Closure Requirements               0               0                 0               0
         c. Active Installations—Environ.Response at Active Ranges                0               0                 0               0
         d. Other                                                                 0               0                 0               0

      3. Base Realignment and Closure (BRAC)
         a. BRAC Installations—Environmental Restoration (ER)              160,210         1,133,101       1,293,311        1,316,295
         b. BRAC Installations—ER for Transferring Ranges                        0            29,896          29,896                0
         c. BRAC Installations—Environmental Corrective Action                   0                 0               0                0
         d. Other                                                                0                 0               0                0

      4. Environmental Disposal for Weapons Systems Programs
         a. Nuclear Powered Aircraft Carriers                                    0         4,890,000       4,890,000        4,890,000
         b. Nuclear Powered Submarines                                      43,600         4,845,300       4,888,900        5,122,400
         c. Other Nuclear Powered Ships                                          0           269,100         269,100          269,100
         d. Other National Defense Weapons Systems                           6,809           220,244         227,053          237,250
         e. Chemical Weapons Disposal Program                                    0                 0               0                0
         f. Other                                                                0                 0               0                0

      5. Total Nonfederal Environmental Liabilities:                  $    477,008    $ 14,992,065     $ 15,469,073     $ 15,584,458

  2. Total Environmental Liabilities:                                 $    477,008    $ 14,992,065     $ 15,469,073     $ 15,584,458

  3. Other Information Related to Environmental Liabilities:

  Fluctuation and/or Abnormalities

  When comparing FY 2001 with FY 2002 the increase in the environmental restoration for closed ranges at
  active installations is due to the fact that this is a new reporting requirement. The 100% increase for
  transferring ranges and Base Realignment and Closure is a result of a new reporting requirement. The DON
  is currently in the process of conducting Preliminary Assessment/Site Investigations (PA/SI)to determine the
  nature of the environmental restoration work that is actually at the ranges so estimates for cleanup can be
  completed. PA/SIs are expected to be completed by end of FY 2003.
                                                                                                                                        81
     Environmental Restoration (DERP Funded) Cost Liabilities
     For FY 2002, DON estimated and reported $3,870,813 thousand for environmental restoration liabilities.
     This is comprised of $3,520,838 thousand in Active Installations - Environmental Restoration (ER) liabilities
     and $349,975 thousand in Active Installations – ER for Closed Ranges liabilities which represents
     Unexploded Ordnance Cost (UXO) related to twelve sites. DON was not segregating and reporting UXO
     prior to FY 2001 as part of the total amount disbursed. The DoD FMR, Volume 6B, Chapter 10 requires that
     “any estimate produced must be based on site specific information and use cost models validated in
     accordance with DoD instruction 5000.61”. DON plans to support this requirement and continue validating
     its range inventory and pursuing the process of obtaining valid cost estimates for each range. The increase in
     the ER closed ranges is due to the addition of ranges from the start up of the munitions response program
     (MRP).

     Other Accrued Environmental Costs (Non-DERP funds)
     During FY 2002, DON participated in DoD Environmental Quality Liabilities Working Group to develop
     guidance. In addition, the DON developed guidance for the DON Major Commands to use as they begin to
     identify site data and develop estimates for DON’s “ongoing” operations. The DON continued review of
     program areas such as solid waste management unit cleanup, landfill closure, permitted facilities, removal,
     replacement, retrofill, and/or disposal of PCB transformers, underground storage tank remedial investigation
     and closure. For these areas the DON has identified an estimated total potential long term liability of
     $17,344 thousand. In addition to cleanup costs associated with ongoing operations, the Kaho’Olawe Island
     Trust Fund provides for cleanup of Kaho’Olawe Island. Congress initially set a funding limit of $400,000
     thousand with annual execution of $25,000 thousand. Further investigation is needed prior to recognizing
     an estimate on the financial statements for cleanup of Kaho’Olawe Island.

     Base Realignment and Closure (BRAC)
     The increase of BRAC Installations – ER for Transferring Ranges is due to the addition of ranges from the start
     up of the MRP.

     Environmental Disposal for Weapons Systems Programs
     DON reported an environmental disposal liability for Weapons Systems Programs of $10,275,053 thousand
     in FY 2002. This includes nuclear powered aircraft carriers, nuclear powered submarines, other nuclear
     powered ships and other national defense weapons systems. The liability amount associated with nuclear
     powered ships of $269,100 thousand did not change from FY 2001 to FY 2002.

     Range Characteristics
     For FY 2002, the DON determined that it owns 12 closed ranges.

     Ranges. DON is currently in the process of doing Preliminary Site Investigations (PSIs). The purpose of the
     PSI is to help DON staff determine the nature of the work that is actually at the ranges so then actual
     estimates can be completed. Expected completion date of the PSIs is the end of FY 03.

     Closed Ranges. $349,975 thousand must be expended to characterize and investigate the ranges. Until
     such characterization is completed, total environmental liabilities cannot be estimated. These are ranges that
     have been taken out of service as a range and that either have been put to new uses that are incompatible
     with ranges activities or are not considered by the military to be potential range area. A closed range is still
     under the control of a DOD Component.




82
General Fund Notes to the Principal Statements

  Methodology Used to Estimate Environmental Liabilities:

  Accrued Environmental Restoration (DERP Funded) Costs:
  Accrued Environmental Restoration Activity.
  Accrued restoration (cleanup) liabilities represent the cost to correct past environmental problems that are
  funded under the Defense Environmental Restoration Program in accordance with “Management Guidance
  for the DERP,” and “Accrued Environmental Restoration (Cleanup) Liabilities,” Chapter 14 of Volume 4 of the
  DoD FMR. These liabilities relate to PP&E, including acquired land and Stewardship Land, as those major
  asset categories are described in Chapter 6 of Volume 4 of the DoD FMR. Environmental restoration
  activities may be conducted at operating installations, at FUDS, at Closed, Transferred, and Transferring
  Ranges. Environmental restoration measurements involve the use of cost estimates that consider, on a current
  cost basis, the anticipated costs of the level of effort required to affect the restoration, as well as applicable
  legal and/or regulatory requirements. The estimates are based on DON’s cost-to-complete (CTC) module of
  the DON Normalization of Data System (NORM). Certification of the CTC module was completed early in
  FY 2002. Such cost estimates are based on the current technology available. Site inventory and estimated
  cost data prepared for the DERP report to the Congress was used by the DON as the baseline for
  environmental restoration (cleanup) liability measurement (i.e., the current cost to acquire the required
  services). The Accrued Environmental Restoration (Cleanup) Costs do not include the costs of environmental
  compliance, pollution prevention, conservation activities, contamination or spills associated with current
  operations, or treaty obligations, all of which are accounted for as part of ongoing operations.

  Active Installations – Environmental Restoration For Closed Ranges.
  This represents the environmental liabilities associated with the identification, investigation and removal and
  remedial actions to address environmental contamination at ranges that are closed or will be closed prior to
  September 30, 2002. The contamination may include munitions, chemical residues from military munitions
  and munitions scrap at ranges on active installations that pose a threat to human health or the environment.
  The amount reported is the portion of the liability that can be estimated based on site level investigations
  and characterizations. The estimate produced is based on site specific information and use cost models
  validated in accordance with DoD Instruction 5000.61. Total liabilities (cost to complete) are not estimated
  until there is sufficient site specific data available to estimate the total liability.

  Information regarding changes
  Survey data of the Department of the Navy Environmental Restoration Program cost estimate changes,
  representing FY 2002 through completion changes between end of year 2001 and end of year 2002, for
  sites that had over 10% change or 500K indicates diverse reasons for change in estimates. Multiple reasons
  may apply both as plus-ups and deducts at any site. The reasons for changes are estimation changes (26%),
  regulatory changes (60%), and technical changes (15%). Reasons for changes in estimation are as follows:
  cost to complete (CTC) overlooked or previously unknown, better site characterization with sampling, cost
  avoidance rerun CTC, re-estimation based on different assumptions and/or escalation, and re-estimation of
  costs based on lessons learned. Reasons for changes in the area of regulatory are as follows: addition of
  range rule/munitions requirements, additional or extended long term monitoring requirements or 5 year
  reviews, no further action agreement with regulator, and risk based corrective action. Reasons for changes
  in the area of technical are as follows: additional contamination level reduction with sampling, additional or
  extended remedial action operation, additional sites and incomplete site data, and technical solution
  changed.

  For additional information concerning applicable laws and regulations, methodology for assigning estimated
  cleanup costs, and description of sites and technology used for cleanup consult the DON publication “DON
  Environmental Restoration: Report for Fiscal Year 2002-2006”
                                                                                                                       83
     NOTE 15.A. OTHER LIABILITIES
     As of September 30,
     (Amounts in thousands)
                                                                                                    2002                           2001
                                                                                  Current         Noncurrent
                                                                                  Liability        Liability        Total           Total
     1. Intragovernmental:
        A.Advances from Others                                                $          0    $           0    $          0    $          0
        B. Deferred Credits                                                              0                0               0               0
        C. Deposit Funds and Suspense Account Liabilities                          250,075                0         250,075         178,939
        D.Resources Payable to Treasury                                                930                0             930             480
        E. Disbursing Officer Cash                                                 130,664                0         130,664         160,589
        F. Non-environmental Disposal Liabilities
           1. National Defense PP&E (Nonnuclear)                                          0               0                0               0
           2. Excess/Obsolete Structures                                                  0               0                0               0
           3. Conventional Munitions Disposal                                             0               0                0               0
           4. Other                                                                       0               0                0               0
        G.Accounts Payable -- Cancelled Appropriations                                    0               0                0               0
        H.Judgment Fund Liabilities                                                 105,842               0          105,842         135,716
        I. FECA Reimbursement to the Department of Labor                            246,881         319,264          566,145         558,574
        J. Capital Lease Liability                                                        0               0                0               0
        K.Other Liabilities                                                       2,435,847               0        2,435,847          31,887
        L. Total Intragovernmental Other Liabilities                          $   3,170,239   $     319,264    $   3,489,503   $   1,066,185

     2. Nonfederal:
        A. Accrued Funded Payroll and Benefits                                $   1,011,367   $           0    $   1,011,367   $    986,194
        B.Advances from Other                                                         1,135               0            1,135              0
        C. Deferred Credits                                                               0               0                0              0
        D.Loan Guarantee Liability                                                        0               0                0              0
        E. Liability for Subsidy Related to Undisbursed Loans                             0               0                0              0
        F. Deposit Funds and Suspense Accounts                                            0               0                0              0
        G. Temporary Early Retirement Authority                                       2,209               0            2,209         12,471
        H.Nonenvironmental Disposal Liabilities:
           1. National Defense PP&E (Nonnuclear)                                      1,707         564,445          566,152        588,025
           2. Excess/Obsolete Structures                                             41,685         290,890          332,575        117,000
           3. Conventional Munitions Disposal                                             0               0                0
           4. Other                                                                       0               0                0               0
        I. Accounts Payable -- Cancelled Appropriations                              68,833               0           68,833               0
        J. Accrued Unfunded Annual Leave                                          2,031,961               0        2,031,961       1,768,195
        K.Accrued Entitlement Benefits for Military Retiree’s and Survivors               0               0                0
        L. Capital Lease Liability                                                      910               0              910          10,134
        M.Other Liabilities                                                          97,880          72,464          170,344         128,880
        N. Total Nonfederal Other Liabilities                                 $   3,257,687   $     927,799    $   4,185,486   $   3,610,899

     3. Total Other Liabilities:                                              $   6,427,926   $    1,247,063   $   7,674,989   $   4,677,084

     4. Other Information Related to Other Liabilities:




84
General Fund Notes to the Principal Statements

  Fluctuations and/or Abnormalities.

  Intragovernmental Fluctuations
  (Amounts in thousands)
                                                                        FY 2002               FY 2001          Increase
  A-12 aircraft program (principal and interest)                    $     2,352,446       $            0   $    2,352,446
  Military Thrift Savings deposit fund                                       23,966                    0           23,966
  Withheld state and local taxes                                             86,980               62,692           24,288
  Civilian employee allotments                                               21,841                   72           21,769
  Total                                                             $     2,485,233       $       62,764   $    2,422,469

  Other Intragovernmental Liabilities increased 227.2% or $2,423,318 thousand from FY 2001 to FY 2002.
  A liability to Treasury for the A-12 aircraft program unliquidated progress payments and associated accrued
  interest represents $2,352,446 thousand of this increase. See Notes 5 and 11 for further disclosure.
  Deposit funds and suspense account liabilities increased $71,136 thousand from FY 2001 to FY 2002.
  Deposit funds and suspense accounts ending balances may fluctuate based upon the timing of clearing
  suspense and the transfer of funds in deposit accounts. The major items comprising the increase are the new
  Military Thrift Savings Plan for $23,966 thousand, Withheld State and local taxes for $24,288 thousand
  and Civilian employee allotments for $21,769 thousand.

  Nonenvironmental Disposal Liability Disclosure

  Nuclear Assets
  DON has agreed to recognize the nonenvironmental disposal liability for nuclear powered assets when the
  asset is initially placed in service. The nonenvironmental cost are included with the environmental disposal
  costs and reported in Note 14.

  Excess/Obsolete Structures
  Included in the reported amounts is the current cost basis estimates of disposing of, or demolishing,
  approximately $332,575 thousand worth of square feet of excess/obsolete structures at active installations,
  in accordance with disposal plans directed by Defense Reform Initiative Directive No. 36 Dated 5 May
  1998. The expected completion date is FY 2003. This target includes both the Navy and the Marine Corps
  real property assets.

  Intragovernmental Reconciliation for Fiduciary Transactions With DOL and OPM
  With respect to the major fiduciary balances with DOL and OPM, DON was able to reconcile with the DOL
  and OPM. In FY 2002, DON reported the following Intragovernmental liabilities with DOL and OPM:

  Intragovernmental Fiduciary Liabilities DOL and OPM:
  (Amounts in thousands)
                                                                        Current           Non-Current          Total
  FECA Reimbursement liability with DOL                         $          246,881    $         319,264    $     566,145
  Unemployment Benefits liability with DOL                                  50,729                    0           50,729
  VSIP/VERA liability with OPM                                              32,672                    0           32,672
  Total                                                         $          330,282    $         319,264    $     649,546

  Judgment Fund.
  DON must reimburse the Department of Treasury for payments made from the Judgment Fund on its behalf.
  These payments are a result of claims being resolved under the Contracts Dispute Act. In FY 2002, DON
                                                                                                                            85
  made great strides in reconciling and identifying outstanding liability due to the Department of the Treasury
  Judgment Fund. As of September 30, 2002, DON identified $105,842 thousand of outstanding Judgment
  Fund Liabilities. DON is working closely with Treasury to reconcile and to resolve the outstanding liabilities.
     Intragovernmental Liabilities, Other.
     Other Intragovernmental Liabilities includes the liability to Treasury for the A-12 aircraft program with
     associated accrued interest of $2,352,446 thousand, Unemployment benefits due and payable of $50,729
     thousand and the Voluntary Separation Incentive Program/VERA liability of $32,671 thousand.

     Nonfederal Liabilities.

     Nonfederal Fluctuations
     (Amounts in thousands)
                                                                        FY 2002             FY 2001            Increase
     Accrued (unfunded) annual leave                                $     2,031,960     $    1,768,195     $       263,765
     Nonenvironmental Disposal Excess and Obsolete                          332,575            117,000             215,575
     Accounts payable for cancelled appropriations                           68,833                  0              68,833
     Accrued funded payroll                                               1,011,367            986,194              25,173
     Total                                                          $     3,444,735     $    2,871,389     $       573,346

     Nonfederal Liabilities increased 15.9% or $574,587 thousand from FY 2001 to FY 2002. Accrued unfunded
     annual leave increased $263,765 thousand from FY 2001 to FY 2002. Increases and decreases in leave
     are affected by the timing of leave earned versus leave taken. Nonenvironmental Disposal liabilities for
     Excess/Obsolete Structures increased $215,575 thousand from FY 2001 to FY 2002 based upon current
     estimates. Accounts Payable for cancelled appropriations increased by $68,833 thousand over FY 2001 to
     FY 2002. Cancelled year accounts payable were not recorded in FY 2001. Nonfederal, Accrued Funded
     Payroll increased by $25,173 thousand from FY 2001 to FY 2002 due to the September 2002 month end
     Military payroll being paid in October 2002.

     Nonfederal Liabilities, Other.
     Other Nonfederal Liabilities includes Contract Incentives of $78,165 thousand, which increased $14,926
     thousand from FY 2001 to FY 2002 based upon current contract terms in outstanding vendor performance
     contracts. The remainder represents contract holdbacks of $92,179 thousand, which increased $26,538
     thousand from FY 2001 to FY 2002. Contract holdbacks may fluctuate depending on the volume and stage
     of completion of contracts with vendors


     See Note Disclosure 1.S. – Significant Accounting Policies for additional discussion on financial reporting
     requirements and DoD policies governing Contingencies and Other Liabilities.




86
General Fund Notes to the Principal Statements

  NOTE 15.B. CAPITAL LEASE LIABILITY
  As of September 30,
  (Amounts in Thousands)                                                2002 Asset Category                                2001
                                                  Land and
                                                  Buildings       Equipment              Other           Total             Total
  1. Future Payments Due:
     A. Fiscal Year 2003                      $           0   $         910          $           0   $           910   $       2,184
     B. Fiscal Year 2004                                  0               0                      0                 0             641
     C. Fiscal Year 2005                                  0               0                      0                 0               0
     D. Fiscal Year 2006                                  0               0                      0                 0               0
     E. Fiscal Year 2007                                  0               0                      0                 0               0
     F. After 5 Years                                     0               0                      0                 0               0
     G. Total Future Lease Payments Due       $           0   $         910          $           0   $           910   $       2,825
     H.Less: Imputed Interest Executory Costs             0               0                      0                                 0
     I. Net Capital Lease Liability           $           0   $         910          $           0   $           910   $       2,825

  2. Capital Lease Liabilities Covered by Budgetary Resources:                                       $           910   $       2,184

  3. Capital Lease Liabilities Not Covered by Budgetary Resources:                                   $             0   $           641

  4. Other Information Related to Capital Lease Liability

  The liabilities associated with capital leases are captured in legacy systems and are often not recorded. The
  DON has recognized a liability equal to the net value of the assets (i.e. gross value less accumulated
  amortization). The resulting liability was recorded as a payment due in FY 2003. The proper breakout of
  future payments to appropriate years will be done when a process for capturing lease liabilities is
  implemented.


  See Note Disclosure 1.Q. – Significant Accounting Policies for additional discussion on financial reporting
  requirements and DoD policies governing Leases.




                                                                                                                                         87
     NOTE 16. COMMITMENTS AND CONTINGENCIES

     Other Information Related to Commitments and Contingencies

         • At this time the DON is unable to collect data concerning cancelled appropriations that have a
           contractual commitment for payment and amounts for contractual arrangements which may require
           future financial obligations (undelivered orders).

         • Disclosure Related to Contingencies Liabilities

     The DON reported contingencies as “reasonably possible.” Federal Accounting Standards Advisory Board
     defines “Reasonably Possible,” as: “The chance of the future confirming event or events occurring is more
     than remote but less than probable.” “Reasonably possible” events require disclosure only in the footnotes.

     For FY 2002, the DON is subject to various asserted claims. These claims are in various stages ranging from
     investigation to appeal. While remaining unresolved as of the close of FY 2002, prior experience affords the
     DON the ability to forecast the possible loss associated with the claims. It is to be noted that most claims are
     settled for less than the amount initially claimed, dismissed outright, or fail to materialize. As of 30
     September 2002, contingent liabilities consist of an estimated $117,474 thousand resulting from contractual
     actions; $6,774 thousand for employee related actions; and $139,353 thousand for Italian civil litigation.


                                       Category                          $ in thousands
                               Contractual Actions                      $ 117,474
                               Employee Related Actions                          6,774
                               Italian Civil Litigation                      139,353
                               Total                                    $ 263,601

     See Note Disclosure 1.S. – Significant Accounting Policies for additional discussion on financial reporting
     requirements and DoD policies governing Contingencies and Other Liabilities.




88
General Fund Notes to the Principal Statements

  NOTE 17. MILITA RY RETIREMENT BENEFITS AND OTHER EMPLOYMENT RELAT E D
  ACTUARIAL LIABILITIES
  As of September 30,                                                              2002                                              2001
                                                  Actuarial Present    Assumed            (Less: Assets       Unfunded             Unfunded
  (Amounts in Thousands)                          Value of Projected    Interest           Available to       Actuarial            Actuarial
                                                    Plan Benefits      Rate (%)           Pay Benefits)        Liability            Liability
  1. Pension and Health Benefits:
     A. Military Retirement Pensions              $           0          0%           $              0    $                0   $                0
     B. Military Retirement Health Benefits                   0          0%                          0                     0                    0
     C. Medicare-Eligible Retiree Benefits
     D. Total Pension and Health Benefits         $           0                       $              0    $                0   $                0

  2. Other:
     A. Federal Employees Compensation Act        $    1,546,375       5.21%          $              0    $    1,546,375       $     1,595,890
     B. Voluntary Separation Incentive Programs                0         0%                          0                 0                     0
     C. DoD Education Benefits Fund                            0         0%                          0                 0                     0
     D. Total Other                               $    1,546,375                      $              0    $    1,546,375       $     1,595,890

  3. Total Military Retirement Benefits
     and Other Employment Related
     Actuarial Liabilities:                       $    1,546,375                      $              0    $    1,546,375       $     1,595,890


  4. Other Information Related to Military Retirement Benefits and Other Employment-Related Actuarial Liabilities:

  Reporting of Military Retirement Benefits by the Military Retirement Fund (MRF). The portion of the military retirement
  benefits actual liability applicable to the DON is reported on the financial statements of MRF.

  Reporting of Liability Pertaining to Military Health Benefits Compensation. Health benefits are funded centrally at the
  DoD level. As such the portion of the health benefits actuarial liability that is applicable to DON is reported
  only on the DoD Agency-wide financial statements.

  Federal Employees Compensation Act (FECA).
  Actuarial Cost Method Used:
  Assumptions:

  Future Workers’ Compensation
  The DON’s actuarial liability for workers’ compensation benefits is developed by DOL and provided to DON
  at the end of each fiscal year. The liability includes the expected liability for death, disability, medical, and
  miscellaneous costs for approved compensation cases. The liability is determined using a method that
  utilizes historical benefit payment patterns to predict the ultimate payments. The projected annual benefit
  payments are then discounted to the present value using the OMB’s economic assumptions for 10-year U.S.
  Treasury notes and bonds. Cost of living adjustments and medical inflation factors are also applied to the
  calculation of projected future benefits. Interest rate assumptions utilized for discounting were as follows:
         FY 2002
         5.21% in Year 1
         5.21% in Year 2 and thereafter

  Inflation factors were applied to provide more specifically the effects on the liability for future workers’
  compensation benefits. Cost of living adjustments (COLAs) were used as a wage inflation factor and                                                89
  consumer price index medical (CPIMs) were used as medical inflation factors. These factors were also used
  to adjust the methodology’s historical payments to current year constant dollars.
     The compensation COLAs and CPIMs used in the projections for various charge back years (CBY) were as
     follows:

                              CBY                     COLA                CPIM
                            2002                     3.00%               4.15%
                            2003                     2.56%               4.09%
                            2004                     2.50%               4.09%
                            2005+                    2.50%               4.09%

     The model’s resulting projections were analyzed to insure that the estimates were reliable. The analysis was
     based on two tests: (1) a comparison of the percentage change in the liability amount by agency to the
     percentage change in the actual payments, and (2) a comparison of the ratio of the estimated liability to the
     actual payment of the beginning year calculated for the current projection to the liability-payment ratio
     calculated for the prior projection.

     The estimate was allocated between General Fund and Navy Working Capital Fund using a percentage
     based on the number of civilian employees taken from the Navy Budget Tracking System. The following table
     details the numbers used in support of the allocation:

                                                                                   Personnel        Allocation %
       DON General Fund                                                                104,672          54%
       DON Working Capital Fund                                                         89,212          46%
       Total                                                                           193,884          100%

     Voluntary Separation Incentive (VSI) Program. The Voluntary Separation Incentive (VSI) Fund (recorded on the
     books of the U.S. Treasury) is used to accumulate funds to finance, on an actuarially sound basis, the
     liabilities of the DoD incurred under this program. The VSI benefit is an annual annuity paid to members
     who have separated under this program, and is paid for a period of time equal to twice the members’ years
     of service. These benefits are paid by the VSI fund, which receives contributions from the services from their
     military personnel accounts. Contributions amounts are determined by the DoD, Office of the Actuary in
     conjunction with the USD(C), based on a comparison of liabilities to assets.

     DoD Education Benefits Fund. The DoD Education Benefits Fund is designed to accumulate funds for the
     educational programs described under Title 10 United States Code, section 2006. This program promotes
     the recruitment and retention of members for the All-Volunteer Forces program and the Total Force Concept
     of the Armed Forces and aids in the readjustment of members of the Armed Forces to civilian life after
     separation from military service.


     NOTE 18. UNEXPENDED APPROPRIAT I O N S
     As of September 30,
     (Amounts in Thousands)

     1. Unexpended Appropriations:                                                  2002              2001
       A. Unobligated, Available                                                 $ 10,567,040     $ 12,391,407
       B. Unobligated, Unavailable                                                  1,318,416        1,444,855
       C. Unexpended Obligations                                                   52,888,872       48,146,256
       D. Total Unexpended Appropriations                                        $ 64,774,328     $ 61,982,518

     2. Other Information Pertaining to Unexpended Appropriations:




90
General Fund Notes to the Principal Statements

  NOTE 19.A GENERAL DISCLOSURES RELATED TO THE STATEMENT OF NET COST
  The Consolidated Statement of Net Cost in the federal government is unique because its principles are driven
  on understanding the net cost of programs and/or organizations that the federal government supports
  through appropriations or other means. This statement provides gross and net cost information that can be
  related to the amount of output or outcome for a given program and/or organization administered by a
  responsible reporting entity.

  The amounts presented in the Statement of Net Cost (SoNC) are based on obligations and disbursements
  and therefore may not in all cases report actual accrued costs. The DON generally records transactions on
  a cash basis and not an accrual basis as is required by Federal GAAP. Therefore, the DON systems do not
  capture actual costs. As such, information presented in the SoNC is based on budgetary obligations,
  disbursements, and collection transactions, as well as non-financial feeder systems; then adjusted to record
  known accruals for major items such as payroll expenses, accounts payable, and environmental liabilities.

  The Intragovernmental costs for FY 2001 is $1,357 thousand higher than the published statement last year,
  while the earned revenue is $1,357 thousand lower than the published statement last year. It is due to
  erroneous mapping in the Statement of Net Cost last year. Expense account 6800F was mapped to revenue
  account in FY 2001. The error was corrected in FY 2002.

  NOTE 19.B. GROSS COST AND EARNED REVENUE BY BUDGET FUNCTIONAL
  C L A S S I F I C ATION - Not applicable

  NOTE 19.C. GROSS COST TO GENERATE INTRA-GOVERNMENTAL REVENUE AND
  EARNED REVENUE (TRANSACTIONS WITH OTHER FEDERAL - NON-DoD - ENTITIES)
  BY BUDGET FUNCTIONAL CLASSIFICATION - Not applicable

  NOTE 19.D. IMPUTED EXPENSES
  As of September 30,
  (Amounts in thousands)
                                                                                     2002              2001
  1.   Civilian (e.g.,CSRS/FERS) Retirement                                      $    183,704      $    186,162
  2.   Civilian Health                                                                235,713           244,331
  3.   Civilian Life Insurance                                                            880               835
  4.   Judgment Fund/Litigation                                                       104,997            59,130
  5.   Military Retirement Pension                                                          0                 0
  6.   Military Retirement Health                                                           0                 0
  7.   Total Imputed Expenses                                                    $    525,294      $    490,458

  Other Information Related to Imputed Expenses
  The DON financial statements have recognized an imputed expense for civilian employee pensions, life
  insurance, and health benefits in the Statement of Net Cost. Imputed expenses for employee benefits were
  calculated using cost factors provided by OPM applied against gross basic pay for all categories of civilian
  service employees. The gross basic pay amounts were extracted directly from the Defense Civilian Pay
  System (DCPS).

  NOTE 19.E. BENEFIT PROGRAM EXPENSES
  Not applicable.
                                                                                                                  91
  NOTE 19.F. EXCHANGE REVENUE
  Disclosures Related to the Exchange Revenue: None.
     NOTE 19.G. AMOUNTS FOR FOREIGN MILITA RY SALES (FMS) PROGRAM
     PROCUREMENTS FROM CONTRACTORS
     Disclosures Related to Amounts for FMS Program Procurements from Contractors: Not applicable.

     NOTE 19.H. STEWARDSHIP ASSETS OTHER INFORMATION RELATED TO STEWA R D S H I P
     ASSETS
     Stewardship assets include Heritage Assets, Stewardship Land, Non-Federal Physical Property, and
     Investments in Research and Development. The current year cost of acquiring, constructing, improving,
     reconstructing, or renovating stewardship assets are included in the Statement of Net Cost. Material yearly
     investment amounts related to stewardship assets are provided in the Required Supplementary Stewardship
     Information section of this financial report.

     NOTE 19.I. INTRAGOVERNMENTAL REVENUE AND EXPENSE
     The majority of DON accounting systems do not capture trading partner data at the transaction level in a
     manner that facilities trading partner aggregations. Therefore, DON was unable to reconcile
     intragovernmental revenue balances with its trading partners. DoD intends to develop long-term systems
     improvements that will include sufficient up-front edits and controls to eliminate the need for after-the-fact
     reconciliations. The volume of intragovernmental transactions is so large that after-the-fact reconciliation can
     not be accomplished with existing or foreseeable resources.

     NOTE 20. DISCLOSURES RELATED TO THE STATEMENT OF CHANGES IN NET
     POSITION
     As of September 30,
     (Amounts in thousands)                                           Cumulative                    Cumulative
                                                                      Results of    Unexpended      Results of       Unexpended
     1. Prior Period Adjustments Increases                            Operations   Appropriations   Operations      Appropriations
                                                                        2002           2002           2001              2001
        (Decreases) to Net Position
        Beginning Balance:
        A.Changes in Accounting Standards                         $            0   $           0    $ 24,765,804    $           0
        B.Errors and Omissions in Prior Year Accounting Reports     (27,802,492)       1,553,324        8,693,901               0
        C.Other Prior Period Adjustments                                       0               0      (1,618,046)               0
        D. Total Prior Period Adjustments                         $ (27,802,492)   $   1,553,324    $ 31,841,659    $           0

     2. Imputed Financing:
        A.Civilian CSRS/FERS Retirement                           $      183,704   $          0     $    186,162    $           0
        B.Civilian Health                                                235,713              0          244,331                0
        C.Civilian Life Insurance                                            880              0              835                0
        D.Military Retirement Pension                                          0              0                0                0
        E. Military Retirement Health                                          0              0                0                0
        F. Judgment Fund                                                 104,997              0           59,130                0
        G. Total Imputed Financing                                $      525,294   $          0     $    490,458    $           0


     3. Other Information Related to the Statement of Changes in Net Position.

     Errors and Omissions in Prior Year Accounting Reports
     Several prior period adjustments were recorded to DON financial statements and were recognized as
     “mistakes in the application of accounting principles,” as described in paragraph 10 of SFFAS No. 21,
     “Reporting Corrections of Errors and Changes in Accounting Principles.” The overall impact of the prior
     period adjustments warrants the restatement of the FY 2001 DON financial statements for comparative



92
General Fund Notes to the Principal Statements

  purposes. These adjustments affected the following financial statements for restatement: Balance Sheet and
  Statement of Changes in Net Position. The prior period adjustments were categorized as follows:

  (Amounts in thousands)                                              Cumulative Results     Unexpended
                                                                        of Operations       Appropriations
  Progress Payments                                                    $    6,034,550        $ (6,034,550)
  A -12 Program Contractor Advance and Interest                                                (1,483,365)
  Erroneous Correcting Entry in FY 2001                                   (8,539,173)            8,539,173
  Environmental Liabilities                                                 (532,065)              532,065
  Removal of Tactical Missiles                                           (24,765,804)                    0
  Total                                                                $ (27,802,492)        $ 1,553,323


  Progress Payments (Outstanding Contract Financing Payments) were properly recorded in FY 2001 on the
  Balance Sheet as a capitalized asset. This entry was made as an adjustment to capitalize what was initially
  recorded as an expense. The offsetting entry was made to Unexpended Appropriations. Instead of an
  offsetting entry to Unexpended Appropriations, the entry should have reduced expenses. The offset would
  then have closed to Cumulative Results of Operations. This prior period adjustment reclassifies $6,034,550
  thousand between Unexpended Appropriations and Cumulative Results of Operations.

  The A-12 Program Account Receivable was properly recorded in FY 2001 on the Balance Sheet as an asset.
  The offsetting entry was made to Unexpended Appropriations. The offsetting entry should have been made
  to Other Liabilities. This reflects the fact that this contract receivable is a non-entity asset, since any
  collections made under the A-12 contract are to a cancelled appropriation. Collections will be turned over
  to the Treasury. This prior period adjustment for $1,483,365 thousand reverses the original offsetting entry
  to Unexpended Appropriations and records Other Liabilities with Treasury. See other pertinent disclosures in
  Notes 2, 5, 11 and 15.

  A correcting entry for $8,539,173 thousand was posted in FY 2001 to realign Unexpended Appropriations
  (Note 18) based upon budgetary accounts to the Balance Sheet Unexpended Appropriations based upon
  proprietary accounts. The other three items described herein comprise the basis of that correcting entry.
  This prior period adjustment reverses the effect of the FY 2001 entry.

  Environmental Liabilities were properly recognized as a liability in FY 2000; however, the offset was
  recorded to Unexpended Appropriations. The offsetting entry should have been made to expenses. The offset
  would then have closed to Cumulative Results of Operations. This prior period adjustment reclassifies
  $532,065 thousand between Unexpended Appropriations and Cumulative Results of Operations.

  The FY 2002 “Errors and Omissions in Prior Years Accounting Reports” line is a result of the DoDIG
  directing DON that a prior period adjust be made to remove $24,765,804 thousand in Operating Materials
  and Supplies (OM&S) from the Inventory and Related Property line of the FY 2001 DON Financial
  Statements. In addition, any adjustment needed to reflect that those assets are not included in the FY 2002
  DON financial statements also should be made. Therefore, this PPA removes all conventional missiles and
  torpedoes previously reported as OM&S from the FY 2001 and FY 2002 financial statements. This
  restatement of the FY 2001 values aligns DON financial statement with the FY 2001 U.S. Government-wide
  financial statement.

  Imputed Financing
  DON financial statements have recognized an imputed financing source for civilian employee pensions, life      93
  insurance, and health benefits in the Statement of Net Cost. Imputed financing sources for employee benefits
  were calculated using cost factors provided by OPM applied against gross basic pay for all categories of
  civilian service employees. The gross basic pay amounts were extracted directly from the Defense Civilian
  Pay System (DCPS).
     Judgment Fund
     Treasury provided information related to amounts paid for Judgment Fund liabilities on behalf of the DON,
     which the DON may or may not be required to repay. Judgment Fund payments made out of the following
     Treasury appropriations do not require reimbursement, and therefore represent imputed financing to DON:
     20X1740, 20X1741, and 20X1742. Only those payments made from Treasury appropriation 20X1743 are
     required to be repaid by DON.


     NOTE 21.A. DISCLOSURES RELATED TO THE STATEMENT OF BUDGETA RY RESOURCES
     As of September 30, 2002
     (Amounts in thousands)
                                                                                                              2002            2001
     1. Net Amount of Budgetary Resources Obligated for Undelivered Orders at the End of the Period      $ 61,642,520    $ 50,965,920

     2. Available Borrowing and Contract Authority at the End of the Period                                          0                0

     3. Other Information Related to the Statement of Budgetary Resources

     Apportionment Categories
     (Amounts in thousands)
                                                                                             Direct       Reimbursable
                                                                                           Obligations     Obligations        Total
     Category A Obligations                                                              $ 99,307,751    $ 12,208,795    $ 111,516,546
     Category B Obligations                                                                         0               0                0
     Exempt From Apportionment                                                                      0               0                0
     Total                                                                               $ 99,307,751    $ 12,208,795    $ 111,516,546



     Undelivered Orders
     Undelivered Orders presented in the Statement of Budgetary Resources includes Undelivered Orders-Unpaid
     for both direct and reimbursable funds. DON has not fully implemented the USSGL in all operational
     accounting systems.

     Spending Authority from Offsetting Collections
     Adjustments in funds that are temporarily not available pursuant to Public Law, and those that are
     permanently not available (included in the “Adjustments” line on the Statement of Budgetary Resources), are
     not included in the “Spending Authority From Offsetting Collections and Adjustments” line on the Statement
     of Budgetary Resources or the “Spending Authority for Offsetting Collections and Adjustments” line on the
     Statement of Financing.

     Other DON Disclosures
     Due to accounting system deficiencies, intragovernmental transactions were not eliminated for the
     presentation of a Consolidated Statement of Budgetary Resources (SBR). As a result a Disaggregated SBR is
     presented in the Required Supplementary Information (RSI) section of the Statements.

     In FY 2002, DoD treated Foreign Military Sales (FMS) Trust Fund transactions as nonfederal, and are
     presented as such in the Balance Sheet (BS) and the Statement of Net Cost. Accounts Receivable and
     Revenues related to FMS are recognized in the SBR. Therefore, reconciling differences exist between the SBR
     and the BS. OUSD(C) Accounting Policy is currently researching the issue to determine the proper treatment
     of FMS Trust Fund transactions to ensure proper reporting.




94
General Fund Notes to the Principal Statements

  In FY 2002, the following two enhancements were made to the Statement of Budgetary Resources to facilitate
  the reconciliation of information between the Statement of Budgetary Resources, the budget execution reports
  (SF 133), and the Budget of the U.S. Government:

  Separate Column for Non-budgetary Credit Program Financing Accounts, This change allows for a clear distinction
  between budgetary and non-budgetary credit program financing account information. Non-budgetary
  credit financing accounts are reported separately from the budgetary totals in the Budget of the U.S.
  Government. Separate reporting on the Statement of Budgetary Resources enhances the reconciliation of the
  two sets of information.
  Offsetting Receipts line, Offsetting Receipts are introduced as a new line item in the Statement of Budgetary
  Resources. These receipts are collections that are credited to the general fund, special fund or trust fund
  receipt accounts. In addition they represent offsetting receipts distributed to DON. Offsetting receipts offset
  budget authority and outlays at the agency level in the Budget of U.S. Government. Offsetting receipts must
  be included in the Statement of Budgetary Resources to reconcile it to information in the Budget of the U.S,
  Government.

  Appropriations received in the Statement of Budgetary Resources (SBR) differs from Appropriations received
  in the Statement of Changes in Net Position by $36,744 thousand, due to the reporting of Trust Fund
  investments that are included as appropriations received in the SBR.

  The Surcharge Commissary Store Trust Fund (8421) was closed in FY 2000. Remaining residual
  unobligated balances were transferred subsequent to FY 2001 year-end to the Midshipman’s Store Trust
  Fund (8423). As a result of this transfer the comparative amounts on the Combined Statement of Budgetary
  Resources FY 2001 ending Unobligated balances, and Obligated balances reconcile to the FY 2002
  beginning Unobligated and Obligated balances by the amounts of $435 thousand and $308 thousand
  respectively. The Midshipman’s Store Trust Fund was subsequently closed in FY 2002 with no residual
  balances.


  NOTE 21.B. DISCLOSURES RELATED TO PROBLEM DISBURSEMENTS, IN-TRANSIT
  DISBURSEMENTS AND SUSPENSE/BUDGET CLEARING ACCOUNTS
  As of September 30,
  (Amounts in thousands)                                                                                  (Decrease)/
                                                      September        September            September    Increase from
                                                        2000             2001                 2002       2001 to 2002
  1. Total Problem Disbursements, Absolute
     A. Unmatched Disbursements, (UMDs)           $      874,000   $      366,000       $      352,000   $   (14,000)
     B.Negative Unliquidated Obligations (NULO)          718,000           69,000               41,000       (28,000)

  2. Total In-transit Disbursements, Net          $      530,000   $       65,256       $       51,551   $   (13,705)




  3. Other Information Related to Problem Disbursements and In-transit Disbursements:

  Definitions

  Absolute value is the sum of the positive values of debit and credit transactions without regard to the sign.

  • UMDs occur when payments do not match to a corresponding obligation in the accounting system.                        95

  • NULOs occur when payments have a valid obligation but the payment is greater than the amount of the
       obligation recorded in the official accounting system. These payments use available funds for valid
       receiving reports on delivered goods and services under valid contracts.

     • In-Transits represents the net value of disbursements and collections made by a DoD disbursing activity on
       behalf of an accountable activity but not yet posted in an accounting system.

     The DON has $ 352,000 thousand in aged UMDs, $41,000 thousand in aged NULOs, and $ 51,551 in
     aged in-transit disbursements that represent disbursements of DON funds that have been reported by a
     disbursing station to the Department of the Treasury but have not yet been precisely matched against the
     specific source obligation giving rise to the disbursements. For the most part, these payments have been
     made using available funds and based on valid receiving reports for goods and services delivered under
     valid contracts. The problem disbursements and in-transit disbursements arise when the DON’s various
     contracting, disbursing, and accounting systems fail to match the data necessary to properly account for the
     disbursement transactions in all applicable accounting systems. The DON has efforts underway to improve
     the systems and to resolve all previous problem disbursements and process all in-transit disbursements. The
     elimination of both Problem Disbursements and aged in-transits is one of the highest financial management
     priorities of the USD(C). Problem Disbursements and In-Transits represent a significant financial management
     concern since: (1) accuracy of accounting reports is affected; (2) availability of funds is more difficult to
     determine; and (3) the required research and resolution process becomes much more labor intensive as the
     age of the problem disbursements increase. As of 30 September 2002, these efforts resulted in a decrease
     (net) of $13,705 thousand in In-Transit Disbursements, an decrease (absolute) of $ 14,000 thousand in
     UMD’s and a decrease (absolute) of $ 28,000 thousand in NULOs over the balances reported as of 30
     September 2001.

     The following table presents aged unmatched disbursements, negative unliquidated obligations, and in-transit
     disbursements as of 30 September 2002 for the DON, including Foreign Military Sales:

     (Amounts in thousands)                                                      Unmatched     Negative Unliquidated
                                                             In-Transit        Disbursements       Obligations
         Aging                                             Disbursements          (UMD’s)            (NULO’s)
         0-30 Days                                     $        687,198    $      152,000        $      15,000
         31-60 Days                                             138,834            62,000                5,000
         61-120 Days                                            102,500            52,000                5,000
         121-180 Days                                               841            15,000                1,000
         181-360 Days                                            45,542            37,000                7,000
         Over 360 Days                                          174,048            34,000                8,000
         Total – Absolute                              $      1,148,963    $      352,000        $      41,000

         Total – Net                                   $        51,551     $      248,000        $      42,000




96
General Fund Notes to the Principal Statements

  2. Suspense/Budget Clearing Accounts

  As of September 30,
  (Amounts in thousands)

  4. Suspense/Budget Clearing Accounts, Net                                                          (Decrease)/
                                                  September        September          September     Increase from
     Account                                        2000             2001               2002       FY 01 to FY 02

      F3875                                   $       96,358   $        43,344    $      112,731   $       69,387
      F3880                                            2,118           (1,749)             2,510            4,259
      F3882                                                0                  0           23,966           23,966
      F3885                                          556,213          801,469            445,921        (355,548)
      F3886                                               47                (1)              622              623
      Total                                   $      654,736   $      843,063     $      585,750   $    (257,313)




  5. Other Information Related to Suspense/Budget Clearing Accounts
  DON has made a concerted effort to reduce balances in the suspense and budget clearing accounts related
  to disbursements that are disclosed on line 4 of this note. Additionally, DON is establishing policies and
  procedures to ensure accurate and consistent use of these accounts. The information presented indicates the
  significant reductions DON has achieved in the various suspense/ budget clearing accounts. On 30
  September of each fiscal year, all of the uncleared suspense/budget clearing account balances are reduced
  to zero (as required by the Department of the Treasury) by transferring the balances to proper appropriation
  accounts. On 1 October of the following year, the uncleared suspense/clearing account balances are only
  reestablished for transactions that were less than 60 days old at the end of the FY (excluding transactions
  dated before 1 January 2001).

  The suspense accounts F3875/3885/3886 temporarily hold collections or disbursements until they can be
  assigned or identified to a valid appropriation. Each suspense account represents the source of transaction
  coming from, i.e. Disbursing Officer’s (DO) suspense (F3875), Interfund/OPAC (F3885), and Payroll (TSP)
  (F3886) suspense. DFAS-CL has implemented several initiatives to improve the suspense clearing process
  and works with DOs to reduce suspense. Matching criteria are currently being developed that will automate
  the manual process now used to clear Interfund transactions from suspense. These initiatives should result in
  reduced suspense balances at year-end. The suspense F3880 represents the Treasury checks that have
  either been lost by the payee and need reissued or never cashed by the payee, cancelled by Treasury and
  require to be transferred to the original appropriation in accordance to the DoD FMR, Volume 5, Chapter 8.
  Account F3882 Uniformed Services Thrift Savings Plan was first established in FY 2002, so there will be not
  be any trend information for FY 2001 and prior.




                                                                                                                    97
     NOTE 22. DISCLOSURES RELATED TO THE STATEMENT OF FINANCING

     Other Information Related to the Statement of Financing

     The Statement of Financing is presented as combined or combining statements rather than consolidated
     statements due to intragovernmental transactions not being eliminated. Adjustments in funds that are
     temporarily not available pursuant to Public Law, and those that are permanently not available (included in
     the “Adjustments” line on the Statement of Budgetary Resources), are not included in “Spending Authority
     From Offsetting Collections and Adjustments” line on the Statement of Budgetary Resources or on the
     Statement of Financing.

     The Statement of Financing was expanded to further articulate and detail the relationship between new
     obligations from budgetary accounting and net cost of operation from proprietary accounting. Some items
     that were reported last year as a single line were subdivided to reflect its components. Several new line
     items were added to separately identify and further explain the use of resources to finance net obligations or
     net cost of operations. This change notes key differences between the net obligations and net cost of
     operations.

     Budgetary data is not in agreement with proprietary expenses and assets capitalized. This causes a
     difference in net cost between the Statement of Net Cost and the Statement of Financing. Adjustments are
     posted to the Statement of Financing for these differences.



     NOTE 23. DISCLOSURES RELATED TO THE STATEMENT OF CUSTODIAL ACTIVITY
     Not applicable.


     NOTE 24. OTHER DISCLOSURES


     NOTE 24.A. OTHER DISCLOSURES - LEASES

     1. ENTITY AS LESSEE-Operating Leases
     As of September 30,
     (Amounts in thousands)                                                2002 Asset Category                            2001
                                                Equipment and       Military Family      Motor
                                                   Facilities           Housing         Vehicles           Total          Total

       Future payments Due: Fiscal Year
          1 (CY+1)                          $        10,933     $             0      $             0   $     10,933   $     12,520
          2 (CY+2)                                    9,220                   0                    0          9,220         15,698
          3 (CY+3)                                    9,464                   0                    0          9,464         13,307
          4 (CY+4)                                    9,619                   0                    0          9,619         11,249
          5 (CY+5)                                    8,955                   0                    0          8,955              0
          After 5 Years                                   0                                                                      0
          Total Future Lease Payments Due   $        48,191     $             0      $             0   $     48,191   $     52,774




98
General Fund Notes to the Principal Statements

  Other Information Related to Entity as Lessee – Operating Leases

  Description of Leases
  Asset Category 1, Equipment and Facilities, in the amount of $48,191 thousand represents $42,412
  thousand Land and Buildings, $663 thousand equipment, and $5,117 thousand Other.

  Other Information

  Definitions
  Lessee – A person or entity who receives the use and possession of leased property (e.g. real estate or
  equipment) from a lessor in exchange for a payment of funds.

  Operating Lease – A lease which does not transfer substantially all the benefits and risk of ownership.
  Payments should be charged to expenses over the lease term as it becomes payable.



  ENTITY AS LESSOR:
  None.

  Other Information Related to Entity as Lessor – Operating Leases

  Other Information

  Definitions
  Lessor – A person or entity who owns property (for example, real estate or equipment) to which a lessee
  receives use and possession in exchange for a payment of funds.

  Capital Lease – A lease that transfers substantially all the benefits and risk of ownership. The lease is
  recorded as an asset by the lessee and is amortized in a manner similar to depreciating assets.

  Operating Lease – A lease which does not transfer substantially all the benefits and risk of ownership.
  Payments should be charged to expense over the lease term as it becomes payable.


  NOTE 24.B. OTHER DISCLOSURES
  Not applicable.




                                                                                                              99
Department of the Navy

                            GENERAL FUND
                              SUPPORTING
                CONSOLIDATING/COMBINING
                              STATEMENTS




                                           101
      Department of Defense
      Department of the Navy
      C O N S O L I D ATING BALANCE SHEET
      As of September 30, 2002 and 2001
      ($ in thousands)




        ASSETS (Note 2)                                             Navy        Marine Corps        Combined Total   Eliminations
            Intragovernmental:
                 Fund Balance with Treasury (Note 3)            $ 65,347,754    $   2,902,201   $ 68,249,955         $          0
                 Investments (Note 4)                                  9,625                0          9,625                    0
                 Accounts Receivable (Note5)                         731,480           74,728        806,208               63,741
                 Other Assets (Note 6)                                67,063               18         67,081                    0
                 Total Intragovernmental Assets                   66,155,922        2,976,947     69,132,869               63,741

           Cash and Other Monetary Assets (Note 7)                    129,556           1,108         130,664                   0
           Accounts Receivable (Note 5)                             2,725,732          74,155       2,799,887                   0
           Loans Receivable (Note 8)                                        0               0               0                   0
           Inventory and Related Property (Note 9)                 32,544,435         459,160      33,003,595                   0
           General Property, Plant and Equipment (Note 10)         21,406,959       4,702,478      26,109,437                   0
           Other Assets (Note 6)                                    4,561,695         218,767       4,780,462                   0
        TOTAL ASSETS                                            $ 127,524,299   $   8,432,615   $ 135,956,914        $     63,741

        LIABILITIES (Note 11)
            Intragovernmental:
                 Accounts Payable (Note 12)                     $     668,444   $    143,576    $       812,020      $     63,741
                 Debt (Note 13)                                            91             36                127                 0
                 Environmental Liabilities (Note 14)                        0              0                  0                 0
                 Other Liabilities (Note 15 & Note 16)              3,430,322         59,181          3,489,503                 0
                 Total Intragovernmental Liabilities                4,098,857        202,793          4,301,650            63,741

           Accounts Payable (Note 12)                               1,404,238        106,091          1,510,329                 0
           Military Retirement Benefits and Other Employment-
                Related Actuarial Liabilities (Note 17)            1,332,273         214,102       1,546,375                    0
           Environmental Liabilities (Note 14)                    15,469,073               0      15,469,073                    0
           Loan Guarantee Liability (Note 8)                               0               0               0                    0
           Other Liabilities (Note 15 and Note 16)                 3,820,475         365,012       4,185,487                    0
        TOTAL LIABILITIES                                       $ 26,124,916    $    887,998    $ 27,012,914         $     63,741

        NET POSITION
            Unexpended Appropriations (Note 18)                    61,818,979       2,955,349      64,774,328                   0
            Cumulative Results of Operations                       39,580,404       4,589,268      44,169,672                   0
        TOTAL NET POSITION                                      $ 101,399,383   $   7,544,617   $ 108,944,000        $          0

        TOTAL LIABILITIES AND NET POSITION                      $ 127,524,299   $   8,432,615   $ 135,956,914        $     63,741




       The accompanying notes are an integral part of these financial statements.

102
Supporting Consolidating/Combining Statements

  Department of Defense
  Department of the Navy
  C O N S O L I D ATING BALANCE SHEET
  As of September 30, 2002 and 2001
  ($ in thousands)




  ASSETS (Note 2)                                                          2002           Restated 2001       2001
      Intragovernmental:
           Fund Balance with Treasury (Note 3)                        $ 68,249,955    $ 66,338,979        $ 66,338,979
           Investments (Note 4)                                              9,625           9,517               9,517
           Accounts Receivable (Note5)                                     742,467       1,042,814           1,042,814
           Other Assets (Note 6)                                            67,081          47,170              47,170
           Total Intragovernmental Assets                               69,069,128      67,438,480          67,438,480

     Cash and Other Monetary Assets (Note 7)                                130,664         160,589             160,589
     Accounts Receivable (Note 5)                                         2,799,887       1,682,230           1,682,230
     Loans Receivable (Note 8)                                                    0               0                   0
     Inventory and Related Property (Note 9)                             33,003,595      36,295,749          61,061,553
     General Property, Plant and Equipment (Note 10)                     26,109,437      24,961,487          24,961,487
     Other Assets (Note 6)                                                4,780,462       6,056,832           6,056,832
  TOTAL ASSETS                                                        $ 135,893,173   $ 136,595,367       $ 161,361,171

  LIABILITIES (Note 11)
      Intragovernmental:
           Accounts Payable (Note 12)                                 $     748,279   $     1,002,282     $   1,002,282
           Debt (Note 13)                                                       127                61                61
           Environmental Liabilities (Note 14)                                    0                 0                 0
           Other Liabilities (Note 15 & Note 16)                          3,489,503         2,549,550         1,066,185
           Total Intragovernmental Liabilities                            4,237,909         3,551,893         2,068,528

     Accounts Payable (Note 12)                                           1,510,329         2,075,026         2,075,026
     Military Retirement Benefits and Other Employment-
          Related Actuarial Liabilities (Note 17)                        1,546,375       1,595,890           1,595,890
     Environmental Liabilities (Note 14)                                15,469,073      15,584,458          15,584,458
     Loan Guarantee Liability (Note 8)                                           0               0                   0
     Other Liabilities (Note 15 and Note 16)                             4,185,487       3,610,899           3,610,899
  TOTAL LIABILITIES                                                   $ 26,949,173    $ 26,418,166        $ 24,934,801

  NET POSITION
      Unexpended Appropriations (Note 18)                                64,774,328      63,535,842       $ 61,982,518
      Cumulative Results of Operations                                   44,169,672      46,641,359          74,443,852
  TOTAL NET POSITION                                                  $ 108,944,000   $ 110,177,201       $ 136,426,370

  TOTAL LIABILITIES AND NET POSITION                                  $ 135,893,173   $ 136,595,367       $ 161,361,171



                                                                                                                          103



  The accompanying notes are an integral part of these financial statements.
      Department of Defense
      Department of the Navy
      C O N S O L I D ATING STATEMENT OF NET COST
      As of September 30, 2002 and 2001
      ($ in thousands)

                                                              Navy               Marine Corps   Combined Total       Eliminations
        Program Costs
        A. Military Personnel
           Intragovernmental Gross Costs                  $   3,597,493      $      1,473,337   $   5,070,830    $           111
           (Less: Intragovernmental Earned Revenue)           (189,587)              (19,602)       (209,189)                  0
           Intragovernmental Net Costs                        3,407,906             1,453,735       4,861,641                111

            Gross Costs With the Public                     18,682,797              6,378,837     25,061,634                   0
            (Less: Earned Revenue From the Public)            (54,974)               (13,106)       (68,080)                   0
            Net Costs With the Public                       18,627,823              6,365,731     24,993,554                   0
            Net Program Costs                             $ 22,035,729       $      7,819,466   $ 29,855,195     $           111

        B. Operation and Maintenance
            Intragovernmental Gross Costs                 $ 19,268,243       $      1,489,097   $ 20,757,340     $       183,482
            (Less: Intragovernmental Earned Revenue)         (696,024)              (328,274)     (1,024,298)          (199,512)
            Intragovernmental Net Costs                     18,572,219              1,160,823      19,733,042           (16,030)

            Gross Costs With the Public                     12,909,344              2,305,864     15,215,208                   0
            (Less: Earned Revenue From the Public)           (954,744)               (76,348)     (1,031,092)                  0
            Net Costs With the Public                       11,954,600              2,229,516     14,184,116                   0
            Net Program Costs                             $ 30,526,819       $      3,390,339   $ 33,917,158     $      (16,030)

        C. Procurement
            Intragovernmental Gross Costs                 $   4,049,743      $        58,469    $   4,108,212    $           234
            (Less: Intragovernmental Earned Revenue)          (100,053)                    0        (100,053)                  0
            Intragovernmental Net Costs                       3,949,690               58,469        4,008,159                234

            Gross Costs With the Public                     23,715,709               575,934      24,291,643                   0
            (Less: Earned Revenue From the Public)           (463,320)                     0       (463,320)                   0
            Net Costs With the Public                       23,252,389               575,934      23,828,323                   0
            Net Program Costs                             $ 27,202,079       $       634,403    $ 27,836,482     $           234

        D. Research, Development, Test & Evaluation
            Intragovernmental Gross Costs                 $      42,431      $             0    $     42,431     $        15,624
            (Less: Intragovernmental Earned Revenue)            (1,736)                    0          (1,736)                 (2)
            Intragovernmental Net Costs                          40,695                    0           40,695             15,622

            Gross Costs With the Public                     10,376,773                     0      10,376,773                   0
            (Less: Earned Revenue From the Public)            (53,676)                     0        (53,676)                   0
            Net Costs With the Public                       10,323,097                     0      10,323,097                   0
            Net Program Costs                             $ 10,363,792       $             0    $ 10,363,792     $        15,622




       The accompanying notes are an integral part of these financial statements.

104
Supporting Consolidating/Combining Statements

  Department of Defense
  Department of the Navy
  C O N S O L I D ATING STATEMENT OF NET COST
  As of September 30, 2002 and 2001
  ($ in thousands)

                                                                         2002        Restated 2001        2001
  Program Costs
  A. Military Personnel
     Intragovernmental Gross Costs                                   $   5,070,719    $   4,451,006   $   4,451,006
     (Less: Intragovernmental Earned Revenue)                            (209,189)        (144,552)       (144,552)
     Intragovernmental Net Costs                                         4,861,530        4,306,454       4,306,454

      Gross Costs With the Public                                      25,061,634       22,539,243      22,539,243
      (Less: Earned Revenue From the Public)                             (68,080)        (112,567)       (112,567)
      Net Costs With the Public                                        24,993,554       22,426,676      22,426,676
      Net Program Costs                                              $ 29,855,085     $ 26,733,130    $ 26,733,130

  B. Operation and Maintenance
      Intragovernmental Gross Costs                                  $ 20,573,858     $ 16,544,475    $ 16,544,475
      (Less: Intragovernmental Earned Revenue)                          (824,786)       (1,493,767)     (1,493,767)
      Intragovernmental Net Costs                                      19,749,072        15,050,708     15,050,708

      Gross Costs With the Public                                      15,215,208       19,400,086      19,400,086
      (Less: Earned Revenue From the Public)                           (1,031,092)       (685,738)       (685,738)
      Net Costs With the Public                                         14,184,116      18,714,348      18,714,348
      Net Program Costs                                              $ 33,933,188     $ 33,765,056    $ 33,765,056

  C. Procurement
      Intragovernmental Gross Costs                                  $   4,107,978    $   3,428,497   $   3,428,497
      (Less: Intragovernmental Earned Revenue)                           (100,053)        (566,858)       (566,858)
      Intragovernmental Net Costs                                        4,007,925        2,861,639       2,861,639

      Gross Costs With the Public                                      24,291,643       22,538,324      22,538,324
      (Less: Earned Revenue From the Public)                            (463,320)        (236,509)       (236,509)
      Net Costs With the Public                                        23,828,323       22,301,815      22,301,815
      Net Program Costs                                              $ 27,836,248     $ 25,163,454    $ 25,163,454

  D. Research, Development, Test & Evaluation
      Intragovernmental Gross Costs                                  $     26,807     $   2,413,244   $   2,413,244
      (Less: Intragovernmental Earned Revenue)                             (1,734)         (32,312)        (32,312)
      Intragovernmental Net Costs                                          25,073         2,380,932       2,380,932

      Gross Costs With the Public                                      10,376,773         7,160,451       7,160,451
      (Less: Earned Revenue From the Public)                             (53,676)          (71,710)        (71,710)
      Net Costs With the Public                                        10,323,097         7,088,741       7,088,741
      Net Program Costs                                              $ 10,348,170     $   9,469,673   $   9,469,673


                                                                                                                      105



  The accompanying notes are an integral part of these financial statements.
      Department of Defense
      Department of the Navy
      C O N S O L I D ATING STATEMENT OF NET COST
      As of September 30, 2002 and 2001
      ($ in thousands)

                                                              Navy               Marine Corps   Combined Total       Eliminations
        E. Military Construction/Family Housing
           Intragovernmental Gross Costs                  $      62,095      $             0    $      62,095    $            41
           (Less: Intragovernmental Earned Revenue)            (73,804)                    0         (73,804)                  0
           Intragovernmental Net Costs                         (11,709)                    0         (11,709)                 41

           Gross Costs With the Public                         647,686                     0          647,686                  0
           (Less: Earned Revenue From the Public)              (69,133)                    0          (69,133)                 0
           Net Costs With the Public                            578,553                    0           578,553                 0
           Net Program Costs                              $     566,844      $             0    $     566,844    $            41

        F. Other
           Intragovernmental Gross Costs                  $      69,696      $             0    $      69,696    $            23
           (Less: Intragovernmental Earned Revenue)               (367)                    0            (367)                  0
           Intragovernmental Net Costs                           69,329                    0           69,329                 23

           Gross Costs With the Public                           43,076                    0            43,076                 0
           (Less: Earned Revenue From the Public)              (36,348)                    0          (36,348)                 0
           Net Costs With the Public                              6,728                    0             6,728                 0
           Net Program Costs                              $      76,057      $             0    $       76,057   $            23

        G. Total Program Costs
           Intragovernmental Gross Costs                  $ 27,089,701       $      3,020,902   $ 30,110,603     $       199,514
           (Less: Intragovernmental Earned Revenue)         (1,061,571)             (347,876)     (1,409,447)          (199,514)
           Intragovernmental Net Costs                       26,028,130             2,673,026      28,701,156                  0

           Gross Costs With the Public                      66,375,386          9,260,634          75,636,020                  0
           (Less: Earned Revenue From the Public)           (1,632,195)          (89,454)          (1,721,649)                 0
           Net Costs With the Public                         64,743,191         9,171,180           73,914,371                 0
           Net Program Costs                              $ 90,771,321       $ 11,844,206       $ 102,615,527    $             0

        Cost Not Assigned to Programs                                0                     0                0                  0
        (Less: Earned Revenue Not Attributable
        to Programs)                                                 0                  0                   0                  0
        Net Cost of Operations                            $ 90,771,321       $ 11,844,206       $ 102,615,527    $             0




       The accompanying notes are an integral part of these financial statements.

106
Supporting Consolidating/Combining Statements

  Department of Defense
  Department of the Navy
  C O N S O L I D ATING STATEMENT OF NET COST
  As of September 30, 2002 and 2001
  ($ in thousands)

                                                                         2002         Restated 2001        2001
  E. Military Construction/Family Housing
     Intragovernmental Gross Costs                                   $       62,054    $      68,741   $      68,741
     (Less: Intragovernmental Earned Revenue)                              (73,804)        (222,166)       (222,166)
     Intragovernmental Net Costs                                           (11,750)        (153,425)       (153,425)

     Gross Costs With the Public                                           647,686           357,946         357,946
     (Less: Earned Revenue From the Public)                               (69,133)         (101,383)       (101,383)
     Net Costs With the Public                                             578,553           256,563         256,563
     Net Program Costs                                               $     566,803     $     103,138   $     103,138

  F. Other
     Intragovernmental Gross Costs                                   $      69,673     $      47,806   $      47,806
     (Less: Intragovernmental Earned Revenue)                                (367)             (542)           (542)
     Intragovernmental Net Costs                                            69,306            47,264          47,264

     Gross Costs With the Public                                             43,076           48,565          48,565
     (Less: Earned Revenue From the Public)                                (36,348)         (21,497)        (21,497)
     Net Costs With the Public                                                6,728           27,068          27,068
     Net Program Costs                                               $       76,034    $      74,332   $      74,332

  G. Total Program Costs
     Intragovernmental Gross Costs                                   $ 29,911,089      $ 26,953,769    $ 26,953,769
     (Less: Intragovernmental Earned Revenue)                          (1,209,933)       (2,460,197)     (2,460,197)
     Intragovernmental Net Costs                                        28,701,156       24,493,572       24,493,572

     Gross Costs With the Public                                        75,636,020       72,044,614      72,044,614
     (Less: Earned Revenue From the Public)                             (1,721,649)      (1,229,404)     (1,229,404)
     Net Costs With the Public                                           73,914,371       70,815,210      70,815,210
     Net Program Costs                                               $ 102,615,527     $ 95,308,782    $ 95,308,782

  Cost Not Assigned to Programs                                                  0                0               0
  (Less: Earned Revenue Not Attributable                                         0                0               0
  to Programs)                                                       $ 102,615,527     $ 95,308,782    $ 95,308,782
  Net Cost of Operations




                                                                                                                       107



  The accompanying notes are an integral part of these financial statements.
      Department of Defense
      Department of the Navy
      C O N S O L I D ATING STATEMENT OF CHANGES IN NET POSITION
      As of September 30, 2002 and 2001
      ($ in thousands)
                                                                Navy            Marine Corps     Combined Total       Eliminations
      Cumulative Results of Operations

      Beginning Balances                                    $ 42,280,550    $     4,360,809    $ 46,641,359       $             0
      Prior period adjustments (+/-)                                   0                  0               0                     0
      Beginning Balances, as adjusted                         42,280,550          4,360,809      46,641,359                     0

      Budgetary Financing Sources:
         Appropriations received                                        0                 0                0      $             0
         Appropriations transferred-in/out (+/-)                        0                 0                0                    0
         Other adjustments (rescission, etc) (+/-)                      0                 0                0                    0
         Appropriations used                                   87,594,558        12,018,117       99,612,675                    0

      Other Financing Sources:
          Donations and forfeitures of property                         0                 0                0                    0
          Transfers-in/out without reimbursement (+/-)              4,733             1,138            5,871                    0
          Imputed financing from costs absorbed by others         471,884            53,410          525,294                    0
          Other (+/-)                                                   0                 0                0                    0
      Total Financing Sources                                  88,071,175        12,072,665      100,143,840                    0

      Net Cost of Operations (+/-)                            90,771,321         11,844,206      102,615,527                     0

      Ending Balances                                       $ 39,580,404    $     4,589,268    $ 44,169,672       $             0

      Unexpended Appropriations

      Beginning Balances                                    $ 60,572,763    $     2,963,079    $ 63,535,842       $              0
      Prior period adjustments (+/-)                                   0                  0               0                      0
      Beginning Balances, as adjusted                         60,572,763          2,963,079      63,535,842                      0

      Budgetary Financing Sources:
         Appropriations received                               87,658,419         11,866,039      99,524,458                    0
         Appropriations transferred-in/out (+/-)                2,447,218            280,090       2,727,308                    0
         Other adjustments (rescission, etc) (+/-)            (1,264,863)           (98,712)     (1,363,575)                    0
         Appropriations used                                 (87,594,558)       (12,055,147)    (99,649,705)                    0

      Other Financing Sources:
          Donations and forfeitures of property                         0                  0               0                    0
          Transfers-in/out without reimbursement (+/-)                  0                  0               0                    0
          Imputed financing from costs absorbed by others               0                  0               0                    0
          Other (+/-)                                                   0                  0               0                    0
      Total Financing Sources                                   1,246,216            (7,730)       1,238,486                    0

      Net Cost of Operations (+/-)                                     0                  0               0                     0

      Ending Balances                                       $ 61,818,979    $     2,955,349    $ 64,774,328       $              0




      The accompanying notes are an integral part of these financial statements.

108
Supporting Consolidating/Combining Statements

  Department of Defense
  Department of the Navy
  C O N S O L I D ATING STATEMENT OF CHANGES IN NET POSITION
  As of September 30, 2002 and 2001
  ($ in thousands)
                                                                             2002           Restated 2001        2001
  Cumulative Results of Operations

  Beginning Balances                                                  $ 46,641,359      $ 43,816,182        $ 43,816,182
  Prior period adjustments (+/-)                                                 0         4,039,166          31,841,659
  Beginning Balances, as adjusted                                       46,641,359        47,855,348          75,657,841

  Budgetary Financing Sources:
     Appropriations received                                          $            0    $             0     $            0
     Appropriations transferred-in/out (+/-)                                       0                  0                  0
     Other adjustments (rescission, etc) (+/-)                                     0                  0                  0
     Appropriations used                                                  99,612,675         93,245,566         93,245,566

  Other Financing Sources:
      Donations and forfeitures of property                                         0              0                   0
      Transfers-in/out without reimbursement (+/-)                              5,871        358,769             358,769
      Imputed financing from costs absorbed by others                         525,294        490,458             490,458
      Other (+/-)                                                                   0              0                   0
  Total Financing Sources                                                 100,143,840   $ 94,094,793        $ 94,094,793

  Net Cost of Operations (+/-)                                        $ 102,615,527     $ 95,308,782        $ 95,308,782

  Ending Balances                                                     $ 44,169,672      $ 46,641,359        $ 74,443,852

  Unexpended Appropriations

  Beginning Balances                                                  $ 63,535,842      $ 64,902,672        $ 64,902,672
  Prior period adjustments (+/-)                                                 0         1,553,324                   0
  Beginning Balances, as adjusted                                       63,535,842      $ 66,455,996        $ 64,902,672

  Budgetary Financing Sources:
     Appropriations received                                          $ 99,524,458      $ (2,920,154)       $ (2,920,154)
     Appropriations transferred-in/out (+/-)                              2,727,308                 0                   0
     Other adjustments (rescission, etc) (+/-)                          (1,363,575)                 0                   0
     Appropriations used                                               (99,649,705)                 0                   0

  Other Financing Sources:
      Donations and forfeitures of property                                         0               0                   0
      Transfers-in/out without reimbursement (+/-)                                  0               0                   0
      Imputed financing from costs absorbed by others                               0               0                   0
      Other (+/-)                                                                   0               0                   0
  Total Financing Sources                                             $     1,238,486   $ (2,920,154)       $ (2,920,154)

  Net Cost of Operations (+/-)                                        $             0   $            0      $           0

  Ending Balances                                                     $ 64,774,328      $ 63,535,842        $ 61,982,518
                                                                                                                             109



  The accompanying notes are an integral part of these financial statements.
      Department of Defense
      Department of the Navy
      COMBINING STATEMENT OF BUDGETA RY RESOURCES
      As of September 30, 2002 and 2001
      ($ in thousands)


        BUDGETARY FINANCING ACCOUNTS
                                                                       Navy           Marine Corps         2002       Restated 2001        2001
        BUDGETARY RESOURCES
          Budget Authority:
              Appropriations Received                               $ 87,695,163     $ 11,866,039    $ 99,561,202     $ 94,848,409     $ 94,848,409
              Borrowing Authority                                                0              0               0                0                0
              Contract Authority                                                 0              0               0                0                0
              Net transfers (+/-)                                        2,408,424        267,823       2,676,247          387,346          387,346
              Other                                                              0              0               0                0                0
           Unobligated Balance:
              Beginning of period                                       13,384,503        451,325       13,835,828       13,624,084       13,624,084
              Net transfers, actual (+/-)                                   38,794         12,267           51,061          365,723          365,723
               Anticipated Transfers Balances                                    0              0                0                0                0
           Spending Authority from Offsetting Collections:
              Earned
                 Collected                                               5,951,549        538,413        6,489,962        4,878,546        4,878,546
                 Receivable from Federal sources                         (255,512)         (7,941)       (263,453)          915,971          915,971
              Change in unfilled customer orders
                 Advances received                                           1,286              0             1,286            4,165            4,165
                 Without advance from Federal sources                      158,569         27,949           186,518        (201,723)        (201,723)
                 Anticipated for the rest of year, without advances              0              0                 0                0                0
                  Transfers from trust funds                                     0              0                 0                0                0
              Subtotal                                                   5,855,892        558,421         6,414,313        5,596,959        5,596,959
           Recoveries of prior year obligations                          2,044,987        241,847         2,286,834        3,277,598        3,277,598
           Temporarily not available pursuant to Public Law                      0              0                 0                0                0
           Permanently not available                                   (1,265,353)      (134,603)       (1,399,956)      (1,773,918)      (1,773,918)
           Total Budgetary Resources                                $ 110,162,410    $ 13,263,119    $ 123,425,529    $ 116,326,201    $ 116,326,201




       The accompanying notes are an integral part of these financial statements.

110
Supporting Consolidating/Combining Statements

  Department of Defense
  Department of the Navy
  COMBINING STATEMENT OF BUDGETA RY RESOURCES
  As of September 30, 2002 and 2001
  ($ in thousands)


  STATUS OF BUDGETARY RESOURCES                            Navy        Marine Corps        2002        Restated 2001       2001
   Obligations Incurred:
        Direct                                         $ 86,885,832    $ 12,421,919    $ 99,307,751    $ 95,682,240    $ 95,682,240
        Reimbursable                                     11,634,487         574,308       12,208,795       6,807,699      6,807,699
        Subtotal                                         98,520,319      12,996,227      111,516,546     102,489,939    102,489,939
   Unobligated balance:
        Apportioned                                       10,468,911        121,656       10,590,567      12,391,407      12,391,407
        Exempt from apportionment                                  0              0                0               0               0
        Other available                                            0              0                0               0               0
   Unobligated Balances Not Available                      1,173,180        145,236        1,318,416       1,444,855       1,444,855
   Total, Status of Budgetary Resources                $ 110,162,410   $ 13,263,119    $ 123,425,529   $ 116,326,201   $ 116,326,201

  RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
   Obligated Balance, Net-beginning of period          $ 49,357,568    $   2,976,282   $ 52,333,850    $ 48,385,598    $ 48,385,598
   Obligated Balance transferred, net (+/-)                       0                0              0               0               0
   Obligated Balance, net-end of period:
        Accounts Receivable                              (1,875,766)       (233,608)     (2,109,374)     (2,372,828)     (2,372,828)
        Unfilled customer order from Federal sources     (2,061,109)          33,916     (2,027,193)     (1,840,675)     (1,840,675)
        Undelivered Orders                                53,198,000       2,435,755      55,633,755      50,942,280      50,942,280
        Accounts Payable                                   4,203,754         399,246       4,603,000       5,604,765       5,604,765
   Outlays:
       Disbursements                                     92,464,965      13,075,345     105,540,310      94,550,149      94,550,149
       Collections                                       (5,952,836)      (538,413)      (6,491,249)     (4,882,711)     (4,882,711)
       Subtotal                                           86,512,129     12,536,932       99,049,061      89,667,438     89,667,438
   Less: Offsetting receipts                               (213,345)              0        (213,345)               0               0
    Net Outlays                                        $ 86,298,784    $ 12,536,932    $ 98,835,716    $ 89,667,438    $ 89,667,438




                                                                                                                                       111



  The accompanying notes are an integral part of these financial statements.
      Department of Defense
      Department of the Navy
      COMBINING STATEMENT OF FINANCING
      As of September 30, 2002 and 2001
      ($ in thousands)


      Resources Used to Finance Activities:
                                                                                              Navy           Marine Corps       2002
      Budgetary Resources Obligated
         Obligations Incurred                                                           $ 98,520,319     $ 12,996,227       $ 111,516,546
         Less: Spending Authority from offsetting collections and recoveries (-)          (7,900,880)       (800,268)          (8,701,148)
         Obligations net of offsetting collections and recoveries                         90,619,439       12,195,959         102,815,398
         Less: Offsetting receipts (-)                                                      (213,345)               0            (213,345)
         Net obligations                                                                  90,406,094       12,195,959         102,602,053
      Other Resources
         Donations and forfeitures of property                                                     0                0                   0
         Transfers in/out without reimbursement (+/-)                                              0                0                   0
         Imputed financing from costs absorbed by others                                     471,884           53,410             525,294
         Other (+/-)                                                                               0                0                   0
         Net other resources used to finance activities                                      471,884           53,410             525,294
         Total resources used to finance activities                                     $ 90,877,978     $ 12,249,369       $ 103,127,347

      Resources Used to Finance Items not Part of the Net Cost of Operations:
         Change in budgetary resources obligated for goods, services and benefits
         ordered but not yet provided
             Undelivered orders (-)                                                     $ (10,471,615)   $      (204,652)   $ (10,676,267)
             Unfilled Customer Orders                                                          159,856             27,949          187,805
         Resources that fund expenses recognized in prior periods                            (611,620)            (8,542)        (620,162)
         Budgetary offsetting collections and receipts that do not affect Net Cost of                0                  0                0
         Operations
         Resources that finance the acquisition of assets                                   7,487,846                  0        7,487,846
         Other resources or adjustments to net obligated resources that do not
         affect Net Cost of Operations
             Less: Trust or Special Fund receipts related to exchange in the entity's
             budget (-)                                                                              0                 0                0
             Other (+/-)                                                                             0                 0                0
         Total resources used to finance items not part of the Net Cost of
         Operations                                                                       (3,435,533)       (185,245)         (3,620,778)
         Total resources used to finance the Net Cost of Operations                     $ 87,442,445     $ 12,064,124       $ 99,506,569




      The accompanying notes are an integral part of these financial statements.

112
Supporting Consolidating/Combining Statements

  Department of Defense
  Department of the Navy
  COMBINING STATEMENT OF FINANCING
  As of September 30, 2002 and 2001
  ($ in thousands)


  Resources Used to Finance Activities:
                                                                                   Restated 2001        2001
  Budgetary Resources Obligated
     Obligations Incurred                                                          $ 102,489,939    $ 102,489,939
     Less: Spending Authority from offsetting collections and recoveries (-)          (8,874,558)      (8,874,558)
     Obligations net of offsetting collections and recoveries                          93,615,381       93,615,381
     Less: Offsetting receipts (-)                                                       (22,039)         (22,039)
     Net obligations                                                                  93,593,342       93,593,342
  Other Resources
     Donations and forfeitures of property                                                    0                0
     Transfers in/out without reimbursement (+/-)                                       353,201          353,201
     Imputed financing from costs absorbed by others                                    490,458          490,458
     Other (+/-)                                                                              0                0
     Net other resources used to finance activities                                     843,659          843,659
     Total resources used to finance activities                                    $ 94,437,001     $ 94,437,001

  Resources Used to Finance Items not Part of the Net Cost of Operations:
    Change in budgetary resources obligated for goods, services and benefits
    ordered but not yet provided
        Undelivered orders (-)                                                     $   (142,028)    $   (142,028)
        Unfilled Customer Orders                                                       (197,557)        (197,557)
    Resources that fund expenses recognized in prior periods                            (65,407)         (65,407)
    Budgetary offsetting collections and receipts that do not affect Net Cost of               0                0
    Operations
    Resources that finance the acquisition of assets                                   (656,354)        (656,354)
    Other resources or adjustments to net obligated resources that do not
    affect Net Cost of Operations
        Less: Trust or Special Fund receipts related to exchange in the entity's
        budget (-)                                                                             0                0
        Other (+/-)                                                                            0                0
     Total resources used to finance items not part of the Net Cost of
     Operations                                                                      (1,061,346)      (1,061,346)
     Total resources used to finance the Net Cost of Operations                    $ 93,375,655     $ 93,375,655




                                                                                                                     113



  The accompanying notes are an integral part of these financial statements.
      Department of Defense
      Department of the Navy
      COMBINING STATEMENT OF FINANCING
      As of September 30, 2002 and 2001
      ($ in thousands)


      Components of the Net Cost of Operations that will not Require or
      Generate Resources in the Current Period:                                   Navy            Marine Corps        2002
      Components Requiring or Generating Resources in Future Periods:
         Increase in annual leave liability                                 $      263,070    $             0    $      263,070
         Increase in environmental and disposal liability                          595,543                  0           595,543
         Upward/Downward reestimates of credit subsidy expense                           0                  0                 0
         Increase in exchange revenue receivable from the public (-)                     0                  0                 0
         Other (+/-)                                                                79,659             37,936           117,595
         Total components of Net Cost of Operations that will require or
         generate resources in future periods                                      938,272             37,936           976,208

      Components not Requiring or Generating Resources:
         Depreciation and amortization                                              760,996            155,364           916,360
         Revaluation of assets and liabilities (+/-)                            (1,228,479)          (455,887)       (1,684,366)
         Other (+/-)                                                              2,858,087             42,669         2,900,756
         Total components of Net Cost of Operations that will not require
         or generate resources                                              $    2,390,604    $      (257,854)   $    2,123,750
         Total components of Net Cost of Operations that will not
         require or generate resources in the current period                $ 3,328,876       $ (219,918)        $ 3,108,958
         Net Cost of Operations                                             $ 90,771,321      $ 11,844,206       $ 102,615,527




      The accompanying notes are an integral part of these financial statements. See notes 1 and 22.

114
Supporting Consolidating/Combining Statements

  Department of Defense
  Department of the Navy
  COMBINING STATEMENT OF FINANCING
  As of September 30, 2002 and 2001
  ($ in thousands)


  Components of the Net Cost of Operations that will not Require or
                                                                               Restated 2001       2001
  Generate Resources in the Current Period:
  Components Requiring or Generating Resources in Future Periods:
     Increase in annual leave liability                                        $           0   $           0
     Increase in environmental and disposal liability                                      0               0
     Upward/Downward reestimates of credit subsidy expense                                 0               0
     Increase in exchange revenue receivable from the public (-)                           0               0
     Other (+/-)                                                                   1,186,409       1,186,409
     Total components of Net Cost of Operations that will require or
     generate resources in future periods                                      $   1,186,409   $   1,186,409

  Components not Requiring or Generating Resources:
     Depreciation and amortization                                             $    714,583    $    714,583
     Revaluation of assets and liabilities (+/-)                                          0               0
     Other (+/-)                                                                     32,135          32,135
     Total components of Net Cost of Operations that will not require
     or generate resources                                                     $    746,718    $    746,718
     Total components of Net Cost of Operations that will not
     require or generate resources in the current period                       $ 1,933,127     $ 1,933,127
     Net Cost of Operations                                                    $ 95,308,782    $ 95,308,782




                                                                                                               115



  The accompanying notes are an integral part of these financial statements.
Department of the Navy

                               GENERAL FUND
                      REQUIRED SUPPLEMENTARY
                     STEWARDSHIP INFORMATION




                                               117
      MILITARY EQUIPMENT

      Narrative Statement

      The Federal Accounting Standards Advisory Board (FASAB) revised the Statement of Federal Financial
      Accounting Standards No. 6 to require the capitalization of military equipment (formerly National Defense
      Property, Plant and Equipment/ND PP&E) for fiscal years (FY) 2003 and beyond and encouraged early
      implementation. Based on this, the Department terminated the reporting of quantities and condition of
      military equipment and will begin the process of capitalizing these assets on its Balance Sheet in FY 2002.




118
Required Supplementary Stewardship Information

  H E R I TAGE ASSETS
  FOR FISCAL YEAR ENDED SEPTEMBER 2002


           (a)                                   (b)          (c)            (d)             (e)         (f)
                                           Measurement       As of                                      As of
                                              Quantity    10/30/01        Additions       Deletions    9/30/02
  Museums                                      Each             20                 1               -          21
  Monuments & Memorials                        Each            475                 9           1         483
  Cemeteries                                    Sites           55                 -               -          55
  Archeological Sites                           Sites      23,120             163                  -   23,283
  Buildings and Structures                     Each          9,123                 9          33        9,099
  Major Collections
     (See Supplemental Reporting)



  Narrative Statement:

  The Department of the Navy (DON) is required to report Heritage Assets in accordance with the following
  public laws:
  • 10 USC 2721
  • USC 483(b)
  • Antiquities Act of 1906
  • Historic Sites Act of 1935
  • USC 470 National Historic Preservation Act of 1966
  • National Environmental Policy Act of 1969
  • American Indian Religious Freedom Act of 1978
  • Archeological Resources Protection Act of 1979
  • Native American Graves Protection & Repatriation Act of 1990
  • Presidential Memorandum for Heads of Executive Departments and Agencies: Government to
     Government Relations with Native American Tribal Governments Act of 1994
  • 36 CFR 79 — Curation of Federally Owned and Administered Archeological Collections

  In general, the DON defines Heritage Assets as items that are unique for one or more of the following
  reasons: historical or natural significance; cultural, educational or artistic importance; or significant
  architectural characteristics.

  Explanation for adjustments, additions, and deletions. For DON historic buildings and structures,
  cemeteries, monuments, and memorials a new Heritage Assets data element series (DE 410) has been added
  to the internet Naval Facilities Asset Data Store (iNFADS). During FY 2003 DON staff will assess the
  availability of installation inventory and the technical ease of verifying and when necessary recording items
  in NFADS that are not already recorded. Therefore, balances will change as the DON staff works to
  reconcile installation records for historic buildings, structures, cemeteries, monuments and memorials with      119
  those in NFADS.
      For Archaeological sites and artifacts, the DON is establishing a web-based data repository to collect
      archaeological site information by installation and will begin the data population effort in FY 2003.
      Archaeological site data provided for FY 2002 was derived through data collection effort within the
      heritage asset community.

      The Department of the Navy Heritage Assets Management System (DONHAMS) has been implemented
      across the DON to improve and unify the collections management process that includes archival items,
      artwork, and historical artifacts are derived from DONHAMS. When implementing DONHAMS, data that
      was captured electronically was converted and place into DONHAMS. The balances for the
      aforementioned items will change as DON museum and archive staffs continue to evaluate, accession and
      catalogue items for inclusion into DONHAMS.

      The DON recognizes that there are items that it owns that may be classified as Heritage Assets as the items
      are evaluated, accessioned and catalogued.

      Process used to establish assets as Heritage Assets. The processes used to establish items as having
      heritage significance varies between categories and type of assets being evaluated. Subject matter experts
      play a significant role in addition to other criteria such as listing on the National Register of Historic Places.
      In all cases, a myriad of federal statutes, service regulations, and other guidelines mandate heritage
      significance or provide guidance in its determination.

      Multi-Use Heritage Assets. Per DoD FMR Volume 6B, Multi-Use Heritage Assets are reported both as
      Heritage Assets and on the Balance Sheet.

      Information Pertaining to the Condition of DON Heritage Assets. The methodology used to report the
      condition of the heritage assets was a combination of visual assessment of the objects, historic value to the
      DON collection, and general display and storage standards for historic collections. The overall condition of
      the collection objects is good.

      Museums
      Museums are buildings, places, or institutions devoted to the acquisition, conservation, study, exhibition,
      and educational interpretation of objects having scientific, historical, or artistic value.

      Monuments and Memorials
      Monuments and Memorials have significant monetary and/or historical value to the DON.

      The FY 2001 ending balance of 1,179 was adjusted downward by 704 resulting in an FY 2002 beginning
      balance of 475. This adjustment was the result of the DON beginning to utilize the NFADS to collect
      heritage asset information by installation.

      Cemeteries
      Cemeteries are government owned burial grounds located on DON Installations.

      In FY 2001, Cemeteries and Archeological Sites were reported as one category with an ending balance of
      23,258. This balance consisted of 138 Cemeteries and 23,120 Archeological Sites. The FY 2001 ending
      balance of 138 Cemeteries was adjusted downward by 83 resulting in an FY 2002 beginning balance of
      55. This adjustment was the result of the DON beginning to utilize NFADS to collect heritage asset
      information by installation.




120
Required Supplementary Stewardship Information

 Archeological Sites
 Archeological Sites are lands on which items of significance are located.

 In FY 2001, Cemeteries and Archeological Sites were reported as one category with an ending balance of
 23,258. This balance consisted of 138 Cemeteries and 23,120 Archeological Sites.

 Buildings and Structures
 Buildings and Structures are listed on or determined eligible for listing on the National Register of Historic
 Places, including Multi-use Heritage Assets. Criteria for evaluating National Register eligibility of these sites
 may be referenced at 36 CFR 60.4.

 Supplemental Reporting. In addition to the data presented in the table above, the following supplemental
 information was reported as of 9/30/02:

                              Measurement            As of                                              As of
  Category                     Quantity            10/01/01          Additions       Deletions        9/30/02

 Archeological Artifacts        Cubic Feet           13,619            80.5               -           13,699.5

 Archival                      Linear Feet           60,601            1,408             52            61,957

 Artwork                           Item              30,589             105              74            30,620

 Historical Artifacts              Item            1,052,448           6,403            596          1,058,255


 Archeological Artifacts
 The FY 2001 ending balance of 12,739 was adjusted upward by 880 resulting in an FY 2002 beginning
 balance of 13,619. This adjustment was the result of a shift in reporting responsibility from ASN(I&E) to the
 Navy and Marine Corps Historical Centers.

 Archival
 The FY 2001 ending balance of 101,764 was adjusted downward by 41,163 resulting in an FY 2002
 beginning balance of 60,601. This adjustment was the result of a shift in reporting responsibility from
 ASN(I&E) to the Navy and Marine Corps Historical Centers.

 Artwork
 The FY 2001 ending balance of 38,616 was adjusted downward by 8,027 resulting in an FY 2002
 beginning balance of 30,589. This adjustment was the result of a shift in reporting responsibility from
 ASN(I&E) to the Navy and Marine Corps Historical Centers.

 Historical Artifacts
 The FY 2001 ending balance of 832,993 was adjusted upward by 219,455 resulting in an FY 2002
 beginning balance of 1,052,448. This adjustment was the result of a shift in reporting responsibility from
 ASN(I&E) to the Navy and Marine Corps Historical Centers.



                                                                                                                     121
      S T E WARDSHIP LAND
      For Fiscal Year Ended September 30, 2002
      (Acres in Thousands)

                         (a)                        (b)             (c)            (d)             (e)
                     Land Use                 As of 10/1/01      Additions      Deletions    As of 9/30/02


        1. Mission                                 2,021            -               -             2,021
        2. Parks & Historic Sites                    -              -               -               -

        Totals                                     2,021            -               -             2,021

      Narrative Statement

      The DON followed the definition of Stewardship Land per DoD Guidance to include Public Domain, Land Set
      Aside, and Donated Land. The NFADS was used to derive acres for Stewardship Land. Within the definition
      of Stewardship Land, land can be further defined as improved, semi-improved and other categories of land.




122
Required Supplementary Stewardship Information

  NON-FEDERAL PHYSICAL PROPERT Y

  The Department of the Navy does not fund this type of Activity.


  INVESTMENTS IN RESEARCH AND DEVELOPMENT
  Yearly Investment in Research and Development
  For Fiscal Years 1998 through 2002
  (In Millions of Dollars)

             (a)                                (b)          (c)          (d)             (e)        (f)
          Categories                          FY98         FY99          FY00            FY01      FY02
  1. Basic Research                           $341          $344         $345           $383        $378
  2. Applied Research                          496           510          538            597         647
  3. Development
          Advanced Technology Development      518           532          607            738         779
          Demonstration and Validation       2,407         2,234        2,216           2,418      2,415
          Engineering and Manufacturing
            Development                      2,125         2,019        2,225           2,086      2,836
          Research, Development, Test, and
            Evaluation Management Support      695           709          750            782         838
          Operational Systems Development    1,556         1,696        2,047           2,266      2,417


  Total                                      $8,138        $8,044       $8,728        $9,270      $10,310


  Narrative Statement

  Investments in Research and Development
  Investment values included in this Report are based on Research and Development (R&D) outlays
  (expenditures). Outlays are used because current DoD systems are unable to capture and summarize costs
  in accordance with FASAB standards.

  1. Basic Research
  Basic Research is the systematic study to gain knowledge or understanding of the fundamental aspects of
  phenomena and of observable facts without specific applications, processes, or products in mind. Basic
  Research involves the gathering of fuller knowledge or understanding of the subject under study. Major
  outputs are scientific studies and research papers.

  The following are two representative program examples for the above major category.



                                                                                                            123
      Partial Differential Equation-Based Interpolation of Lost Image Regions
      Scientists and researchers have developed computer techniques that can interpolate images of lost regions
      based on partial differential equations and computer algorithms. Utilizing the relationships between art,
      image processing, applied mathematics, and fluid dynamics, the computer techniques automatically fill-in the
      lost pieces of an image by using information from neighboring available regions. The technology may
      increase the quality of imagery and video surveillance by overcoming obstacles associated with bandwidth
      and noisy channels.

      Controlled Biological and Biominetic Systems (Robotic Fly Project)
      Scientists from a joint military and university research project to develop a tiny winged robot modeled after a
      housefly successfully invented the mechanical wings necessary to give the robotic fly flight. Upon completion
      of the robotic insect, the faux fly will likely become the lightest weight autonomous robot in existence at a
      mere tenth of a gram. The robotic fly project, is part of an overall study by the Defense Advanced Research
      Project Agency and the Office of Naval Research.


      2. Applied Research
      Applied Research is the systematic study to gain knowledge or understanding necessary for determining the
      means by which a recognized and specific need may be met. It is the practical application of such
      knowledge or understanding for the purpose of meeting a recognized need. This research points toward
      specific military needs with a view toward developing and evaluating the feasibility and practicability of
      proposed solutions and determining their parameters. Major outputs are scientific studies, investigations, and
      research papers, hardware components, software codes, and limited construction of, or part of, a weapon
      system to include nonsystem specific development efforts.

      The following are two representative program examples for the above major category.

      Robotic Gliders
      Scientists and researchers are developing two gliders that move through the water instead of the air. The two
      ocean gliders, autonomous underwater vehicles powered by changes in their buoyancy or by different
      temperatures layers in the ocean, collect high resolution profiles of physical, chemical, and bio-optical
      properties of the ocean. The gliders could potentially provide data necessary for mine countermeasure and
      other tasks important to expeditionary warfare.

      Supersonic Combustion Ramjet (SCRAMJET)
      The SCRAMJET is a cruise missile engine capable of speeds of up to MACH 6.5 at an altitude of 90,000 feet
      and a range of 600 nautical miles. Ultimately, missiles powered by SCRAMJET will launch from ships,
      submarines, and aircraft. The SCRAMJET powered missiles will reach their targets more quickly, thus
      reducing the possibility that enemies will intercept them on the way in.




124
Required Supplementary Stewardship Information

 3. Development
 Development takes what has been discovered or learned from basic and applied research and uses it to
 establish technological feasibility, assessment of operability, and production capability. Development is
 comprised of five stages defined below:

 1. Advance Technology Development is the systematic use of the knowledge or understanding gained from
    research directed toward proof of technological feasibility and assessment of operational and
    productibility rather than the development of hardware for service use. Employs demonstration activities
    intended to prove or test a technology or method.

 2. Demonstration and Validation evaluates integrated technologies in as realistic an operating environment
    as possible to assess the performance or cost reduction potential of advanced technology. Programs in
    this phase are generally system specific. Major outputs of Demonstration and Validation are hardware
    and software components, or complete weapon systems, ready for operational and developmental testing
    and field use.

 3. Engineering Manufacturing and Development concludes the program or project and prepares it for
    production. It consists primarily of pre-production efforts, such as logistics and repair studies. Major
    outputs are weapons systems finalized for complete operational and development testing.

 4. RDT&E Management Support is support for installations and operations for general research and
    development use. This category includes costs associated with test ranges, military construction
    maintenance support for laboratories, operations and maintenance of test aircraft and ships, and studies
    and analyses in support of the R&D program.

 5. Operational Systems Development is concerned with development projects in support of programs or
    upgrades still in engineering and manufacturing development, which have received approval for
    production, for which production funds have been budgeted in subsequent fiscal years.

 The following are two representative program examples for the above major category.

 High Strength, Low Alloy Steel (HSLA)
 A new high strength, low alloy steel, HSLA-65, is undergoing certification tests to determine whether it could
 be used in the DON's next generation aircraft carrier. If the HSLA-65 passes the certification tests, the steel
 could provide equal or greater service life than traditional high-strength steel and weigh less. This will
 enable the carrier room for normal growth for new weapons, aircraft, sensors, communications, and
 maintenance equipment.

 MV-22 Osprey
 Technicians and engineers are continuing their development in support of the “Return to Flight” of the MV-
 22. The MV-22 has undergone a broad range of modifications per recommendations from the DoD and
 NASA panels. Chief among the modifications was to the 5,000-psi high-pressure hydraulic system and
 rerouting of electrical lines. Software upgrades will be a part of the next Osprey production blocks.




                                                                                                                   125
Department of the Navy

                            GENERAL FUND
   REQUIRED     SUPPLEMENTARY INFORMATION




                                            127
      Department of Defense
      Department of the Navy
      D I S A G G R E G ATED STATEMENT OF BUDGETA RY RESOURCES
      For the years ended September 30, 2002 and 2001
      ($ in thousands)


                                                                                  Research
         BUDGETARY FINANCING ACCOUNTS                                         Development, Test       Operation and
         BUDGETARY RESOURCES                                      Other        and Evaluation          Maintenance        Procurement
            Budget Authority
               Appropriations Received                        $     362,370    $ 11,507,506       $ 31,839,478        $ 25,308,799
               Net transfers (+/-)                                (255,192)          47,996          1,736,519             185,767
            Unobligated Balance:
               Beginning of period                                  31,023          851,026              1,074,476         11,120,006
               Net transfers, actual (+/-)                               0              650                  2,652                680
            Spending Authority from Offsetting Collections:
               Collected                                                  0         151,829          4,642,835           1,014,086
               Receivable from Federal sources                            0           5,056          (136,853)            (96,644)
               Advances received                                          0               0              1,900                    0
               Without advance from Federal sources                       0          71,157             86,293              (8,375)
               Subtotal                                       $           0    $    228,042       $ 4,594,175         $    909,067
        Recoveries of prior year obligations                  $     14,006     $    111,884       $ 1,395,298         $    339,812
        Permanently not available                                   (4,033)       (246,613)          (377,902)           (515,885)
        Total Budgetary Resources                             $    148,174     $ 12,500,491       $ 40,264,696        $ 37,348,246

         STATUS OF BUDGETARY RESOURCES
            Obligations Incurred
               Direct                                         $    110,527    $ 11,114,499        $ 33,910,978        $ 21,427,162
               Reimbursable                                            109         269,855           5,411,652           6,867,204
               Subtotal                                       $    110,636    $ 11,384,354        $ 39,322,630        $ 28,294,366
            Unobligated balance
               Apportioned                                    $     37,538    $   1,056,543       $    122,039        $  8,783,710
            Unobligated Balances Not Available                           0           59,594            820,027             270,170
            Total, Status of Budgetary Resources              $    148,174     $ 12,500,491       $ 40,264,696        $ 37,348,246

         RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
            Obligated Balance, Net-beginning of period:       $    116,910     $   4,372,212      $      8,806,746    $ 35,381,535
            Obligated Balance transferred, net (+/-)                     0                 0                     0               0
            Obligated Balance, net-end of period:
               Accounts Receivable                                       0          (30,134)           (1,476,191)    $     (220,588)
               Unfilled customer order from Federal sources              0         (177,343)           (1,286,287)           (18,110)
               Undelivered Orders                                   80,873         5,179,514            11,281,055         36,408,075
               Accounts Payable                                     18,221            85,653             1,485,143          1,327,183
         OUTLAYS:
            Disbursements                                     $    114,446     $ 10,510,778       $ 36,780,918        $ 25,944,548
            Collections                                                   0       (151,829)         (4,644,736)         (1,014,086)
               Subtotal                                       $     114,446    $ 10,358,949       $ 32,136,182        $ 24,930,462
               Less: Offsetting receipts                           (29,120)               0           (184,225)                   0
            Net Outlays                                       $      85,326    $ 10,358,949       $ 31,951,957        $ 24,930,462




128
General Fund Required Supplementary Information
  Department of Defense
  Department of the Navy
  D I S A G G R E G ATED STATEMENT OF BUDGETA RY RESOURCES
  For the years ended September 30, 2002 and 2001
  ($ in thousands)


                                                                               Military
  BUDGETARY FINANCING ACCOUNTS                               Military    Construction/Family
  BUDGETARY RESOURCES                                       Personnel          Housing         2002 Combined    2001 Combined
      Budget Authority
         Appropriations Received                        $ 29,011,847      $    1,531,202       $ 99,561,202     $ 94,848,409
         Net transfers (+/-)                                 955,207               5,950          2,676,247          387,346
      Unobligated Balance:
         Beginning of period                                   153,679           605,618          13,835,828       13,624,084
         Net transfers, actual (+/-)                            66,829          (19,750)              51,061          365,723
      Spending Authority from Offsetting Collections:
         Collected                                           237,247             443,965            6,489,962        4,878,546
         Receivable from Federal sources                      54,702            (89,714)            (263,453)          915,971
         Advances received                                         0               (614)                1,286            4,165
         Without advance from Federal sources                  (420)              37,863              186,518        (201,723)
         Subtotal                                       $    291,529      $      391,500       $ 6,414,313      $ 5,596,959
  Recoveries of prior year obligations                       311,423             114,411            2,286,834   $ 3,277,598
  Permanently not available                                (188,260)            (67,263)          (1,399,956)      (1,773,918)
  Total Budgetary Resources                             $ 30,602,254      $    2,561,668       $ 123,425,529    $ 116,326,201

  STATUS OF BUDGETARY RESOURCES
     Obligations Incurred
        Direct                                          $ 30,325,125      $    2,419,460       $ 99,307,751     $ 95,682,240
        Reimbursable                                         149,818           (489,843)          12,208,795        6,807,699
        Subtotal                                        $ 30,474,943      $    1,929,617       $ 111,516,546    $ 102,489,939
     Unobligated balance
        Apportioned                                     $     21,737      $      569,000       $ 10,590,567     $ 12,391,407
     Unobligated Balances Not Available                      105,574              63,051           1,318,416        1,444,855
     Total, Status of Budgetary Resources               $ 30,602,254      $    2,561,668       $ 123,425,529    $ 116,326,201

  RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
     Obligated Balance, Net-beginning of period:        $    1,989,955    $    1,666,491       $ 52,333,849     $ 48,385,598
     Obligated Balance transferred, net (+/-)                        0                 0                  0                0
     Obligated Balance, net-end of period:
        Accounts Receivable                                  (270,029)         (112,436)          (2,109,378)      (2,372,828)
        Unfilled customer order from Federal sources             (728)         (544,725)          (2,027,193)      (1,840,675)
        Undelivered Orders                                     496,528         2,187,710           55,633,755       50,942,279
        Accounts Payable                                     1,512,623           174,177            4,603,000        5,604,765
  OUTLAYS:
     Disbursements                                      $ 30,360,798      $    1,828,822       $ 105,540,310    $ 94,550,149
     Collections                                           (237,247)           (443,351)          (6,491,249)     (4,882,711)
        Subtotal                                        $ 30,123,551      $    1,385,471       $ 99,049,061     $ 89,667,438
        Less: Offsetting receipts                                  0                   0            (213,345)               0
      Net Outlays                                       $ 30,123,551      $    1,385,471       $ 98,835,716     $ 89,667,438

                                                                                                                                 129
      DEPARTMENT OF THE NAV Y
      GENERAL PROPERT Y, PLANT, AND EQUIPMENT
      Real Property Deferred Annual Sustainment and Restoration Tables
      As of September 30, 2002
      ($ in Millions)


        Annual Sustainment FY 2002
                                                             Required          Actual         Difference
        Navy
        Marine Corps
        Building, Structures, and Utilities                   1,522            1,482              40



        Annual Deferred Sustainment Trend
                                                             FY 2000         FY 2001           FY 2002
        Navy
        Marine Corps
        Building, Structures, and Utilities                      -              501               40



        Restoration and Modernization Requirements
                                              End FY 2001                  End FY 2002          Change
        Navy
        Marine Corps
        Building, Structures, and Utilities        -                             -                 -



      Narrative Statement:

      In FY 2002, Department of the Navy, General Fund facilities transitioned to the Office of the Secretary of
      Defenses Facility Sustainment Model for calculating deferred sustainment and restoration. FY 2001 facility
      investments were programmed, budgeted, and executed before application of the Facility Sustainment Model.
      Therefore, the fluctuations between FY 2001 data and FY 2002 data are attributable to the revised reporting
      methodology.

      The quality of data used in the Facility Sustainment Model continued to undergo quality checks in FY 2002,
      resulting in a more accurate accounting of deferred sustainment requirements.

      Presently, a separate breakout between Navy and Marine Corps sustainment amounts cannot be provided.
      Due to this limitation, information in the Real Property Deferred Annual Sustainment and Restoration Tables
      are presented in total for the Department of the Navy (DON).

      The Facility Sustainment Model calculates facility sustainment investment based on DON property inventory,
      facility type, key units of measure, geographic location and industry standards. These variables are
      constantly being examined to reduce errors and eliminate disconnects for unique DON facility requirements.

      The DON General Fund has no material amounts of deferred sustainment for the General Property, Plant,
      and Equipment categories of Personal Property, Heritage Assets, or Stewardship Land.

130
General Fund Required Supplementary Information


  MILITARY EQUIPMENT
  Deferred Maintenance Amounts
  As of September 30, 2002
  ($ in Thousands)


                           Major Type                                 Amount
                           1.   Aircraft                             $ 148,470
                           2.   Ships                                  243,615
                           3.   Missiles                                36,130
                           4.   Combat Vehicles                         41,950
                           5.   Other Weapons Systems                  224,022
                           6.   Total                                $694,187

  Narrative Statement:

  Aircraft Deferred Maintenance
  There are four sub-categories that comprise aircraft deferred maintenance: airframe rework and
  maintenance (active and reserve), engine rework and maintenance (active and reserve), component repair
  and software maintenance. The airframe rework deferred maintenance calculation reflects executable
  unfunded requirements, which represent aircraft that failed Aircraft Service Period Adjustment (ASPA) or
  reached fixed Period End Date (PED) at year-end. The engine rework deferred maintenance calculation
  reflects year-end actual requirements minus actual funded units. Generally, component repair deferred
  maintenance cost represents the difference between requirement and funding. Aircraft deferred
  maintenance reflects only executable deferred maintenance. Unexecutable deferred maintenance is not
  reported in the Exhibit OP-30, nor is it collected.

  Ship Deferred Maintenance
  Deferred Ship Maintenance data was provided by Fleet Type Commanders. Data was collected from the
  Current Ships’ Maintenance Plan (CSMP) database, which captures maintenance actions at all levels
  (organizational, intermediate, depot) for active and reserve ships. Only depot level deferred maintenance
  has been provided in this report. This includes maintenance actions that were deferred from actual depot
  maintenance work packages as well as maintenance that was deferred prior to inclusion in a work package
  due to either fiscal, operational, or capacity constraints. Although there is a significant amount of deferred
  maintenance actions, there are no ships that fall into the category of “unacceptable operating condition”.
  Any ship that would be at risk of being in unacceptable operating condition would receive priority for
  maintenance funding to maintain acceptable operating condition.

  Ship deferred maintenance decreased from $903,758 thousand in FY 2001 to $243,615 thousand in FY
  2002. This is due to the DON’s funding a higher percentage of ship maintenance requirements in FY 2002.

  Missile Maintenance
  Four categories are used to determine missile maintenance: missiles, tactical missiles, software maintenance,
  and other. Deferred maintenance is defined as the difference between the total weapon maintenance
  requirement as determined by requirements modeling processes and the weapon maintenance that is funded
  in accordance with the annual budget controls for the Missile Maintenance program. The maintenance
  requirements model projects the quantity of missiles and missile components per weapon system that are
  required to be maintained (reworked) annually.
                                                                                                                   131
      Combat Vehicles
      The combat vehicles category is for vehicle overhaul for the active and reserve Marine Corps. Deferred
      Maintenance for Combat Vehicles increased from $766 thousand in FY 2001 to $41,950 thousand in FY
      2002. This is primarily the result of improved reporting in light of the new methodology.

      Other Weapons Systems
      The “Other Weapons Systems” category is comprised of ordnance, end item maintenance for support
      equipment, camera equipment, landing aids, calibration equipment, air traffic control equipment, target
      systems, expeditionary airfield equipment, special weapons, target maintenance, and repair of repairables.
      Three categories define ordnance maintenance: ordnance maintenance, software maintenance and other.
      Although the various programs vary in the methodology in defining requirements, all programs define
      deferred maintenance as the difference between requirements and funding.

      Software Maintenance
      Software maintenance requirements and deferred maintenance for aircraft, missiles and other equipment are
      determined using the same methodology and, therefore will not be addressed separately for each Military
      Equipment Deferred Maintenance reporting categories. Software maintenance includes the operational and
      system test software that runs in the airborne avionics systems (e.g., mission computer, display computer,
      radar) and the software that runs the ground based support labs used to perform software sustainment
      (e.g., compilers, editors, simulation, configuration management). The deferred maintenance reported for
      the execution year are those requirements below the funding threshold and up to, but not exceeding, the
      capacity of the Software Support Activity (SSA) in that particular fiscal year. There may be deferred
      requirements that exceed the capacity of the SSA, but these are not reported in the Exhibit OP-30 for the
      execution year, but rather identified as an out year requirement.




132
General Fund Required Supplementary Information




                                                  133
134
General Fund Required Supplementary Information




                                                  135
136
Department of the Navy

     OTHER ACCOMPANYING INFORMATION




                                      137
      A P P R O P R I ATIONS, FUNDS, AND ACCOUNTS INCLUDED IN THE PRINCIPA L
      S TAT E M E N T S

       Entity Accounts:

       General Funds
       17X0380       Coastal Defense Augmentation, Navy
       17 0703       Family Housing, Navy and Marine Corps
       17X0810       Environmental Restoration, Navy
       17 1105       Military Personnel, Marine Corps
       17 1106       Operation and Maintenance, Marine Corps
       17 1107       Operation and Maintenance, Marine Corps Reserve
       17 1108       Reserve Personnel, Marine Corps
       17 1109       Procurement, Marine Corps
       17 1205       Military Construction, Navy
       17 1235       Military Construction, Naval Reserve
       17X1236       Payments to Kaho Olawe Island Conveyance, Remediation, and Environmental
                     Restoration Fund, Navy
       17 1319       Research, Development, Test, and Evaluation, Navy
       17 1405       Reserve Personnel, Navy
       17 1453       Military Personnel, Navy
       17 1506       Aircraft Procurement, Navy
       17 1507       Weapons Procurement, Navy
       17 1508       Procurement of Ammunition, Navy and Marine Corps
       17 1611       Shipbuilding and Conversion, Navy
       17 1804       Operation and Maintenance, Navy
       17 1806       Operation and Maintenance, Navy Reserve
       17 1810       Other Procurement, Navy

       Revolving funds
       17 4557       National Defense Sealift Fund, Navy

       Trust funds
       17X8423         Midshipmen Store, United States Naval Academy
       17X8716         Department of the Navy General Gift Fund
       17X8723         Ship Stores Profits, Navy
       17X8733         United States Naval Academy General Gift Fund

       Special funds
       17X5095       Wildlife Conservation, etc., Military Reservations, Navy
       17X5185       Kaho Olawe Island Conveyance, Remediation, and Environmental Restoration Fund,
                     Navy
       17X5429       Rossmoor Liquidating Trust Settlement Account




138
General Fund Required Supplementary Information


   Non Entity Accounts:

   Special funds (Receipt Accounts)
   17 3041        Recoveries Under the Foreign Military Sales Program
   17 3210        General Fund Proprietary Receipts, Defense Military, Not Otherwise Classified

   Deposit funds
   17X6001          Proceeds of Sales of Lost, Abandoned, or Unclaimed Personal Property, Navy
   17X6002          Funds of Deceased, Mentally Incompetent or Missing Personnel, Navy
   17X6025          Pay of the Navy, Deposit Fund
   17X6026          Pay of the Marine Corps
   17X6050          Employee Payroll Allotment Account (U.S. Bonds)
   17X6075          Withheld Allotment of Compensation for Payment of Employee Organization Dues,
                    Navy
   17X6083          Withheld Allotment of Compensation for Charitable Contributions, Navy
   17X6134          Amounts Withheld for Civilian Pay Allotments, Navy
   17X6275          Withheld State and Local Income Taxes
   17X6434          Servicemen’s Group Life Insurance Fund, Suspense, Navy
   17X6705          Civilian Employees Allotment Account, Navy
   17X6706          Commercial Communication Service, Navy
   17 6763          Gains and Deficiencies on Exchange Transactions, Navy (fiscal year)
   17X6850          Housing Rentals, Navy 17X6875 Suspense, Navy
   17X6999          Accounts Payable, Check Issue Underdrafts, Navy




                                                                                                    139
Department of the Navy

                         WORKING CAPITAL FUND
                          PRINCIPAL STATEMENTS




                                                 141
      L I M I TATIONS OF THE FINANCIAL STAT E M E N T S

      The financial statements have been prepared to report the financial position and results of operations for the
      entity, pursuant to the requirements of the Title 31, United States Code, Section 3515(b).

      While the statements have been prepared from the books and records of the entity, in accordance with the
      formats prescribed by the Office of Management and Budget, the statements are in addition to the financial
      reports used to monitor and control budgetary resources which are prepared from the same books and
      records.

      To the extent possible, the financial statements have been prepared in accordance with federal accounting
      standards. At times, the Department is unable to implement all elements of the standards due to financial
      management systems limitations. The Department continues to implement system improvements to address
      these limitations. There are other instances when the Department’s application of the accounting standards is
      different from the auditor’s application of the standards. In those situations, the Department has reviewed
      the intent of the standard and applied it in a manner that management believes fulfills that intent.

      The statements should be read with the realization that they are for a component of the U.S. Government, a
      sovereign entity. One implication of this is that the liabilities cannot be liquidated without legislation that
      provides resources to do so.




142
Principal Statements

  P R I N C I PAL STAT E M E N T S

  The FY 2002 Navy Working Capital Fund Principal Financial Statements and related notes are presented in
  the format prescribed by the Department of Defense Financial Management Regulation 7000.14, Volume 6B.
  The statements and related notes summarize financial information for individual funds and accounts within
  the Navy Working Capital Fund for the fiscal year ending September 30, 2002, and are presented on a
  comparative basis with information previously reported for the fiscal year ending September 30, 2001. In
  accordance with SSFAS No. 21, the FY 2001 presentation has been restated to show the correction of a
  material error discovered in FY 2002 and is identified in the Financial Statement presentation in the column
  titled “Restated 2001”.

  The following statements are included in the Navy Working Capital Fund Principal Statements:

                    •   Consolidated Balance Sheet
                    •   Consolidated Statement of Net Cost
                    •   Consolidated Statement of Changes in Net Position
                    •   Combined Statement Budgetary Resources
                    •   Combined Statement of Financing

  The Principal Statements and related notes have been prepared to report financial position pursuant to the
  requirements of the Chief Financial Officers Act of 1990, as amended by the Government Management
  Reform Act of 1994.

  The accompanying notes should be considered an integral part of the Principal Statements.




                                                                                                                 143
      Department of Defense
      Navy Working Capital Fund
      C O N S O L I D ATED BALANCE SHEET
      As of September 30, 2002 and 2001
      ($ in thousands)




      ASSETS (Note 2)                                                  2002             Restated 2001        2001
        Intragovernmental:
            Fund Balance with Treasury (Note 3)                  $    1,709,680     $     1,204,403     $    1,204,403
            Investments (Note 4)                                              0                   0                  0
            Accounts Receivable (Note 5)                                525,240             894,349            894,349
            Other Assets (Note 6)                                           266              29,500             29,500
            Total Intragovernmental Assets                            2,235,186           2,128,252          2,128,252

        Cash and Other Monetary Assets (Note 7)                             0                  0                   0
        Accounts Receivable (Note 5)                                   80,901            109,737             109,737
        Loans Receivable (Note 8)                                           0                  0                   0
        Inventory and Related Property (Note 9)                    17,655,864         17,345,710          17,885,914
        General Property, Plant and Equipment (Note 10)             4,190,837          4,151,238           4,151,238
        Other Assets (Note 6)                                       1,140,654          1,373,420           1,373,420
      TOTAL ASSETS                                               $ 25,303,442       $ 25,108,357        $ 25,648,561

      LIABILITIES (Note 11)
         Intragovernmental:
             Accounts Payable (Note 12)                          $      434,772     $       462,946     $      462,946
             Debt (Note 13)                                             750,725             888,306            888,306
             Environmental Liabilities (Note 14)                              0                   0                  0
             Other Liabilities (Note 15 & Note 16)                      177,808             119,102            119,102
             Total Intragovernmental Liabilities                      1,363,305           1,470,354          1,470,354

        Accounts Payable (Note 12)                                    1,799,671           1,041,391          1,041,391
        Military Retirement Benefits and Other Employment-
           Related Actuarial Liabilities (Note 17)                    1,325,926           1,372,651          1,372,651
        Environmental Liabilities (Note 14)                                   0                   0                  0
        Loan Guarantee Liability (Note 8)                                     0                   0                  0
        Other Liabilities (Note 15 and Note 16)                       2,807,834           4,045,593          4,045,593
      TOTAL LIABILITIES                                          $    7,296,736     $     7,929,989     $    7,929,989

      NET POSITION
        Unexpended Appropriations (Note 18)                                 0                  0                   0
        Cumulative Results of Operations                           18,006,706         17,178,368          17,718,572
      TOTAL NET POSITION                                         $ 18,006,706       $ 17,178,368        $ 17,718,572

      TOTAL LIABILITIES AND NET POSITION                         $ 25,303,442       $ 25,108,357        $   25,648,561




       The accompanying notes are an integral part of these financial statements.

144
Principal Statements
  Department of Defense
  Navy Working Capital Fund
  C O N S O L I D ATED STATEMENT OF NET COST
  For the years ended September 30, 2002 and 2001
  ($ in thousands)




                                                                 2002           Restated 2001             2001
  Program Costs
     Intragovernmental Gross Costs                        $      5,382,324      $      6,189,093   $      6,189,093
     (Less: Intragovernmental Earned Revenue)                 (20,916,260)          (18,328,658)       (18,328,658)
     Intragovernmental Net Costs                              (15,533,936)          (12,139,565)       (12,139,565)

     Gross Costs With the Public                               18,837,402            16,928,798         14,436,194
     (Less: Earned Revenue From the Public)                     (862,692)              (648,383)          (648,383)
     Net Costs With the Public                                 17,974,710            16,280,415         13,787,811

     Total Net Cost                                             2,440,774             4,140,850          1,648,246

  Costs Not Assigned to Programs                                        0                     0                  0
  (Less: Earned Revenue Not Attributable
  to Programs)                                                          0                     0                  0
  Net Costs of Operations                                 $     2,440,774       $     4,140,850    $     1,648,246




                                                                                                                      145


  The accompanying notes are an integral part of these financial statements. See notes 1 and 19.
      Department of Defense
      Navy Working Capital Fund
      C O N S O L I D ATED STATEMENT OF CHANGES IN THE NET POSITION
      For the years ended September 30, 2002 and 2001
      ($ in thousands)


      CUMULATIVE RESULTS OF OPERATION                                     2002           Restated 2001         2001

         Beginning Balances                                          $ 17,718,572        $ 19,090,738     $ 19,090,738
         Prior period adjustments (+/-)                                 1,952,397             790,769       (1,161,631)
         Beginning Balances, as adjusted                               19,670,969          19,881,507       17,929,107

         Budgetary Financing Sources:
           Appropriations Received                                                0                   0               0
           Appropriations transferred in/out (+/-)                                0                   0               0
           Other adjustments (recissions, etc) (+/-)                              0                   0               0
           Appropriations used                                                    0             145,530         145,530
           Nonexchange revenue                                                    0              11,352          11,352
           Donations and forfeitures of cash and cash equivalents                 0                   0               0
           Transfers in/out without reimbursement (+/-)                           0                   0               0
           Other budgetary financing sources (+/-)                          312,060             771,249         771,249

         Other Financing Sources:
            Donations and forfeitures of property                                 0                   0                0
            Transfers in/out without reimbursement (+/-)                     (1,138)             36,187           36,187
            Imputed financing from costs absorbed by others                 465,589             473,393          473,393
            Other (+/-)                                                           0                   0                0
         Total Financing Sources                                            776,511           1,437,711        1,437,711

         Net Cost of Operations (+/-)                                     2,440,774           4,140,850        1,648,246

         Ending Balances                                             $ 18,006,706        $ 17,178,368     $   17,718,572




        The accompanying notes are an integral part of these financial statements. See notes 1 and 20.


146
Principal Statements

  Department of Defense
  Navy Working Capital Fund
  COMBINED STATEMENT OF BUDGETA RY RESOURCES
  For the years ended September 30, 2002 and 2001
  ($ in thousands)
                                                                            2002                Restated 2001                 2001
  BUDGETARY RESOURCES                                                    Budgetary                Budgetary                Budgetary
                                                                     Financing Accounts       Financing Accounts       Financing Accounts
    Budget Authority:
       Appropriations Received                                   $               0        $        145,530         $         145,530
       Borrowing Authority                                                       0                       0                         0
       Contract Authority                                                  818,950                 612,962                   612,962
       Net transfers (+/-)                                                       0                       0                         0
       Other                                                                     0                       0                         0
    Unobligated Balance:
       Beginning of period                                              3,106,657                2,089,156                2,089,156
       Net transfers, actual (+/-)                                              0                   43,700                   43,700
       Anticipated Transfers Balances                                           0                        0                        0
    Spending Authority from Offsetting Collections:
       Earned
         Collected                                                     24,242,264              21,216,090               21,216,090
         Receivable from Federal sources                                (478,538)                 177,613                  177,613
       Change in unfilled customer orders
         Advances received                                             58,673                 (576,035)                (576,035)
         Without advance from Federal sources                         773,407                  790,653                  790,653
       Anticipated for the rest of year, without advances                   0                        0                        0
       Transfers from trust funds                                           0                        0                        0
       Subtotal                                                    24,595,806               21,608,321               21,608,321
    Recoveries of prior year obligations                                    0                        0                        0
    Temporarily not available pursuant to Public Law                        0                        0                        0
    Permanently not available                                       (417,232)                  (80,135)                 (80,135)
    Total Budgetary Resources                                    $ 28,104,181             $ 24,419,534             $ 24,419,534

  STATUS OF BUDGETARY RESOURCES
     Obligations Incurred:
        Direct                                                   $              0         $             0          $             0
        Reimbursable                                                   23,986,959              21,312,877               21,312,877
        Subtotal                                                       23,986,959              21,312,877               21,312,877
     Unobligated balance:
        Apportioned                                                     4,117,221            3,044,096                3,044,096
        Exempt from apportionment                                               0               62,562                   62,562
        Other available                                                         1                   (1)                      (1)
     Unobligated Balances Not Available                                         0                    0                         0
     Total, Status of Budgetary Resources                        $     28,104,181         $ 24,419,534             $ 24,419,534




                                                                                                                                            147


  The accompanying notes are an integral part of these financial statements. See notes 1 and 21.
      Department of Defense
      Navy Working Capital Fund
      COMBINED STATEMENT OF BUDGETA RY RESOURCES
      For the years ended September 30, 2002 and 2001
      ($ in thousands)
                                                                            2002                Restated 2001                 2001
                                                                         Budgetary                Budgetary                Budgetary
                                                                     Financing Accounts       Financing Accounts       Financing Accounts
      RELATIONSHIP OF OBLIGATIONS TO OUTLAYS
         Obligated Balance, Net-beginning of period              $      2,421,105         $      3,630,862         $      3,630,862
         Obligated Balance transferred, net (+/-)                               0                        0                        0
         Obligated Balance, net-end of period:
             Accounts Receivable                                         (773,326)             (1,251,862)              (1,251,862)
             Unfilled customer order from Federal sources              (6,791,954)             (6,018,549)              (6,018,549)
             Undelivered Orders                                          7,327,957              4,611,122                4,611,122
             Accounts Payable                                            3,223,082              5,080,394                 5,080,394
         Outlays:
             Disbursements                                          23,127,436                21,554,367               21,554,367
             Collections                                          (24,300,937)              (20,640,054)             (20,640,054)
             Subtotal                                               (1,173,501)                  914,313                  914,313
         Less: Offsetting receipts                                            0                        0                        0
         Net Outlays                                             $ (1,173,501)            $      914,313           $      914,313




        The accompanying notes are an integral part of these financial statements. See notes 1 and 21.


148
Principal Statements
 Department of Defense
 Navy Working Capital Fund
 COMBINED STATEMENT OF FINANCING
 For the years ended September 30, 2002 and 2001
 ($ in thousands)


 Resources Used to Finance Activities:                                    2002            Restated 2001           2001
 Budgetary Resources Obligated
    Obligations Incurred                                           $ 23,986,959       $ 21,312,876        $ 21,312,876
    Less: Spending Authority from offsetting collections and
      recoveries (-)                                                   (24,595,804)       (21,608,321)        (21,608,321)
    Obligations net of offsetting collections and recoveries              (608,845)          (295,445)           (295,445)
    Less: Offsetting receipts (-)                                                 0                 0                   0
    Net obligations                                                       (608,845)          (295,445)           (295,445)
 Other Resources
    Donations and forfeitures of property                                        0                   0                  0
    Transfers in/out without reimbursement (+/-)                                 0             (7,512)             (7,512)
    Imputed financing from costs absorbed by others                        465,589            473,394             473,394
    Other (+/-)                                                                  0                   0                  0
    Net other resources used to finance activities                         465,589            465,882             465,882
    Total resources used to finance activities                     $     (143,256)    $       170,437     $       170,437

 Resources Used to Finance Items not Part of the Net
 Cost of Operations:
    Change in budgetary resources obligated for goods,
    services and benefits ordered but not yet provided
        Undelivered orders (-)                                     $ (3,023,627)      $     2,802,411     $     2,802,411
        Unfilled Customer Orders                                         832,080              214,618             214,618
    Resources that fund expenses recognized in prior periods            (46,725)                 (305)               (305)
    Budgetary offsetting collections and receipts that do not
    affect Net Cost of Operations                                                0                 0                    0
    Resources that finance the acquisition of assets                     5,167,247          (520,950)          (3,013,554)
    Other resources or adjustments to net obligated resources
    that do not affect Net Cost of Operations
        Less: Trust or Special Fund receipts related to exchange
        in the entity's budget (-)                                               0                   0                   0
        Other (+/-)                                                              0                   0                   0
    Total resources used to finance items not part of
    the Net Cost of Operations                                           2,928,975          2,495,774               3,170
    Total resources used to finance the Net Cost of
    Operations                                                     $     2,785,719    $     2,666,211     $       173,607




                                                                                                                             149


   The accompanying notes are an integral part of these financial statements. See notes 1 and 22.
      Department of Defense
      Navy Working Capital Fund
      COMBINED STATEMENT OF FINANCING
      For the years ended September 30, 2002 and 2001
      ($ in thousands)


      Components of the Net Cost of Operations that will
      not Require or Generate Resources in the Current                        2002              Restated 2001        2001
      Period:
      Components Requiring or Generating Resources in Future Periods:
         Increase in annual leave liability                           $               0     $            0      $          0
         Increase in environmental and disposal liability                             0                  0                 0
         Upward/Downward reestimates of credit subsidy expense                        0                  0                 0
         Increase in exchange revenue receivable from the public (-)                  0                  0                 0
         Other (+/-)                                                                  0            149,042           149,042
         Total components of Net Cost of Operations that will require
         or generate resources in future periods                                      0            149,042           149,042

      Components not Requiring or Generating Resources:
        Depreciation and amortization                                           210,490            210,671            210,671
         Revaluation of assets and liabilities (+/-)                          (555,394)          1,114,926          1,114,926
         Other (+/-)                                                                (41)                 0                  0
        Total components of Net Cost of Operations that will not
         require or generate resources                                  $     (344,945)     $    1,325,597      $   1,325,597
        Total components of Net Cost of Operations that
         will not require or generate resources in the
         current period                                                 $     (344,945)     $    1,474,639      $   1,474,639
         Net Cost of Operations                                         $    2,440,774      $    4,140,850      $   1,648,246




       The accompanying notes are an integral part of these financial statements. See notes 1 and 22.


150
Department of the Navy

                      WORKING CAPITAL FUND
      NOTES     TO   THE PRINCIPAL STATEMENTS




                                                151
      NOTE 1. SIGNIFICANT ACCOUNTING POLICIES

      A. Basis of Presentation
      These financial statements have been prepared to report the financial position and results of operations of the
      Navy Working Capital Fund (NWCF), as required by the Chief Financial Officers (CFO) Act of 1990,
      expanded by the Government Management Reform Act (GMRA) of 1994, and other appropriate legislation.
      The financial statements have been prepared from the books and records of the NWCF in accordance with
      the Department of Defense Financial Management Regulation (DoD FMR), Office of Management and
      Budget (OMB) Bulletin No. 01-09, “Form and Content of Agency Financial Statements,” and to the extent
      possible Federal Generally Accepted Accounting Principals (GAAP). However, the NWCF financial statements
      were affected by fiscal year (FY) 2000 and 2001 adjustments, made to facilitate the Department of Defense
      (DoD) and federal-wide financial statement consolidation process, that were not reversed at fiscal year-end
      as required by the DoD FMR. The NWCF was required to present financial statement balances that agreed
      with related balances reported by other DoD and other civilian agency balances. The adjusted balances
      reported by the NWCF then enabled DoD and the Department of Treasury to eliminate, at the DoD and
      federal government consolidated statement levels, the effects of all intra-DoD and intra-governmental
      transactions. The effect of these adjustments on the NWCF financial statements for FYs 2000 and 2001
      was significant and pervasive. See Note 1.G., Accounting for Intragovernmental Activities, for additional
      disclosures on eliminating intra-governmental transactions.

      The accompanying financial statements account for all resources for which the NWCF is responsible except
      that information relative to classified assets, programs, and operations has been excluded from the statement
      or otherwise aggregated and reported in such a manner that it is no longer classified. The NWCF financial
      statements are in addition to the financial reports also prepared by the NWCF pursuant to OMB directives
      that are used to monitor and control the NWCF use of budgetary resources.

      The NWCF is unable to fully implement all elements of Federal GAAP and OMB Bulletin No. 01-09 due to
      limitations of its financial management processes and systems, including nonfinancial feeder systems and
      processes. Reported values and information for the NWCF's major asset and liability categories are derived
      largely from nonfinancial feeder systems, such as inventory systems and logistic systems. These were
      designed to support reporting requirements focusing on maintaining accountability over assets and reporting
      the status of federal appropriations rather than preparing financial statements in accordance with Federal
      GAAP. As a result, the NWCF cannot currently implement every aspect of Federal GAAP and OMB Bulletin
      No. 01-09. The NWCF continues to implement process and system improvements addressing the limitation
      of its financial and nonfinancial feeder systems. A more detailed explanation of these financial statement
      elements is provided in the applicable footnote.

      The amounts presented in the financial statements and notes are rounded to the nearest thousand of dollars.

      B. Mission of the Reporting Entity
      The overall mission of the Department of Navy (DON) is to organize, train, and equip forces to deter
      aggression and, if necessar y, defeat aggressors of the United States and its allies. The NWCF provides
      goods, services, and infrastructure to DON and other DoD customers to help ensure our military forces are
      mobile, ready, and have the most advanced technology.

      The NWCF has prepared, for the 12th year, financial statements pursuant to CFO Act of 1990, as amended.
      The Act requires that financial statements be prepared and audited for each revolving fund and account that
      performed substantial commercial functions, such as those performed by the NWCF.

      The NWCF financial statements include all activities previously financed through the Navy Industrial Fund
      and DON Stock Fund. DoD converted these activities to the Defense Business Operations Fund (DBOF) in



152
Notes to the Principal Statements

  October 1991. In December 1996, Under Secretary of Defense (Comptroller) (USD(C)) replaced the DBOF
  with four working capital funds, one of which is the NWCF. This action did not change the previous
  organizational reporting structure.

  C. Appropriations and Funds
  The DON's appropriations and funds are divided into the general, working capital (revolving funds), trust,
  special, and deposit funds. These appropriations and funds are used to fund and report how the resources
  have been used in the course of executing the DON's missions.

  Working capital funds (WCF) (revolving funds) receive their initial working capital through an appropriation
  or a transfer of resources from existing appropriations or funds and use those capital resources to finance
  the initial cost of products and services. Financial resources to replenish the initial working capital and to
  permit continuing operations are generated by the acceptance of customer orders. The Defense Working
  Capital Fund (DWCF) operates with financial principles that provide improved cost visibility and
  accountability to enhance business management and improve the decision making process. The activities
  provide goods and services on a reimbursable basis. Receipts derived from operations generally are
  available in their entirety for use without further congressional action.

  D. Basis of Accounting
  The NWCF generally records transactions on an accrual accounting basis as is required by Federal GAAP.
  However, some of the NWCF's financial and nonfinancial feeder systems and processes are not designed to
  collect and record financial information on the full accrual accounting basis. The NWCF has undertaken
  efforts to determine the actions required to bring all of its financial and nonfinancial feeder systems and
  processes into compliance with all elements of Federal GAAP.

  In addition, the NWCF identifies programs based upon the major appropriation groups provided by
  Congress. The NWCF is in the process of reviewing available data and attempting to develop a cost
  reporting methodology that balances the need for cost information required by the Statement of Federal
  Financial Accounting Standard (SFFAS) No. 4, "Managerial Cost Accounting Concepts and Standards for
  the Federal Government,” with the need to keep the financial statements from being overly voluminous.

  E. Revenues and Other Financing Sources
  Revenue is recognized according to the percentage of completion method for depot maintenance and
  research and development WCF activities. Revenue is recognized when an inventory item is sold for supply
  management activities and at the time service is rendered for base support activities. Revenue for the
  transportation activity group is recognized on either a reimbursable or per diem basis.

  F. Recognition of Expenses
  For financial reporting purposes, the DoD policy requires the recognition of operating expenses in the period
  incurred. However, because the NWCF's financial and nonfinancial feeder systems were not designed to
  collect and record financial information on the full accrual accounting basis, accrual adjustments are made
  for major items such as payroll expenses, accounts payable, and contracts. Expenditures for capital and
  other long-term assets are not recognized as expenses in the NWCF's operations until depreciated in the
  case of Property, Plant, and Equipment (PP&E) or consumed in the case of Operating Materials and Supplies
  (OM&S). Net increases or decreases in unexpended appropriations are recognized as a change in the net
  position.

  Operating expenses were adjusted as a result of the elimination of balances between DoD Components.
  See Note 19.I Intragovernmental Expenses and Revenue, for disclosure of adjustment amounts.
                                                                                                                   153
      G. Accounting for Intra-governmental Activities
      The NWCF, as an agency of the federal government, interacts with and is dependent upon the financial
      activities of the federal government as a whole. Therefore, these financial statements do not reflect the results
      of all financial decisions applicable to the NWCF as though the agency was a stand-alone entity.

      The DON's proportionate share of public debt and related expenses of the federal government are not
      included. Debt issued by the federal government and the related costs are not apportioned to federal
      agencies. The NWCF's financial statements, therefore, do not report any portion of the public debt or
      interest thereon, nor do the statements report the source of public financing whether from issuance of debt or
      tax revenues.

      Financing for the construction of DON facilities is obtained through budget appropriations. To the extent this
      financing ultimately may have been obtained through the issuance of public debt, interest costs have not
      been capitalized since the Department of the Treasury does not allocate such interest costs to the benefiting
      agencies.

      The NWCF's civilian employees participate in the Civil Service Retirement System (CSRS) and the Federal
      Employees Retirement Systems (FERS), while military personnel are covered by the Military Retirement System
      (MRS). Additionally, employees and personnel covered by FERS and MRS also have varying coverage under
      Social Security. The NWCF funds a portion of the civilian and military pensions. Reporting civilian pension
      under CSRS and FERS retirement systems is the responsibility of the Office of Personnel Management (OPM).
      The NWCF recognizes an imputed expense for the portion of civilian employee pensions and other
      retirement benefits funded by the OPM in the Statement of Net Cost; and recognizes corresponding imputed
      revenue from the civilian employee pensions and other retirement benefits in the Statement of Changes in Net
      Position.

      The Department reports the assets, funded actuarial liability, and unfunded actuarial liability for the military
      personnel in the Military Retirement Fund (MRF) financial statements. The Department recognizes the
      actuarial liability for the military retirement health benefits in the Other Defense Organization General Fund
      column of the DoD Agency-wide consolidating/combining statements.

      To prepare reliable financial statements, transactions occurring between components or activities within the
      NWCF must be eliminated. However, the NWCF cannot accurately identify all intragovernmental
      transactions by customer. The Defense Finance and Accounting Service (DFAS) is responsible for eliminating
      transactions between components or activities of the NWCF. For FYs 1999, 2000, and 2001, seller entities
      within the Department provided summary seller-side balances for revenue, Accounts Receivable, and
      unearned revenue to the buyer-side internal DoD accounting offices. In most cases, the buyer-side records
      have been adjusted to recognize unrecorded costs and Accounts Payable

      The Department of the Treasury, Financial Management Service (FMS) is responsible for eliminating
      transactions between the Department and other federal agencies. In September 2000, the FMS issued the
      “Federal Intragovernmental Transactions Accounting Policies and Procedures Guide.” The Department was
      not able to fully implement the policies and procedures in this guide related to reconciling intragovernmental
      assets, liabilities, revenues, and expenses for non-fiduciary transactions. The NWCF, however, was able to
      implement the policies and procedures contained in the “Intragovernmental Fiduciary Transactions
      Accounting Guide,” as updated by the “Federal Intragovernmental Transactions Accounting Policies and
      Procedures Guide,” for reconciling intragovernmental transactions pertaining to investments in federal
      securities, borrowings from the United States (U.S.) Treasury and the Federal Financing Bank, Federal
      Employees’ Compensation Act transactions with the Department of Labor (DOL), and benefit program
      transactions with the OPM.




154
Notes to the Principal Statements

  H. Transactions with Foreign Governments and International Organizations
  Each year, the DoD Components sell defense articles and services to foreign governments and international
  organizations, primarily under the provisions of the “Arms Export Control Act of 1976.” Under the
  provisions of this Act, DoD has authority to sell defense articles and services to foreign countries and
  international organizations, generally at no profit or loss to the U.S. Government. Customers may be
  required to make payments in advance.

  I. Funds with the U.S. Treasury
  The NWCF's financial resources are maintained in U.S. Treasury accounts. The majority of cash collections,
  disbursements, and adjustments are processed worldwide at the DFAS, Military Services, and the U.S. Army
  Corps of Engineers (USACE) disbursing stations, as well as the Department of State financial service centers.
  Each disbursing station prepares monthly reports, which provide information to the U.S. Treasury on check
  issues, electronic fund transfers, interagency transfers and deposits.

  In addition, the DFAS sites and the USACE Finance Center submit reports to the Department of the Treasury,
  by appropriation, on interagency transfers, collections received, and disbursements issued. The Department
  of the Treasury then records this information to the applicable Fund Balance with Treasury (FBWT) account
  maintained in the Treasury's system. Differences between the NWCF's recorded balance in the FBWT
  accounts and Treasury's FBWT accounts sometimes result and are subsequently reconciled. Material
  disclosures are provided at Note 3. Differences between accounting offices' detail-level records and
  Treasury's FBWT accounts are disclosed in Note 21.B, specifically, differences caused by in-transit
  disbursements and unmatched disbursements (which are not recorded in the accounting offices' detail-level
  records).

  J. Foreign Currency
  Not Applicable.

  K. Accounts Receivable
  As presented in the Balance Sheet, Accounts Receivable includes accounts, claims, and refunds receivable
  from other federal entities or from the public. Allowances for uncollectible accounts due from the public are
  based upon analysis of collection experience by fund type. DoD does not recognize an allowance for
  estimated uncollectible amounts from other federal agencies. Claims against another federal agency are to
  be resolved between the agencies. Material disclosures are provided in Note 5.

  L. Loans Receivable.
  Not Applicable.

  M. Inventories and Related Property
  Federal accounting standards require that inventory and related property be appropriately categorized and
  valued using one of several historical-cost based methods. At present, inventories (exclusive of OM&S which
  are also considered part of the inventory and related property reporting line item) are reported at
  approximate historical cost using the Latest Acquisition Cost (LAC) adjusted for holding gains and losses.
  Past audit results identified uncertainties about the existence and completeness of quantities used to produce
  the reported values.

  Inventory and related property reported on the financial statements are derived from logistics systems
  designed for material management purposes. Overall, these systems do not maintain the historical cost data
  necessary for proper valuation in compliance with federal accounting standards. In addition, while these
  logistics systems provide accountability and visibility for logistics purposes, they do not directly support the
  categorization of inventory and related property required by SFFAS No. 3, “Accounting for Inventory and            155
  Related Property.” Neither can they directly produce financial transactions using the United States
  Government Standard General Ledger (USSGL), as required by the Federal Financial Management
  Improvement Act of 1996 (P.L. 104-208).
      The law distinguishes between “Inventory held for sale" and "Inventory held in reserve for future sale.” There
      is no management or valuation difference between the two USSGL accounts. Further, DoD manages only
      military or government-specific material under normal conditions. Items commonly used in and available
      from the commercial sector are not managed in DoD material management activities. Operational cycles are
      irregular, and the military risks associated with stock-out positions have no commercial parallel. DoD holds
      material based on military need and support for contingencies. Therefore, DoD does not attempt to account
      separately for items held for “current” or “future” sale.

      Related property includes Operating Materials and Supplies (OM&S) and stockpile materials. The OM&S,
      including munitions not held for sale, are valued at standard purchase price. The Department uses the
      consumption method of accounting for OM&S, for the most part, expensing material when it is issued to the
      end user. Where current systems cannot fully support the consumption method, DoD uses the purchase
      method - that is, expensed when purchased. For FY 2002, DoD reported significant amounts using the
      purchase method either because the systems could not support the consumption method or because
      management deems that the item is in the hands of the end user.

      In July 2001, DoD adopted the moving average cost (MAC) method for valuing all DoD inventory and
      related property. MAC is another acceptable valuation method consistent with federal accounting standards
      but avoids the complications presented by the Adjusted LAC method. The policy allows the DoD components
      to implement the MAC method as systems are replaced or renovated.

      During FY 2002 DoD examined transaction-driven methods that impact how inventory and related property
      are categorized and reported. Policy released in August 2002 requires inventory and related property to be
      categorized based upon specific coding assigned by logisticians that dictates whether an asset is ready and
      available for use or sale, requires repair, or is being held for other reasons. This represents an improvement
      over previous years reporting methods where, for example, Excess, Obsolete, and Unserviceable amounts
      were derived for financial reports using imprecise estimates not originally intended to support financial
      reporting.

      The Department's new policy accounts for condemned material (only) as “Excess, Obsolete, and
      Unserviceable.” The net value of condemned material is zero, because the costs of disposal are greater than
      the potential scrap value. Potentially redistributable material, presented in previous years as “Excess,
      Obsolete, and Unserviceable,” is now included in the Available and Purchased for Resale, Held for Use or
      Held for Repair categories according to its condition.

      Material disclosures related to inventory and related property are provided in Note 9.

      N. Investments in U.S. Treasury Securities
      Not Applicable.

      O. General Property, Plant and Equipment
      General PP&E assets are capitalized at historical acquisition cost plus capitalized improvements when an
      asset has a useful life of two or more years, and when the acquisition cost equals or exceeds the DoD
      capitalization threshold of $100,000. Also, improvement costs over the DoD capitalization threshold of
      $100,000 for General PP&E are required to be capitalized. All General PP&E, other than land, is
      depreciated on a straight-line basis. Land is not depreciated.

      Prior to FY 1996, General PP&E with an acquisition cost of $15,000, $25,000, and $50,000 for FYs 1993,
      1994, and 1995 respectively, and an estimated useful life of two or more years was capitalized. These
      assets remain capitalized and reported on WCF financial statements. General PP&E previously capitalized at
      amounts below $100,000 were written off General Fund financial statements in FY 1998.



156
Notes to the Principal Statements

  For WCF activities, all PP&E used in the performance of their mission is categorized as General PP&E,
  whether or not it meets the definition of any other PP&E categories. Military Equipment, Heritage Assets and
  Stewardship Land owned or maintained on a WCF installation are reported in the Supplemental
  Stewardship Report of the applicable military department. To prevent duplicative reporting of the same
  Heritage Assets within DON, the total number of DON-wide Heritage Assets are reported in the Required
  Supplementary Stewardship Information (RSSI) of the Audited Financial Statements of the DON General
  Funds (Treasury Index 17).

  The General Accounting Office (GAO) has determined that real property used by the NWCF, but under the
  jurisdiction of the Military Departments, represents an asset of the NWCF, and that such property should be
  reported on the financial statements as an entity asset to show the full costs of all resources and assets used
  in NWCF operations. DFAS is currently developing accounting and reporting procedures to allow NWCF to
  report finance sources and expenses associated with assets not acquired with NWCF resources (e.g., real
  property) as Other Revenues and Financing Sources and Depreciation and Amortization Expense.

  Material disclosures are provided at Note 10.

  P. Advances and Prepayments
  Payments in advance of the receipt of goods and services are recorded as advances or prepayments and
  reported as an asset on the Balance Sheet. Advances and prepayments are recognized as expenditures and
  expenses when the related goods and services are received.

  Q. Leases
  Generally, lease payments are for the rental of equipment and operating facilities and are classified as either
  capital or operating leases. When a lease is essentially equivalent to an installment purchase of property (a
  capital lease) and the value equals or exceeds the current DoD capitalization threshold, the applicable asset
  and liability are recorded. The amount recorded is the lesser of the present value of the rental and other
  lease payments during the lease term, excluding that portion of the payments representing executory costs
  paid to the lessor, or the asset's fair value. Leases that do not transfer substantially all of the benefits or risks
  of ownership are classified as operating leases and recorded as expenses as payments are made over the
  lease term.

  R. Other Assets
  The NWCF conducts business with commercial contractors under two primary types of contracts—fixed price
  and cost reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts
  can cause, the NWCF provides financing payments. One type of financing payment that the NWCF makes,
  for real property, is based upon a percentage of completion. In accordance with the SFFAS No. 1,
  “Accounting for Selected Assets and Liabilities,” such payments are treated as construction in process and
  are reported on the General PP&E line and in Note 10, General PP&E, Net. In addition, based on the
  provision of the FAR, the NWCF makes financing payments under fixed price contracts that are not based
  on a percentage of completion. The NWCF reports these financing payments as advances or prepayments
  in the “Other Assets” line item. The NWCF treats these payments as advances or prepayments because the
  NWCF becomes liable only after the contractor delivers the goods in conformance with the contract terms. If
  the contractor does not deliver a satisfactory product, the NWCF is not obligated to reimburse the contractor
  for its costs and the contractor is liable to repay the NWCF for the full amount of the advance. The
  Department has completed a review of all applicable federal accounting standards; applicable public laws
  on contract financing FAR Parts 32, 49, and 52; and the OMB guidance in 5 Code of Federal Regulations
  Part 1315, “Prompt Payment.” The Department has concluded that SFFAS No. 1 does not fully or
  adequately addresses the subject of progress payment accounting and is considering what further action is
                                                                                                                          157
  appropriate.

  Material disclosures are provided at Note 6.
      S. Contingencies and Other Liabilities
      The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” defines a contingency as an
      existing condition, situation, or set of circumstances that involves an uncertainty as to possible gain or loss to
      the NWCF. The uncertainty will be resolved when one or more future events occur or fail to occur. A
      contingency is recognized as a liability when a past event or exchange transaction has occurred, a future
      loss is probable and the amount of loss can be reasonably estimated. Financial statement reporting is limited
      to disclosure when conditions for liability recognition do not exist but there is at least a reasonable possibility
      that a loss or additional loss will be incurred. Examples of loss contingencies include the collectibility of
      receivables, pending or threatened litigation, possible claims and assessments. The NWCF's loss
      contingencies arising as a result of pending or threatened litigation or claims and assessments occur due to
      events such as aircraft, ship and vehicle accidents; medical malpractice; property or environmental damages;
      and contract disputes.

      T. Accrued Leave
      Civilian annual leave that has been accrued and not used as of the balance sheet date is reported as a
      liability. The liability reported at the end of the fiscal year reflects the current pay rates.

      U. Net Position
      Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended
      appropriations represent amounts of authority which are unobligated and have not been rescinded or
      withdrawn, and amounts obligated but for which legal liabilities for payments have not been incurred.

      Cumulative results of operations for WCF represents the excess of revenues over expenses less refunds to
      customers and returns to the U.S. Treasury since fund inception.

      V. Treaties for Use of Foreign Bases
      The DoD Components have the use of land, buildings, and other facilities, which are located overseas and
      have been obtained through various international treaties and agreements negotiated by the Department of
      State. The DoD capital assets overseas are purchased with appropriated funds; however, title to land and
      improvements is retained by the host country. Generally, treaty terms allow the DoD Components continued
      use of these properties until the treaties expire. These fixed assets are subject to loss in the event treaties are
      not renewed or other agreements are not reached which allow for the continued use by the Department.
      Therefore, in the event treaties or other agreements are terminated whereby use of the foreign bases is no
      longer allowed, losses will be recorded for the value of any nonretrievable capital assets after negotiations
      between the U.S. and the host country have been concluded to determine the amount to be paid the U.S. for
      such capital investments.

      W. Comparative Data
      The NWCF presents the current and previous year's financial data for comparative purposes. This data will
      be presented in the financial statements, as well as in the notes to the principal statements.

      However, in FY 2002, the DFAS modified the financial statement presentation for the Statement of Net Cost,
      Statement of Changes in Net Position and the Statement of Financing. As a result, the corresponding NWCF
      statements during this reporting period may not provide data that can be used for comparative analysis. In
      some instances, amounts on the statements were reported on one financial statement line in FY 2001 and for
      FY 2002 have been split into multiple financial statement lines. This action was taken to ensure compliance
      with OMB guidance.

      X. Unexpended Obligations
      The NWCF records obligations for goods and services that have been ordered but not yet received. No
      liability for payment has been established in the financial statements because goods and services have yet to
      be delivered.


158
Notes to the Principal Statements

 NOTE 2. NONENTITY AND ENTITY ASSETS
 As of September 30,
 (Amounts in thousands)
                                                                    2002                              2001
                                                   Nonentity        Entity           Total
  1. Intra-governmental Assets:
     A. Fund Balance with Treasury             $           0   $   1,709,680    $   1,709,680     $   1,204,403
     B. Investments                                        0               0                0                 0
     C. Accounts Receivable                                0         525,240          525,240           894,349
     D.Other Assets                                        0             266              266            29,500
     E. Total Intra-governmental Assets        $           0   $   2,235,186    $   2,235,186     $   2,128,252

  2. Non-Federal Assets:
    A.Cash and Other Monetary Assets           $           0   $          0     $          0      $          0
    B. Accounts Receivable                                 0         80,901           80,901           109,737
    C. Loans Receivable                                    0              0                0                 0
    D.Inventory & Related Property                         0     17,655,864       17,655,864        17,885,914
    E. General Property, Plant and Equipment               0      4,190,837        4,190,837         4,151,238
    F. Other Assets                                        0      1,140,654        1,140,654         1,373,420
    G. Total Non-Federal Assets                $           0   $ 23,068,256     $ 23,068,256      $ 23,520,309

  3. Total Assets:                             $           0   $ 25,303,442     $ 25,303,442      $ 25,648,561


 4. Other Information:
 Asset accounts are either categorized as entity or nonentity. Entity accounts consist of resources that the
 agency has the authority to use, or where management is legally obligated to use funds to meet entity
 obligations, e.g., Accounts Payable. Nonentity accounts are assets that are held by an entity, but are not
 available for use in the operations of the entity, for example, cash held by a disbursing officer, as an agent
 of the Department of Treasury.

 Included in the Entity Nonfederal Other Assets is an amount of $1,256 thousand representing interest,
 penalties, fines & administrative fees. These fees do not belong to the NWCF and will be submitted to the
 Department of Treasury. These fees were reclassified from Non-Entity Nonfederal Other Assets as instructed
 by DFAS Arlington.

 Detailed disclosures for Other Assets are provided in Note 6.




                                                                                                                  159
      NOTE 3. FUND BALANCE WITH TREASURY
      As of September 30,
      (Amounts in thousands)

                                                                                     2002               2001
      1. Fund Balances:
         A.   Appropriated Funds                                                $            0     $            0
         B.   Revolving Funds                                                        1,709,680          1,204,403
         C.   Trust Funds                                                                    0                  0
         D.   Other Fund Types                                                               0                  0
         E.   Total Fund Balances                                               $    1,709,680     $   1, 204,403

      2. Fund Balances Per Treasury Versus Agency:
         A. Fund Balance per Treasury                                           $    1,709,680     $   1,204,403
         B. Fund Balance per NWCF                                                    1,709,680         1,204,403
         C. Reconciling Amount                                                  $            0     $           0

      3. Explanation of Reconciliation Amount: None


      4. Other Information Related to Fund Balance with Treasury:
      The Fund Balance with Treasury of $1,709,680 thousand reflects the FY 2001 ending balance of
      $1,204,403 thousand plus FY 2002 collections, disbursements, and non-expenditure transfers recorded in
      the NWCF Treasury sub-limit 97X4930.002. The following table details the amounts recorded in FY 2002:

        Collections                                                              $ 23,771,581
        Disbursements                                                             (23,070,077)
        Non-expenditure Transfers, Net                                               (196,227)

      The non-expenditure transfers, as recorded on SF 1151, Non Expenditure Transfer Authorization, are
      comprised of Transfers-in of $62,588 thousand and Transfers-out of $(258,815) thousand. The transfers had
      an effect on the following NWCF Activities:
                                                                               (in thousands)
                                                                              Non-expenditure
                                   Activity                                       Transfers

        Transportation                                                           $   (196,227)
        Information Services                                                          (62,588)
        Research & Development                                                          18,776
        Supply Management, Navy                                                         43,812
        Total                                                                    $   (196,227)

      The Intra-governmental Payment and Collection (IPAC) differences are reconcilable differences that represent
      amounts recorded by Treasury but not reported by the organization. As of September 30, 2001 and 2002,
      there was $1,648 thousand and $16,743 thousand, respectively, of IPAC differences greater than 180-days
      old. A majority of the differences represent internal DoD transactions and therefore do not affect the FBWT
      at the DoD consolidated level. For individual entity level statements, however, these differences would affect
      the amount reported for the FBWT. The Department is working with the DFAS sites, the Department of the
      Treasury, and a Treasury Department contractor to develop an automated tool to aid in reconciling the
      Treasury’s Statement of Differences. The accounting and paying centers established metrics and implemented
      monthly reporting requirements for FY 2001. These actions will aid the NWCF in clearing many of the old
      balances and establishing better internal controls over the IPAC process.

      The Fund Balance with Treasury increased materially from FY 2001 to FY 2002 primarily as a result of an
      increase in customer work in FY 2002 for Research & Development’s Space and Naval Warfare Systems
      Centers (SSCs).
160
Notes to the Principal Statements

  NOTE 4. INVESTMENTS
  Not Applicable.


  NOTE 5. ACCOUNTS RECEIVA B L E
  As of September 30,
  (Amounts in thousands)                                                  2002                               2001
                                                                       Allowance
                                                      Gross Amount   For Estimated       Accounts          Accounts
                                                          Due        Uncollectibles   Receivable, Net   Receivable, Net


  1. Intra-governmental Receivables:              $       525,240              N/A     $     525,240     $     894,349

  2. Non-Federal Receivables (From the Public):   $        80,901    $           0     $      80,901     $     109,737

  3. Total Accounts Receivable:                   $       606,141    $           0     $     606,141     $   1,004,086

  4. Allowance method:
  Under SFFAS No. 1, an allowance for uncollectible Accounts Receivable nonfederal should be recognized to
  reduce the gross amount of receivables to net realizable value. The DoD FMR cites the requirement of GAO
  and the Department of the Treasury that federal agencies establish allowances for uncollectible accounts.
  The NWCF is not in compliance with this requirement. The NWCF requires an advance payment from non-
  federal customers prior to starting work, therefore, the NWCF uses the direct write-off method for Accounts
  Receivable non-federal when an account is determined to be uncollectible. During FY 2002, there were
  $190,435 thousand dollars written off for uncollectible amounts owed by nonfederal customers. Amounts
  reported for non-federal receivables represent bills that were produced at the end of the year for which
  payment has not been received or amounts that have not been matched with the prepayment and advance
  account.

  5. Other information:
  The amount of public receivables and intragovernmental receivables over 180-days old is $24,384
  thousand and $64,541 thousand, respectively.

  Intragovernmental Accounts Receivable decreased materially from FY 2001 to FY 2002 primarily as a result
  of the final billing for FY 2002 not being completed as of 30 September 2002 for Research and
  Development’s Naval Surface Warfare Center (NSWC) and Naval Undersea Warfare Center (NUWC).

  Accounts Receivable Nonfederal decreased materially from FY 2001 to FY 2002. This decrease is primarily
  due to a significant decrease in Foreign Military Sales (FMS) for Supply Management, Navy and a Defense
  Industrial Financial Management System (DIFMS) system change which automated the matching of advances
  to accounts receivable for the Industrial Fund activities.

  Supported undistributed and unmatched collections were required to be reported against Accounts
  Receivable. In FY 2002, supported undistributed collections in the amount of $307,831 thousand were
  applied against Accounts Receivable.

  For the non-supply NWCF business areas, supported undistributed collections were allocated entirely among
  intragovernmental Accounts Receivable since the non-federal Accounts Receivable balances were immaterial.
  In contrast, the total supported undistributed collections for the Supply Management, Navy business area                161
  were allocated between intragovernmental and non-federal. This allocation was based on the ratio of the
  balances recorded for each category as of 30 September 2002.
      Unsupported undistributed collections intragovernmental for Supply Management, Navy were offset against
      unsupported undistributed disbursements and posted to Accounts Payable - Disbursements in Transit. There
      were no unsupported undistributed collections for non-supply NWCF business areas.

      Supply Management, Navy has several activities that report financial data from the Financial Inventory
      Reporting (FIR) System. In the system, cash sales are posted to current year collections instead of being
      recorded directly as an account receivable. However, since undistributed collections are netted to Accounts
      Receivable, the resulting balance in Accounts Receivable is correctly stated. This process results from the
      inability of the FIR System to report trial balance data. Currently, DFAS is in the process of converting the FIR
      System users to the Material Financial Control System (MFCS). Implementation dates of MFCS for the
      remaining users are as follows: Fleet and Industrial Supply Center Yokosuka – January 2003, Naval
      Submarine Support Facility New London, Construction Battalion Center Port Hueneme, and Trident Refit
      Facility Kings Bay – March 2003. MFCS will enable these activities to properly record cash sales as
      Accounts Receivable rather than influencing the balance of Accounts Receivable through undistributed
      collections.

      The NWCF’s accounting systems do not capture trading partner data at the transaction level in a manner that
      facilitates trading partner aggregations. Therefore, the NWCF was unable to reconcile intragovernmental
      Accounts Receivable balances with its trading partners. DoD intends to develop long-term systems
      improvements that will include sufficient up-front edits and controls to eliminate the need for after-the-fact
      reconciliations. The volume of intragovernmental transactions is so large that after-the-fact reconciliation can
      not be accomplished with the existing or foreseeable resources.

      For reporting purposes, the Accounts Receivable balance has been affected by adjustments made to facilitate
      the DoD and federal-wide consolidation process, which are discussed in Note 1.




162
Notes to the Principal Statements

  NOTE 6. OTHER ASSETS
  As of September 30,
  (Amounts in thousands)
                                                                               2002                 2001
  1. Intra-governmental Other Assets:
     A. Advances and Prepayments                                          $        266         $     29,500
     B. Other Assets                                                                 0                    0
     C. Total Intra-governmental Other Assets                             $        266         $     29,500

  2. Non-Federal Other Assets:
     A. Outstanding Contract Financing Payments                           $           0        $           0
     B. Other Assets (With the Public)                                        1,140,654            1,373,420
     C. Total Non-Federal Other Assets                                    $   1,140,654        $   1,373,420

  3. Total Other Assets:                                                  $   1,140,920        $   1,402,920

  4. Other Information Related to Other Assets:

  Intragovernmental Other Assets has decreased materially from FY 2001 to FY 2002 primarily due to the
  reversal of a prior year elimination adjustment to reflect Unearned Revenue – Advances from Others for
  Supply Management, Navy.

  The Advances and Prepayments balance has been adjusted to reflect the “Advances from Others” balances
  as reported on the books of the sellers (other DoD reporting entities). These adjustments are made to
  facilitate the DoD and federal-wide consolidation process, which are discussed in Note 1.

  Other Assets (With the Public) has decreased materially from FY 2001 to FY 2002 as a result of the FY
  2002 reduction of the related outstanding debt principal amount reported for the Transportation Activity
  Group.

  Other Assets (With the Public) includes an amount of $739,280 thousand relating to the outstanding debt
  principal amount reported for the Transportation Activity Group involving Time Charter arrangements made
  by Military Sealift Command (MSC) for the long-term use of the Afloat Prepositioning Force – Navy (APF-N)
  Ships. The outstanding debt principal amount is reported in the NWCF Balance Sheet Other Assets (With the
  Public) in order to reconcile with the amount reported by the Federal Financing Bank through the trading
  partner elimination process. See Note 13 for material disclosures.

  Other Assets (With the Public) also includes inventory returned to suppliers by Supply Management, Marine
  Corps with a credit pending in the amount of $172,854 thousand, progress payments made by Supply
  Management, Navy amounting to $110,670 thousand, and revenue earned but not billed by Depot
  Maintenance, Shipyards amounting to $90,561 thousand. The remaining amounts of $10,685 thousand,
  $9,877 thousand, $3,367 thousand, and $3,358 thousand represents advances, deferred charges, PP&E
  awaiting disposal, and unallocated costs, respectively.




                                                                                                               163
      NOTE 7. CASH AND OTHER MONETA RY ASSETS
      Not Applicable.


      NOTE 8. DIRECT LOANS AND LOAN GUARANTEES, NONFEDERAL BORROWERS
      Not Applicable.


      NOTE 9. INVENTORY AND RELATED PROPERT Y, NET
      As of September 30,
      (Amounts in thousands)
                                                                                                                       2002           2001

      1.   Inventory, Net (Note 9.A.)                                                                             $ 17,012,566     $ 17,290,476
      2.   Operating Materials & Supplies, Net (Note 9.B.)                                                             643,298          595,438
      3.   Stockpile Materials, Net (Note 9.C.)                                                                              0                0
      4.   Total                                                                                                  $ 17,655,864     $ 17,885,914


      NOTE 9.A. INVENTORY, NET
      As of September 30,
      (Amounts in thousands)                                                       2002                                 2001
                                                                Inventory,     Revaluation           Inventory,       Inventory,    Valuation
                                                               Gross Value      Allowance               Net              Net         Method
      1. Inventory Categories:
           A. Available and Purchased for Resale             $ 15,320,204    $ (10,864,011)          4,456,193    $  6,410,049         LAC
           B. Held for Repair                                  14,780,423       (2,984,304)         11,796,119       9,804,105         LAC
           C. Excess, Obsolete, and Unserviceable                 540,204         (540,204)                  0         103,563          SP
           D.Raw Materials                                              0                 0                  0               0
           E. Work in Process                                     760,253                 0            760,254         972,759         AC
           F. Total                                          $ 31,401,084    $ (14,388,519)         17,012,566    $ 17,290,476

      Legend for Valuation Methods:
      Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses holding gains and losses
      NRV =          Net Realizable Value
      O=             Other
      SP =           Standard Price
      AC =           Actual Cost

      2. Restrictions of Inventory Use, Sale, or Disposition:
      Generally, there are no restrictions with regard to the use, sale, or disposition to applicable DoD activities
      and personnel. Other than certain safety and war reserve levels, inventory may be sold to foreign, state and
      local governments, private parties and contractors in accordance with DoD, DFAS and DON policies and
      guidance or at the direction of the President.

      3. Other Information:
      Except for Work in Process, all Inventory categories shown in the table above apply to the Supply
      Management Activity only.

      Inventory Categories. Inventory represents property that is (1) held for sale, (2) in the process of
      production for sale or (3) to be consumed in the production of goods for sale or in the provision of services
      for a fee.



164
Notes to the Principal Statements

  Inventory Available and Purchase for Resale includes consumable spare and repair parts and
  repairable items owned and managed by the DON. In some cases, the consumable and repairable items
  are managed by other Services, the Defense Logistics Agency (DLA), or the General Services Administration
  (GSA). Material available and purchased for resale includes material held due to a managerial
  determination that it should be retained to support military or national contingencies. Therefore, the DON is
  not able to designate in any meaningful or practical way those items held for “current” sale versus those
  held for “future” sale as required by federal accounting standards. However, based on budgetary
  projections, the value of inventory expected to be sold in the next fiscal year is $4,186,910 thousand net,
  which could be described as “Inventory Held for Sale.” The remainder of the inventory available for sale,
  $269,282 thousand net, could be considered “Inventory Held for Future Sale.” There is no management or
  valuation difference between the two categories. See footnote disclosure 1.M., Significant Accounting
  Policies, for additional discussion on financial reporting requirements and DoD policies governing inventory
  and related property.

  The Supply Management, Navy value of War Reserve Material is $207,144 thousand. The Supply
  Management, Marine Corps value of War Reserve Material is $67,732 thousand. These values are
  included in Note 9.A. line, Available and Purchased for Resale.

  Inventory Held for Repair is damaged inventory that requires repair to make suitable for sale. Many
  of the inventory items are more economical to repair than to procure. In addition, because the DON often
  relies on weapon systems and machinery no longer in production, the DON supports a process that
  encourages the repair and rebuilding of certain items. This repair cycle is an essential part of maintaining a
  ready, mobile, and armed military force.

  Excess, Obsolete, and Unserviceable inventory consists of scrap materials or items that cannot be
  economically repaired and are awaiting disposal. The DON does not anticipate recovering any significant
  costs as result of final disposal of these items. Therefore, beginning with the FY 2002 financial statements,
  Excess, Obsolete, and Unserviceable inventory will reflect a net realizable value of zero.

  Work in Process balances include costs related to the production or servicing of items, including direct
  material, direct labor, applied overhead and other direct costs. Work in Process also includes the value of
  finished products or completed services pending billing to the customer. The Work in Process designation
  may also be used to accumulate the amount paid to a contractor under cost reimbursable contracts,
  including the amount withheld from payment to ensure performance, and the amount paid to other
  Government plants for accrued costs of end items of material ordered but not delivered.

  Significant Internal Control Weakness:
  The general ledger values in the accounting system do not reconcile with the supporting detail records in the
  Navy segment of the Supply Management Activity logistics system. Analysis of this out-of-balance condition
  revealed a net discrepancy of approximately $1,935,285 thousand at LAC as of September 30, 2002. In FY
  2002, Navy Supply Management established a team to identify and correct problems that are directly
  related to the reconciling differences. Journal vouchers have been provided by DFAS to correct the
  imbalance. Once approved, the accounting entries will be made to ensure the source records maintained in
  the logistic system reconcile to the accounting records.




                                                                                                                   165
      NOTE 9.B. OPERATING MATERIALS AND SUPPLIES, NET
      As of September 30,
      (Amounts in thousands)                                                                 2002                   2001
                                                            OM&S               Revaluation          OM&S,          OM&S,       Valuation
                                                          Gross Value           Allowance            Net             Net        Method
      1. OM&S Categories
         A. Held for Use                              $      643,298       $            0       $    643,298   $     595,438      O
         B.Held for Repair                                         0                    0                  0               0
         C. Excess, Obsolete, and Unservicable                     0                    0                  0               0
         D. Total                                     $      643,298       $            0       $    643,298   $     595,438


      Legend for Valuation Methods:
      Adjusted LAC = Latest Acquisition Cost adjusted for holding gains and losses
      NRV             = Net Realizable Value
      O               = Other
      SP              = Standard Price
      AC              = Actual Cost


      2. Restrictions on OM&S:
      Generally, there are no restrictions with regard to the use, sale, or disposition of Operating Materials and
      Supplies (OM&S) to applicable DoD activities.


      3. Other Information:
      OM&S Held for Use represents property that is consumed during the normal operations and includes consumable
      spare and repair parts for use on customer work by various activities. The items are primarily recorded at
      weighted average cost and charged as an expense when used, sold, or issued. This process is indicative of
      the consumption method of accounting and complies with federal accounting standards. The DON is not able
      to designate in any meaningful or practical way those items held for “current” use versus those held for
      “future” use as required by federal accounting standards. However, based on budgetary projections, the
      value of OM&S expected to be used in the next fiscal year is $643,285 thousand, which could be described
      as “OM&S Held for Use.” The remainder of the OM&S available for use, $14,000 thousand, could be
      considered “OM&S Held for Future Use.” There is no management or valuation difference between the two
      categories. See footnote disclosure 1.M., Significant Accounting Policies, for additional discussion on
      financial reporting requirements and DoD policies governing inventory and related property.


      NOTE 9.C. STOCKPILE MATERIALS, NET
      Not Applicable.




166
Notes to the Principal Statements

  NOTE 10. GENERAL PROPERT Y, PLANT AND EQUIPMENT, NET
  As of September 30,
  (Amounts in thousands)                                                         2002                                               2001
                                                Depreciation/                                  (Accumulated
                                                Amortization     Service         Acquisition   Depreciation/       Net Book     Prior FY Net
                                                  Method          Life             Value       Amortization)        Value       Book Value
  1. Major Asset Classes:
     A. Land                                        N/A             N/A      $     63,773                N/A   $       63,773   $      63,833
     B. Buildings, Structures, and Facilities       S/L          20 Or 40       6,464,963      $ (4,023,692)        2,441,271       2,435,191
     C. Leasehold Improvements                      S/L         lease term            302              (103)              199               0
     D.Software                                     S/L         2-5 Or 10         250,966          (158,703)           92,263          82,021
     E. Equipment                                   S/L           5 Or 10       3,373,968        (2,425,058)          948,910       1,094,028
     F. Assets Under Capital Lease 1                S/L         lease term              0                  0                0               0
     G.Construction-in-Progress                     N/A             N/A           644,421               N/A           644,421         476,165
     H.Other                                                                            0                  0                0               0
     I. Total General PP&E                                                   $ 10,798,393      $ (6,607,556)   $    4,190,837   $   4,151,238



  1Note   15.B for additional information on Capital Leases
  Legend for Valuation Methods:
  S/L = Straight Line         N/A = Not Applicable


  2. Other Information:
  The acquisition value of fully depreciated assets included in the table above and reported in the Balance
  Sheet amount to $2,704,709 thousand as of 30 September 2002.

  Included in the Major Asset Classes disclosed in Note 10 are assets totaling $335,873 thousand located
  Outside of the Continental United States (OCONUS).

  For those activities with General PP&E real property in the possession of contractors, the value of this real
  property is included in the values reported above for the Major Asset Classes of Buildings, Structures, and
  Facilities. The value of personal property in Major Asset Classes of Automated Data Processing (ADP)
  Software and Equipment does not include all of the General PP&E in the possession of contractors. The net
  book amount of such property is immaterial in relation to the total General PP&E net book value. In
  accordance with an approved strategy with the OMB, the GAO, and the Inspector General, DoD, the
  Department is developing new policies and a contractor reporting process to capture General PP&E
  information for future reporting purposes for compliance with federal-wide accounting standards.


  NOTE 10.A. ASSETS UNDER CAPITAL LEASE
  None.




                                                                                                                                                167
      NOTE 11. LIABILITIES NOT COVERED AND COVERED BY BUDGETA RY RESOURCES
      As of September 30,
      (Amounts in thousands)                                               2002                            2001
                                                        Covered by    Not Covered by
                                                        Budgetary       Budgetary
                                                         Resources      Resources            Total
      1. Intra-governmental Liabilities:
          A. Accounts Payable                       $       434,772   $          0     $     434,772   $     462,946
          B. Debt                                           750,725              0           750,725         888,306
          C. Environmental Liabilities                            0              0                 0               0
          D. Other                                          177,808              0           177,808         119,102
          E. Total Intra-governmental Liabilities   $     1,363,305   $          0     $   1,363,305   $   1,470,354

      2. Non-Federal Liabilities:
          A. Accounts Payable                       $     1,799,671   $          0     $   1,799,671   $   1,041,391
          B. Military Retirement Benefits and
             Other Employment-Related Actuarial
             Liabilities                                          0       1,325,926        1,325,926       1,372,651
          C. Environmental Liabilities                            0               0                0               0
          D.Loan Guarantee Liability                              0               0                0               0
          E. Other Liabilities                            2,807,834               0        2,807,834       4,045,593
          F. Total Non-Federal Liabilities          $     4,607,505   $   1,325,926    $   5,933,431   $   6,459,635

      3. Total Liabilities:                         $     5,970,810   $   1,325,926    $   7,296,736   $   7,929,989



      4. Other Information:
      Liabilities Covered by Budgetary Resources are those that are incurred by the reporting entity which are
      covered by realized budget resources as of the balance sheet date. Budgetary resources encompass not only
      new budget authority, but also other resources available to cover liabilities for specified purposes in a given
      year. Available budgetary resources include: (1) new budget authority, (2) spending authority from
      offsetting collections (credited to an appropriation or fund account), 3) recoveries of unexpired budget
      authority through downward adjustments of prior year obligations, 4) unobligated balances of budgetary
      resources at the beginning of the year or net transfers of prior year balances during the year, and 5)
      permanent indefinite appropriations or borrowing authority, which have been enacted and signed into law
      as of the balance sheet date, provided that the resources may be apportioned by the OMB without further
      action by the Congress or without a contingency first having to be met.

      Liabilities Not Covered by Budgetary Resources are those liabilities which are not considered covered by
      realized budgetary resources as of the balance sheet date.

      Included in the Nonfederal Other Liabilities Covered by Budgetary Resources is an amount of $1,256
      thousand representing interest, penalties, fines & administrative fees. These fees do not belong to the NWCF
      and will be submitted to the Department of Treasury. These fees were reclassified from Nonfederal Other
      Liabilities Not Covered by Budgetary Resources as instructed by DFAS Arlington.

      Detailed disclosures for Other Liabilities are provided in Note 15.A.




168
Notes to the Principal Statements

  NOTE 12. ACCOUNTS PAYABLE
  As of September 30,
  (Amounts in thousands)                                             2002                               2001
                                                                   Interest,
                                                 Accounts       Penalties, and
                                                 Payable      Administrative Fees       Total           Total

  1. Intra-governmental Payables:            $      434,772             N/A         $     434,772   $     462,946
  2. Non-Federal Payables (to the Public):   $    1,799,671    $          0         $   1,799,671   $   1,041,391

  3. Total                                   $    2,234,443    $           0        $   2,234,443   $   1,504,337


  4. Other Information:
  Intragovernmental Accounts Payable consists of amounts owed to other federal agencies for goods or
  services ordered and received but not yet paid. Interest, penalties, and administrative fees are not applicable
  to intragovernmental payables. Non-Federal payables (to the Public) are payments to nonfederal
  government entities.

  Accounts Payable Nonfederal increased materially from FY 2001 to FY 2002 due to the reclassification of
  ($1,044,715) thousand of unsupported undistributed disbursements allocated from the DWCF Corporate
  Account to Other Liabilities Nonfederal. This allocation was reclassified from Accounts Payable Nonfederal
  to eliminate the distortion of the true NWCF undistributed amount. See Note 15 for detail disclosures.

  In FY 2002, supported undistributed disbursements in the amount of $399,780 thousand have been applied
  against Accounts Payable.

  The majority of the undistributed disbursements represent Mechanization of Contract Administration Services
  (MOCAS) payments, which have not been liquidated. MOCAS payments represent those payments made
  to contractors for materials or services that are greater than $2,500 dollars. Accruals are made when the
  service is performed and remains in this account until the provider submits an invoice for payment.
  Therefore, if a copy of the invoice is not received by the NWCF activity prior to DFAS making payment, the
  payment will go to undistributed disbursements. The amounts accrued to cover the anticipated materials and
  services are captured as Contract Accruals on the Other Accrued Expense line (Note 15.A., Other
  Liabilities, Nonfederal: Other Liabilities) and are not considered an Accounts Payable.

  Unsupported undistributed disbursements were offset against unsupported undistributed collections and
  posted to Accounts Payable - Disbursements in Transit.

  For the majority of intra-agency sales, NWCF’s accounting systems do not capture trading partner data at
  the transaction level in a manner that facilitates trading partner aggregations. Therefore, the NWCF was
  unable to reconcile intragovernmental Accounts Payable to the related intragovernmental Accounts
  Receivable that generated the payable. The DoD intends to develop long-term systems improvements that
  will include sufficient up-front edits and controls to eliminate the need for after-the-fact reconciliations.
  The volume of intragovernmental transactions is so large that after-the-fact reconciliation can not be
  accomplished with the existing or foreseeable resources.

  The DoD summary level seller Accounts Receivables were compared to NWCF’s Accounts Payable. An
  adjustment was posted to the NWCF’s Accounts Payable based on the comparison with the Accounts
  Receivable of the DoD Components providing goods and services to the NWCF’s. The adjustments were
                                                                                                                    169
  posted to Navy Component Accounts Payable requiring a reclassification from Federal to Public. The
  adjustments are made to facilitate the DoD and federal-wide consolidation process, which are discussed
  in Note 1.
      NOTE 13. DEBT
      As of September 30,
      (Amounts in thousands)
                                                                        2002                               2001
                                                     Beginning           Net            Ending            Ending
                                                      Balance        Borrowings         Balance           Balance
      1. Public Debt:
         A. Held by Government Accounts                    N/A            N/A                N/A                N/A
         B.Held by the Public                              N/A            N/A                N/A                N/A
         C. Total Public Debt                              N/A            N/A                N/A                N/A

      2. Agency Debt:
         A. Debt to the Treasury                 $           0   $           0      $          0      $            0
         B. Debt to the Federal Financing Bank         888,307       (137,582)           750,725             888,306
         C. Debt to Other Federal Agencies                   0               0                 0                   0
         D. Total Agency Debt                    $     888,307   $   (137,582)      $    750,725      $      888,306

      3. Total Debt:                             $     888,307   $   (137,582)      $    750,725      $      888,306

      4. Classification of Debt:
         A. Intra-governmental Debt                                                 $    750,725      $      888,306
         B. Non-Federal Debt                                                                 N/A                 N/A
         C. Total Debt                                                              $    750,725      $      888,306

      5. Other Information:
      The Afloat Prepositioning Force (APF-N) program, with Congressional approval, provides ships for Time
      Charter to meet requirements not available in the marketplace. These ships are built or converted by private
      Interim Vessel Owners using private, non-government financing obtained from various banking institutions.
      There were no payments made by the government during the building/conversion phase. APF-N Time
      Charters are for five years with four option renewal periods of five years each, for a total of 25 years. At
      the end of the contract, each ship returns to the vessel’s owner.

      The Federal Financing Bank (FFB) is one of the institutions that provided loans to the vessel owners. The FFB
      is reporting a debt in the amount of $750,724 thousand, which represents an outstanding principal balance
      of $739,280 thousand and accrued interest payable of $11,444 thousand, for the Transportation Activity.
      This information is being presented in error as the transportation activity group does not owe this debt to the
      FFB. This debt is a public debt owed by the private vessel owners. In order to simplify the payments to the
      FFB and to meet their requirements, the FFB cross-disburses the semi-annual principal and interest payments
      directly from the NWCF. This is done instead of having the Military Sealift Command (MSC) make Capital
      Hire payments to the vessel owners, who would in turn make its loan obligation payments to the FFB.

      The direction of the vessel owner to have the government make payments directly to a bank, in this case the
      FFB, is not an uncommon practice, and mirrors other Time Charters where payment is assigned directly to a
      bank. This is what occurred when the ownership of these vessels was transferred to private vessel owners;
      however, the FFB when establishing the loan coded the loan as a government debt.

      As required by USD(C) memorandum of 22 January 1999, MSC is correctly recording these payments as an
      operating expense. However, the outstanding debt principal amount is reported in the NWCF Balance Sheet
      as an Other Asset in order to reconcile with the amount reported by the FFB through the trading partner
      elimination process. The misclassification by the FFB has generated this long-standing reporting problem. See
      Note 6 for additional disclosures.



170
Notes to the Principal Statements

  As required by the DoD Appropriation Act passed in December 1985 ten percent of the fifth year
  termination value of the vessels be obligated from Operation and Maintenance, Navy funds. This was
  completed as each vessel was delivered.

  Intragovernmental Debt has decreased materially from FY 2001 to FY 2002 as a result of the FY 2002
  reduction of the outstanding debt principal amount reported for the Transportation Activity Group.


  NOTE 14. ENVIRONMENTAL RESTORATION LIABILITIES AND ENVIRONMENTA L
  DISPOSAL LIABILITIES
  Not Applicable.


  NOTE 15.A. OTHER LIABILITIES
 As of September 30,
 (Amounts in thousands)                                                           2002                           2001
                                                            Current             Noncurrent
                                                            Liability            Liability       Total           Total
  1. Intra-governmental:
    A. Advances from Others                             $      141,318      $            0   $    141,318    $    81,416
    B.Deferred Credits                                               0                   0              0              0
    C. Deposit Funds and Suspense Account Liabilities                0                   0              0              0
    D.Resources Payable to Treasury                                  0                   0              0              0
    E. Disbursing Officer Cash                                       0                   0              0              0
    F. Nonenvironmental Disposal Liabilities:
       (1) National Defense PP&E (Nonnuclear)                           0                0               0               0
       (2) Excess/Obsolete Structures                                   0                0               0               0
       (3) Conventional Munitions Disposal                              0                0               0               0
       (4) Other                                                        0                0               0               0
    G.Accounts Payable--Cancelled Appropriations                        0                0               0               0
    H.Judgement Fund Liabilities                                        0                0               0               0
    I. FECA Reimbursement to the Department of
       Labor                                                         0                   0              0              0
    J. Capital Lease Liability                                       0                   0              0              0
    K.Other Liabilities                                         36,490                   0         36,490         37,686
    L. Total Intra-governmental Other Liabilities       $      177,808      $            0   $    177,808    $   119,102




                                                                                                                             171
      As of September 30,
      (Amounts in thousands)                                                            2002                                2001
                                                                  Current             Noncurrent
                                                                  Liability            Liability        Total               Total
      2. Non-Federal:
         A. Accrued Funded Payroll and Benefits               $     710,275       $            0   $    710,275         $     712,126
         B.Advances from Others                                     138,651                    0        138,651               141,466
         C. Deferred Credits                                              0                    0              0                     0
         D.Loan Guarantee Liability                                       0                    0              0                     0
         E. Liability for Subsidy Related to Undisbursed
            Loans                                                             0                0                0                   0
         F. Deposit Funds and Suspense Accounts                               0                0                0                   0
         G. Temporary Early Retirement Authority                              0                0                0                   0
         H.Nonenvironmental Disposal Liabilities:
            (1) National Defense PP&E (Nonnuclear)                            0                0                0                   0
            (2) Excess/Obsolete Structures                                    0                0                0                   0
            (3) Conventional Munitions Disposal                               0                0                0                   0
            (4) Other                                                         0                0                0                   0
         I. Accounts Payable--Cancelled Appropriations                        0                0                0                   0
         J. Accrued Unfunded Annual Leave                                     0                0                0                   0
         K.Accrued Entitlement Benefits for Military
            Retiree and Survivors                                         0                    0               0                     0
         L. Capital Lease Liability                                       0                    0               0                     0
         M.Other Liabilities                                      1,958,908                    0       1,958,908             3,192,001
         N. Total Non-Federal Other Liabilities                   2,807,834                    0       2,807,834             4,045,593

      3. Total Other Liabilities:                             $   2,985,642       $            0   $   2,985,642        $    4,164,695


      4. Other Information Pertaining to Other Liabilities:
      Intragovernmental Other Liabilities, represents liabilities of $36,490 thousand for fringe benefits and the
      Voluntary Separation Incentive Program.

      Non-federal Advances from Others, includes $54,529 thousand in Advances from foreign governments
      under the Cooperative Logistics Supply Support Arrangements program. These Advances are used by the
      Supply Management, Navy to procure additional levels of inventory to support the military requirements of a
      foreign government. The additional level of inventory is necessary to both ensure timely response to the
      needs of the foreign customer and to preclude the satisfaction of foreign customer requirements from
      impacting the capability to satisfy DoD requirements.

      Nonfederal Other Liabilities, includes amounts that are significant portions of the total liabilities presented in
      the NWCF Balance Sheet. A breakout of the major components of Other Liabilities follows.

                                                      Title                                Amount (in thousands)
                        Accrual of Contractual Services                                                $1,979,425
                        Depot Level Repairable Carcass Return Liability                                  1,351,267
                        Other Liabilities                                                              (1,373,786)
                        Contract Holdback                                                                       2,002
                        Total, Nonfederal Other Liabilities                                            $1,958,908


172
Notes to the Principal Statements

  The accrual of contractual services of $1,979,425 thousand represents an accrued liability for direct work
  performed by contractors or material and supplies purchased for a direct order in which a request for
  payment has not been received. The accrual is based on the level of effort performed for the direct order on
  a monthly basis.

  The Depot Level Repairable Carcass Return Liability of $1,351,267 thousand represents the value of returned
  depot level repairable carcasses that have been received by an accountable activity from an end-use activity
  but for which an issue has not yet been processed.

  The Other Liabilities amount of $(1,373,786) thousand includes a $(1,044,715) thousand allocation of
  unsupported undistributed disbursements. This allocation was based on a DFAS memorandum dated 10
  October 1997 which directed the allocation of undistributed disbursements to the DoD services from their
  DWCF corporate account. As this allocation is not supported by specific transactional information, which
  would identify the value as belonging to the NWCF, the allocation continues to remain on the books at the
  Navy Component level. Continual effort is underway to obtain transactional information in order to allocate
  these funds to the appropriate NWCF activity.

  The remainder of the Other Liabilities amount consists primarily of Progress Payments and Property
  Furnished by Others Liability. Progress Payments are maintained to show the balance of progress payments
  taken for accrued costs charged to Work in Process or the value of material procured and held for specific
  orders received from customers within the Department of Defense. The Liability for Property Furnished by
  Others represents the value of inventory in-transit from one accountable activity but not yet received by
  another accountable activity.

  Intragovernmental Other Liabilities increased materially from FY 2001 to FY 2002 primarily as a result of an
  increase in Advances from Others for Depot Maintenance Shipyards. Depot Maintenance Shipyards is
  allowed to bill up to their stabilized costs, however revenue is earned based on percentage of work
  completed. Therefore, there may be a difference (e.g. deferred charges or liability) between what is billed
  and what is recognized as earned. The increase in Advances from Others occurred since we have collected
  more than we have earned. Upon completion of work, the difference will clear.

  Other Liabilities Nonfederal decreased materially from FY 2001 to FY 2002 due to the reclassification of the
  $(1,044,715) thousand of unsupported undistributed disbursements allocated from the DWCF Corporate
  Account discussed above from Accounts Payable Nonfederal. This allocation was reclassified to Other
  Liabilities Nonfederal to eliminate the distortion of the true NWCF undistributed amount.

  NWCF was able to reconcile major fiduciary balances with the Office of Personnel Management. The
  reconciliation amount was based on amounts taken from Defense Civilian Pay System.

  For reporting purposes, the other liabilities balance has been affected by adjustments made to facilitate the
  DoD and federal-wide consolidation process, which are discussed in Note 1.


  NOTE 15.B. CAPITAL LEASE LIABILITY
  None.



  NOTE 16. COMMITMENTS AND CONTINGENCIES
                                                                                                                  173
  Disclosures Related to Commitments and Contingencies:
  None.
      NOTE 17. MILITA RY RETIREMENT BENEFITS AND OTHER EMPLOYMENT RELAT E D
      ACTUARIAL LIABILITIES
      As of September 30,                                                             2002                                         2001
      (Amounts in Thousands)                          Actuarial Present    Assumed           (Less: Assets       Unfunded         Unfunded
                                                      Value of Projected   Interest           Available to       Actuarial        Actuarial
                                                        Plan Benefits      Rate(%)           Pay Benefits)       Liability        Liability
      1. Pension and Health Benefits:
         A. Military Retirement Pensions              $            0                     $              0    $           0    $               0
         B. Military Retirement Health Benefits                    0                                    0                0                    0
         C. Medicare-Eligible Retiree Benefits                     0                                    0                0                    0
         D. Total Pension and Health Benefits         $            0                     $              0    $           0    $               0

      2. Other:
         A.FECA                                       $    1,325,926                     $              0    $    1,325,926   $     1,372,651
         B. Voluntary Separation Incentive Programs                0                                    0                 0                 0
         C. DoD Education Benefits Fund                            0                                    0                 0                 0
         D.                                                        0                                    0                 0                 0
         E. Total Other                               $    1,325,926                     $              0    $    1,325,926   $     1,372,651

      3. Total Military Retirement Benefits
         and Other Employment Related
         Actuarial Liabilities:                       $    1,325,926                     $              0    $    1,325,926   $     1,372,651



      4. Other Information Pertaining to Military Retirement Benefits and Other Employment-Related Actuarial Liabilities:
      Actuarial Cost Method Used: The liability for Workmen’s Compensation (FECA) includes the expected liability
      for death, disability, medical, and miscellaneous costs for approved compensation cases. The liability is
      determined using a method that utilizes historical benefit payment patterns related to a specific incurred
      period to predict the ultimate payments related to that period. The Department of Labor (DOL) provided the
      amount of $2,872,301 thousand to DoD as the actuarial liability estimate for DON’s FECA. This amount
      was distributed between the NWCF $1,325,926 thousand and DON General Funds $1,546,375 thousand
      based upon the number of civilian employees funded in each entity as reported in the Navy Budget Tracking
      System for FY 2002.

      Assumptions: Consistent with past practice, these projected annual benefit payments have been discounted
      to present value using the OMB’s economic assumptions for 10-year Treasury notes and bonds. Cost of
      living adjustments and medical inflation factors are also applied to the calculation of projected future
      benefits. In computing the projected annual benefit payments, the interest rate assumptions used in the
      discount calculations were as follows:

                  2002
                  5.20% in year 1,
                  5.20% in year 2, and thereafter

      Market Value of Investments in Market-based and Marketable Securities: Not Applicable.


      NOTE 18. UNEXPENDED APPROPRIATIONS
      Not Applicable.




174
Notes to the Principal Statements

  NOTE 19. DISCLOSURES RELATED TO THE STATEMENT OF THE NET COST

  NOTE 19.A GENERAL DISCLOSURES RELATED TO THE STATEMENT OF NET COST
  Disclosures Related to the Statement of Net Cost:

  While the Navy’s WCFs generally record transactions on an accrual basis as required by federal generally
  accepted accounting principles, the systems do not always capture actual costs. Information presented on
  the Statement of Net Cost represent the net result of post-closing adjustments and eliminating entries made in
  compiling and consolidating the NWCF financial statements. These entries significantly affected the reported
  amounts of Intragovernmental Program Cost, Program Cost with the Public, Earned Revenue and Net
  Program Cost.

  The post-closing adjustments were made in order to increase or decrease certain NWCF account balances
  reported as of 30 September 2002 to ensure agreement with related balances reported by other DoD and
  other federal reporting entities. Eliminating entries are required adjustments made as part of a process
  instituted to enable matching eliminating entries to be recorded at each financial statement consolidation
  level — the NWCF, DoD and Federal Government levels.

  Additional details on procedures followed for adjustments and eliminating entries including the effects on the
  financial statements are provided in Notes 1.

  The Statement of Net Cost was impacted by the recording of Prior Period Adjustments (PPAs) in the amount
  of ($124,306) thousand as current year transactions. See Note 20 for detail disclosures.

  The NWCF financial statements have recognized an imputed expense for civilian employee pensions, life
  insurance, and health benefits in the Statement of Net Cost. Imputed expenses for employee benefits were
  calculated using cost factors provided by OPM applied against gross basic pay for all categories of civilian
  service employees. The gross basic pay amounts were extracted directly from the Defense Civilian Pay
  System (DCPS).

  For FY 2002, Judgment Fund claims are reported in the Navy GF statements and notes.


  NOTE 19.B. GROSS COST AND EARNED REVENUE BY BUDGET FUNCTIONAL
  C L A S S I F I C ATION
  Not Applicable.


  NOTE 19.C. GROSS COST TO GENERATE INTRA-GOVERNMENTAL REVENUE AND
  EARNED REVENUE (TRANSACTIONS WITH OTHER FEDERAL—NON-DoD—ENTITIES)
  BY BUDGET FUNCTIONAL CLASSIFICATION
  Not Applicable.




                                                                                                                   175
      NOTE 19.D. IMPUTED EXPENSES
      As of September 30,
      (Amount in thousands)                                                                   2002           2001

      1.   Civilian (e.g.,CSRS/FERS) Retirement                                           $    205,147   $    223,285
      2.   Civilian Health                                                                     259,494        249,179
      3.    Civilian Life Insurance                                                                948            929
      4.   Military Retirement Pension                                                               0              0
      5.    Military Retirement Health                                                               0              0
      6.   Judgment Fund                                                                             0              0
      7.   Total Imputed Expenses                                                         $    465,589   $    473,393

      NOTE 19.E. BENEFIT PROGRAM EXPENSES
      Not Applicable.


      NOTE 19.F. EXCHANGE REVENUE
      Disclosures Related to the Exchange Revenue:
      None.


      NOTE 19.G. AMOUNTS FOR FOREIGN MILITA RY SALES (FMS) PROGRAM
      PROCUREMENTS FROM CONTRACTORS
      Disclosures Related to Amounts for FMS Program Procurements from Contractors:
      Not Applicable.


      NOTE 19.H. STEWARDSHIP ASSETS
      Disclosures Related to Stewardship Assets:
      Not Applicable.


      NOTE 19.I. INTRA-GOVERNMENTAL REVENUE AND EXPENSE
      Disclosures Related to Intra-governmental Revenue and Expense:

      The NWCF accounting systems do not capture trading partner data at the transaction level in a manner that
      facilitates trading partner aggregations. Therefore, the NWCF was unable to reconcile intragovernmental
      revenue balances with its trading partners. DoD intends to develop long-term systems improvements that will
      include sufficient up-front edits and controls to eliminate the need for the after-the-fact reconciliations. The
      volume of intragovernmental transactions is so large that after-the-fact reconciliation can not be
      accomplished with the existing or forseeable resources.

      The NWCF operating expenses were adjusted based on a comparison between the NWCF’s Accounts
      Payable and the DoD summary level seller Accounts Receivables. Adjustments were posted to Accounts
      Payable and operating expenses to reflect the following reported balances: other trading partners; Federal
      Financing Bank payments for debt; prior period adjustment restatement to current years operations; interest,
      penalties, fines & administrative fees data call; and resolution of abnormal accounts payables in accordance
      with current guidance. The operating expenses of the NWCF were adjusted downwards in the net amount of
      $725,488 thousand.




176
Notes to the Principal Statements

  OMB has established a working group to review the current business practices in place to capture the data
  exchanged between federal agencies; and to determine what changes need to be incorporated. DON
  NWCF has representation on the USD(C) group which is working directly with OMB to ensure that all
  aspects (e.g., financial, logistics and security) of the DoD are given full consideration. Based on the large
  volume of intragovernmental transactions that occur this project is a major undertaking and will take several
  years to complete with the ultimate goal of having this process totally automated.



  NOTE 19.J. SUBORGANIZATION PROGRAM COSTS
  Not Applicable.


  NOTE 20. DISCLOSURES RELATED TO THE STATEMENT OF CHANGES IN NET
  POSITION
  As of September 30,
  (Amount in thousands)                                            Cumulative                     Cumulative
                                                                   Results of     Unexpended      Results of       Unexpended
  1. Prior Period Adjustments Increases                            Operations    Appropriations   Operations      Appropriations
                                                                     2002            2002           2001              2001
     (Decreases) to Net Position
     Beginning Balance:
     A.Changes in Accounting Standards                         $             0   $          0     $           0   $           0
     B.Errors and Omissions in Prior Year Accounting Reports         1,952,397              0       (1,168,965)               0
     C.Other Prior Period Adjustments                                        0              0             7,334               0
     D. Total Prior Period Adjustments                         $     1,952,397   $          0     $ (1,161,631)   $           0

  2. Imputed Financing:
     A.Civilian CSRS/FERS Retirement                           $      205,147    $          0     $    223,285    $           0
     B.Civilian Health                                                259,494               0          249,179                0
     C.Civilian Life Insurance                                            948               0              929                0
     D.Military Retirement Pension                                          0               0                0                0
     E. Military Retirement Health                                          0               0                0                0
     F. Judgement Fund                                                      0               0                0                0
     G. Total Imputed Financing                                $      465,589    $          0     $    473,393    $           0


 3. Other Information:
 The Errors and Omissions in Prior Year Accounting Reports line in the amount of $1,952,397 thousand
 represents amounts calculated in the USD(C) inventory valuation model, which calculates a prior period
 adjustment to the cost of goods sold. See Note 1.M. for further discussion of the inventory revaluation model
 and significant accounting policies.

 Prior Period Adjustments (PPAs) generated in the Navy Activity accounting systems in the amount of
 ($124,306) thousand were reclassified to current year operations as directed by DFAS Arlington. DFAS
 Arlington determined the PPAs were immaterial at the Navy level or not of an infrequent nature therefore not
 justified PPAs. The DON requested the PPAs be posted to Navy Component to ensure integrity of the
 activities financial system data.

  The Other Budgetary Financing Sources line on the Statement of Changes in Net Position includes $470,621
  thousand for amounts reclassified to Other Gains or Other Losses from Transfers-In and Transfers-Out.                            177
  Transfers–In amounts are required to agree with Transfers–Out amounts received from seller-side data. Any
  amounts that could not be eliminated through the intragovernmental eliminations process were reclassified.
      Cumulative Results of Operations – Deferred:
      Included in the NWCF’s Net Position, Cumulative Results of Operations (CRO) are amounts that were
      approved by USD(C) as a deferral for recovery from, or return to, customers in later fiscal years’ billing
      rates. As of 30 September 2002, the total NWCF amount of CRO-Deferred was ($522,620) thousand. This
      amount primarily consists of system development costs incurred during FY 1992-FY 1998 totaling $389,533
      thousand by the Joint Logistics Service Center (JLSC). With the closure of JLSC, USD(C) directed in August
      1998 that this JLSC system development cost be deferred from cost recover y. As instructed by the USD(C),
      DON distributed this amount among affected NWCF activities. The FY 2002 change in CRO Deferred
      amounts represents the write-off of liabilities from a Pilot Program at Navy Shipyards (NSY) Pearl Harbor.
      The following table displays all CRO – Deferred amounts through FY 2002:


                                                            FY 2001 CRO            FY 2002                    FY 2002 CRO
             (Amounts in thousands)                       Deferred Amounts          Change                  Deferred Amounts

            JLSC                                            $    (389,533)     $            0                $        (389,533)
            Depreciation                                           (4,569)                  0                           (4,569)
            Explosive Incident                                     (4,829)                  0                           (4,829)
            Material and Supplies – BRAC                           (7,383)                  0                           (7,383)
            Pilot Program – NSY Pearl Harbor                             0          (116,306)                         (116,306)
             Total                                          $     (406,314)    $    (116,306)                 $       (522,620)



      NOTE 21.A. DISCLOSURES RELATED TO THE STATEMENT OF BUDGETA RY RESOURCES
      As of September 30,
      (Amounts in thousands)
                                                                                                2002                   2001
      1. Net Amount of Budgetary Resources Obligated for Undelivered Orders
         at the End of the Period                                                      $        7,340,100         $      4,316,473
      2. Available Borrowing and Contract Authority at the End of the Period                    5,394,300                4,857,081

      3. Other Information:
      The Statement of Budgetary Resources is an image of the monthly Report on Budget Execution (SF 133).
      These reports should be produced using budgetary accounts. However, the NWCF uses proprietary accounts
      because its financial accounting systems were not designed to produce budgetary accounting data. The DON
      and DFAS continue with the implementation of new accounting systems designed to produce both proprietary
      and budgetary reports and use the USSGL. The Defense Industrial Financial Management System (DIFMS)
      has been fully implemented at all Research and Development (R&D) activities except two. One remaining
      activity is in the process of conversion and anticipates completion by April 2003. The other R&D activity has
      successfully implemented an Enterprise Resource Planning (ERP) pilot program. The Defense Working Capital
      Accounting System (DWAS) continues to be implemented at the Base Support activities. Once all systems
      have been implemented, the capability to produce the Statement of Budgetary Resources and SF 133 should
      be accomplished.

      The SF 133 does not measure the NWCF’s budget execution against budgetary resources. Budgetary
      resources are recorded in the accounting records and reported on the basis of customer orders received and
      contract authority invoked. On these reports, the spending authority from offsetting collections during the
      period of execution is based upon the approved President’s Budget estimate of anticipated customer orders.
      However, at 30 September, the actual customer orders are reported on this line of the report since actual
      execution experience replaces the estimated values.




178
Notes to the Principal Statements

  For the SF 133, Supply Management’s revenue is defined as gross sales less credit returns. For these
  financial statements, revenue is defined as gross sales. Credit returns are used to the inventory valuation
  model to calculate the cost value of the inventory and cost of goods sold. The difference in “meanings”
  causes significant variances in the reports.

  On these budgetary reports, the net outlays (collections and disbursements) year to date are reported based
  on the amounts reported to U.S. Treasury from the Centralized Expenditures/Reimbursement Processing
  System. In FY 2002, the differences between the U.S. Treasury and the NWCF activity ledgers have been
  minimal, and the cause is related to timing or the type of transactions. The differences are recorded as
  undistributed disbursements and collections on the departmental reports.

  While there may be no impact upon the U.S. Treasury balance, the above differences have created
  distortions in the Accounts Receivable and Accounts Payable from a budgetary reporting perspective on the
  SF 133. In addition, Accounts Receivable and Accounts Payable are handled differently on the monthly SF
  133 as compared to the monthly Accounting Report AR (M) 1307 and financial statements. Also, problems
  with undistributed collections and disbursements have created abnormal balances for Accounts Receivable
  and Accounts Payable on the SF 133.

  DFAS and DON worked with USD(C) to correct abnormal balances and a new crosswalk has been
  implemented using proprietary accounts in order to improve budgetary reporting on the SF 133 as well as
  the Statement of Budgetary Resources. Once new accounting systems are deployed at NWCF activities, the
  budgetary account structure will replace the proprietary account crosswalk for the Statement of Budgetary
  Resources.

  Intra-agency transactions have not been eliminated on the Statement of Budgetary Resources because the
  statements are presented as combined. Eliminating entries for this statement are deferred by OMB 01-09
  bulletin.

  See the Combining Statement of Budgetary Resources in the Supporting Consolidating/Combining
  Statements section of this report.


  NOTE 21.B. DISCLOSURES RELATED TO PROBLEM DISBURSEMENTS, IN-TRANSIT
  DISBURSEMENTS AND SUSPENSE/BUDGET CLEARING ACCOUNTS
  As of September 30,                                                                                (Decrease)/
  (Amounts in thousands)                       September        September           September          Increase
                                                 2000             2001                2002          2001 to 2002
  1. Total Problem Disbursements
     A. Absolute Unmatched Disbursements   $      376,000   $      204,317      $      165,500      $   (37,817)
     B.Negative Unliquidated Obligations                0                0                   0                 0

  2. Total In-transit Disbursements, Net   $      271,181   $           0       $               0   $         0



  3. Other Information Related to Problem Disbursements and In-transit Disbursement :
  Unmatched Disbursements (UMDs) occur when payments do not match to a corresponding accounts payable
  in the accounting system. Negative Unliquidated Obligations (NULOs) occur when payments have a valid
  obligation but the payment is greater than the amount of the obligation recorded in the official accounting
  system. Absolute value is the sum of the positive values of debit and credit transactions without regards to     179
  their sign. In transits represents the net value of disbursements and collections made by a DoD disbursing
  activity on behalf of an accountable activity but yet posted in an accounting system.
      The NWCF had a problem disbursement absolute amount and net amount of $166,562 thousand and
      $101,020 thousand, respectively. NWCF problem disbursements continue to decrease from the prior years
      largely due to improving system functionality and business processes. Additional emphasis on further
      reducing NWCF problem disbursements by next year has resulted in corresponding efforts to analyze and
      improve DFAS processes, and determine solutions to reduce current inflow and their root causes.

      4. Suspense/Budget Clearing Accounts, Net
                                               September     September           September          (Decrease)/
                        Account                  2000          2001                2002               Increase

                         F3875             $             0   $           0       $           0     $          0
                         F3880                       2,118               0                   0                0
                         F3882                           0               0                   0                0
                         F3885                           0               0                   0                0
                         F3886                           0               0                   0                0
                         Total             $         2,118   $           0       $           0     $          0



      5. Other Information Related to Suspense/Budget Clearing Accounts:
      The NWCF Suspense/Budget Clearing Accounts are being reported under Navy General Funds, Index 17.


      NOTE 22. DISCLOSURES RELATED TO THE STATEMENT OF FINANCING
      Disclosures Related to the Statement of Financing:

      The Statement of Financing is designed to provide information on the total resources used by an entity, to
      explain how those resources were used to finance orders for goods and services not yet delivered, to acquire
      assets and liabilities, and to fund the entity’s net cost of operations. It is designed to report the differences
      and facilitate the reconciliation of accrual-based amounts used in the Statement of Net Cost and obligation-
      based amounts used in the Statement of Budgetary Resources. The computations and presentation of items in
      the Statement of Financing demonstrate that the budgetary and proprietary information in an entity’s
      financial management systems are in agreement.

      In FY 2002, the statement of financing was expanded to further articulate and detail the relationship between
      net obligations from budgetary accounting and net cost of operation from proprietary accounting. Some
      items that were reported last year as a single line were subdivided to reflect its components. Several new
      line items were added to separately identify and further explain the use of resources to finance net
      obligations or net cost of operations. This change notes key differences between the net obligations and net
      cost of operations.

      Because DFAS NWCF accounting systems do not include budgetary accounts, the Statement of Budgetary
      Resources is produced using proprietary accounts. Additionally, current DFAS NWCF accounting systems
      may not contain the detail level information required to appropriately complete this Statement. Due to the
      system deficiencies, the Statement of Financing line, Costs Capitalized on the Balance Sheet, was adjusted
      downward by $5,167,247 thousand. Therefore, the data presented on the Statement of Financing may not
      meet the intent of the DoD FMR.




180
Notes to the Principal Statements

  NOTE 23. DISCLOSURES RELATED TO THE STATEMENT OF CUSTODIAL ACTIVITY
  Disclosures Related to the Statement of Custodial Activity:
  Not Applicable.


  NOTE 24. OTHER DISCLOSURES


  NOTE 24.A. OTHER DISCLOSURES: LEASES
  ENTITY AS LESSEE-Operating Leases
  As of September 30,
  (Amounts in thousands)
                                                                           2002                                   2001
                                               Asset            Asset               Asset
                                             Category 1       Category 2          Category 3       Total          Total

      Future payments Due: Fiscal Year
      2003                               $        1,100   $           0       $            0   $      1,100   $           0
      2004                                            0               0                    0              0               0
      2005                                            0               0                    0              0               0
      2006                                            0               0                    0              0               0
      2007                                            0               0                    0              0               0
      After 5 Years
      Total Future Lease Payments Due    $        1,100   $           0       $            0   $      1,100   $           0


  Definition of Line Items:
  Lessee – A person or entity who receives the use and possession of leased property (e.g. real estate or
  equipment) from a lessor in exchange for a payment of funds.

  Operating Lease – A lease which does not transfer substantially all the benefits and risk of ownership.
  Payments should be charged to expense over the lease term as it becomes payable.

  Description of lease arrangements:
  Asset Category 1, Plant Equipment, in the amount of $1,100 thousand represents MSC’s lease of corporate
  data center. The lease period is for one year with three option years and a buyout clause of 18% of original
  purchase price of equipment of $3,942 thousand. There are no contingent rental restrictions.

  Operating leases were inadvertently not reported in FY 2001. The operating lease commenced 1 December
  1999. Payment for each year was $1,100 thousand.


  ENTITY AS LESSOR-Capital Leases
  None.


  ENTITY AS LESSOR-Operating Leases
  None.
                                                                                                                              181

  NOTE 24.B. OTHER DISCLOSURES
  None.
Department of the Navy

             NAVY WORKING CAPITAL FUND
                            SUPPORTING
              CONSOLIDATING/COMBINING
                            STATEMENTS




                                         183
      Department of Defense
      Navy Working Capital Fund
      C O N S O L I D ATING BALANCE SHEET
      As of September 30, 2002 and 2001
      ($ in thousands)



                                                                Depot Maintenance,   Depot Maintenance,   Depot Maintenance,
        ASSETS (Note 2)                                               Shipyards           Aviation            Marine Corps         Ordnance
            Intragovernmental:
                 Fund Balance with Treasury (Note 3)              $       471,358     $     (57,641)      $      (1,287)       $      194,237
                 Investments (Note 4)                                           0                  0                   0                    0
                 Accounts Receivable (Note 5)                              10,572            111,362               8,744                  963
                 Other Assets (Note 6)                                         13                  0                  21                    0
                 Total Intragovernmental Assets                           481,943             53,721               7,478              195,200

           Cash and Other Monetary Assets (Note 7)                              0                  0                   0                    0
           Accounts Receivable (Note 5)                                       572              1,497                 991                  199
           Loans Receivable (Note 8)                                            0                  0                   0                    0
           Inventory and Related Property (Note 9)                        251,241            726,392              42,818                  864
           General Property, Plant and Equipment (Note 10)                631,683            362,291              52,436                    0
           Other Assets (Note 6)                                           96,422              2,506                   0                  739
        TOTAL ASSETS                                              $     1,461,861     $    1,146,407      $      103,723       $      197,002

        LIABILITIES (Note 11)
            Intragovernmental:
                 Accounts Payable (Note 12)                       $        13,873     $      231,447      $            0       $        6,707
                 Debt (Note 13)                                                 0                  0                   0                    0
                 Environmental Liabilities (Note 14)                            0                  0                   0                    0
                 Other Liabilities (Note 15 & Note 16)                     71,595              4,146                 550                    0
                 Total Intragovernmental Liabilities                       85,468            235,593                 550                6,707

           Accounts Payable (Note 12)                                      57,983             31,304               7,946                8,635
           Military Retirement Benefits and Other Employment-
                Related Actuarial Liabilities (Note 17)                         0                  0              22,109                    0
           Environmental Liabilities (Note 14)                                  0                  0                   0                    0
           Loan Guarantee Liability (Note 8)                                    0                  0                   0                    0
           Other Liabilities (Note 15 and Note 16)                        370,442            531,602               6,559               13,644
        TOTAL LIABILITIES                                         $       513,893     $      798,499      $       37,164       $       28,986

        NET POSITION
            Unexpended Appropriations (Note 18)                   $             0     $            0      $            0       $            0
            Cumulative Results of Operations                              947,968            347,908              66,559              168,016
        TOTAL NET POSITION                                        $       947,968     $      347,908      $       66,559       $      168,016
        TOTAL LIABILITIES AND NET POSITION                        $     1,461,861     $    1,146,407      $      103,723       $      197,002




      The accompanying notes are an integral part of these financial statements.

184
Supporting Consolidating/Combining Statements
    Department of Defense
    Navy Working Capital Fund
    C O N S O L I D ATING BALANCE SHEET
    As of September 30, 2002 and 2001
    ($ in thousands)



                                                                                                                                Research &
                                                                Transportation       Base Support   Information Services       Development
   ASSETS (Note 2)
       Intragovernmental:
            Fund Balance with Treasury (Note 3)             $       266,630      $       165,463    $            0         $       841,134
            Investments (Note 4)                                          0                    0                 0                       0
            Accounts Receivable (Note 5)                             95,632              181,654                 0                 115,320
            Other Assets (Note 6)                                         0                    0                 0                       0
            Total Intragovernmental Assets                          362,262              347,117                 0                 956,454

       Cash and Other Monetary Assets (Note 7)                            0                    0                 0                        0
       Accounts Receivable (Note 5)                                      13               28,664                 0                   35,349
       Loans Receivable (Note 8)                                          0                    0                 0                        0
       Inventory and Related Property (Note 9)                       25,606               47,238                 0                  309,393
       General Property, Plant and Equipment (Note 10)               29,803              645,934                 0                2,008,599
       Other Assets (Note 6)                                        741,193                4,316                 0                   11,520
    TOTAL ASSETS                                            $     1,158,877      $     1,073,269    $            0         $      3,321,315

    LIABILITIES (Note 11)
        Intragovernmental:
             Accounts Payable (Note 12)                     $        39,310      $        12,774    $            0         $        89,227
             Debt (Note 13)                                         750,725                    0                 0                       0
             Environmental Liabilities (Note 14)                          0                    0                 0                       0
             Other Liabilities (Note 15 & Note 16)                      456                2,466                 0                  99,024
             Total Intragovernmental Liabilities                    790,491               15,240                 0                 188,251

       Accounts Payable (Note 12)                                   413,769               88,510                 0                 771,966
       Military Retirement Benefits and Other Employment-
            Related Actuarial Liabilities (Note 17)                       0                    0                 0                        0
       Environmental Liabilities (Note 14)                                0                    0                 0                        0
       Loan Guarantee Liability (Note 8)                                  0                    0                 0                        0
       Other Liabilities (Note 15 and Note 16)                       49,710              292,429                 0                1,849,023
    TOTAL LIABILITIES                                       $     1,253,970      $       396,179    $            0         $      2,809,240

   NET POSITION
       Unexpended Appropriations (Note 18)                  $             0      $             0    $            0         $              0
       Cumulative Results of Operations                            (95,093)              677,090                 0                  512,075
   TOTAL NET POSITION                                       $      (95,093)      $       677,090    $            0         $        512,075
   TOTAL LIABILITIES AND NET POSITION                       $     1,158,877      $     1,073,269    $            0         $      3,321,315




                                                                                                                                              185



  The accompanying notes are an integral part of these financial statements.
       Department of Defense
       Navy Working Capital Fund
       C O N S O L I D ATING BALANCE SHEET
       As of September 30, 2002 and 2001
       ($ in thousands)




         ASSETS (Note 2)                                         Supply Management   Component Level       Combined Total       Eliminations
             Intragovernmental:
                  Fund Balance with Treasury (Note 3)             $     362,234      $    (532,448)    $      1,709,680     $                  0
                  Investments (Note 4)                                        0                   0                   0                        0
                  Accounts Receivable (Note 5)                           49,701            (48,708)             525,240                        0
                  Other Assets (Note 6)                                       0                 232                 266                        0
                  Total Intragovernmental Assets                        411,935           (580,924)           2,235,186                        0

            Cash and Other Monetary Assets (Note 7)                          0                   0                0                            0
            Accounts Receivable (Note 5)                                 8,369               5,247           80,901                            0
            Loans Receivable (Note 8)                                        0                   0                0                            0
            Inventory and Related Property (Note 9)                 16,792,516           (540,204)       17,655,864                            0
            General Property, Plant and Equipment (Note 10)            460,091                   0        4,190,837                            0
            Other Assets (Note 6)                                      283,958                   0        1,140,654                            0
         TOTAL ASSETS                                             $ 17,956,869       $ (1,115,881)     $ 25,303,442         $                  0

         LIABILITIES (Note 11)
             Intragovernmental:
                  Accounts Payable (Note 12)                      $     408,530      $    (367,096)    $        434,772     $                  0
                  Debt (Note 13)                                              0                   0             750,725                        0
                  Environmental Liabilities (Note 14)                         0                   0                   0                        0
                  Other Liabilities (Note 15 & Note 16)                   1,191             (1,620)             177,808                        0
                  Total Intragovernmental Liabilities                   409,721           (368,716)           1,363,305                        0

            Accounts Payable (Note 12)                                  150,344            269,214            1,799,671                        0
            Military Retirement Benefits and Other Employment-
                 Related Actuarial Liabilities (Note 17)                       0         1,303,817            1,325,926                        0
            Environmental Liabilities (Note 14)                                0                 0                    0                        0
            Loan Guarantee Liability (Note 8)                                  0                 0                    0                        0
            Other Liabilities (Note 15 and Note 16)                      786,667       (1,092,242)            2,807,834                        0
         TOTAL LIABILITIES                                        $    1,346,732     $     112,073     $      7,296,736     $                  0

         NET POSITION
             Unexpended Appropriations (Note 18)                  $          0       $           0     $          0         $                  0
             Cumulative Results of Operations                       16,610,137         (1,227,954)       18,006,706                            0
         TOTAL NET POSITION                                       $ 16,610,137       $ (1,227,954)     $ 18,006,706         $                  0
         TOTAL LIABILITIES AND NET POSITION                       $ 17,956,869       $ (1,115,881)     $ 25,303,442         $                  0




      The accompanying notes are an integral part of these financial statements.

186
Supporting Consolidating/Combining Statements
  Department of Defense
  Navy Working Capital Fund
  C O N S O L I D ATING BALANCE SHEET
  As of September 30, 2002 and 2001
  ($ in thousands)




  ASSETS (Note 2)                                              2002           Restated 2001         2001
      Intragovernmental:
           Fund Balance with Treasury (Note 3)            $   1,709,680   $      1,204,403    $   1,204,403
           Investments (Note 4)                                       0                  0                0
           Accounts Receivable (Note 5)                         525,240            894,349          894,349
           Other Assets (Note 6)                                    266             29,500           29,500
           Total Intragovernmental Assets                     2,235,186          2,128,252        2,128,252

     Cash and Other Monetary Assets (Note 7)                         0               0                   0
     Accounts Receivable (Note 5)                               80,901         109,737             109,737
     Loans Receivable (Note 8)                                       0               0                   0
     Inventory and Related Property (Note 9)                17,655,864      17,345,710          17,885,914
     General Property, Plant and Equipment (Note 10)         4,190,837       4,151,238           4,151,238
     Other Assets (Note 6)                                   1,140,654       1,373,420           1,373,420
  TOTAL ASSETS                                            $ 25,303,442    $ 25,108,357        $ 25,648,561

  LIABILITIES (Note 11)
      Intragovernmental:
           Accounts Payable (Note 12)                     $     434,772   $        462,946    $     462,946
           Debt (Note 13)                                       750,725            888,306          888,306
           Environmental Liabilities (Note 14)                        0                  0                0
           Other Liabilities (Note 15 & Note 16)                177,808            119,102          119,102
           Total Intragovernmental Liabilities                1,363,305          1,470,354        1,470,354

     Accounts Payable (Note 12)                               1,799,671          1,041,391        1,041,391
     Military Retirement Benefits and Other Employment-
          Related Actuarial Liabilities (Note 17)             1,325,926          1,372,651        1,372,651
     Environmental Liabilities (Note 14)                              0                  0                0
     Loan Guarantee Liability (Note 8)                                0                  0                0
     Other Liabilities (Note 15 and Note 16)                  2,807,834          4,045,593        4,045,593
  TOTAL LIABILITIES                                       $   7,296,736   $      7,929,989    $   7,929,989

  NET POSITION
      Unexpended Appropriations (Note 18)                 $          0    $          0        $          0
      Cumulative Results of Operations                      18,006,706      17,178,368          17,718,572
  TOTAL NET POSITION                                      $ 18,006,706    $ 17,178,368        $ 17,718,572
  TOTAL LIABILITIES AND NET POSITION                      $ 25,303,442    $ 25,108,357        $ 25,648,561




                                                                                                              187



  The accompanying notes are an integral part of these financial statements.
       Department of Defense
       Navy Working Capital Fund
       C O N S O L I D ATING STATEMENT OF NET COST
       As of September 30, 2002 and 2001
       ($ in thousands)



                                                       2002 Total         Eliminations        2002         Restated 2001          2001
      Program Costs
      Base Support
        Intragovernmental Gross Costs              $      1,634,739   $              0   $     1,634,739   $       216,127   $       216,127
        (Less: Intragovernmental Earned Revenue)        (1,627,848)                  0       (1,627,848)       (1,405,416)       (1,405,416)
        Intragovernmental Net Costs                           6,891                  0             6,891       (1,189,289)       (1,189,289)

         Gross Costs With the Public                        19,753                   0           19,753         1,447,582         1,447,582
         (Less: Earned Revenue From the Public)           (64,086)                   0         (64,086)          (77,201)          (77,201)
         Net Costs With the Public                        (44,333)                   0         (44,333)         1,370,381         1,370,381
         Net Program Cost                          $      (37,442)    $              0   $     (37,442)    $      181,092    $      181,092

      Component Level
        Intragovernmental Gross Costs              $ (12,661,671)     $              0   $ (12,661,671)    $            0    $            0
        (Less: Intragovernmental Earned Revenue)        2,152,034                    0        2,152,034                 0                 0
        Intragovernmental Net Costs                  (10,509,637)                    0     (10,509,637)                 0                 0

         Gross Costs With the Public                 12,335,314                      0     12,335,314           2,641,644           149,042
         (Less: Earned Revenue From the Public)           1,272                      0          1,272                   0                 0
         Net Costs With the Public                   12,336,586                      0     12,336,586           2,641,644           149,042
         Net Program Cost                          $ 1,826,949        $              0   $ 1,826,949       $    2,641,644    $      149,042

      Depot Maintenance, Aviation
        Intragovernmental Gross Costs              $      2,146,371   $              0   $     2,146,371   $      623,507    $      623,507
        (Less: Intragovernmental Earned Revenue)        (1,973,128)                  0       (1,973,128)        (879,144)         (879,144)
        Intragovernmental Net Costs                         173,243                  0           173,243        (255,637)         (255,637)

         Gross Costs With the Public                        43,155                   0           43,155         1,138,762         1,138,762
         (Less: Earned Revenue From the Public)           (50,214)                   0         (50,214)          (31,372)          (31,372)
         Net Costs With the Public                          (7,059)                  0          (7,059)         1,107,390         1,107,390
         Net Program Cost                          $       166,184    $              0   $     166,184     $      851,753    $      851,753

      Depot Maintenance, Marine Corps
        Intragovernmental Gross Costs              $       208,091    $              0   $      208,091    $      212,893    $      212,893
        (Less: Intragovernmental Earned Revenue)         (207,825)                   0        (207,825)         (191,719)         (191,719)
        Intragovernmental Net Costs                            266                   0              266            21,174            21,174

         Gross Costs With the Public                          3,620                  0             3,620         (76,501)          (76,501)
         (Less: Earned Revenue From the Public)             (4,327)                  0           (4,327)          (3,941)           (3,941)
         Net Costs With the Public                            (707)                  0             (707)         (80,442)          (80,442)
         Net Program Cost                          $          (441)   $              0   $         (441)   $     (59,268)    $     (59,268)




      The accompanying notes are an integral part of these financial statements. See notes 1 and 19.

188
Supporting Consolidating/Combining Statements
Department of Defense
Navy Working Capital Fund
C O N S O L I D ATING STATEMENT OF NET COST
As of September 30, 2002 and 2001
($ in thousands)




                                                   2002 Total        Eliminations         2002        Restated 2001           2001
 Depot Maintenance, Shipyards
   Intragovernmental Gross Costs               $     2,726,318   $             0    $     2,726,318   $       487,062   $       487,062
   (Less: Intragovernmental Earned Revenue)        (2,534,914)                 0        (2,534,914)       (2,001,472)       (2,001,472)
   Intragovernmental Net Costs                         191,404                 0            191,404       (1,514,410)       (1,514,410)

     Gross Costs With the Public                     107,251                   0          107,251          1,576,165         1,576,165
     (Less: Earned Revenue From the Public)          (16,895)                  0          (16,895)          (13,252)          (13,252)
     Net Costs With the Public                         90,356                  0            90,356         1,562,913         1,562,913
     Net Program Cost                          $     281,760     $             0    $     281,760     $       48,503    $       48,503

 Information Services
    Intragovernmental Gross Costs              $            0    $             0    $            0    $       38,839    $       38,839
    (Less: Intragovernmental Earned Revenue)                0                  0                 0          (28,293)          (28,293)
    Intragovernmental Net Costs                             0                  0                 0            10,546            10,546

     Gross Costs With the Public                            0                  0                 0            36,112            36,112
     (Less: Earned Revenue From the Public)                 0                  0                 0          (26,582)          (26,582)
     Net Costs With the Public                              0                  0                 0             9,530             9,530
     Net Program Cost                          $            0    $             0    $            0    $       20,076    $       20,076

 Ordnance
   Intragovernmental Gross Costs               $     (56,748)    $             0    $     (56,748)    $          364    $          364
   (Less: Intragovernmental Earned Revenue)                 0                  0                 0                 0                 0
   Intragovernmental Net Costs                       (56,748)                  0          (56,748)               364               364

     Gross Costs With the Public                            0                  0                 0              2,779             2,779
     (Less: Earned Revenue From the Public)             (604)                  0             (604)            (2,393)           (2,393)
     Net Costs With the Public                          (604)                  0             (604)                386               386
     Net Program Cost                          $     (57,352)    $             0    $     (57,352)    $           750   $           750

 Transportation
    Intragovernmental Gross Costs              $     1,383,045   $             0    $     1,383,045   $       588,593   $       588,593
    (Less: Intragovernmental Earned Revenue)       (1,516,715)                 0        (1,516,715)       (1,337,799)       (1,337,799)
    Intragovernmental Net Costs                      (133,670)                 0          (133,670)         (749,206)         (749,206)

     Gross Costs With the Public                        4,103                  0             4,103         1,107,829         1,107,829
     (Less: Earned Revenue From the Public)           (1,950)                  0           (1,950)                 0                 0
     Net Costs With the Public                          2,153                  0             2,153         1,107,829         1,107,829
     Net Program Cost                          $    (131,517)    $             0    $    (131,517)    $      358,623    $      358,623

                                                                                                                                          189



    The accompanying notes are an integral part of these financial statements. See notes 1 and 19.
      Department of Defense
      Navy Working Capital Fund
      C O N S O L I D ATING STATEMENT OF NET COST
      As of September 30, 2002 and 2001
      ($ in thousands)



                                                        2002 Total         Eliminations           2002       Restated 2001             2001

      Research and Development
        Intragovernmental Gross Costs               $      9,030,982   $            0     $      9,030,982   $      1,289,772   $      1,289,772
        (Less: Intragovernmental Earned Revenue)         (9,119,274)                0          (9,119,274)        (7,527,316)        (7,527,316)
        Intragovernmental Net Costs                         (88,292)                0             (88,292)        (6,237,544)        (6,237,544)

          Gross Costs With the Public                       127,598                 0             127,598          7,903,542          7,903,542
          (Less: Earned Revenue From the Public)          (351,023)                 0           (351,023)          (203,908)          (203,908)
          Net Costs With the Public                       (223,425)                 0           (223,425)          7,699,634          7,699,634
          Net Program Cost                          $     (311,717)    $            0     $     (311,717)    $     1,462,090    $     1,462,090

      Supply Management
        Intragovernmental Gross Costs               $        971,197   $            0     $        971,197   $      2,731,936   $      2,731,936
        (Less: Intragovernmental Earned Revenue)         (6,088,590)                0          (6,088,590)        (4,957,499)        (4,957,499)
        Intragovernmental Net Costs                      (5,117,393)                0          (5,117,393)        (2,225,563)        (2,225,563)

          Gross Costs With the Public                     6,196,608                 0           6,196,608        1,150,883          1,150,883
          (Less: Earned Revenue From the Public)          (374,865)                 0           (374,865)        (289,735)          (289,735)
          Net Costs With the Public                       5,821,743                 0           5,821,743          861,148            861,148
          Net Program Cost                          $       704,350    $            0     $       704,350    $ (1,364,415)      $ (1,364,415)

      Total Program Costs
         Intragovernmental Gross Costs              $      5,382,324   $            0     $      5,382,324   $      6,189,093   $      6,189,093
         (Less: Intragovernmental Earned Revenue)       (20,916,260)                0         (20,916,260)       (18,328,658)       (18,328,658)
         Intragovernmental Net Costs                    (15,533,936)                0         (15,533,936)       (12,139,565)       (12,139,565)

         Gross Costs With the Public                  18,837,402                    0       18,837,402         16,928,798         14,436,194
         (Less: Earned Revenue From the Public)        (862,692)                    0        (862,692)          (648,383)          (648,383)
         Net Costs With the Public                    17,974,710                    0       17,974,710         16,280,415         13,787,811
         Net Program Cost                           $ 2,440,774        $            0     $ 2,440,774        $ 4,140,850        $ 1,648,246

      Costs Not Assigned to
      Programs                                                    0                 0                    0                 0                  0
      (Less: Earned Revenue Not
      Attributable to Programs)                                   0                 0                   0                  0                  0
      Net Costs of Operations                       $     2,440,774    $            0     $     2,440,774    $     4,140,850    $     1,648,246




       The accompanying notes are an integral part of these financial statements. See notes 1 and 19.

190
Supporting Consolidating/Combining Statements
Department of Defense
Navy Working Capital Fund
C O N S O L I D ATING STATEMENT OF CHANGES IN THE NET POSITION
As of September 30, 2002 and 2001
($ in thousands)




                                                             Depot Maintenance Depot Maintenance   Depot Maintenance
                                                                 Shipyards          Aviation         Marine Corps          Ordnance
CUMULATIVE RESULTS OF OPERATION
  Beginning Balances                                         $   1,230,010      $    454,372       $      60,306       $       91,207
  Prior period adjustments (+/-)                                 (127,861)                 0              (1,051)                 253
  Beginning Balances, as adjusted                                1,102,149           454,372              59,255               91,460

  Budgetary Financing Sources:
    Appropriations Received                                             0                  0                   0                    0
    Appropriations transferred in/out (+/-)                             0                  0                   0                    0
    Other adjustments (recissions, etc) (+/-)                           0                  0                   0                    0
    Appropriations used                                                 0                  0                   0                    0
    Nonexchange revenue                                                 0                  0                   0                    0
    Donations and forfeitures of cash and cash equivalents              0                  0                   0                    0
    Transfers in/out without reimbursement (+/-)                        0                  0                   0                    0
    Other budgetary financing sources (+/-)                        16,160              2,642                   0               19,048

  Other Financing Sources:
    Donations and forfeitures of property                               0                  0                   0                    0
    Transfers in/out without reimbursement (+/-)                        0                  0                   0                    0
    Imputed financing from costs absorbed by others               111,419             57,078               6,863                  156
    Other (+/-)                                                         0                  0                   0                    0
  Total Financing Sources                                         127,579             59,720               6,863               19,204

  Net Cost of Operations (+/-)                                    281,760            166,184                (441)             (57,352)

  Ending Balances                                            $    947,968      $     347,908       $      66,559       $      168,016




                                                                                                                                         191



     The accompanying notes are an integral part of these financial statements. See notes 1 and 20.
      Department of Defense
      Navy Working Capital Fund
      C O N S O L I D ATING STATEMENT OF CHANGES IN NET POSITION
      As of September 30, 2002 and 2001
      ($ in thousands)




                                                                                                               Information        Research &
                                                                       Transportation       Base Support         Services        Development
      CUMULATIVE RESULTS OF OPERATION
        Beginning Balances                                         $     (236,719)      $       588,305    $      (7,266)    $        89,678
        Prior period adjustments (+/-)                                       2,695                3,724           (2,081)                 13
        Beginning Balances, as adjusted                                  (234,024)              592,029           (9,347)             89,691

        Budgetary Financing Sources:
          Appropriations Received                                                0                    0                0                   0
          Appropriations transferred in/out (+/-)                                0                    0                0                   0
          Other adjustments (recissions, etc) (+/-)                              0                    0                0                   0
          Appropriations used                                                    0                    0                0                   0
          Nonexchange revenue                                                    0                    0                0                   0
          Donations and forfeitures of cash and cash equivalents                 0                    0                0                   0
          Transfers in/out without reimbursement (+/-)                           0                    0                0                   0
          Other budgetary financing sources (+/-)                            1,823               10,871                0           (108,689)

        Other Financing Sources:
          Donations and forfeitures of property                                  0                    0                0                    0
          Transfers in/out without reimbursement (+/-)                           0                    0            9,347              (9,805)
          Imputed financing from costs absorbed by others                    5,591               36,748                0             229,161
          Other (+/-)                                                            0                    0                0                    0
        Total Financing Sources                                              7,414               47,619            9,347             110,667

        Net Cost of Operations (+/-)                                     (131,517)             (37,442)                0           (311,717)

        Ending Balances                                            $       (95,093)     $       677,090    $           0     $       512,075




      The accompanying notes are an integral part of these financial statements. See notes 1 and 20.

192
Supporting Consolidating/Combining Statements
  Department of Defense
  Navy Working Capital Fund
  C O N S O L I D ATING STATEMENT OF CHANGES IN NET POSITION
  As of September 30, 2002 and 2001
  ($ in thousands)




                                                                   Supply
                                                                 Management   Component Level   Combined Total       Eliminations
  CUMULATIVE RESULTS OF OPERATION
    Beginning Balances                                         $ 15,941,285   $   (492,606)     $ 17,718,572     $              0
    Prior period adjustments (+/-)                                  868,137       1,208,568        1,952,397                    0
    Beginning Balances, as adjusted                              16,809,422         715,962       19,670,969                    0

    Budgetary Financing Sources:
      Appropriations Received                                             0               0                 0                   0
      Appropriations transferred in/out (+/-)                             0               0                 0                   0
      Other adjustments (recissions, etc) (+/-)                           0               0                 0                   0
      Appropriations used                                                 0               0                 0                   0
      Nonexchange revenue                                                 0               0                 0                   0
      Donations and forfeitures of cash and cash equivalents              0               0                 0                   0
      Transfers in/out without reimbursement (+/-)                        0               0                 0                   0
      Other budgetary financing sources (+/-)                       487,172       (116,967)           312,060                   0

    Other Financing Sources:
      Donations and forfeitures of property                               0               0                  0                  0
      Transfers in/out without reimbursement (+/-)                    (680)               0            (1,138)                  0
      Imputed financing from costs absorbed by others                18,573               0           465,589                   0
      Other (+/-)                                                         0               0                  0                  0
    Total Financing Sources                                         505,065       (116,967)           776,511                   0

    Net Cost of Operations (+/-)                                    704,350       1,826,949         2,440,774                       0

     Ending Balances                                           $ 16,610,137   $ (1,227,954)     $ 18,006,706     $                  0




                                                                                                                                        193



  The accompanying notes are an integral part of these financial statements. See notes 1 and 20.
        Department of Defense
        Navy Working Capital Fund
        C O N S O L I D ATING STATEMENT OF CHANGES IN NET POSITION
        As of September 30, 2002 and 2001
        ($ in thousands)




                                                                            2002          Restated 2001       2001
         CUMULATIVE RESULTS OF OPERATION
           Beginning Balances                                         $ 17,718,572        $ 19,090,738     $ 19,090,738
           Prior period adjustments (+/-)                                1,952,397             790,769       (1,161,631)
           Beginning Balances, as adjusted                              19,670,969          19,881,507       17,929,107

           Budgetary Financing Sources:
             Appropriations Received                                              0                    0              0
             Appropriations transferred in/out (+/-)                              0                    0              0
             Other adjustments (recissions, etc) (+/-)                            0                    0              0
             Appropriations used                                                  0              145,530        145,530
             Nonexchange revenue                                                  0               11,352         11,352
             Donations and forfeitures of cash and cash equivalents               0                    0              0
             Transfers in/out without reimbursement (+/-)                         0                    0              0
             Other budgetary financing sources (+/-)                        312,060              771,249        771,249

            Other Financing Sources:
              Donations and forfeitures of property                                0                   0               0
              Transfers in/out without reimbursement (+/-)                   (1,138)              36,187          36,187
              Imputed financing from costs absorbed by others               465,589              473,393         473,393
              Other (+/-)                                                          0                   0               0
            Total Financing Sources                                         776,511            1,437,711       1,437,711

            Net Cost of Operations (+/-)                                   2,440,774           4,140,850       1,648,246

            Ending Balances                                           $   18,006,706      $ 17,178,368     $ 17,718,572




      The accompanying notes are an integral part of these financial statements. See notes 1 and 20.

194
Supporting Consolidating/Combining Statements
   Department of Defense
   Navy Working Capital Fund
   COMBINING STATEMENT OF BUDGETA RY RESOURCES
   As of September 30, 2002 and 2001
   ($ in thousands)




   BUDGETARY FINANCING ACCOUNTS
                                                               Depot Maintenance   Depot Maintenance   Depot Maintenance
   BUDGETARY RESOURCES                                             Shipyards            Aviation         Marine Corps
     Budget Authority:
        Appropriations Received                              $              0      $               0   $               0
        Borrowing Authority                                                 0                      0                   0
        Contract Authority                                                  0                      0                   0
        Net transfers (+/-)                                                 0                      0                   0
        Other                                                               0                      0                   0
     Unobligated Balance:
        Beginning of period                                          430,847             352,768                80,698
        Net transfers, actual (+/-)                                        0                   0                     0
        Anticipated Transfers Balances                                     0                   0                     0
     Spending Authority from Offsetting Collections:
        Earned
           Collected                                              2,596,802            2,297,171               214,367
           Receivable from Federal sources                        (234,175)                (221)                (4,113)
        Change in unfilled customer orders
           Advances received                                          35,810                1,810               (1,074)
           Without advance from Federal sources                     247,481              167,106               (24,340)
        Anticipated for the rest of year, without advances                 0                    0                     0
        Transfers from trust funds                                         0                    0                     0
        Subtotal                                                  2,645,918            2,465,866               184,840
     Recoveries of prior year obligations                                  0                    0                     0
     Temporarily not available pursuant to Public Law                      0                    0                     0
     Permanently not available                                      (13,536)             (56,724)                     0
     Total Budgetary Resources                               $    3,063,229        $   2,761,910       $       265,538




                                                                                                                           195



  The accompanying notes are an integral part of these financial statements. See notes 1 and 21.
       Department of Defense
       Navy Working Capital Fund
       COMBINING STATEMENT OF BUDGETA RY RESOURCES
       As of September 30, 2002 and 2001
       ($ in thousands)




                                                                   Depot Maintenance   Depot Maintenance   Depot Maintenance
        STATUS OF BUDGETARY RESOURCES                                  Shipyards            Aviation         Marine Corps
           Obligations Incurred:
              Direct                                              $            0         $            0     $             0
              Reimbursable                                             2,641,766              2,121,523             202,349
              Subtotal                                                 2,641,766              2,121,523             202,349
           Unobligated balance:
              Apportioned                                                421,463                640,387              63,189
              Exempt from apportionment                                        0                      0                   0
              Other available                                                  0                      0                   0
           Unobligated Balances Not Available                                  0                      0                   0
           Total, Status of Budgetary Resources                   $    3,063,229         $    2,761,910     $       265,538

        RELATIONSHIP OF OBLIGATIONS TO OUTLAYS
           Obligated Balance, Net-beginning of period             $      172,802         $      169,909     $       (45,996)
           Obligated Balance transferred, net (+/-)                            0                      0                   0
           Obligated Balance, net-end of period:
               Accounts Receivable                                         (9,316)             (106,899)             (9,736)
               Unfilled customer order from Federal sources             (897,781)              (822,869)            (48,809)
               Undelivered Orders                                         591,155                213,310              28,066
               Accounts Payable                                          595,835                 877,283              14,059
           Outlays:
               Disbursements                                           2,521,369             1,963,723              201,225
               Collections                                            (2,632,613)          (2,298,980)            (213,293)
               Subtotal                                                 (111,244)            (335,257)              (12,068)
           Less: Offsetting receipts                                            0                    0                    0
           Net Outlays                                            $     (111,244)        $   (335,257)      $       (12,068)




      The accompanying notes are an integral part of these financial statements. See note 1 and 21.

196
Supporting Consolidating/Combining Statements
  Department of Defense
  Navy Working Capital Fund
  COMBINING STATEMENT OF BUDGETA RY RESOURCES
  As of September 30, 2002 and 2001
  ($ in thousands)




  BUDGETARY FINANCING ACCOUNTS
                                                                                                       Base         Information
  BUDGETARY RESOURCES                                            Ordnance      Transportation         Support         Services
    Budget Authority:
        Appropriations Received                              $         0       $           0      $             0   $             0
        Borrowing Authority                                            0                   0                    0                 0
        Contract Authority                                             0                   0                    0                 0
        Net transfers (+/-)                                            0                   0                    0                 0
        Other                                                          0                   0                    0                 0
     Unobligated Balance:
        Beginning of period                                      188,219             (27,741)             149,960          59,540
        Net transfers, actual (+/-)                                    0                    0                   0        (59,540)
        Anticipated Transfers Balances                                 0                    0                   0               0
     Spending Authority from Offsetting Collections:
        Earned
           Collected                                               1,531           1,510,911            1,790,113                 0
           Receivable from Federal sources                         1,764               6,855             (42,673)                 0
        Change in unfilled customer orders
           Advances received                                          (5)                  0                2,391                 0
           Without advance from Federal sources                  242,840               2,143             (50,057)                 0
        Anticipated for the rest of year, without advances              0                  0                    0                 0
        Transfers from trust funds                                      0                  0                    0                 0
        Subtotal                                                 246,130             151,909            1,699,774                 0
     Recoveries of prior year obligations                               0                  0                    0                 0
     Temporarily not available pursuant to Public Law                   0                  0                    0                 0
     Permanently not available                                    (1,066)          (140,517)             (18,334)                 0
    Total Budgetary Resources                                $   433,283       $   1,351,651      $     1,831,400   $             0




                                                                                                                                  197



  The accompanying notes are an integral part of these financial statements. See note 1 and 21.
      Department of Defense
      Navy Working Capital Fund
      COMBINING STATEMENT OF BUDGETA RY RESOURCES
      As of September 30, 2002 and 2001
      ($ in thousands)



                                                                                                           Base        Information
      STATUS OF BUDGETARY RESOURCES                                   Ordnance     Transportation         Support        Services
         Obligations Incurred:
            Direct                                                $          0     $           0      $           0    $             0
            Reimbursable                                               167,656         1,175,208          1,624,280                  0
            Subtotal                                                   167,656         1,175,208          1,624,280                  0
         Unobligated balance:
            Apportioned                                                265,627           176,443            207,120                  0
            Exempt from apportionment                                        0                 0                  0                  0
            Other available                                                  0                 0                  0                  0
         Unobligated Balances Not Available                                  0                 0                  0                  0
         Total, Status of Budgetary Resources                     $    433,283     $   1,351,651      $   1,831,400    $             0

      RELATIONSHIP OF OBLIGATIONS TO OUTLAYS
         Obligated Balance, Net-beginning of period               $     42,828     $    415,244       $     118,473    $      22,610
         Obligated Balance transferred, net (+/-)                            0                0                   0         (22,610)
         Obligated Balance, net-end of period:
             Accounts Receivable                                          (962)         (95,632)           (159,273)                 0
             Unfilled customer order from Federal sources              (17,580)         (35,133)           (261,774)                 0
             Undelivered Orders                                          11,602           29,994             239,282                 0
             Accounts Payable                                          (29,170)          342,046             286,873                 0
         Outlays:
             Disbursements                                                1,989        1,340,179          1,730,374                  0
             Collections                                                (1,525)      (1,510,911)        (1,792,504)                  0
             Subtotal                                                       464        (170,732)           (62,130)                  0
         Less: Offsetting receipts                                            0                0                  0                  0
         Net Outlays                                              $         464    $ (170,732)        $    (62,130)    $             0




      The accompanying notes are an integral part of these financial statements. See note 1 and 21.

198
Supporting Consolidating/Combining Statements
   Department of Defense
   Navy Working Capital Fund
   COMBINING STATEMENT OF BUDGETA RY RESOURCES
   As of September 30, 2002 and 2001
   ($ in thousands)


   BUDGETARY FINANCING ACCOUNTS
                                                                Research           Supply          Component        2002
   BUDGETARY RESOURCES                                       & Development       Management          Level      Combined Total
     Budget Authority:
         Appropriations Received                            $           0    $            0    $           0    $           0
         Borrowing Authority                                            0                 0                0                0
         Contract Authority                                             0           818,950                0          818,950
         Net transfers (+/-)                                            0                 0                0                0
         Other                                                          0                 0                0                0
      Unobligated Balance:
         Beginning of period                                    1,313,323           126,966          432,077         3,106,657
         Net transfers, actual (+/-)                               18,776            40,764                0                 0
         Anticipated Transfers Balances                                 0                 0                0                 0
      Spending Authority from Offsetting Collections:
         Earned
            Collected                                           9,461,818          6,355,648           13,903       24,242,264
            Receivable from Federal sources                     (194,997)              2,925         (13,903)        (478,538)
         Change in unfilled customer orders
            Advances received                                      19,874              (133)               0          58,673
            Without advance from Federal sources                  280,372           (92,138)               0         773,407
         Anticipated for the rest of year, without advances             0                  0               0               0
         Transfers from trust funds                                     0                  0               0               0
         Subtotal                                               9,567,067          6,266,302               0      24,595,806
      Recoveries of prior year obligations                              0                  0               0               0
      Temporarily not available pursuant to Public Law                  0                  0               0               0
      Permanently not available                                 (154,195)           (32,860)               0       (417,232)
     Total Budgetary Resources                              $ 10,744,971     $     7,220,122   $     432,077    $ 28,104,181




                                                                                                                                 199



  The accompanying notes are an integral part of these financial statements. See note 1and 21.
      Department of Defense
      Navy Working Capital Fund
      COMBINING STATEMENT OF BUDGETA RY RESOURCES
      As of September 30, 2002 and 2001
      ($ in thousands)



                                                                       Research           Supply          Component          2002
      STATUS OF BUDGETARY RESOURCES
                                                                    & Development       Management          Level         Combined Total
         Obligations Incurred:
            Direct                                              $             0     $             0   $               0   $            0
            Reimbursable                                              9,545,269           6,508,908                   0       23,986,959
            Subtotal                                                  9,545,269           6,508,908                   0       23,986,959
         Unobligated balance:
            Apportioned                                            1,199,702                711,213           432,077        4,117,221
            Exempt from apportionment                                      0                      0                 0                0
            Other available                                                0                      1                 0                1
         Unobligated Balances Not Available                                0                      0                 0                0
         Total, Status of Budgetary Resources                   $ 10,744,971        $     7,220,122   $       432,077     $ 28,104,181

      RELATIONSHIP OF OBLIGATIONS TO OUTLAYS
         Obligated Balance, Net-beginning of period             $     (354,815)     $     3,088,289   $ (1,208,239)       $    2,421,105
         Obligated Balance transferred, net (+/-)                      (15,250)              37,860               0                    0
         Obligated Balance, net-end of period:
             Accounts Receivable                                       (131,730)          (267,811)              8,033          (773,326)
             Unfilled customer order from Federal sources            (3,845,967)          (862,041)                  0        (6,791,954)
             Undelivered Orders                                        1,959,303          4,255,245                  0          7,327,957
             Accounts Payable                                          2,071,322            218,174        (1,153,340)          3,223,082
         Outlays:
             Disbursements                                          9,036,900           6,380,706            (49,029)        23,127,436
             Collections                                          (9,481,691)         (6,355,516)            (13,904)      (24,300,937)
             Subtotal                                               (444,791)              25,190            (62,933)       (1,173,501)
         Less: Offsetting receipts                                          0                   0                   0                 0
         Net Outlays                                            $ (444,791)         $      25,190     $      (62,933)     $ (1,173,501)




      The accompanying notes are an integral part of these financial statements. See note 1 and 21.

200
Supporting Consolidating/Combining Statements

   Department of Defense
   Navy Working Capital Fund
   COMBINING STATEMENT OF BUDGETA RY RESOURCES
   As of September 30, 2002 and 2001
   ($ in thousands)


   BUDGETARY FINANCING ACCOUNTS
                                                                 Restated 2001         2001
   BUDGETARY RESOURCES                                           Combined Total    Combined Total
     Budget Authority:
        Appropriations Received                                   $     145,530    $     145,530
        Borrowing Authority                                                   0                0
        Contract Authority                                              612,962          612,962
        Net transfers (+/-)                                                   0                0
        Other                                                                 0                0
     Unobligated Balance:
        Beginning of period                                            2,089,156        2,089,156
        Net transfers, actual (+/-)                                       43,700           43,700
        Anticipated Transfers Balances                                         0                0
     Spending Authority from Offsetting Collections:
        Earned
          Collected                                                   21,216,090       21,216,090
          Receivable from Federal sources                                177,613          177,613
        Change in unfilled customer orders
          Advances received                                          (576,035)        (576,035)
          Without advance from Federal sources                         790,654          790,653
        Anticipated for the rest of year, without advances                   0                0
        Transfers from trust funds                                           0                0
        Subtotal                                                    21,608,321       21,608,321
     Recoveries of prior year obligations                                    0                0
     Temporarily not available pursuant to Public Law                        0                0
     Permanently not available                                        (80,135)         (80,135)
     Total Budgetary Resources                                    $ 24,419,534     $ 24,419,534




                                                                                                    201



  The accompanying notes are an integral part of these financial statements. See note 1 and 21.
       Department of Defense
       Navy Working Capital Fund
       COMBINING STATEMENT OF BUDGETA RY RESOURCES
       As of September 30, 2002 and 2001
       ($ in thousands)



                                                                    Restated 2001          2001
       STATUS OF BUDGETARY RESOURCES                                Combined Total      Combined Total
          Obligations Incurred:
             Direct                                                   $            0    $            0
             Reimbursable                                                 21,312,877        21,312,877
             Subtotal                                                     21,312,877        21,312,877
          Unobligated balance:
             Apportioned                                                 3,044,096         3,044,096
             Exempt from apportionment                                      62,562            62,562
             Other available                                                    (1)               (1)
          Unobligated Balances Not Available                                      0                 0
          Total, Status of Budgetary Resources                        $ 24,419,534      $ 24,419,534

       RELATIONSHIP OF OBLIGATIONS TO OUTLAYS
          Obligated Balance, Net-beginning of period                  $    3,630,862    $    3,630,862
          Obligated Balance transferred, net (+/-)                                 0                 0
          Obligated Balance, net-end of period:
              Accounts Receivable                                           1,251,862         1,251,862
              Unfilled customer order from Federal sources                  6,018,549         6,018,549
              Undelivered Orders                                          (4,611,122)       (4,611,122)
              Accounts Payable                                            (5,080,394)       (5,080,394)
          Outlays:
              Disbursements                                               21,554,367        21,554,367
              Collections                                               (20,640,054)      (20,640,054)
              Subtotal                                                       914,313           914,313
          Less: Offsetting receipts                                                0                 0
          Net Outlays                                                 $      914,313    $      914,313




      The accompanying notes are an integral part of these financial statements. See note 1 and 21.

202
Supporting Consolidating/Combining Statements
 Department of Defense
 Navy Working Capital Fund
 COMBINING STATEMENT OF FINANCING
 As of September 30, 2002 and 2001
 ($ in thousands)




                                                                                            Depot Maintenance    Depot Maintenance   Depot Maintenance
 Resources Used to Finance Activities:                                                          Shipyards             Aviation         Marine Corps
 Budgetary Resources Obligated
     Obligations Incurred                                                                    $      2,641,766    $      2,121,523     $     202,349
     Less: Spending Authority from offsetting collections and recoveries (-)                      (2,645,918)         (2,465,866)         (184,840)
     Obligations net of offsetting collections and recoveries                                          (4,152)          (344,343)            17,509
     Less: Offsetting receipts (-)                                                                           0                  0                 0
     Net obligations                                                                                   (4,152)          (344,343)            17,509
 Other Resources
     Donations and forfeitures of property                                                                 0                   0                  0
     Transfers in/out without reimbursement (+/-)                                                          0                   0                  0
     Imputed financing from costs absorbed by others                                                 111,419              57,078              6,863
     Other (+/-)                                                                                           0                   0                  0
     Net other resources used to finance activities                                                  111,419              57,078              6,863
     Total resources used to finance activities                                              $       107,267      $    (287,265)      $      24,372

 Resources Used to Finance Items not Part of the Net Cost of Operations:

     Change in budgetary resources obligated for goods, services and benefits
     ordered but not yet provided
        Undelivered orders (-)                                                                $      (97,940)    $        19,771      $     (8,959)
        Unfilled Customer Orders                                                                      283,291            168,916           (25,416)
     Resources that fund expenses recognized in prior periods                                               0                  0              (204)
     Budgetary offsetting collections and receipts that do not affect Net Cost of Operations                0                  0                  0
     Resources that finance the acquisition of assets                                                (50,218)            232,801              5,662
     Other resources or adjustments to net obligated resources that do not affect Net Cost of
     Operations
        Less: Trust or Special Fund receipts related to exchange in the entity's
        budget (-)                                                                                          0                  0                 0
        Other (+/-)                                                                                         0                  0                 0
     Total resources used to finance items not part of the Net Cost of
     Operations                                                                                      135,133             421,488           (28,917)
     Total resources used to finance the Net Cost of Operations                               $      242,400      $      134,223      $     (4,545)




                                                                                                                                                         203



   The accompanying notes are an integral part of these financial statements. See note 1 and 22.
       Department of Defense
       Navy Working Capital Fund
       COMBINING STATEMENT OF FINANCING
       As of September 30, 2002 and 2001
       ($ in thousands)




       Components of the Net Cost of Operations that will not Require or                 Depot Maintenance   Depot Maintenance   Depot Maintenance
       Generate Resources in the Current Period:                                             Shipyards            Aviation         Marine Corps
       Components Requiring or Generating Resources in Future Periods:
          Increase in annual leave liability                                             $          0         $          0         $          0
          Increase in environmental and disposal liability                                          0                    0                    0
          Upward/Downward reestimates of credit subsidy expense                                     0                    0                    0
          Increase in exchange revenue receivable from the public (-)                               0                    0                    0
          Other (+/-)                                                                               0                    0                    0
          Total components of Net Cost of Operations that will require or
          generate resources in future periods                                                      0                    0                    0

       Components not Requiring or Generating Resources:
          Depreciation and amortization                                                        39,360                31,961                4,104
          Revaluation of assets and liabilities (+/-)                                               0                     0                    0
          Other (+/-)                                                                               0                     0                    0
          Total components of Net Cost of Operations that will not require or generate
          resources                                                                      $     39,360         $      31,961        $       4,104
          Total components of Net Cost of Operations that will not require
          or generate resources in the current period                                    $     39,360         $      31,961        $       4,104
          Net Cost of Operations                                                         $    281,760         $     166,184        $       (441)




      The accompanying notes are an integral part of these financial statements. See note 1 and 22.

204
Supporting Consolidating/Combining Statements
      Department of Defense
      Navy Working Capital Fund
      COMBINING STATEMENT OF FINANCING
      As of September 30, 2002 and 2001
      ($ in thousands)




                                                                                                                                                       Information
Resources Used to Finance Activities:                                                           Ordnance       Transportation    Base Support            Services
Budgetary Resources Obligated
    Obligations Incurred                                                                   $        167,656    $     1,175,208   $     1,624,280   $             0
    Less: Spending Authority from offsetting collections and recoveries (-)                       (246,130)        (1,519,909)       (1,699,774)                 0
    Obligations net of offsetting collections and recoveries                                       (78,474)          (344,701)          (75,494)                 0
    Less: Offsetting receipts (-)                                                                         0                  0                 0                 0
    Net obligations                                                                                (78,474)          (344,701)          (75,494)                 0
Other Resources
    Donations and forfeitures of property                                                                 0                 0                 0                  0
    Transfers in/out without reimbursement (+/-)                                                          0                 0                 0                  0
    Imputed financing from costs absorbed by others                                                     156             5,591            36,748                  0
    Other (+/-)                                                                                           0                 0                 0                  0
    Net other resources used to finance activities                                                      156             5,591            36,748                  0
    Total resources used to finance activities                                             $       (78,318)    $    (339,110)    $     (38,746)    $             0

Resources Used to Finance Items not Part of the Net Cost of Operations:

    Change in budgetary resources obligated for goods, services and benefits
    ordered but not yet provided
       Undelivered orders (-)                                                               $     (300,464)    $    (334,679)    $    (100,885)    $              0
       Unfilled Customer Orders                                                                     242,835             2,143          (47,666)            (20,328)
    Resources that fund expenses recognized in prior periods                                              0                 0                 0                   0
    Budgetary offsetting collections and receipts that do not affect Net Cost of Operations               0                 0                 0                   0
    Resources that finance the acquisition of assets                                                 78,595           536,484           132,570              20,328
    Other resources or adjustments to net obligated resources that do not affect Net
    Cost of Operations
       Less: Trust or Special Fund receipts related to exchange in the entity's                            0                0                 0                  0
       budget (-)
       Other (+/-)                                                                                         0                0                 0                  0
    Total resources used to finance items not part of the Net Cost of
    Operations                                                                                       20,966           203,948          (15,981)                  0
    Total resources used to finance the Net Cost of Operations                              $      (57,352)    $    (135,162)    $     (54,727)    $             0




                                                                                                                                                                      205



      The accompanying notes are an integral part of these financial statements. See note 1 and 22.
      Department of Defense
      Navy Working Capital Fund
      COMBINING STATEMENT OF FINANCING
      As of September 30, 2002 and 2001
      ($ in thousands)




                                                                                                                                               Information
      Components of the Net Cost of Operations that will not Require or                     Ordnance       Transportation   Base Support         Services
      Generate Resources in the Current Period:
      Components Requiring or Generating Resources in Future Periods:                   $              0   $           0    $         0    $             0
         Increase in annual leave liability                                                            0               0              0                  0
         Increase in environmental and disposal liability                                              0               0              0                  0
         Upward/Downward reestimates of credit subsidy expense                                         0               0              0                  0
         Increase in exchange revenue receivable from the public (-)                                   0               0              0                  0
         Other (+/-)
         Total components of Net Cost of Operations that will require or                               0               0              0                  0
         generate resources in future periods

      Components not Requiring or Generating Resources:                                                0           3,645         17,285                  0
         Depreciation and amortization                                                                 0               0              0                  0
         Revaluation of assets and liabilities (+/-)                                                   0               0              0                  0
         Other (+/-)
         Total components of Net Cost of Operations that will not require or generate   $              0   $       3,645    $    17,285    $             0
         resources
         Total components of Net Cost of Operations that will not require               $             0    $       3,645    $     17,285   $             0
         or generate resources in the current period                                    $      (57,352)    $   (131,517)    $   (37,442)   $             0
         Net Cost of Operations




      The accompanying notes are an integral part of these financial statements. See note 1 and 22.

206
Supporting Consolidating/Combining Statements
Department of Defense
Navy Working Capital Fund
COMBINING STATEMENT OF FINANCING
As of September 30, 2002 and 2001
($ in thousands)




                                                                                                 Research             Supply           Component       2002
Resources Used to Finance Activities:                                                         & Development         Management           Level      Combined Total
Budgetary Resources Obligated
    Obligations Incurred                                                                      $     9,545,269   $      6,508,908   $           0    $ 23,986,959
    Less: Spending Authority from offsetting collections and recoveries (-)                       (9,567,067)        (6,266,302)               0     (24,595,806)
    Obligations net of offsetting collections and recoveries                                         (21,798)            242,606               0        (608,847)
    Less: Offsetting receipts (-)                                                                           0                  0               0                0
    Net obligations                                                                                  (21,798)            242,606               0        (608,847)
Other Resources
    Donations and forfeitures of property                                                                  0                  0                0                0
    Transfers in/out without reimbursement (+/-)                                                           0                  0                0                0
    Imputed financing from costs absorbed by others                                                  229,161             18,573                0          465,589
    Other (+/-)                                                                                            0                  0                0                0
    Net other resources used to finance activities                                                   229,161             18,573                0          465,589
    Total resources used to finance activities                                                $      207,363    $       261,179    $           0    $   (143,258)

Resources Used to Finance Items not Part of the Net Cost of Operations:

    Change in budgetary resources obligated for goods, services and benefits
    ordered but not yet provided
       Undelivered orders (-)                                                                 $ (1,387,034)     $     (466,996)    $    (346,441)   $ (3,023,627)
       Unfilled Customer Orders                                                                     300,278            (71,975)                 0         832,078
    Resources that fund expenses recognized in prior periods                                              0                   0          (46,521)        (46,725)
    Budgetary offsetting collections and receipts that do not affect Net Cost of Operations               0                   0                 0               0
    Resources that finance the acquisition of assets                                                463,513           1,527,601         2,219,911       5,167,247
    Other resources or adjustments to net obligated resources that do not affect Net
    Cost of Operations
       Less: Trust or Special Fund receipts related to exchange in the entity's                            0                  0                0               0
       budget (-)
       Other (+/-)                                                                                         0                  0                0               0
    Total resources used to finance items not part of the Net Cost of
    Operations                                                                                     (623,243)            988,630         1,826,949       2,928,973
    Total resources used to finance the Net Cost of Operations                                $    (415,880)    $     1,249,809    $    1,826,949   $   2,785,715




                                                                                                                                                                207



      The accompanying notes are an integral part of these financial statements. See note 1 and 22.
      Department of Defense
      Navy Working Capital Fund
      COMBINING STATEMENT OF FINANCING
      As of September 30, 2002 and 2001
      ($ in thousands)




      Components of the Net Cost of Operations that will not Require or                    Research           Supply          Component       2002
      Generate Resources in the Current Period:                                         & Development       Management          Level      Combined Total
      Components Requiring or Generating Resources in Future Periods:
         Increase in annual leave liability                                             $          0    $            0    $           0    $          0
         Increase in environmental and disposal liability                                          0                 0                0               0
         Upward/Downward reestimates of credit subsidy expense                                     0                 0                0               0
         Increase in exchange revenue receivable from the public (-)                               0                 0                0               0
         Other (+/-)                                                                               0                 0                0               0
         Total components of Net Cost of Operations that will require or
         generate resources in future periods                                                      0                 0                0               0

      Components not Requiring or Generating Resources:
         Depreciation and amortization                                                       104,163              9,971               0          210,489
         Revaluation of assets and liabilities (+/-)                                               0          (555,389)               0        (555,389)
         Other (+/-)                                                                               0               (41)               0             (41)
         Total components of Net Cost of Operations that will not require or generate
         resources                                                                      $    104,163    $     (545,459)   $           0    $   (344,941)
         Total components of Net Cost of Operations that will not require
         or generate resources in the current period                                    $     104,163   $     (545,459)   $            0   $   (344,941)
         Net Cost of Operations                                                         $   (311,717)   $       704,350   $    1,826,949   $   2,440,774




      The accompanying notes are an integral part of these financial statements. See note 1 and 22.

208
Supporting Consolidating/Combining Statements
    Department of Defense
    Navy Working Capital Fund
    COMBINING STATEMENT OF FINANCING
    As of September 30, 2002 and 2001
    ($ in thousands)




                                                                                                  Restated 2001       2001
    Resources Used to Finance Activities:                                                         Combined Total   Combined Total
    Budgetary Resources Obligated
        Obligations Incurred                                                                      $ 21,312,876      $ 21,312,876
        Less: Spending Authority from offsetting collections and recoveries (-)                    (21,608,321)      (21,608,321)
        Obligations net of offsetting collections and recoveries                                      (295,445)         (295,445)
        Less: Offsetting receipts (-)                                                                         0                 0
        Net obligations                                                                               (295,445)         (295,445)
    Other Resources
        Donations and forfeitures of property                                                                  0                  0
        Transfers in/out without reimbursement (+/-)                                                     (7,512)            (7,512)
        Imputed financing from costs absorbed by others                                                 473,394            473,394
        Other (+/-)                                                                                            0                  0
        Net other resources used to finance activities                                                  465,882            465,882
        Total resources used to finance activities                                                $     170,437     $      170,437

    Resources Used to Finance Items not Part of the Net Cost of Operations:

        Change in budgetary resources obligated for goods, services and benefits
        ordered but not yet provided
           Undelivered orders (-)                                                                 $    2,802,411    $    2,802,411
           Unfilled Customer Orders                                                                      214,618           214,618
        Resources that fund expenses recognized in prior periods                                           (305)             (305)
        Budgetary offsetting collections and receipts that do not affect Net Cost of Operations
        Resources that finance the acquisition of assets                                                       0                  0
        Other resources or adjustments to net obligated resources that do not affect Net               (520,950)        (3,013,554)
        Cost of Operations
           Less: Trust or Special Fund receipts related to exchange in the entity's                           0                  0
           budget (-)
           Other (+/-)                                                                                        0                  0
        Total resources used to finance items not part of the Net Cost of
        Operations                                                                                     2,495,774             3,170
        Total resources used to finance the Net Cost of Operations                                $    2,666,211    $      173,607




                                                                                                                                      209



  The accompanying notes are an integral part of these financial statements. See note 1 and 22.
      Department of Defense
      Navy Working Capital Fund
      COMBINING STATEMENT OF FINANCING
      As of September 30, 2002 and 2001
      ($ in thousands)




      Components of the Net Cost of Operations that will not Require or                 Restated 2001        2001
      Generate Resources in the Current Period:                                         Combined Total   Combined Total
      Components Requiring or Generating Resources in Future Periods:
         Increase in annual leave liability                                             $           0     $           0
         Increase in environmental and disposal liability                                           0                 0
         Upward/Downward reestimates of credit subsidy expense                                      0                 0
         Increase in exchange revenue receivable from the public (-)                                0                 0
         Other (+/-)                                                                          149,042           149,042
         Total components of Net Cost of Operations that will require or
         generate resources in future periods                                                 149,042           149,042

      Components not Requiring or Generating Resources:
         Depreciation and amortization                                                        210,671           210,671
         Revaluation of assets and liabilities (+/-)                                        1,114,926         1,114,926
         Other (+/-)                                                                                0                 0
         Total components of Net Cost of Operations that will not require or generate
         resources                                                                      $   1,325,597     $   1,325,597
         Total components of Net Cost of Operations that will not require
         or generate resources in the current period                                    $   1,474,639     $   1,474,639
         Net Cost of Operations                                                         $   4,140,850     $   1,648,246




       The accompanying notes are an integral part of these financial statements. See note 1 and 22.

210
Department of the Navy

                    WORKING CAPITAL FUND
   REQUIRED     SUPPLEMENTARY INFORMATION




                                            211
      N AVY WORKING CAPITAL FUND
      GENERAL PROPERT Y, PLANT, AND EQUIPMENT
      Real Property Defer red Annual Sustainment and Restoration Tables
      As of September 30, 2002
      ($ in Millions)


        Annual Sustainment FY 2002
                                                             Required          Actual         Difference
        Navy
        Marine Corps
        Building, Structures, and Utilities                   306.9            306.9               0

        Annual Deferred Sustainment Trend
                                                             FY 2000         FY 2001           FY 2002
        Navy
        Marine Corps
        Building, Structures, and Utilities                      -               72                0

        Restoration and Modernization Requirements
                                              End FY 2001                  End FY 2002          Change
        Navy
        Marine Corps
        Building, Structures, and Utilities        -                             -                 -



      Narrative Statement:

      In FY 2002, Navy Working Capital Fund (NWCF) facilities transitioned to the Office of the Secretary of
      Defense’s Facility Sustainment Model for calculating deferred sustainment and restoration. FY 2001 facility
      investments were programmed, budgeted, and executed before application of the Facility Sustainment
      Model. Therefore, the fluctuations between FY 2001 data and FY 2002 data are attributable to the revised
      reporting methodology.

      The quality of data used in the Facility Sustainment Model continued to undergo quality checks in FY 2002,
      resulting in a more accurate accounting of deferred sustainment requirements.

      Presently, a separate breakout between Navy and Marine Corps sustainment amounts cannot be provided.
      Due to this limitation, information in the Real Property Deferred Annual Sustainment and Restoration Tables
      are presented in total for the Department of the Navy (DON).

      The Facility Sustainment Model calculates facility sustainment investment based on DON property inventory,
      facility type, key units of measure, geographic location and industry standards. These variables are
      constantly being examined to reduce errors and eliminate disconnects for unique DON facility requirements.

      The NWCF has no material amounts of deferred sustainment for the General Property, Plant, and Equipment
      category of Personal Property.




212
Required Supplementary Information




                                     213
214
Required Supplementary Information




                                     215
Department of the Navy

          NAVY WORKING CAPITAL FUND
      OTHER ACCOMPANING INFORMATION




                                      217
      A P P R O P R I ATIONS, FUNDS, AND ACCOUNTS INCLUDED IN THE FINANCIAL
      S TAT E M E N T S

       Reporting Entity
       Navy Working Capital Fund

       Fund/Account Treasury Symbol and Title:
       97X4930 002

       Navy Working Capital Fund Activity Group Treasury Symbol and Title:
       97X4930.NA1*  Depot Maintenance-Shipyards
       97X4930.NA2*  Depot Maintenance-Aviation
       97X4930.NA4*  Depot Maintenance-Other (Marine Corps)
       97X4930.NA3*a Ordnance
       97X4930.ND*   Transportation
       97X4930.NE**  Base Support
       97X4930.NF**b Information Services
       97X4930.NH**  Research and Development
       97X4930.NC**  Supply Management

       Notes
       *   The “*” represents alpha or numeric characters which identify an activity or reporting segment of the activity
           group.

       a   The Ordnance activity group became a part of the DON General Fund in FY 2000. The Ordnance information
           included in this report represents residual NWCF accounting for this group.

       b   The Information Services activity group was dissolved at the end of FY 2001. The Information Services information
           included in this report represents residual NWCF accounting for this group.




218
Department of the Navy

                         AUDIT OPINIONS




                                          219
220
General Fund Audit Opinion




                             221
222
General Fund Audit Opinion




                             223
224
Working Capital Fund Audit Opinion




                                     225
226
Working Capital Fund Audit Opinion




                                     227
228
Working Capital Fund Audit Opinion




                                     229
